APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court of
Appeals for the Sixth Circuit
(May 14, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order of the United
States District Court for the Middle
District of Tennessee
(March 16, 2015) . . . . . . . . . . . . App. 101
Appendix C Opinion of the Tennessee Court of
Criminal Appeals
(July 14, 2004) . . . . . . . . . . . . . App. 377
Appendix D Findings of Fact and Conclusions of
Law of the Circuit Court of the 23rd
Judicial District, Cheatham County,
Tennessee
(May 9, 2002) . . . . . . . . . . . . . . App. 465

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0273n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 15-5384
[Filed: May 14, 2020]
___________________________________
ANTHONY DARRELL
)
DUGGARD HINES,
)
)
Petitioner-Appellant,
)
)
v.
)
)
TONY MAYS,
)
)
Respondent-Appellee.
)
___________________________________ )
ON APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE
MIDDLE DISTRICT OF TENNESSEE
BEFORE: COLE, Chief Judge; KETHLEDGE and
WHITE, Circuit Judges.
PER CURIAM. Petitioner-Appellant Anthony
Darrell Dugard Hines, a Tennessee death-row inmate,

App. 2
appeals from the district court’s order denying his
petition for a writ of habeas corpus filed under 28
U.S.C. § 2254. Because trial counsel were
constitutionally ineffective for failing to investigate a
crucial witness, and the state court’s determination
otherwise was an unreasonable application of the
clearly established law of Strickland v. Washington,
466 U.S. 668 (1984), we REVERSE.
STATE COURT PROCEEDINGS
In 1986, a jury convicted Hines of first-degree
murder and found three aggravating circumstances:
(1) Hines was previously convicted of one or more
felonies, other than the present charge, which involved
the use or threat of violence to the person; (2) the
murder was especially heinous, atrocious, or cruel in
that it involved torture or depravity of mind; and
(3) the murder was committed while Hines was
engaged in committing, or was an accomplice in the
commission of, or was attempting to commit, or was
fleeing after committing or attempting to commit, any
rape, robbery, or larceny. See Tenn. Code Ann.
§ 39-2-203(i)(2),(5),(7) (1982) (repealed). Hines was
sentenced to death.
On direct appeal, the Supreme Court of Tennessee
affirmed the conviction, but remanded the case for a
new sentencing hearing. State v. Hines, 758 S.W.2d
515, 524 (Tenn. 1988). The Supreme Court set forth the
following facts:
Between 1:00 and 1:30 p.m. on 3 March 1985 the
body of Katherine Jean Jenkins was discovered
wrapped in a sheet in Room 21 of the CeBon

App. 3
Motel off Interstate 40 at Kingston Springs. The
victim was a maid at the motel and had been in
the process of cleaning the room when she was
killed. Her outer clothing had been pulled up to
her breasts. Her panties had been cut or torn in
two pieces and were found in another area of the
room. A $20 bill had been placed under the wrist
band of her watch.
The cause of death was multiple stab wounds to
the chest. Four deep, penetrating wounds,
ranging from 2.5 inches to 6.4 inches in depth,
had been inflicted about the victim’s chest with
a knife similar to a butcher knife or a hunting
knife. Other superficial cuts were found in the
area of the neck and clavicle. There was also a
knife wound which penetrated through the
upper portion of the vagina into the mesentery
in the lower part of the abdominal cavity. Dr.
Charles Harlan who performed the autopsy on
the victim’s body testified that in view of the
small amount of blood in the vaginal vault it was
his opinion the wound occurred at or about the
time of death. The victim also had what he
described as “defensive wounds” on her hands
and arms.
Jenkins had been left in charge of the motel at
about 9:30 a.m. At that time the occupants of
Rooms 9, 21 and 24 had not yet checked out.
When the manager left her in charge she was
given a Cheatham County State Bank bag
containing $100 in small bills to make change
for motel guests as they paid. The bank bag,

App. 4
bloody and empty, was discovered in the room
with her body. It was her established habit to
lock her automobile at all times and to keep her
keys and billfold on her person when she
worked. Her car keys, billfold and her 1980
silver-colored Volvo were missing.
On 1 March 1985 defendant had departed by bus
from Raleigh, North Carolina. He had been
given a non-refundable ticket to Bowling Green,
Kentucky and $20 in spending money. The
traveling time from Raleigh, North Carolina to
Nashville, Tennessee was approximately 17
hours. Prior to his departure he was observed by
a witness to be carrying a hunting knife in a
sheath which was concealed beneath his shirt.
The witness admonished him that he could not
carry a knife like that on the bus to which he
responded “I never go anywhere naked.” “I
always have my blade.” Sometime in the early
morning hours of 3 March 1985 he checked in
and was assigned to Room 9 at the CeBon Motel.
He was wearing a green army-type fatigue
jacket, fatigue pants and boots. He was next
seen at approximately 9:30 a.m. walking in a
direction from his room toward a drink machine.
At that time he told the manager he was not yet
ready to check out. He was also seen sometime
prior to 9:30 purchasing a sandwich at a
deli-restaurant across the street from the motel.
The same witness who saw defendant also saw
another stranger there somewhere between 1:30
and 2:30 who she described as taller than
defendant with dark hair, kinky looking and

App. 5
wild-eyed. He departed the restaurant in the
general direction of the CeBon Motel. The
C[hea]tham County Sheriff testified that he
responded to a call to the CeBon Motel at 2:37
p.m. When he arrived on the scene blood spots in
the room were beginning to dry and the body
was beginning to stiffen. Defendant was seen
between 11:00 and 11:30 a.m. walking from the
direction of the Interstate toward the CeBon
Motel. At 12:40 p.m. a witness saw the victim’s
Volvo automobile pulling out from the CeBon
Motel driveway. It was being operated by a
person who appeared to be a man with very
short, light colored hair. The vehicle crossed over
the Interstate and turned east on Interstate 40.
She followed behind and endeavored to catch up
but it sped off toward Nashville at a high rate of
speed. Defendant was next identified in
possession of the car a few miles past Gallatin
on Interstate 65, heading in the direction of
Bowling Green, Kentucky. A group of young
people first endeavored to help him start the
stalled automobile and then gave him a ride to
Bowling Green.
During the trip to Bowling Green one of these
witnesses observed some dried blood on the right
shoulder of his shirt. He carried a jacket which
he kept folded. After he arrived at his sister’s
home in Bowling Green defendant told her he
had endeavored to pay another day’s rent at a
motel when he was attacked by the motel
operator. He demonstrated to her how he had
stabbed the man. He also related to her he had

App. 6
a sum of money. She could not remember
whether he said $35,000 or $3,500. Defendant
also told his sister’s husband he had earned
approximately $7,000 working as a mechanic in
North Carolina. He displayed a set of keys to a
Volvo automobile and explained that a man who
had given him a ride attempted to rob him.
Defendant purportedly grabbed the steering
wheel and when the car ran off the road he
grabbed the keys and ran. According to the
witness he was wearing an army fatigue jacket
which had something large, heavy and bulky in
the pocket. The witness had previously seen
defendant with a survival knife with a 6 ½ to 7
inch blade hanging from his belt.
When defendant was taken into custody he
volunteered the statement that he had taken the
woman’s car but had not killed her. According to
the arresting officer he had not advised the
defendant that a woman had been killed prior to
the volunteered statement. There was evidence
however that defendant was aware he had been
charged in Tennessee on a murder warrant. The
victim’s wallet was found wrapped in a thermal
underwear shirt a short distance from where her
car was found abandoned. The key to Room 9 of
the CeBon Motel was found at the site where
defendant had been camping out near Cave City,
Kentucky. When asked by a [Tennessee Bureau
of Investigation (“TBI”)] agent to tell the truth
about the death of Katherine Jenkins defendant
stated that if the officer could guarantee him the
death penalty he would confess and tell him all

App. 7
about the murder and that he could tell him
everything he wanted to know if he was of a
mind to. There were marks on the wall of Room
9 at the CeBon Motel apparently made by
someone stabbing a knife into the wall. When
shown photographs of the marks on the wall
defendant responded that they were knife
marks. These marks were obviously made by a
knife larger than [the] two taken from defendant
at the time of his arrest.
Id. at 517–19. In 1989, the trial court conducted a new
sentencing hearing, and the jury found the same three
aggravating factors. Hines was again sentenced to
death, and the Tennessee Supreme Court affirmed the
sentence. State v. Hines, 919 S.W.2d 573, 584 (Tenn.
1995).
In March 1997, Hines sought post-conviction relief.
The trial court held evidentiary hearings and denied
relief. The Tennessee Court of Criminal Appeals
affirmed the decision. Hines State, No.
M2002-01352-CCA-R3-PD, 2004 WL 112876, at *39
(Tenn. Crim. App. Jan. 23, 2004). In June 2004, the
Tennessee Supreme Court granted Hines’s application
to appeal and remanded the case to the court of
criminal appeals to reconsider its determination that
the trial court submitted an incorrect version of the
aggravating circumstance in Tenn. Code Ann. § 39-2203(i)(5) to the jury. On remand, the court of criminal
appeals held that the (i)(5) aggravating circumstance
instruction had been proper and again denied relief.
Hines v. State, No. M2004-01610-CCA-RM-PD, 2004

App. 8
WL 1567120, at *1 (Tenn. Crim. App. July 14, 2004).
The Tennessee Supreme Court denied leave to appeal.
Hines’s second post-conviction petition seeking
funds and authorization to conduct DNA testing was
unsuccessful. Hines v. State, No. M2006-02447-CCAR3-PC, 2008 WL 271941, at *1 (Tenn. Crim. App. Jan.
29, 2008). The Tennessee Supreme Court denied leave
to appeal.
FEDERAL COURT PROCEEDINGS
In January 2005, Hines filed a pro se petition for a
writ of habeas corpus in the district court. After Hines
received appointed counsel, he filed an amended
petition in June 2005. One month later, Hines filed
another amended petition in which he asserted
thirty-one claims of constitutional error. The warden
filed a response. In September 2005, Hines filed a
motion to conduct discovery. In November 2005, the
district court held the case in abeyance to allow Hines
to pursue state-court remedies under Tennessee’s
Post-Conviction DNA Analysis Act of 2001. Hines’s
petition for DNA testing was ultimately denied, and
the denial was affirmed on appeal. Hines v. State,
M2006-02447-CCA-R3-PC, 2008 WL 271941, at *8
(Tenn. Crim. App. Jan. 29, 2008), perm. app. denied
(Tenn. Dec. 8, 2008).
The federal case resumed in February 2009. In
October 2010, the district court granted Hines
permission to conduct DNA testing. In February 2013,
the district court held the case in abeyance pending the
issuance of Trevino v. Thaler, 569 U.S. 413 (2013), in
light of the Supreme Court’s decision in Martinez v.

App. 9
Ryan, 566 U.S. 1 (2012). In May 2014, the warden filed
a motion for summary judgment. After holding an
evidentiary hearing, the district court granted the
warden’s motion and denied Hines’s petition. The
district court certified for appeal all claims related to
the death sentence. Following a remand for
reconsideration of its certified claims under Slack v.
McDaniel, 529 U.S. 473 (2000), the district court
narrowed the scope of the claims certified for appeal.
We expanded the certification.
STANDARD OF REVIEW
The district court’s denial of a habeas petition is
reviewed de novo. Adams v. Bradshaw, 826 F.3d 306,
309 (6th Cir. 2016), cert. denied, 137 S. Ct. 814 (2017).
The district court’s findings of fact are reviewed for
clear error, and its legal conclusions on mixed
questions of law and fact are reviewed de novo. Id. at
309–10. Hines’s petition was filed in January 2005 and
is subject to the requirements of the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA). Id. at
310. Under AEDPA, a writ shall not be granted unless
the state court’s adjudication of the claim:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.

App. 10
28 U.S.C. § 2254(d). Relief may be granted under the
“contrary to” clause “if the state court arrives at a
conclusion opposite to that reached by th[e Supreme]
Court on a question of law or if the state court decides
a case differently than th[e Supreme] Court has on a
set of materially indistinguishable facts.” Williams v.
Taylor, 529 U.S. 362, 412–13 (2000). Relief may be
granted under the “unreasonable application” clause “if
the state court identifies the correct governing legal
principle from th[e Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the
prisoner’s case.” Id. at 413. Hines “has the burden of
rebutting, by clear and convincing evidence, the
presumption that the state court’s factual findings
were correct.” Henley v. Bell, 487 F.3d 379, 384 (6th
Cir. 2007) (citing 28 U.S.C. § 2254(e)(1)).
DISCUSSION
The following claims were certified for appeal:
(1) whether Hines was entitled to an evidentiary
hearing concerning (a) DNA and fingerprint evidence
that would have supported an actual innocence claim
to overcome a procedural bar, and (b) declarations by
Hines’s trial and post-conviction counsel concerning
their omissions; (2) whether trial counsel were
ineffective for failing to: (a) challenge the jury panel as
to the underrepresentation of women, (b) make a
closing argument at the resentencing hearing,
(c) challenge the underrepresentation of women on the
petit and grand juries, present evidence of Hines’s
personal history as well as his alcohol and drug abuse,
and object to the prosecution’s failure to provide notice
of aggravating circumstances, (d) interview and

App. 11
conduct an effective cross-examination of Ken Jones,
(e) investigate and present evidence of residual doubt,
(f) challenge Dr. Charles Harlan’s testimony, and
(g) challenge the imposition of the death penalty as
arbitrary and unconstitutional because the trial judge
rejected a plea agreement which would have resulted
in a life sentence; and (3) the prosecution withheld
exculpatory evidence and elicited false testimony in
violation of Brady v. Maryland, 373 U.S. 83 (1963), and
Giglio v. United States, 405 U.S. 150 (1972). On appeal,
Hines does not address his claims of trial counsel
ineffectiveness for failing to make a closing argument
at the resentencing hearing and to object to the
prosecution’s failure to provide notice of aggravating
factors. Hines has thus waived those claims. Elzy v.
United States, 205 F.3d 882, 886 (6th Cir. 2000).
For the reasons described below, we hold that trial
counsel were ineffective for failure to interview and
conduct an effective cross-examination of Ken Jones,
and for the related failure to investigate and present
evidence of residual doubt in relation to Ken Jones at
the penalty phase of the trial. The state court’s
contrary ruling was an “unreasonable application of . . .
clearly established Federal law, as determined by the
Supreme Court of the United States” in Strickland v.
Washington, 466 U.S. 668 (1984), and we thus reverse
the district court’s denial of Hines’s petition for a writ
of habeas corpus. 28 U.S.C. § 2254(d)(1). Before
discussing this meritorious claim, we explain below
why we reject Hines’s other claims of error.

App. 12
I.

Whether Hines’s claim that trial counsel
were ineffective for failing to investigate
and conduct forensic testing warranted an
evidentiary hearing.

Hines’s habeas petition asserted the ineffective
assistance of trial counsel (IATC) arising from trial
counsel’s failure to investigate and conduct forensic
testing of various pieces of evidence. Hines now argues
that he was entitled to an evidentiary hearing on this
IATC claim because the evidence demonstrated his
actual innocence. Acknowledging that this IATC claim
is procedurally defaulted, Hines argues that a showing
of either actual innocence or the ineffective assistance
of post-conviction counsel can overcome this default.
The district court’s decision not to hold an
evidentiary hearing is reviewed for an abuse of
discretion. Hodges v. Colson, 727 F.3d 517, 541 (6th
Cir. 2013) (citations omitted). No evidentiary hearing
is required “if the record refutes the applicant’s factual
allegations or otherwise precludes habeas relief.”
Schriro v. Landrigan, 550 U.S. 465, 474 (2007).
The district court held the habeas proceedings in
abeyance and permitted Hines to exhaust state-court
remedies concerning the DNA testing of certain
evidence. In state court, Hines filed a successive
post-conviction petition seeking to subject the following
evidence to DNA testing: Jenkins’s underwear;
Jenkins’s dress; Jenkins’s slip; a bloody bank bag; a
cigarette butt from Room 21; a twenty-dollar bill that
was found on Jenkins; and a plastic spray bottle found
in Room 21. Hines, 2008 WL 271941, at *3. The trial

App. 13
court denied the petition and that decision was
affirmed on appeal. Id. at *6–8.
When the habeas proceedings resumed, the district
court granted Hines discovery and permitted DNA
testing of the same evidence. Test results revealed that
a section of Jenkins’s underwear contained “a mixture
of DNA from at least three individuals.” (R. 124-1, PID
1349.) The results further clarified that the sample
contained genetic material from “at least two male
individuals,” and that Hines was excluded as a
contributor. (Id.) The district court did not hold an
evidentiary hearing on this matter because Jenkins’s
murder was not committed in the context of sexual
assault. (R. 145, PID 2310 (“If this murder involved
sexual intercourse, the Court would be inclined to
agree with Petitioner about this DNA evidence
warranting an evidentiary hearing. Yet, the victim’s
death was caused by multiple and deep knife wounds
to her chest area including her heart, lungs[,] and
diaphragm.”).) The district court concluded that the
IATC claim was procedurally defaulted because it was
not raised in state court and, alternatively, lacked
merit.
Hines concedes that this IATC claim is procedurally
defaulted. Review of this claim is thus barred “unless
the prisoner can demonstrate cause for the default and
actual prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of
justice.” Coleman v. Thompson, 501 U.S. 722, 750
(1991).
“[I]n an extraordinary case, where a
constitutional violation has probably resulted in the

App. 14
conviction of one who is actually innocent, a federal
habeas court may grant the writ even in the absence of
a showing of cause for the procedural default.” Murray
v. Carrier, 477 U.S. 478, 496 (1986). To successfully
assert actual innocence, a petitioner “must show by
clear and convincing evidence that, but for a
constitutional error, no reasonable juror would have
found the petitioner eligible for the death penalty
under the applicable state law.” Sawyer v. Whitley, 505
U.S. 333, 336 (1992). Because Hines’s IATC claim is
procedurally defaulted, the actual innocence claim “is
thus ‘not itself a constitutional claim, but instead a
gateway through which a habeas petitioner must pass
to have his otherwise barred constitutional claim
considered on the merits.’” Schlup v. Delo, 513 U.S.
298, 315 (1995) (quoting Herrera v. Collins, 506 U.S.
390, 404 (1993)). Hines must show that “it is more
likely than not” that “in light of the new evidence, no
juror, acting reasonably, would have voted to find him
guilty beyond a reasonable doubt.” Id. at 327–29.
To support his claim of actual innocence, Hines
characterizes his trial as one involving a sexual assault
and murder, and relies on House v. Bell, 547 U.S. 518
(2006), to underscore the importance of the DNA test
results.
In House, the petitioner Paul House was convicted
of the first-degree murder of Carolyn Muncey and
sentenced to death. Id. at 521. At trial, the prosecution
presented evidence suggesting that DNA material
found on Muncey’s nightgown and underwear belonged
to House, and that the blood found on House’s jeans
belonged to Muncey. Id. at 528–30. In closing

App. 15
arguments, the prosecution argued that House’s desire
to have sex with Muncey was a possible motive for the
crime. Id. at 531–32. House unsuccessfully filed two
state post-conviction petitions, the second of which
contained several IATC claims that were found to be
waived. Id. at 533–34. On habeas review, the district
court and this court held that House had not shown
actual innocence to overcome the default of his IATC
claims. Id. at 534–36 (citing House v. Bell, 386 F.3d 668
(6th Cir. 2004) (en banc)).
The Supreme Court disagreed. The Court noted that
subsequent testing revealed that Muncey’s nightgown
and underwear contained DNA from her husband
rather than from House, eliminating “the only forensic
evidence at the scene that would link House to the
murder.” Id. at 540–41. The Court observed that this
new information altered the prosecution’s theory of the
case: “When the only direct evidence of sexual assault
drops out of the case, so, too, does a central theme in
the State’s narrative linking House to the crime.” Id. at
541. Additional testing prompted one expert to opine
that the blood on House’s jeans “came from the autopsy
samples, not from Mrs. Muncey’s live (or recently
killed) body.” Id. at 543. The Court explained that the
prosecution’s efforts to discredit the expert’s opinion
were undermined by a police officer’s statement that he
saw “reddish brown stains” on House’s blue jeans and
that “[t]he pants were in fact extensively soiled with
mud and reddish stains, only small portions of which
are blood.” Id. at 547. Other evidence showed that
Muncey’s marriage had involved physical abuse and
that Muncey’s husband had purportedly confessed to
killing her. Id. at 549–50. The Court granted relief

App. 16
because “the central forensic proof connecting House to
the crime—the blood and the semen—has been called
into question, and House has put forward substantial
evidence pointing to a different suspect.” Id. at 554.
Hines also relies on Mills v. Barnard, 869 F.3d 473
(6th Cir. 2017). The plaintiff in Mills had been
convicted of rape of a child, aggravated sexual battery,
and casual exchange of a controlled substance. Id. at
478. The primary evidence in support of his conviction
was the victim’s statement that she had engaged in
sexual intercourse with Mills and corroborating DNA
evidence suggesting that Mills was a possible source of
a DNA sample. Id. On habeas review, Mills presented
new DNA analysis that directly contradicted the state’s
inconclusive evidence and excluded Mills as a
contributor of the DNA. Id. at 478–79. The Tennessee
Court of Criminal Appeals overturned all of Mills’
convictions, finding that the DNA evidence called into
question the victim’s statement. Id.
Here, unlike in House and Mills, DNA evidence was
not used to establish Hines’s guilt. At trial, Sheriff
Weakley testified that Room 21 did not contain Hines’s
blood or fingerprints and that Jenkins’s blood was not
found on Hines’s clothing. At the 1989 resentencing
hearing, the medical examiner, Dr. Harlan, testified
that “[a] visual inspection [of Jenkins] was performed.
Since there was no material that was indicative of
semen, no scientific or laboratory study was performed,
since there was no such material to evaluate.” (R.
173-9, PID 4737.) He confirmed that he did not see any
visual indication that a sexual assault had occurred.
When asked whether that precluded a “penile sexual

App. 17
assault,” Dr. Harlan answered: “Not necessarily. It
means that there is no semen present, so there was no
ejaculation.” (Id. at PID 4740.) In closing argument at
Hines’s resentencing, the prosecutor mentioned the
injury to Jenkins’s vagina, but did not describe the
injury as a sexually motivated crime; rather, the wound
was evidence of a “reprehensible,” “vile” act by “a
depraved mind.” (R. 173-11, PID 5029, 5032, 5037.)
Hines’s reliance on House and Mills is thus misplaced
because the new evidence does not undermine any
evidence central to his conviction.
Hines also submits that new fingerprint evidence
supports his actual-innocence claim. Max Jarrell, a
former fingerprint examiner for the Federal Bureau of
Investigation (FBI), declared that Hines’s fingerprints
did not match fingerprints found at the scene and on
the relevant evidence. As with the DNA evidence,
however, this does not demonstrate Hines’s actual
innocence. The prosecution did not rely on fingerprint
evidence to convict Hines, and the existence of other
people’s fingerprints at the scene does not undermine
any of the evidence that the prosecution presented at
trial.
The prosecution offered the following evidence at
trial. Sheriff Weakley testified that Hines confessed to
stealing Jenkins’s car, which had the keys in it, and
left the motel at either 8:30 or 9:00 a.m. on Sunday.
Jenkins’s husband testified that Jenkins locked her car
“religiously” and used a key ring emblazoned with the
words “I love my Volvo,” with a heart symbol in the
place of “love.” (R. 173-1, PID 3826–28.) Gay Doyle,
who managed the CeBon Motel, testified that Jenkins

App. 18
“always locked her car” and “always kept [her keys] in
her pocket with her.” (Id. at PID 3850–52.) Doyle
testified that she saw Hines walking from his room to
a vending machine when she was leaving the motel
“[b]etween 9:25 and 9:30.” (Id. at PID 3849.) Penny
Rust, who worked with Jenkins on a part-time basis,
testified that she saw Jenkins’s car leave the motel at
12:40 p.m. on Sunday; though she could not determine
the driver’s gender, she knew that Jenkins was not
driving because she “would never drive [that] fast.” (R.
173-2, PID 3883–84.)
Daniel Blair testified that he and his friends were
driving to Bowling Green, Kentucky when they saw
Hines stranded on the side of the road in a silver car
that had overheated. After looking for water for thirty
to forty-five minutes, Blair and his friends gave Hines
a ride to Bowling Green, where Hines’s sister lived.
This journey lasted “around an hour.” (Id. at PID
3908.) Hines told Blair that he had purchased the car
from an “old lady” for “three or four hundred dollars.”
(Id. at PID 3910–11.) Blair noticed that Hines had a
key attached to a “black thing” that had a “9” on it. (Id.
at PID 3913–14.) Blair and his friends dropped Hines
off at “3:00 or 4:00 o’clock.” (Id.)
Victoria Daniel, Hines’s sister, testified that Hines
was in her home when she arrived there between two
o’clock and five o’clock on Sunday afternoon. Daniel
testified that Hines told her that he was attacked when
he attempted to pay rent for another night at a motel
but “got [the attacker] in the side, you know, and in the
chest” with a knife. (R. 173-2, PID 3966–68.) Daniel
noticed that Hines had “something reddish” on his

App. 19
t-shirt, which she described “as blood at first.” (Id. at
PID 3974.) She also saw Hines with a key ring that had
the words “I love Volvo” on it. (Id. at PID 3975.)
Robert Daniel, Hines’s brother-in-law, testified that
he noticed that Hines had an “I love Volvo” key chain.
Hines explained that he grabbed the key chain from
the car’s ignition after a man who had picked him up
tried to rob him.
Hines has not established that it is more likely than
not that no reasonable juror would have convicted him
in light of the new forensic evidence. See Schlup, 513
U.S. at 327. Although a “petitioner’s showing of
innocence is not insufficient solely because the trial
record contained sufficient evidence to support the
jury’s verdict,” id. at 331, the lack of Hines’s DNA on
Jenkins’s underwear and the failure to find his
fingerprints on various items in the hotel does not
contradict the evidence presented by the prosecution at
trial. As such, Hines cannot satisfy his burden. Cf.
Souter v. Jones, 395 F.3d 577, 596–97 (6th Cir. 2005)
(finding that petitioner established actual innocence by
presenting new evidence that diminished impact of
trial evidence linking petitioner to commission of
crime).
Alternatively, Hines argues that the ineffectiveness
of counsel for failing to raise the IATC claim on
post-conviction review can overcome the procedural
bar. In Martinez, the Supreme Court held that a
successful claim asserting the ineffective assistance of
post-conviction counsel could excuse the procedural
default of an IATC claim if the IATC claim could only
be raised on collateral review:

App. 20
Where, under state law, claims of ineffective
assistance of trial counsel must be raised in an
initial-review collateral proceeding, a procedural
default will not bar a federal habeas court from
hearing a substantial claim of ineffective
assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.
566 U.S. at 17. The Martinez rule was expanded to
incorporate jurisdictions in which the “procedural
framework, by reason of its design and operation,
makes it highly unlikely in a typical case that a
defendant will have a meaningful opportunity to raise
a claim of ineffective assistance of trial counsel on
direct appeal.” Trevino, 569 U.S. at 429. The Martinez
rule applies to Tennessee. See Sutton v. Carpenter, 745
F.3d 787, 795–96 (6th Cir. 2014). As such, Hines must
show both that post-conviction counsel was ineffective
and that the IATC claim “is a substantial one, which is
to say that the prisoner must demonstrate that the
claim has some merit.” Martinez, 566 U.S. at 14.
A successful claim of counsel ineffectiveness
requires a showing that counsel’s performance was
deficient and that the deficient performance prejudiced
the defense. Strickland v. Washington, 466 U.S. 668,
687 (1984). Deficient performance occurs when counsel
makes “errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant
by the Sixth Amendment.” Id. Prejudice occurs when
counsel’s errors are “so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.” Id.

App. 21
In support, Hines relies on a declaration by his
post-conviction counsel, Donald E. Dawson, who stated
in relevant part:
Though the post-conviction petition raised a
general claim that counsel was ineffective for
failing to properly obtain and examine the
physical evidence at the original trial, our office
never presented any evidence in support of such
a claim at the evidentiary hearing. We did not
raise a similar claim related to the resentencing
hearing. We never secured the physical evidence
or otherwise employed forensic experts (such as
fingerprint or serology experts) to assist us in
the investigation of the physical evidence and
claims relating to counsel’s ineffectiveness for
failing to obtain, examine, and/or test the
physical evidence. We had no tactical reason for
not doing so.
(R. 124-10, PID 1385.) Assuming deficient performance
arising from post-conviction counsel’s failure to retain
expert assistance or pursue forensic testing, Hines
cannot show prejudice. As discussed, it is not likely
that the new DNA evidence would not have produced
a different result at trial, and any errors by trial
counsel related to the forensic evidence were not so
serious as to deprive Hines of a fair trial. As such,
Hines cannot overcome the default of the IATC claim.
Nor has Hines shown that the district court abused its
discretion by denying him an evidentiary hearing.

App. 22
II.

Whether trial counsel were ineffective for
failing to challenge systematic
underrepresentation of women on venires
and as grand-jury forepersons in Cheatham
County.

Hines next contends that trial counsel were
ineffective because they did not challenge the
systematic underrepresentation of women on the
venires in Cheatham County, Tennessee, or the
systematic exclusion of women from serving as a grand
jury foreperson in Cheatham County. The warden
argues that the state court’s resolution of the former
claim was not an unreasonable application of Supreme
Court precedent. As to the latter claim, the warden
argues that the claim is procedurally defaulted.
Hines must show that trial counsel performed
deficiently, that is, “made errors so serious that counsel
was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Strickland, 466
U.S. at 687. In so doing, Hines “must overcome the
presumption that, under the circumstances, the
challenged action ‘might be considered sound trial
strategy.’” Id. at 689 (quoting Michel v. Louisiana, 350
U.S. 91, 101 (1955)). Second, Hines must show that the
deficient performance resulted in prejudice, meaning,
“counsel’s errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.” Id. at 687.
Hines argues that trial counsel should have
challenged the underrepresentation of women on the
venires. Under the Sixth Amendment, a criminal
defendant is guaranteed the right to be tried by a jury

App. 23
selected from a fair cross-section of the community.
Taylor v. Louisiana, 419 U.S. 522, 537 (1975). A prima
facie showing of the denial of this right requires a
defendant to show:
(1) that the group alleged to be excluded is a
‘distinctive’ group in the community; (2) that the
representation of this group in venires from
which juries are selected is not fair and
reasonable in relation to the number of such
persons in the community; and (3) that this
underrepresentation is due to systematic
exclusion of the group in the jury-selection
process.
Duren v. Missouri, 439 U.S. 357, 364 (1979). Notably,
“neither Duren nor any other decision of th[e Supreme]
Court specifies the method or test courts must use to
measure the representation of distinctive groups in
jury pools.” Berghuis v. Smith, 559 U.S. 314, 329
(2010). Nevertheless, if the defendant makes the prima
facie showing, then “it is the State that bears the
burden of justifying this infringement by showing
attainment of a fair cross section to be incompatible
with a significant state interest.” Duren, 439 U.S. at
368.
Hines correctly identifies women as a distinctive
group within a community. See id. at 364 (citing
Taylor, 419 U.S. at 531); Ford v. Seabold, 841 F.2d 677,
681 (6th Cir. 1988). Thus, Hines has satisfied the first
prong.
To satisfy the second prong, Hines refers to the
Tennessee Court of Criminal Appeals’ opinion

App. 24
concerning the disparity between the percentage of
women living in Cheatham County and the percentage
of women who have comprised the venires:
Based upon the report of Dr. James O’Reilly
which provided that the percentage of women in
Cheatham County between 1979 and 1990 was
50.6 to 50.7% of the population, but the
percentage of women in the Cheatham County
jury venire for that same time period was
between 10 and 22%, the State conceded that
the first two prongs of the Duren test had been
satisfied.
Hines, 2004 WL 1567120, at *34. The warden does not
discuss the first or second prongs of the Duren test on
appeal.
The issue then is whether Hines has established a
systematic exclusion of women from the jury selection
process. Unlike in Taylor and Duren, Hines does not
argue that statutory provisions form the basis of the
exclusion.1 Rather, he relies on testimony offered
during the initial post-conviction proceedings to
support this claim.
Jennie Delores Harris Moulton, who worked in the
clerk’s office of the Cheatham County circuit court
1

In Taylor, the petitioner pointed to a Louisiana statute that
automatically excluded all women from the jury-selection process
unless they had previously filed a written declaration of their
desire to serve. 419 U.S. at 523–24. Likewise, in Duren, Missouri
law established an automatic exemption from jury service for
women who either requested not to serve or failed to report for
service. 439 U.S. at 361, 361 n.11, 368.

App. 25
during Hines’s trials, testified about the procedure for
selecting a venire. A judge appointed three individuals
as jury commissioners who would meet with the court
clerk “each month to draw out names to get a panel of
jurors for the next upcoming court.” (R. 174-2, PID
5354.) This was called the “sheriff’s voir dire.” (Id. at
PID 5355.) The sheriff served summons for those
individuals, who, when they appeared, were placed on
“a jury list.” (Id.) “The judge, at that time, drew out a
panel for the grand jury” and “the petit jury—the trial
jury.” (Id.)
The first step of the process involved “charging the
jury box,” which, as Moulton explained, meant that
“they gather new names and all and put [the names]
back into the box,” a procedure that occurred every two
years “unless the box is getting low and you need to do
it more than that.” (Id. at PID 5357.) Moulton
explained that the jury commissioners obtained the
names for the box from “the voter registration list,
because we had more access to it. And they would go
randomly, maybe, every sixteenth one or twentieth one
down and write the name and address on a little jury
ticket.” (R. 174-2, PID 5357–58.) When charging the
box, each of the three jury commissioners worked from
a separate section of the County’s voter registration list
and would independently select names. Moulton
testified that to assemble the list that would become
the sheriff’s voir dire, either a child or a blindfolded
person would draw names from the box. Two men and
one woman served as the jury commissioners; Ms.
Adkisson, one of the commissioners, wrote down the
names as the other two commissioners called them out.

App. 26
Moulton testified that the jury commissioners tried
“to get good solvent jurors” and would remove a name
from consideration “if they knew at that time if there
was someone that was deceased or someone that was
real sick or in the hospital or if it was a student that
they knew was off to college somewhere, [or] someone
that maybe was in jail.” (Id. at PID 5368.) When the
selected person was a school teacher, the jury
commissioners “would pitch it back—or lay him over to
the side to put back into the box where they could—he
could serve maybe during the summer months . . .
when he’s not in school.” (Id. at PID 5368–69.) When
asked whether women with children were also
removed, Moulton replied: “Well, no, not all women
with children. But if they had just had a baby or
something and they knew it, yeah, you know,
they—they did.” (Id. at PID 5369.)
Moulton testified that once the jury commissioners
compiled a list of individuals, the list was given to the
sheriff, who prepared the jury summonses; the person
was either served or instructed by telephone to pick up
the summons, which contained the date for the
individual to appear for jury service. When those
summoned appeared in court, their information was
collected and they were assigned a number. A judge
then selected numbers from a box; the first twelve
individuals who had a corresponding number served on
the grand jury, and the remainder on the petit juries.
Moulton testified that the number of individuals
who appeared pursuant to the summonses varied.
Sheriff Weakley, who was sheriff during both of Hines’s
trials, would be given a list of 150 individuals to

App. 27
summon, but only a third or less would appear. By
contrast, under Sheriff Weakley’s successor,
approximately 75 to 80 percent would appear. There
was no discipline for individuals who failed to appear,
and no effort was made to understand why compliance
was low during Sheriff Weakley’s tenure. The
individuals who did appear were divided into petit
jurors and grand jurors.
When asked whether a conscious effort was made to
exclude women from jury service, Moulton’s response
was characterized as inaudible in the transcript.
Moulton denied that Black individuals were excluded
from jury service. Moulton was again asked whether
there was a conscious effort to exclude a particular
group of people, and she responded: “I don’t think it
was an intentional thing. But Ms. Martha Adkisson,
she didn’t like too many women on the jury . . . She
would say, [‘]Getting too many women, getting too
many women.[’]” (R. 174-2, PID 5383.) Moulton
expanded her answer:
[S]he would be writing [the names] down, she
would tell the guys, say, [“]We’re getting too
many women, getting too many women.[”] I
think they wanted to equal it out, but she had a
thing about putting too many women on the
jury. So when I wound up at one time, whenever
I was clerk—or even when Mr. Harris was—was
clerk—we wound up with a big box of women.
(Id.) When asked whether that circumstance was “an
attempt to equalize that,” Moulton responded: “Yes, sir.
I think it was just an attempt. It wasn’t being
like—[s]he didn’t have anything against women,

App. 28
because, naturally, she was one herself. But she, I
guess, probably wanted to equal out . . . the men and
the women.” (Id. at PID 5383–84.) Moulton added that
the commissioners “never discriminated [against]
anyone because of race, color, or nationality or men or
women or if they had a limp or one eye or whatever.”
(Id. at PID 5384.)
Lloyd Harris testified that he had “never—never
seen anyone” on the jury commission do something that
would prevent a group of people from serving on the
jury. (R. 174-3, PID 5417.) Harris denied hearing Ms.
Adkisson say that the jury list contained too many
women. Harris acknowledged, however, that some
judgments were made:
It was two men and Ms. Adkisson. She was a
school teacher and she done the writing down.
We’d have somebody draw them out of the box,
a small child or somebody blindfolded. They
would draw the names out and she would write
them down. And she’d come across one, maybe,
was a school teacher that she knew in the
county. And she’d say, [“]It’s going to be hard for
her to serve because she’s a school teacher.[”]
And back then, you couldn’t get nobody, you
know, to—fill in.
(Id.) Harris testified that Ms. Adkisson would “say,
[‘]We’ll get her this summer when school is out.[’]” (Id.
at PID 5417–18.) Harris explained that the same would
happen for a tobacco farmer during a harvest. When
asked whether the male commissioners would take
steps to prevent a group of people from serving on the
jury, Harris replied: “No, sir, I didn’t see nothing.” (Id.)

App. 29
Harris testified that he was with the commission
“[m]ost of the times,” and that his daughter, Moulton,
was there in his absence. (Id.)
When asked about women being excused from jury
service, Harris testified that “[i]t was easy for them to
get off” because “most of them had children at home
and had to take care of them. They didn’t have no
babysitter. That’s the number one thing.” (R. 174-3,
PID 5419.) Harris was asked whether he “observe[d]
whether the court seemed to be more inclined not to let
folks just be off jury duty just because they wanted to
be off jury duty?”; he responded: “I think so, yes, sir.”
(Id. at PID 5420.)
On re-direct examination, Harris was asked
whether Adkisson chose jurors, and he responded:
“Only times she’d ask them not to [be] put on there if it
was a school teacher or if it was a woman she knowed
(sic) that had a bunch of children, [and had] nobody to
stay with them[.]” (Id. at PID 5434–35.) Harris
testified that, because the commission met once or
twice a year during the school year, multiple possible
jurors may have been excluded per year. Harris
testified that, notwithstanding Adkisson’s possible
opinion regarding there being “too many women,” he
did not observe that opinion having any effect on the
way that names were chosen. (Id. at PID 5435.)
Hines relies on Duren v. Missouri to support this
claim. 439 U.S. 357 (1979). In Duren, there were two
opportunities for the systematic exclusion of women
from venires to occur: when the questionnaires were
sent to those randomly selected from the voter
registration list, they contained language stating that

App. 30
a woman could elect not to serve by indicating that
desire on the form and returning the questionnaire to
the jury commissioner; and (2) a woman’s failure to
respond to a summons was treated as a claimed
exemption, whereas other individuals had to do more
to benefit from an exemption. Id. at 361–62, 366–67.
Women comprised 54% of the Jackson County,
Missouri, population at the relevant time. Id. at 362.
Noting that “the percentage of the women at the final,
venire, stage (14.5%) was much lower than the
percentage of women who were summoned for service
(26.7%),” the Court concluded that the petitioner
“demonstrated that the underrepresentation of women
in the final pool of prospective jurors was due to the
operation of Missouri’s exemption criteria.” Id. at 367.
Hines fails to show an entitlement to habeas relief
on this ineffective-assistance-of-counsel claim with
regard to either his 1986 or 1989 trials. As to Hines’s
1986 trial, the Tennessee Court of Criminal Appeals
concluded that “[t]he record supports the
post-conviction court’s finding that Hines was not
prejudiced” by counsel’s failure to “challenge the 1986
venire.” Hines, 2004 WL 1567120, at *36. We cannot
say that the Tennessee court’s conclusion was an
unreasonable application of clearly established
Supreme Court precedent. See 28 U.S.C. § 2254(d).
Hines must show prejudice to succeed on his IATC
claim, even though the alleged underlying error was
structural in nature. See Ambrose v. Booker, 684 F.3d
638, 652 (6th Cir. 2012). To succeed on a
fair-cross-section theory in the context of his
ineffective-assistance claim, Hines must show that,
given the underrepresentation of women in the jury

App. 31
venire, there was a reasonable probability that “a
properly selected jury [would] have been less likely to
convict.” Id. at 652 (quoting Hollis v. Davis, 941 F.2d
1471, 1482 (11th Cir. 1991)); see also Garcia-Dorantes
v. Warren, 801 F.3d 584, 596–98 (6th Cir. 2015). Hines
has not shown a reasonable probability that the result
of his trial would have been different if the jury venire
more adequately represented the community,
particularly in light of the fact that three women
served on the petit jury.
Regarding Hines’s challenge to his 1989
resentencing jury, AEDPA also bars Hines’s relief
because the Tennessee Court of Criminal Appeals
reasonably determined that Hines “failed to show that
he was prejudiced” by 1989 counsel’s decision not to
challenge the venire. Hines, 2004 WL 1567120, at *36.
The Tennessee court’s decision was not an
unreasonable application of Strickland.
The same is true of Hines’s assertion that women
were systematically excluded from serving as the
foreperson of the grand jury. “[A] criminal defendant’s
right to equal protection of the laws has been denied
when he is indicted by a grand jury from which
members of a . . . group purposefully have been
excluded.” Rose v. Mitchell, 443 U.S. 545, 556 (1979).
To prevail, Hines must (1) identify a distinctive and
recognizable group, (2) determine the disparity
between the identified group and the proportion of the
group called to serve over a period of time, and
(3) establish that the selection procedure is not
gender-neutral. Id. at 565 (citing Castaneda v. Partida,
430 U.S. 482, 494 (1977)).

App. 32
Here, Moulton testified that the grand jury foreman
was selected and sworn in by the judge. The grand jury
foreman was appointed for two-year terms; Mouton
recalled that two men—Buddy Frazier and Billy
Ellis—were appointed repeatedly. Hines also provided
an affidavit from Gaye Nease, an investigator with the
Office of the Federal Public Defender, stating that no
woman had been chosen as a grand-jury foreperson
between 1919 and 1985, when Hines was indicted.
Again, Hines fails to show prejudice. We also note
that the grand jury foreperson’s duties and powers in
Cheatham County during this time appear to be merely
“ministerial,” and therefore do not present a risk of
prejudice. Hines, 2004 WL 1567120, at *36 n.3.
Contrary to the Supreme Court’s description of the role
of the Tennessee grand jury foreperson in Hobby v.
United States, 468 U.S. 339, 348 (1984), the relevant
state statute establishes that the foreperson has the
same voting power as any other grand juror, Tenn.
Code Ann. § 40-1506, and therefore does not have
“virtual veto power over the indictment process.”
Hobby, 468 U.S. at 348. Thus, Hines is not entitled to
relief on this claim.
III.

Whether
the
prosecution
withheld
exculpatory evidence and elicited false
testimony.

Next, Hines contends that he was denied due
process because the prosecutor (1) did not disclose
records indicating the existence of exculpatory DNA
evidence and (2) presented testimony that falsely
denied the existence of that evidence.

App. 33
Before trial, defense counsel was given a report
from the Tennessee Bureau of Investigation (TBI) that
stated that the medical examiner’s swabs “failed to
reveal the presence of spermatozoa.” (R. 175-6, PID
5790.) Post-conviction counsel later discovered some
handwritten “raw notes” from the TBI stating that the
swabs that had been sent to the TBI for testing had
molded. (Hines Br. at 20; R. 175-4, PID 5787.) The final
report did not disclose this fact. Hines now argues that
the TBI did not find an absence of spermatozoa on the
swabs. Rather, “the raw notes” reveal “no sperm was
seen microscopically (likely because of mold)” and “no
testing for semen was done on the swabs because of
their molded condition.” (Hines Br. at 20.) Thus, Hines
argues, the final report was misleading. Further,
because defense counsel was unaware that there might
have been spermatozoa present, they were unable to
explore the theory that the crime was committed by an
unknown assailant by conducting their own testing for
semen or DNA.
Hines also asserts that, had the raw notes been
disclosed at trial, defense counsel would have been
afforded an opportunity to impeach Dr. Harlan’s
testimony that there was “no material that was
indicative of semen” present. (R. 173-9, PID 4737.) 2
2

Hines also asserts that the prosecution presented false testimony
by Sheriff Weakley, but refers to a district court pleading in
support rather than present an argument in his brief. We thus
need not address this portion of the claim. See Northland Ins. v.
Stewart Title Guar. Co., 327 F.3d 448, 453 (6th Cir. 2003) (“[W]e
join the many circuits that have explicitly disallowed the
incorporation by reference into appellate briefs of documents and
pleadings filed in the district court.”).

App. 34
The warden responds that Hines cannot overcome
the procedural default of this claim.
Hines first raised this claim on habeas review,
asserting:
The prosecution also knowingly presented false
testimony from [Dr.] Harlan that there was no
evidence of semen and that there was no study
performed on any such evidence, and the
prosecution withheld evidence which
demonstrated the falsity of that testimony and
which was otherwise material to the jury’s guilt
and death verdicts, including proof of the results
of any such scientific or laboratory study
concerning the existence and nature of any
semen.
(R. 23, PID 112 ¶10(c)(3)). The district court conducted
an evidentiary hearing to address the Brady claim and
denied relief:
First, there is not any scientific evidence that
the mold was caused by the timing of the TBI
laboratory testing. The possibility of the mold
impacting any semen is speculative. There is not
any scientific proof that if Petitioner’s trial
counsel had seen the laboratory working papers
[the raw notes] about the molded swab that any
testing could have been conducted. As discussed
infra, Dr. Harlan’s trial testimony was based
upon his visual examination of the victim, not a
laboratory test. At Petitioner’s trial, a TBI
laboratory technician testified about the testing
of the victim’s swabs. To date, the proof remains

App. 35
that the several swabs taken from the victim did
not contain semen. Petitioner’s tying of the
inferences about another suspect was found by
the State courts to be “farfetched” and this Court
agrees. The cited suspect was not seen in the
area at the time of the murder and the witness
did not testify that this suspect, described as a
wild person, was going to the motel.
(R. 145, PID 2316–17.)
“[T]he suppression by the prosecution of evidence
favorable to an accused upon request violates due
process where the evidence is material either to guilt or
to punishment, irrespective of the good faith or bad
faith of the prosecution.” Brady, 373 U.S. at 87.
“[E]vidence is material only if there is a reasonable
probability that, had the evidence been disclosed to the
defense, the result of the proceeding would have been
different.” United States v. Bagley, 473 U.S. 667, 682
(1985). “A ‘reasonable probability’ is a probability
sufficient to undermine confidence in the outcome.” Id.
The Brady rule applies to both exculpatory and
impeachment evidence. Giglio, 405 U.S. at 154. The
omission of such evidence “must be evaluated in the
context of the entire record.” United States v. Agurs,
427 U.S. 97, 112 (1976).
At the guilt phase, Dr. Harlan testified that he
performed Jenkins’s autopsy on March 4, Jenkins
suffered a stab wound to her vaginal vault. It was the
final wound inflicted on Jenkins.
At the resentencing hearing, defense trial counsel
asked Dr. Harlan on cross-examination whether he

App. 36
conducted any tests to determine whether sperm was
present or a sexual assault had occurred, and he
responded: “A visual inspection was performed. Since
there was no material that was indicative of semen, no
scientific or laboratory study was performed, since
there was no such material to evaluate.” (R. 173-9, PID
4737.) Trial counsel then asked, “So you didn’t even
observe visually anything indicating any type of sexual
assault[,] is that right?”; Dr. Harlan responded, “That
is correct.” (Id.) The prosecution pursued this topic on
re-direct examination:
Q: Dr. Harlan, when you said there was no
evidence of sexual assault, you meant there was
no—what type of evidence did you mean?
A: I meant that there was no evidence of
ejaculation; that, there was no semen present.
Q: There would be no penile sexual assault,
then? Would that define it better?
A: Not necessarily. It means that there is no
semen present, so there was no ejaculation.
(Id. at PID 4740.)
In a deposition taken during the initial
post-conviction proceedings, Dr. Harlan explained that
an autopsy can determine whether sexual contact had
occurred but not sexual assault because “sexual assault
. . . has a legal connotation” related to whether there
was consent “that goes beyond whether there’s semen
present or not.” (R. 141-1, PID 2045–46.) He stated that
he would consider a stab wound to the vagina a
suspicious circumstance that would prompt him to

App. 37
examine for sexual contact during an autopsy. He
affirmed that he would use swabs if he saw no evidence
of sexual contact with the naked eye but suspected that
sexual contact had occurred. In this case, he sent swabs
to the TBI, but could not recall whether he examined
them. Dr. Harlan stated that he had not seen the TBI
report “until this date.” (Id. at PID 2060.)
When cross-examined, Dr. Harlan stated that
sending anal and vaginal swabs to the TBI was
standard practice. He added that he did not personally
test the swabs and did not have the facility to do so. He
denied that a visual inspection of Jenkins’s body led
him to believe that semen was present. He affirmed
that he prepared the swabs out of “an abundance of
caution.” (Id. at PID 2066.)
In the evidentiary hearing held by the district court,
Mike Turbeville, a forensic scientist supervisor at the
Forensic Biology Unit at the TBI Crime Lab in
Nashville, testified that Dr. Harlan’s office submitted
a form dated March 4, 1985, requesting toxicology
testing and a review of the vaginal and anal swabs
taken from Jenkins. Turbeville testified that a TBI
report dated July 5, 1985, stated that the
swabs—Exhibits No. 41A and 41B—“failed to reveal
the presence of spermatozoa.” (R. 142, PID 2080–81.)
At the hearing, Turbeville read aloud the raw notes’
description of Exhibit No. 41A, the vaginal swabs :
“Two swabs were molded when received. Numerous
RBS, that stands for reddish brown stains, on tubes
and—that second I can’t make out. I don’t know if it’s
slits or sheets. Micro, which is a microscopic exam,
July 1, 1985. Scattered epithelial cells, bacteria, yeast.

App. 38
No SP. No sperm.” (Id. at PID 2087 (quoting R. 175-4,
PID 5787).) Concerning the description of Exhibit No.
41B, the anal swabs, Turbeville quoted the notes as
saying: “Rectal swabs, quotes, Jenkins Catherine,
rectum, end quotes. Two swabs with RBS, reddish
brown stains, and fecal material. Micro, July 1, 1985.
Scattered debris, some epithelial cells, no sperm.” (Id.
at PID 2087 (quoting R. 175-4, PID 5787).) Turbeville
testified that the notes meant that testing to determine
the presence of semen had not occurred, but that the
final reports do not reflect this fact. Turbeville
acknowledged that it may have been “appropriate” for
the TBI report to indicate that no testing for semen had
occurred because the sample “was somewhat
compromised by mold.” (Id. at PID 2089–90.)
While this background demonstrates that
laboratory notes were not turned over to trial counsel,
Hines is not entitled to relief on his Brady claim
because he has not demonstrated that the undisclosed
notes are material. That is, Hines has not shown a
reasonable probability that, had the raw notes been
disclosed to the defense, the result of the proceeding
would have been different. See Bagley, 473 U.S. at 682.
Hines argues that had defense counsel been given the
notes, they “would have used [them] . . . to establish
that the prosecution could not exclude the reasonable
hypothesis that someone other than Darrell Hines left
semen on the victim,” such as the “suspicious and
wild-eyed individual – not Hines” seen by “the clerk of
the store across from the motel . . . near the time of the
killing.” (Hines Br. at 23–24.) However, there is no
indication that there was in fact semen on the swabs or
the victim’s body, so Hines’s argument would have been

App. 39
mere unconvincing speculation. Dr. Harlan testified
that he found no evidence of semen upon a visual
inspection and that he only ordered testing out of “an
abundance of caution” and not because he saw evidence
of semen, as Hines speculates. (R. 141, PID 2065–66.)
Nor can Hines show that Dr. Harlan testified
falsely. “[A] prosecutor violates a criminal defendant’s
due process rights when she knowingly allows perjured
testimony to be introduced without correction.” Thomas
v. Westbrooks, 849 F.3d 659, 666 (6th Cir. 2017), cert.
denied, 138 S. Ct. 390 (2017) (citing Agurs, 427 U.S. at
103). To prevail, Hines must show that: “(1) the
statement was actually false; (2) the statement was
material; and (3) the prosecution knew it was false.”
Rosencrantz v. Lafler, 568 F.3d 577, 583–84 (6th Cir.
2009) (citing Coe v. Bell, 161 F.3d 320, 343 (6th Cir.
1998)).
Hines’s argument focuses on Dr. Harlan’s
statements that based on a “visual inspection . . . there
was no material that was indicative of semen,” that
there was “no such material to evaluate,” and “there
were no semen present.” (Hines Br. at 83 (quoting R.
173-9, PID 4737, 4740).) Because Hines cannot show
that the vaginal swabs contained any evidence of
semen, he cannot show that Dr. Harlan’s testimony
was actually false. Hines argues that Dr. Harlan’s
office’s request for the TBI to test “seminal type”
indicates that it “concluded there were materials
‘indicative of semen,’” contrary to Dr. Harlan’s
testimony. (Hines Br. at 25 (emphasis removed).)
However, Dr. Harlan has explained that he requested
this test out of “an abundance of caution,” (R. 141, PID

App. 40
2065–66), and this testing request does not establish
that Dr. Harlan’s testimony was actually false,
Rosencrantz, 568 F.3d at 583–84. In fact,
post-conviction forensic testing of Jenkins’s underwear
indicated that while there were bloodstains from which
DNA testing could be conducted, the test for semen
produced “negative results.” (R. 124-1, PID 1347.)
Thus, we reject Hines’s claim that the prosecution
withheld exculpatory evidence or knowingly elicited
false testimony.
IV.

Whether trial counsel were ineffective
during the penalty phase of trial.

Hines contends that trial counsel were ineffective
during the resentencing phase because they did not:
(1) present available mitigating evidence; (2) challenge
Dr. Harlan’s testimony about the amount of time
Jenkins survived after being wounded; or (3) object to
the death penalty as arbitrary and unconstitutional
under the circumstances of this case. We address, and
reject, each of these sub-claims in turn.
A. Failure to present mitigation evidence
Hines contends that trial counsel were ineffective
because they did not present available mitigation
evidence at the penalty phase.3 Specifically, Hines
3

In the initial state post-conviction proceedings, Hines argued that
trial counsel were ineffective because they did not “present
available mitigation evidence, including but not limited to
Petitioner’s childhood exposure to violence, crime, poverty and
substance addictions. Had Counsel fulfilled this duty it is likely
Petitioner would have been spared the death sentence.” (R. 174-6,
PID 5751.) After an evidentiary hearing, the trial court denied the

App. 41
asserts that trial counsel should have presented
evidence that Hines endured physical and sexual abuse
by his stepfather as well as sexual abuse by an uncle,
suffered head injuries as a child, endured physical and
psychological abuse at Green River Boys Ranch, sniffed
gasoline and glue and consumed alcohol and drugs as
an adolescent, suffered from paranoia and chronic
post-traumatic stress disorder, which affected his brain
function, and has a deficit of serotonin in his brain. The
warden responds that the state court’s decision was not
an unreasonable application of Supreme Court
precedent.

claim, and the decision was affirmed on appeal. Hines, 2004 WL
1567120, at *32.
Hines raised the same argument in the habeas proceedings.
The district court found that the state court’s resolution of this
claim was not an unreasonable application of Supreme Court
precedent:
[W]hatever the deficiencies of counsel at the resentencing
hearing, the post conviction hearing present[ed] additional expert
proof and afforded the state courts yet an additional opportunity
to evaluate the appropriateness of Petitioner’s death sentence. The
state courts deemed the Petitioner’s extensive mitigation evidence
not to outweigh the State’s other proof of aggravating
circumstances of the wounds. The victim’s wounds, Petitioner’s
escape and possession of the victim’s vehicle and key, Petitioner’s
explanation of events to his sister and the Petitioner’s statements
to officers that he could provide all the details of the murder lead
this Court to conclude that the state courts’ decisions on the
adequacy of counsel’s performance at sentencing would not have
caused a different result and those decisions were reasonable
applications of clearly established federal law.
(R. 145, PID 2379.)

App. 42
As an initial matter, Hines asserts that the state
post-conviction appellate court applied the incorrect
standard in reviewing his mitigating-evidence claim,
and therefore we should review this claim de novo.
Strickland requires that a petitioner show that there
was a “reasonable probability” that, but for the
counsel’s failure to introduce the mitigating evidence,
“the result of the proceeding would have been
different.” Strickland, 466 U.S. at 694. Hines argues
the state court apparently applied a stricter standard,
as evidenced by the use of the phrase “would not have
affected” in its opinion:
In Goad v. State, 938 S.W.2d 363 (Tenn. 1996),
our supreme court set out the relevant factors to
consider when determining if prejudice had
resulted from a trial attorney’s failure to present
mitigating evidence during the penalty phase of
a capital trial. . . . “[C]ourts have considered
whether there was such strong evidence of
aggravating factors that the mitigating evidence
would not have affected the jury’s
determination.”
In the present appeal, the post-conviction court
found that counsel were not deficient in their
representation of the petitioner, saying that “[i]n
view of the overwhelming strength of the
aggravating factors in Petitioner’s case . . . , the
mitigating factors would not have affected
the jury’s determination[.]” Accordingly,
under the principles enunciated in Goad, the
post-conviction court found that the petitioner

App. 43
was not prejudiced. . . . We conclude that the
record supports this determination.
Hines, 2004 WL 1567120, at *31–32 (emphases added)
(quoting Goad, 938 S.W.2d at 371).
It is unclear what standard the post-conviction
court actually applied. The opinion identifies the
proper Strickland standard in its “Standard of Review”
section but does not use the “reasonable probability”
language anywhere else in the opinion—other than in
footnote 2, where the court discusses a case, Wiggins v.
Smith, 539 U.S. 510, 516 (2003), which the Tennessee
court found inapplicable. See Hines, 2004 WL 1567120,
at *22–23, 31–32, 32 n.2. Although habeas review
includes a “presumption that state courts know and
follow the law,” Woodford v. Visciotti, 537 U.S. 19, 24
(2002), we have previously found that a state
post-conviction court’s failure to apply the Strickland
test warranted de novo review in circumstances similar
to those here. See Vazquez v. Bradshaw, 345 F. App’x
104, 112 (6th Cir. 2009) (finding the de novo standard
appropriate where the state post-conviction court
reviewed whether the trial’s outcome “would have been
different” due to new evidence, rather than whether
new evidence presented a “reasonable probability” of a
different outcome). Here, although the court identified
the correct legal standard early in the opinion, it used
different language in explaining its decision. When a
state court applies a decisional rule contrary to clearly
established federal law, “‘a federal court [is]
unconstrained by § 2254(d)(1),’ and de novo review is
appropriate.” Fulcher v. Motley, 444 F.3d 791, 799 (6th
Cir. 2006) (quoting Williams v. Taylor, 529 U.S. 362,

App. 44
406 (2000)). Thus, we will proceed with a de novo
analysis. Hines’s claim fails even under this standard.
Trial counsel presented extensive mitigation
evidence at the 1989 penalty phase. First, counsel
presented testimony from Therman Page, a counselor
at the Tennessee State Prison. Page worked with Hines
“on several occasions relating to visits and various
other problems that he’s had.” (R. 173-9, PID 4745.)
Page testified that Hines had been disciplined by
“receiv[ing] two or three different writeups[,]” but that
none related to violence against another individual. (R.
173-10, PID 4759–60.) Page described Hines as follows:
“[He is] somewhat [of] a loner. He does not have a lot of
close friends as far as the other people that he’s
incarcerated with. The times that I have talked to him
and been with him, he has talked to me freely, but he
does not have the friends that a lot of other people have
in prison.” (Id. at PID 4760.) According to Page, Hines
“does not have very many visits at all. I don’t recall,
right off, any family members at all coming to see him,
the time that I’ve known him,” which was “close to
three years.” (Id. at PID 4760–61.)
Trial counsel next introduced the transcript of John
Croft’s testimony from Hines’s first trial.4 Croft and his
wife, Nancy, lived in Cave City, Kentucky and were
Hines’s grandparents. Croft testified that Hines’s
mother, Barbara, first married a man named Dugard,
with whom she had three children, including Hines.
Dugard abandoned the family when Hines was “maybe
ten or eleven.” (Id. at PID 4767–68.) Barbara then

4

Croft died before the resentencing hearing.

App. 45
married Bill Hines. Croft and his wife kept the children
because Barbara worked; he described Hines as “a
well-mannered boy, a well minding boy. And the
keeping of the children was kind of left to the older
girl.” (Id. at PID 4768.) When Hines was “about
thirteen years old,” Barbara and her family moved, and
“it was no longer convenient for [Croft and his wife] to
have the children.” (Id. at PID 4769.) According to
Croft, Hines was “a little high tempered” but not
troublesome. (Id.)
Croft testified that Hines stayed with him briefly
when he was a teenager, that Hines called him “Big
John,” “never g[a]ve [him] a minute’s trouble,” and
“was always well behaved, and he minded good.” (Id. at
PID 4770.) When asked about discipline in the Hines’s
home, Croft replied that he “never figured it was so
much a discipline problem as it was the separation.
You know, there was a loneliness.” (Id. at PID
4770–71.) Croft was asked whether Hines minded him,
and he responded: “Always. I had the best respect from
him; you know, sometimes even more respect from him
than I did one of my boys. But mine were in and out,
gone a lot, school and all. But Darrell always did mind,
and he minded his grandmother, as well.” (Id. at PID
4771.)
During this stay, Croft noticed a change in Hines’s
behavior, searched his room, and saw evidence that
Hines had been sniffing glue. Croft viewed Hines as “a
changed personality from that day on” and harbored
“doubts” about having him live there permanently. (Id.
at PID 4772–73.) Croft knew that Hines had been
incarcerated and suspected that it changed Hines’s

App. 46
behavior: “He had a chip on his shoulder—a chip on his
shoulder all the time. He just wasn’t the same. He
wasn’t himself. You’d have to see the change in him to
know it.” (Id. at PID 4774.)
Croft testified that Hines had a three-year-old son.
Hines and his son’s mother suffered “an emotional
conflict” because she had had a relationship with
another man. (Id. at PID 4775.) Croft also offered
insight into the crime that led to an earlier
incarceration for Hines:
When he was in that first assault, or whatever
it was that he was sent up for, I begged the
county judge at that time—I explained to the
county judge that the boy needed help, that he
didn’t need confinement at that time, that he
needed help. And I was laughed at. He needs
help now. He’s needed it all these many years,
help that he didn’t get. And since I’m sworn to
tell the truth, this is the truth. I begged Basil
Griffith, the county judge, to get him help, you
know, on that.
(Id. at PID 4776.)
On cross-examination, Croft testified that Barbara,
Hines’s mother, had a drinking problem until 1979,
when she stopped drinking. Croft confirmed that he did
not visit Hines during his incarceration for assault and
only saw him one or two times before Jenkins’s murder.
On re-direct examination, Croft testified that he
believed that Hines could be helped and noted that
Hines offered no resistance to his arrest.

App. 47
Trial counsel next presented the testimony of
Pamela Mary Auble, Ph.D., an expert in clinical
psychology. Dr. Auble conducted a psychological
examination of Hines, relying on three primary sources
of information: test data; a clinical interview; and
various records, such as school records and “interviews
by various investigators.” (Id. at PID 4796, 4800.) Dr.
Auble administered several psychological tests,
measuring Hines’s I.Q., Hines’s ability to learn and
recall new information, Hines’s adaptability, and other
metrics of Hines’s mental, creative, and motor abilities.
Dr. Auble summarized her analysis of Hines’s
neurological history. She testified that as an
eight-year-old, Hines fell from a hay wagon, resulting
in a loss of consciousness and a dent to his skull. She
testified that Hines had “a history of a lot of alcohol
and drug abuse, including glue sniffing, amphetamines,
cocaine, heroin[], barbiturates, and a lot of those kinds
of things.” (Id. at PID 4803.) Dr. Auble testified that
tests were inconclusive as to the existence of brain
damage, however.
Dr. Auble also examined Hines’s family history. She
testified that Hines was “ignored a lot when he was
growing up” and “didn’t have a lot of interaction with
his parents” because both “worked full time, and
[Hines] reported that when they were not working,
they tended to drink a lot.” (Id.) Hines’s mother “took
Valium for a lot of years” and “was in a psychiatric
hospital once when [Hines] was nineteen, for nerve
problems.” (Id. at PID 4803–04.) Dr. Auble saw “some
evidence of physical abuse”; Hines “reported that he
was beat with a tobacco stick by his stepfather” and

App. 48
“reported whippings when his parents just didn’t know
when to stop.” (Id. at PID 4804.) She recalled that
Hines “hid in the woods for several days because he
was afraid his stepfather would kill him” after he broke
a tractor. (Id.)
Dr. Auble testified that “[t]here was also indications
of some kind of sexual issues within [Hines’s] family”
as Hines reported “growing up early, sexually,
somewhere around six years old” and has one sister
who is bisexual and another sibling who is transgender.
(Id. at PID 4804, 4806.) Dr. Auble testified that “the
fact that he has [siblings] with such unusual sexual
orientations suggests that in the family, there’s
something a little weird that they both turned out that
way.” (Id. at PID 4807.) Dr. Auble testified that Hines
“has some issues about masculinity, that sexuality is a
sensitive and troubling area for him, that he has had a
lot of difficulty with, which is also consistent with [his]
. . . history.” (Id.) On cross-examination, Dr. Auble
stated that she did not know whether Hines’s early
sexual contact at the age of six occurred with a relative;
she did not ask him about the details, as Hines was
“reluctant to talk about these things, which, I mean, is
understandable, I think.” (Id. at PID 4843.)
Dr. Auble observed that Hines’s family did not help
him with his problems. When Hines started abusing
alcohol and drugs, the family “move[d] him into his
own apartment when he was fifteen; in a sense, just to
get him out of the family and put him out on his own,
rather than trying to help him solve any of the
problems.” (Id. at PID 4807.) She added that the family
“ha[d] a history of repeatedly turning him in to the

App. 49
authorities,” resulting in his incarceration. (Id. at PID
4807–08.) Further, Hines had “trouble” in school partly
because he “had to work on his [step]father’s farm a
lot—his [step]father was a farmer—and he wasn’t able
to attend school as often as he should have, so he
wasn’t there a lot.” (Id. at PID 4808.) She noted that
her testing suggested a learning disability that would
make learning more difficult.
Dr. Auble summarized the test results. She testified
that Hines “is emotionally pretty immature, that he’s
never really grown up,” adding that his “emotional
level of maturity is that of about a teenager.” (Id.) She
testified that Hines has “very poor” self-esteem, “has a
lot of trouble with criticism,” “has a lot of trouble
trusting other people easily,” and “expects other people
to harm him and is reluctant to trust people enough to
confide anything, to tell people his troubles.” (Id. at
PID 4808–09.) She testified that Hines is “real insecure
about his masculinity” and has “underlying depression
and anger,” which he managed by either avoiding the
underlying problem or engaging in self-destructive
behavior such as drug and alcohol abuse. (Id. at PID
4809–10.) She noted that “testing did not indicate that
he possesses an alcoholic-type personality” and
characterized the alcohol and drug use as “more an
escape from the negative feelings that he has than
something he’s just got a natural weakness for.” (Id. at
PID 4810.) When stressed, Hines will become “angry
and destructive,”; Dr. Auble recalled “reports of a lot of
fights, whenever he’s provoked in some way, that he
just boils up and then stuff comes out of him.” (Id.)

App. 50
Dr. Auble diagnosed Hines as having
paranoid-personality disorder and dysthymia. She
explained that the former diagnosis requires the
individual to exhibit four of the following symptoms:
“expect without basis, to be exploited or conned by
other people”; “question the trustworthiness of friends
and associates without justification”; “tend to read
threatening messages or insults into remarks or events
that aren’t really all that threatening or insulting”;
“tend to bear grudges” and “don’t forgive insults”;
reluctance “to confide in people because they have this
fear that information will somehow be, either, used
against them or that they’ll be betrayed”; “react
[quickly] with anger”; and “question the faithfulness of
their spouse or sexual partner without justification.”
(Id. at PID 4810–12.) Dr. Auble explained that Hines
had many of these characteristics.
Dr. Auble testified that dysthymia is similar to
depression, and Hines suffered the following symptoms
of dysthymia: a depressed mood for at least two years;
insomnia; low self-esteem; poor concentration, and a
sense of hopelessness. She testified that the paranoid
personality disorder, in particular, would affect Hines’s
ability to handle stress: “The worst thing in the world
to happen to those people is if they finally do trust
somebody and then they get betrayed. That’s the worst.
And, in particular, that kind of stress would be the
hardest for him to handle.” (Id. at PID 4815.)
Dr. Auble offered insight into Hines’s only
significant relationship with a woman, Melanie, whom
Hines dated for about a year starting in 1981 and with
whom he had a son. The relationship ended because

App. 51
Hines perceived Melanie’s mother and brother to be
“freeloading on him,” as “they weren’t willing to pull
their own weight in the household.” (Id.) Hines’s
mother, with whom Hines’s son lived, did not allow
Hines to “keep him for any length of time.” (Id. at PID
4815–16.) In 1985, following his release from prison,
Melanie invited Hines to visit her in North Carolina; he
did and they discussed reconciliation. According to
Hines, Melanie had changed and was engaged in drug
use and prostitution. Hines told Dr. Auble that
Melanie’s mother wanted him to fight Melanie’s
ex-husband, which was problematic because Hines was
trying to adjust to life outside of prison. Dr. Auble
described the situation as “particularly hard on [Hines]
because, first, he is very insecure about his
masculinity.” (Id. at PID 4817.) “He has a general
difficulty trusting people; and once he does trust
somebody, the worst thing in the world for him would
be to be betrayed, and that’s sort of what he felt like
happened.” (Id.) Further, Hines “tends to avoid
negative feelings,” “doesn’t deal with them[,]” and “just
puts them inside [while]. . . they get worse and worse.”
(Id.) Hines decided to leave for Kentucky on a bus,
intending to get his son and move to Montana. Hines’s
parents in Kentucky did not give him his son, called
the police, and dropped him along a Tennessee
highway. He later checked into the CeBon Motel.
Dr. Auble described Hines’s state of mind during his
time at the motel. After checking into his room, he
drank and watched television throughout the night,
getting little sleep. His mental state was “very fragile,”
he “fe[lt] worthless” and insecure,” and he had “a whole
lot of anger and disappointment and sadness towards

App. 52
Melanie and his parents for rejecting him”; she added
that Hines’s “masculine image is just extremely
vulnerable,” meaning that he would “just be very
sensitive to anything that might be seen as criticism.”
(Id. at PID 4818.) Dr. Auble surmised that “any
provocation at all would probably result in an explosion
of all these feelings.” (Id. at PID 4819.) Dr. Auble found
the “stab marks on the wall of the motel room where he
was staying” telling because “most people don’t go
around with a knife and stab the walls of motels for fun
or profit,” but do it because they are “suffering from
some kind of mental disorder or [are] under a lot of
stress at the time they’re doing stuff like that.” (Id.)
Dr. Auble testified that she reviewed Hines’s prison
records and concluded that he had “done pretty well in
prison” and “hasn’t been any trouble to anybody,
basically” as he “kind of keeps apart from other
prisoners.” (Id. at PID 4821.) She explained that Hines
is “able to make a pretty good adjustment when he’s
not in a situation which brings up all these feelings”
associated with Melanie and his family. (Id.) She
testified that Hines suffered from a mental disease or
defect on the day of the murder but did not pose a
threat in a prison environment.
Trial counsel presented the testimony of Floyd
Eugene Collins, Hines’s childhood friend who first met
Hines in their neighborhood at fourteen years old.
Collins testified that he saw Hines sniff gasoline and
glue, drink beer and whiskey, and consume marijuana
and pills. He testified that Hines sniffed glue “all the
time” and that “[e]very time you’d see him late in the
evenings or something like that, he’d be—have him a

App. 53
glue bag or something like that, just sniffing away.”
(Id. at PID 4861.) Collins testified that, compared to
the other neighborhood children, Hines “was always
more hyper, always going somewhere, always talking,”
but “was crazy” and “needed help.” (Id. at PID
4861–62.) Collins testified that there was once a
“gasoline party” in Hines’s backyard where everyone
was “just sniffing gas,” and Hines displayed that he
“wasn’t right” by repeatedly riding a bicycle into a
chain-link fence. (Id. at PID 4864.)
Trial counsel also presented the testimony of
Charles Preston Smith, who knew Hines around
1975–76 and testified that Hines “used to sniff
model-car glue, gasoline, [and] smoke some dope[.]” (Id.
at PID 4873–74.) Smith testified that Hines “seemed
like he would get pretty comatose. Go back there and
talk to him, and he wouldn’t even know you was there.”
(Id. at PID 4875.) Smith recalled that Hines had his
own apartment at about fifteen years old and that he
never saw any of Hines’s family there.
Finally, trial counsel presented the testimony of
sociologist Ann Marie Charvat, Ph.D. Dr. Charvat
testified that she interviewed Hines’s family,
individuals from his neighborhood, and individuals who
worked with him as a child. She also reviewed a variety
of records and obtained “as many different kinds of
reports as were available.” (R. 173-11, PID 4925.) Dr.
Charvat used the information to “set up a life-cycle
study where I was able to get substantiation on various
elements of his report.” (Id.) To be included in her
report, Dr. Charvat “had to hear [the information] not
only from [Hines], but also from another person, or

App. 54
read it in one of his documents, or it had to be
consistent with what we already know about these
different elements.” (Id.)
Dr. Charvat explained how she collected data:
Originally, what I started with was a social
history. That’s what came from him. Then I
developed four criteria, four possible
substantiations. If I could get a substantiation
from conversation or interview with a primary
relationship or with a secondary relationship or
with an historical document or with my
scholarly research, the literature in my field, if
I got two of those, then I included it in the
life-history section.
(Id. at PID 4927.) Primary relationships were defined
as “your family or your friends,” and, for Hines,
included interviews with Bill Hines, Barbara Hines,
Hines’s sister Victoria, and Hines’s brother, Bobby Joe.
(Id.) Dr. Charvat also interviewed some of Hines’s
friends, as well as individuals who had a secondary
relationship with Hines, such as his juvenile probation
officer, his counselor, and a local policeman.
Dr. Charvat had access to a third category of
information, historical documents, including:
educational records from elementary school, junior
high, and high school; medical records; and prison
records. She reviewed additional records, such as
“social histories, psychological evaluations, physical
exam[s], medical history, FBI record of charges and
dispositions, [a] psychological evaluation, a mitigation
evaluation prepared by Capital Case Resource Center,

App. 55
correspondence from [defense counsel], and the
testimony of [Hines’s grandfather] John Croft.” (Id. at
PID 4929.) Dr. Charvat testified that Green River Boys
Ranch sent no records, but she talked to Mr. Courtney,
who was Hines’s counselor there. Dr. Charvat also
reviewed the research and literature published in her
field.
Dr. Charvat testified that Hines lived outside of
Bowling Green for the first twelve years of his life—the
first two years with his mother and her husband, Billy
Frank Dugard, who had an “unstable” and “violent”
marriage, and the next ten years with his mother and
her second husband, Bill. (Id. at PID 4931–32.)
Barbara and Bill, a farmer, lived on a rented farm with
Hines’s two sisters and brother. The family was
“socially isolated” and did not participate in any
community activities such as attending church. (Id. at
PID 4932.) The parents were “very hardworking
people,” but “there was not very much supervision on
the kids” and “an absence of rules within the family[.]”
(Id. at PID 4933, 4935.) Dr. Charvat also testified that
she found “evidence of violence” that she would
categorize as “very serious abuse,” and that “there were
situations in this family that I found to be beyond and
into the criminal violent category on Darrell and his
older” sibling. (Id. at PID 4933.) Dr. Charvat testified
that she suspected sexual “irregularities”:
Another issue about the family was I did not
find sexual abuse—I did not— although, I did
find that there were irregularities from sexual
norms. And because the family was very self
contained, there was no evidence whatsoever

App. 56
that [Hines] was sexually molested; however,
there is—It’s a very difficult topic to get
information about, even in anonymous
situations on the telephone.
(Id. at PID 4934.)
Addressing his education, Dr. Charvat described
Hines as “slow” and explained that he was passed to
the next grade “because he was not too much of a
problem and because it was, simply, time to move him.”
(Id. at PID 4938.) Dr. Charvat testified that Hines’s
“formal education ended in the sixth grade,” but added
that he attended one school for the first six grades, and
attended several different schools until ninth grade,
which he repeated once, without evidence “of any kind
of successful completion” of any of these grades. (Id. at
PID 4938–39.) For a two-year period beginning when
Hines was twelve years old, the family moved between
Bowling Green and the farm, ultimately settling in a
dangerous neighborhood in Bowling Green, which
required Hines to learn social skills for the new
environment.
Dr. Charvat testified that Hines started “getting
into trouble” at fifteen years old, taking “a variety of
drugs at this point in time, some of them glue, some of
them gasoline,” and “dropp[ing] out of school, basically
without any objections from anybody, as far as I could
determine.” (Id. at PID 4941.) Around that time, Hines
“moved out of the family unit” and “at various points,
he would go back; but, essentially, he either had an
apartment, sometimes stayed with his family, or stayed
with other people in the neighborhood.” (Id. at PID
4941–42.) Dr. Charvat explained that the separation

App. 57
constituted “a significant, serious breach of a [familial]
bond at that point in time.” (Id. at PID 4942.) Hines
had several experiences with juvenile court, which
often resulted in warnings and probation; on one
occasion, he was ordered to see a psychiatrist, and did
so a couple times, but declined additional visits and no
one made him return. Various reports noted that Hines
possessed “an inability or an unwillingness to
cooperate, and [that] no successful treatment has ever
been noted.” (Id. at PID 4948.)
Dr. Charvat testified that Hines was sent to Green
River Boys Ranch at seventeen years old. Hines was
subjected to intensive group therapy there, referred to
as “grouping,” in which “the bad behavior of one person
in that group will lose the privileges for everybody in
it.” (Id. at PID 4946.) Dr. Charvat testified about what
she had heard regarding practices at Green River:
[T]hey would get boys on the ground and shout
at them in their faces; that at various points, it
would be physical, with all the guys in this
group losing their privilege because of the bad
behavior of this one guy participating in the
grouping of another guy.
Now, [Hines] described a situation to me in
which he and another guy were getting grouped.
And one of the things that occurred in this
grouping was that somehow this thing moved
out to where the sewage w[as], and there was
pushing into the sewage as a result of this
grouping to try to get about this behavior.

App. 58
(Id. at PID 4946–47.) Dr. Charvat testified that these
childhood experiences “would increase . . . the
unlikelihood of [Hines] being able to learn the rules of
the social order.” (Id. at PID 4949–50.)
Finally, Dr. Charvat identified several factors in
Hines’s past that literature has found can lead to
criminal behavior:
In [Hines]’s specific case, these included: the
level of physical abuse was too great, there was
neglect of the children, there was social isolation
of the family, there was evidence that there was
uninformed parenting, irregular sexual norms,
excessive adult responsibility, poor performance,
achievement testing was significantly below
grade level, excessive truancy, early onset of
delinquency, early onset of drug use, self-abusive
tendencies, lack of adult supervision, ineffective
involvement with the juvenile justice system—it
didn’t work—terminated education, he had
violent police models, his incarceration, his
treatment at Green River. Basically, if I were
working on predicting delinquency, each and
every one of these would be found to be
important contributors.
(Id. at PID 4958–59.) She considered prison to be an
intervening factor because “the possibility is great that
in th[at] environment, [Hines] can bond, and that he
has the opportunity to develop these elements of a bond
in that environment, in an environment where he
understands the rules.” (Id. at PID 4968.)

App. 59
Hines argues that the evidence presented on state
post-conviction review demonstrates that trial counsel’s
presentation of mitigation evidence at the resentencing
hearing constituted ineffective assistance. He also
argues that we should consider mitigation evidence
presented for the first time in his habeas proceeding in
district court, citing Martinez. Because this claim was
adjudicated on the merits in state court, we cannot
consider any evidence offered for the first time in
federal district court. See Cullen v. Pinholster, 563 U.S.
170, 181 (2011) (“We now hold that review under
§ 2254(d)(1) is limited to the record that was before the
state court that adjudicated the claim on the merits.”).
And Hines’s reliance on Martinez is unavailing because
the IATC claim was adjudicated on the merits in state
court, rather than found to be defaulted. Martinez, 566
U.S. at 9 (“The precise question here is whether
ineffective assistance in an initial-review collateral
proceeding on a claim of ineffective assistance at trial
may provide cause for a procedural default in a federal
habeas proceeding.”).
Hines has not demonstrated trial-counsel
ineffectiveness related to the presentation of evidence
concerning his use of alcohol and drugs because Croft,
Collins, and Smith each offered testimony on that
subject. Additionally, Dr. Auble testified about Hines’s
head injuries and that, after conducting neurological
testing for brain damage, she found the tests
inconclusive. Dr. Charvat also talked about Hines’s
substance abuse, as well as his difficult experience in
the Green River Boys Home. The additional evidence
presented during the state post-conviction proceedings
concerning these topics was cumulative, and therefore

App. 60
Hines cannot show any prejudice resulted from trial
counsel’s failure to present this evidence at his
resentencing. See Hill v. Mitchell, 842 F.3d 910, 943–44
(6th Cir. 2016), cert. denied, 138 S. Ct. 82 (2017) (“A
petitioner does not establish prejudice if he shows only
that his counsel failed to present ‘cumulative’
mitigation evidence”); Fautenberry v. Mitchell, 515 F.3d
614, 626–27 (6th Cir. 2008).
As to trial counsel’s alleged ineffectiveness
concerning the presentation of evidence about sexual
and physical abuse, William D. Kenner, M.D., a
psychiatrist, testified during the initial post-conviction
proceedings that he learned from Hines’s older sibling,
Lee, that Hines was sexually abused by his stepfather
and uncle. Dr. Kenner acknowledged that he did not
have a first-person account of the events, as all of his
information came from Lee, while Hines did not discuss
the events—nor did Dr. Kenner know if Hines even
remembered them. Dr. Kenner stated that “it’s not
uncommon for even adults to, you know, have a blank
spot in their memory when something traumatic like
that happens.” (R. 174-2, PID 5291.)
Hines’s difficulty with sexuality, as well as the
possibility that he was sexually abused, was discussed
at the resentencing hearing. But, unlike Dr. Kenner,
Dr. Charvat was unable to contact Lee for unknown
reasons and instead only spoke with Hines’s other
siblings. Because Lee was the only source of that
information and did not testify, there is a question
whether the court would have found the evidence
admissible, as the trial court only permitted Dr.
Charvat to base her opinion on “reliable hearsay,” to

App. 61
the extent she relied on hearsay. (R. 173-10, PID 4920.)
At any rate, although additional evidence of sexual and
physical abuse might have made the mitigation case
stronger, the new evidence does not differ from the
information presented at the 1989 penalty phase in
such a substantial manner to entitle Hines to relief. See
Tibbetts v. Bradshaw, 633 F.3d 436, 444–45 (6th Cir.
2011) (explaining that new mitigation evidence that
covers the same subject as evidence presented during
the penalty phase of trial, but in greater detail, is
insufficient to demonstrate prejudice).
Hines also takes exception to Dr. Auble’s testimony,
as she did not tell the sentencing jury that Hines
suffered from post-traumatic stress disorder, nor that
he had brain damage. But Hines was not prejudiced
simply because trial counsel failed to retain “some
other hypothetical expert.” Smith v. Mitchell, 348 F.3d
177, 208–09 (6th Cir. 2003). Furthermore, “[a]bsent a
showing that trial counsel reasonably believed that [Dr.
Auble] was somehow incompetent or that additional
testing should have occurred, simply introducing the
contrary opinion of another mental health expert
during habeas review is not sufficient to demonstrate
the ineffectiveness of trial counsel.” McGuire v.
Warden, 738 F.3d 741, 758 (6th Cir. 2013) (citing Black
v. Bell, 664 F.3d 81, 104–05 (6th Cir. 2011)). Hines
makes no such showing.
Finally, Hines argues that trial counsel were
ineffective for failing to tell the jury that Hines lacks a
sufficient quantity of serotonin, “which makes it
difficult for him to modulate and control his behavior.”

App. 62
(Hines Br. at 34.) The Tennessee Court of Criminal
Appeals denied this claim, explaining:
[Paul] Rossby[, Ph.D., a molecular biologist,]
acknowledged that he did not work on
developing this issue in a criminal case until
approximately 1992, three years after the
petitioner’s resentencing trial. Further, he said
that he did not actually testify on the issue of
serotonin until 1999, ten years after the
petitioner’s resentencing trial, and knew of no
one who had testified on the issue prior to that.
As the post-conviction court stated: “Petitioner’s
counsel at re-sentencing could not reasonably
have been expected to search for experts on a
subject which they did not know existed.” The
record supports this conclusion.
Hines, 2004 WL 112876, at *32. The district court
denied this claim without analysis.
At the initial post-conviction hearing, Dr. Rossby
testified that molecular neurobiology involves “the
study of the brain and the central nervous system at
the level of molecules and systems.” (R. 176-5, PID
6478.) He explained serotonin’s effect on the brain:
Serotonin is a
naturally
occurring
neuromodulator in the brain. It comes under the
broad heading of neurotransmitters but it is a
neuromodulator. Serotonin is essentially
produced in one very small region of the brain
and then projected to every part of the brain.
Projected meaning that it is, it is synthesized in
one place and then it [is] sent to all parts of the

App. 63
brain. Serotonin essentially has an inhibitory
effect on the neuronal firing that I was
describing before. Serotonin blocks pain for
example. Serotonin is released in tons [sic] of
great stress and it opposes the stressful reaction
or the fight[ or] flight reaction. Serotonin
appears and there has been a tremendous
amount of research on the function of serotonin.
Serotonin appears to orchestrate various
systems of inhibition within the brain. And there
is a tremendous amount of data that indicate
that serotonin orchestrates these systems of
inhibition within the brain.
(Id. at PID 6483–84.) He further explained that “[t]he
level of serotonin activity in the brain has been
associated with impulsive behavior.” (Id. at PID 6486.)
He testified that serotonin research dated “for sure
back to the 70’s,” adding that “a great deal of
information” would have been available in 1986 and
1989. (Id. at PID 6484.)
Dr. Rossby assessed Hines’s serotonin level and
concluded that it “is at the extreme[ly] low level in our
society” and the effects of that low serotonin are
“exacerbated by his Type II alcoholism[.]” (Id. at PID
6490.) Dr. Rossby offered the following insight:
Essentially all of the studies that . . . have
accumulated over the past twenty to twenty-five
years, the low serotonin has been the central
feature that distinguishes the impulsively
violent offender from the non-impulsively violent
offender. But there has also been a very strong
correlation with Type II alcoholism and so,

App. 64
based on everything that I know and everything
that I have read about the case and based on
this analysis of his serotonin levels in his
cerebral spinal fluid I would say that he is
virtually, for biological reasons, he is virtually
incapable of opposing his, his behavior, his
spontaneous behavior. He is organically
impaired.
(Id. at PID 6490–91.) Dr. Rossby added that “if you
have low serotonin levels you have low serotonin levels
for life.” (Id. at PID 6492.)
Dr. Rossby testified that Hines’s alcoholism is
significant because, in a research study, “Type II
alcoholism was detected in almost all of the violent
offenders who had also low serotonin levels.” (Id. at
PID 6493.) Dr. Rossby described an individual who is
a Type II alcoholic as having “low harm avoidance, gets
bored easily and needs a lot of stimulation and is
always out seeking alcohol.” (Id. at PID 6494–95.) Dr.
Rossby explained that serotonin, in conjunction with
Type II alcoholism, affects impulse control:
We are talking about an organic capacity to
limit, to regulate or to control impulse and it
doesn’t determine what the impulse may be it
just, we are talking about a failure of inhibitory
systems and the systems are really designed to
inhibit any kind of impulsive behavior,
instinctual compulsive behavior.
(Id. at PID 6495–96.) When asked whether Hines could
control impulsive rage or anger, Dr. Rossby responded:
“No, I don’t think so.” (Id. at PID 6503.)

App. 65
On cross-examination, Dr. Rossby testified that he
first contributed serotonin research to a criminal case
in 1992 and first testified as an expert on the subject in
a criminal case in 1999. Dr. Rossby was not personally
aware of anyone testifying about this topic before 1992.
Hines has not shown that trial counsel performed
deficiently by failing to present evidence that he has
low serotonin. In anticipation of the 1989 sentencing
hearing, trial counsel retained a mental-health expert,
Dr. Auble, who conducted a psychological examination
that included testing for brain damage. She testified
about the difficulty Hines had controlling his behavior
when provoked. As noted previously, trial counsel is
not ineffective for failing to retain a specific
mental-health expert to obtain a specific outcome.
McGuire, 738 F.3d at 758. Further, Dr. Rossby stated
he was not aware of the use of the low-serotonin
argument in a criminal case at the time of the
resentencing hearing. Hines’s counsel at resentencing
were therefore not ineffective for failing to put forward
mitigation theories that it was reasonable for them to
be unaware of.
B. Failure to cross-examine Dr. Harlan’s testimony
Hines next contends that trial counsel were
ineffective because they did not effectively challenge
Dr. Harlan’s testimony about how long Jenkins would
have remained conscious and would have survived
following the infliction of her injuries. The warden
responds that the state court’s resolution of this claim
was not unreasonable.

App. 66
At resentencing, the prosecution relied on the
aggravating factor that the offense was “heinous,
atrocious, or cruel in that it involved torture or
depravity of mind,” Tenn. Code Ann.
§39-2-203(i)(5)(1982), relying on Dr. Harlan’s testimony
that the victim was conscious for three to four minutes
after being stabbed, during which she tried to fight off
her attacker.
Dr. Harlan testified about the time elapsed between
infliction of the wounds and the resulting death:
The fact that there’s hemorrhage from all three
of these wounds indicate[s] that they occurred at
approximately the same time. The amount of
hemorrhage or bleeding from these wounds
wou[l]d indicate that death occurred within a
short period of time after the time of the
infliction of these wounds, probably within a few
minutes; most likely, within a span of probably
four to five minutes, maybe six minutes.
(R. 173-9, PID 4721.) Dr. Harlan further testified that
Jenkins “would have remained conscious for a period of
time, several minutes, probably three to four minutes.”
(Id. at PID 4732.) Dr. Harlan clarified on
cross-examination:
Q: And I believe you stated that after receiving
those wounds, the victim would have died
within about four to five minutes?
A: Yes, sir, that is correct.
Q: And you indicated that consciousness would
have lasted somewhere between, I think you
said, three and four minutes?

App. 67
A: Yes, sir, that is correct.
Q: All right. Now that’s something that you
can’t absolutely find; that’s your opinion
based upon the appearance of the wounds,
right?
A: That is my opinion based upon the type of
wounds that were present, upon the lack of
damage to the central nervous system, and
on the fact that the wounds all occurred at
approximately the same time.
(Id. at PID 4736–37.)
On state post-conviction review, Dr. Sperry opined
that the period between the infliction of Jenkins’s
injuries and her death was shorter than Dr. Harlan
had stated:
In my opinion, all of the injuries except for the
vaginal stab wound were sustained very very
rapidly. That, from the time of the attack had
[en]sued to when she . . . collapsed and was
receding into unconsciousness because of
internal bleeding was [happening] very rapidly.
Again, less than a minute and probably less
than thirty second[s] realistically.
(R. 176-5, PID 6544.) Dr. Sperry testified that Jenkins
“would be unconscious[] in between fifteen and thirty
seconds and then would be dead, that is her heart
stopped beating, in about three to four minutes.” (Id. at
PID 6545.) Dr. Sperry explained that he disagreed with

App. 68
Dr. Harlan’s assessment because of the injuries
Jenkins suffered:
Not with two stab wounds involving the heart
like this. That is not possible. People collapse
very rapidly. And, in fact, . . . there is no
evidence that there is any blood elsewhere other
than again right beneath this air conditioner
thing, on the inside of the door and then over
where her body ultimately was found which is
an indicator from the scene alone that she
collapsed very rapidly and lost consciousness
very rapidly. But irrespective of that, it is just
not physically possibl[e] for someone to sustain
wounds like this and stay conscious for four
minutes. They will be dead by that time and
have lost consciousness long before that.
(Id. at PID 6546.) When asked whether Jenkins would
have sensation following unconsciousness, Dr. Sperry
testified: “No. Once she was unconscious[] this would
be the same as if she were under anesthesia. That is,
she would not be able to feel or perceive pain in any
way.” (Id. at PID 6546–47.) On cross-examination, Dr.
Sperry allowed that the “outer limits of [his] time
envelope,” from the start of the attack to Jenkins’s loss
of consciousness, would be “a minute and a half,” which
he conceded “could be a long time.” (R. 176-6, PID
6572.)
Dr. Harlan testified during the post-conviction
proceedings, expressly disagreeing with Dr. Sperry’s
assessment and reiterating his prior opinion. Dr.

App. 69
Harlan specifically addressed the conflict between the
two opinions:
The—the problem that you have with the
statements that he made is that he made—by
he, I’m talking about Dr. Sperry—is that his
statements are to the effect that the heart just
stops beating immediately. Well, if the heart
stops beating immediately, then you don’t get
the blood out there. If the blood, as we know is
out there, because we can see it, then the heart
has to have continued to beat. And the heart
beating will allow blood to continue to flow to
the brain in gradually reducing quantities.
(R. 174-4, PID 5580.) Dr. Harlan also explained that it
is possible to perceive pain while unconscious: “To a
certain extent, by anecdotal evidence. There are
different levels of consciousness and unconsciousness.
It is possible to be aware of your surroundings and
what’s going on without being able to move and
without being able to respond.” (Id. at PID 5583.) Dr.
Harlan testified that Jenkins would have experienced
pain if the vaginal wound was inflicted while she was
conscious, but her state of consciousness could not be
determined without being present at the time.
On state post-conviction review, the trial court
found that trial counsel were deficient for failing to
challenge Dr. Harlan’s testimony. The court concluded,
however, that there was no prejudice because the jury
would have found that the offense was “depraved,” even
if forensic proof established that the offense was not
torturous, as the prosecution maintained. Hines, 2004
WL 112876, at *33 (discussing district court decision).

App. 70
The state trial court relied on State v. Williams, 690
S.W.2d 517, 529–30 (Tenn. 1985), which held that
“depravity of mind” “may be inferred from acts
committed at or shortly after the time of death.” Hines,
2004 WL 112876, at *33 (citing Williams). The
Tennessee Court of Criminal Appeals referred to
portions of the trial court’s opinion and affirmed the
decision. Id. at *32–33. On habeas review, the district
court determined that the Tennessee Court of Criminal
Appeals’ decision was not an unreasonable application
of Supreme Court precedent.
Hines is required to show prejudice—a “reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. Both Dr. Sperry and Dr.
Harlan agreed that the wound to the victim’s vaginal
cavity occurred at, or shortly after, the time of death.
Regardless whether the victim was unconscious, dying,
or had just died, the infliction of such a wound may
evince a “depravity of mind.” See State v. Zagorski, 701
S.W.2d 808, 814 (Tenn. 1985) (“infliction of gratuitous
violence” on a victim who was “already helpless from
fatal wounds” indicates “a depraved state of mind at
the time of the killing” and is sufficient to support a
finding by the jury that the murder was especially
heinous, atrocious and cruel); Van Tran v. Colson, 764
F.3d 594, 622 (6th Cir. 2014) (under Tennessee law,
“‘depravity of mind’ can be found even where there is
no gratuitous infliction of severe pain, physical or
mental, that amounts to torture” (citation omitted)). In
Williams, the Tennessee Supreme Court explained:

App. 71
If acts occurring after the death of the victim are
relied upon to show depravity of mind of the
murderer, such acts must be shown to have
occurred so close to the time of the victim’s
death, and must have been of such a nature,
that the inference can be fairly drawn that the
depraved state of mind of the murderer existed
at the time the fatal blows were inflicted upon
the victim. This is true because it is “the
murderer’s state of mind at the time of the
killing” which must be shown to have been
depraved.
690 S.W.2d. at 529–530 (emphasis omitted). Thus,
testimony that the victim was likely unconscious when
she was stabbed in the vaginal cavity would not have
prevented the jury from making a finding of depravity
of mind. The state court was not unreasonable in
concluding that even if the vaginal cavity stabbing
“occurred close in time to the victim’s death,” rather
than before it, the vaginal stabbing “allow[s] the
drawing of an inference of the depraved state of mind
of the murderer at the time the fatal blows were
inflicted on the victim.” Hines, 919 S.W.2d at 581.
Finally, Hines argues that the state appellate
court’s holding that Dr. Harlan’s testimony could have
shown depravity to support the heinous, atrocious, and
cruel aggravating circumstance was contrary to
Supreme Court precedent because “a finding of
‘depravity’ [is] unconstitutional[ly vague].” (Hines Br.
at 94–95.) We have previously held otherwise. See, e.g.,
Van Tran, 764 F.3d at 622–23 (holding that
Tennessee’s “depravity of the mind” aggravator “avoids

App. 72
a constitutional vagueness problem”); Strouth v.
Colson, 680 F.3d 596, 606 (6th Cir. 2012) (same).
Hines’s argument thus fails.
C. Failure to object to death sentence in light of
prosecutor’s agreement to life sentence
Hines contends that trial counsel were ineffective
for failing to object to his death sentence because the
prosecutor had agreed to a sentence of life
imprisonment. The warden argues that this claim is
procedurally defaulted because it was not presented to
the state courts and that Hines cannot show cause and
prejudice to excuse the default.
On direct appeal after his resentencing, Hines
argued that the trial court erred in rejecting the plea
agreement between the parties, in which Hines would
have pleaded guilty to a new offense and received a life
sentence. Relying on Tennessee Rule of Criminal
Procedure 11, the Tennessee Supreme Court denied
relief:
In this case, the trial judge felt that the facts of
the case, even when mitigating circumstances
were considered, should be decided by a jury. He
expressed the view that the interest of justice
did not allow a plea bargain and he rejected it.
We find that the trial judge acted within his
authority under Rule 11 in rejecting the plea
bargain.
Hines, 919 S.W.2d at 578. Now Hines argues that to
carry out his sentence under the circumstances would
be arbitrary or capricious in violation of the Eighth
Amendment and would violate the Fourteenth

App. 73
Amendment because: “Having agreed to a life sentence
for Hines’s murder conviction, the state proved
empirically that it has no ‘compelling interest’
whatsoever in taking Hines’s life. It proved by this
agreement that a life sentence constitutes the ‘least
restrictive means’ of achieving whatever interests it
may have in punishing Hines.” (Hines Br. at 99–103.)
Hines is not entitled to relief. “Counsel is not
ineffective merely for failing to obtain a desired ruling
from the court.” Hodge v. Haeberlin, 579 F.3d 627, 645
(6th Cir. 2009). Here, the trial court rejected the plea
agreement, which the Tennessee Supreme Court
determined to be proper. Hines has not shown that an
objection by trial counsel had any probability of
producing a different result. See Mapes v. Coyle, 171
F.3d 408, 427 (6th Cir. 1999) (“Counsel could not be
constitutionally ineffective for failing to raise . . .
meritless arguments.”). Regarding his Eighth
Amendment claim, Hines relies on Adamson v.
Ricketts, 865 F.2d 1011 (9th Cir. 1988), but that case is
distinguishable. In Adamson, the trial court accepted
a plea after considering “the presentence report, the
matters in the file, the preliminary hearing transcript,
the plea agreement, and the proceedings at the
previous hearing.” 865 F.2d at 1021. Thus, as the Ninth
Circuit reasoned, the trial court’s acceptance of the plea
agreement constituted a judicial determination that
the plea was the appropriate punishment and reflected
the trial court’s belief that the defendant would be
appropriately punished by a prison sentence rather
than death. Id. at 1021–22. But when the trial court
later imposed a death sentence on the same
information and “for the same conduct for which he had

App. 74
previously found a prison term ‘appropriate,’” the
Ninth Circuit found the imposition of the death penalty
arbitrary. Id. at 1022–23. Here, the trial court did not
make a judicial determination as to the appropriate
punishment; rather, as the Tennessee Supreme Court
explained, “[t]he trial judge rejected the plea bargain
agreement because he felt that the case should be
decided by a jury.” Hines, 919 S.W.2d at 577–78. Trial
counsel was thus not ineffective for failing to object to
the trial court’s rejection of the plea agreement. Hines
has not cited any directly applicable cases in support of
his Fourteenth Amendment claim, and we therefore
find it is also without merit.
V.

Whether trial counsel were ineffective for
failing to investigate and present evidence
regarding Ken Jones.

Having rejected each of Hines’s claims thus far, we
now turn to the claim on which we reverse the district
court’s denial of Hines’s petition for a writ of habeas
corpus. During the guilt phase, trial counsel failed to
investigate or effectively examine Ken Jones, who was
at the motel at the time of Jenkins’s death and had an
apparent motive for the murder. During the penalty
phase, defense counsel also failed to present evidence
of residual doubt in relation to Ken Jones. Because the
state court’s decision that this did not constitute
ineffective assistance of counsel was an unreasonable
application of Strickland, we reverse the district court’s
denial of Hines’s petition for a writ of habeas corpus.

App. 75
A. Failure to investigate and present
regarding Jones at the guilt phase

evidence

Ken Jones was the witness at Hines’s 1986 trial
who testified to having first discovered Jenkins’s body.
Hines argues that trial counsel were ineffective
because they did not investigate and present evidence
explaining Ken Jones’s presence at the CeBon Motel at
the time of the murder. The Tennessee Court of
Criminal Appeals affirmed the state trial court’s
rejection of this argument on post-conviction review,
finding that Hines could not satisfy Strickland’s
prejudice requirement:
Missing in the petitioner’s theory, which the
post-conviction court described as “farfetched,”
is any motive or reason why Jones would want
to kill the victim, except the petitioner’s
suggestion, recounted in the post-conviction
findings, that the victim was killed because she
had “thwarted” the sexual liaison between Jones
and [Vernedith] White. In effect, the petitioner
argues that fifty-one-year-old Ken Jones,
accompanied by his twenty-one-year-old
girlfriend, Vernedith White, following their
normal Sunday morning routine and checking
into the same motel where they had been
together approximately 100 times before and
were known by the staff, including the victim,
stabbed the victim to death, with Jones driving
White to another location, cleaning blood from
himself and his vehicle, and then returning to
the scene to report the crime and wait for law
enforcement officers to arrive. We agree with the

App. 76
post-conviction court that, given the strength of
proof against the petitioner, making the
argument that Ken Jones was the actual killer
would have been “farfetched” and could have
resulted in a loss of credibility for the defense.
Hines, 2004 WL 1567120, at *27.
The district court rejected this claim on habeas
review:
Petitioner has not presented any evidence to
suggest that Jones could have been the
murderer. Jones’s motivation for being at the
motel was undisputed. Given the State’s proof
and Petitioner’s statement to the officers, the
Court concludes that there is not any basis to
suggest any other identifiable person as the
perpetrator of this horrendous crime. The Court
also concludes that Petitioner has not
demonstrated any prejudice for this claim. Given
the state courts’ finding of the absence of
prejudice required by Strickland, the Court
concludes that this claim was reasonably
decided by the state courts applying clearly
established federal law.
(R. 145, PID 2352.)
The following evidence was presented regarding
Ken Jones at Hines’s 1986 guilt trial. Mary Sizemore
of the Cheatham County Ambulance Service testified
that she received a call at 2:36 p.m. from a woman
named Maxine to go to the CeBon Motel because a man
reported that a woman had been stabbed. According to
Sizemore, Maxine worked at the CeBon Restaurant,

App. 77
which was across the street from the motel. Sizemore
testified that Maxine indicated the man who discovered
the body “was a man coming to rent a room there and
was looking for the maid to make arrangements,” but
Sizemore did not know who the man was. (R. 173-2,
PID 3899.) Sizemore arrived at the motel four minutes
after the call, and Maxine then walked to the motel and
met Sizemore. Sizemore found Jenkins on the floor of
Room 21 “laying on her back wrapped in a bedspread.”
(Id. at PID 3890.) Sizemore “unwrapped the top of the
bedspread to look at her chest to see where the blood
was coming from and noticed the stab wounds.” (Id. at
PID 3891.) Sizemore testified that she saw Jenkins’s
underwear—torn into two pieces—in the room.
Ken Jones testified at trial that he stopped at the
CeBon Motel on March 3, 1985, and was “acquainted”
with the “older couple” who had run the motel. (Id. at
PID 3941–42.) Jones “first pulled [in] around about
12:30 or possibly a few minutes past” and “stopped [for]
a few minutes.” (Id. at PID 3942.) Jones parked his car
and walked to the motel’s office. “[T]here was no one in
the office,” but Jones noticed a “key laying in [a] little
box.” (Id. at 3949.) Jones testified that he then went
back to his car, at which time he saw a woman in a
maroon car, accompanied by a child, drive up to Room
21 around 12:40. The woman got out of her car,
knocked on the door of Room 21, and left when no one
answered. Jones added that before leaving, the woman
backed around and asked him if he “knew where the
people were that run it.” (Id. at PID 3957.) Jones said
that he then left, going “up to [a roadside convenience
store] for a few minutes” before coming back to the
motel. (Id. at PID 3942.)

App. 78
He came back “just past 1:00.” (Id. at PID 3943.) He
explained that when he returned to the motel, he “just
sat there a few minutes” in his car and then realized
that he had to use the bathroom and remembered the
key that he had seen in the office. (Id. at PID 3953.)
Jones explained that he “went to the office and there
was no one there . . . so when no one showed up in a
few minutes I took the key and left a note that I had
the key that I was going to the restroom in that
particular room.” (Id. at PID 3943.) Jones testified that
he went to the room at “probably about twenty after
1:00, in that neighborhood.” (Id.)
Jones opened the door to the locked motel room,
Room 21, using the key he had taken. He testified that
he “saw a vacuum cleaner on the left, and I proceeded
to go toward the bathroom, and I saw hair, a head of
hair sticking out from behind the bed.” (Id. at PID
3944.) When asked whether he recognized the
individual as female or male, Jones responded: “No sir.
Not then.” (Id. at PID 3945.) When asked how close he
was to the body, Jones testified that he was “heading
for the restroom and was three feet, two-and-a-half to
three feet I guess[.]” (Id.) When asked to describe his
reaction, Jones answered: “Lord, I don’t know. All I
knowed [sic] to do is get out and call somebody.” (Id.)
Jones said, “I wasn’t in that room but a second.” (Id. at
PID 3947.) Jones testified that he left the motel room,
got into his car, and went straight to the restaurant
across the street to call the sheriff. He observed a dark
blue car parked near the motel’s Room 8. He testified
that a woman at the restaurant placed the call for him
to the sheriff. When Jones was asked if he “stay[ed]
there and talk[ed] to the sheriff,” Jones replied, “Yes

App. 79
sir.” (Id. at PID 3948.) Jones testified that he knew
Sheriff Weakley, and on that afternoon he told the
sheriff what he had seen.
At closing argument of the guilt phase, Hines’s trial
counsel emphasized the significance of Jones’s
testimony, notwithstanding his failure to meaningfully
cross-examine Jones:
Now, this gets me. This confuses me. This
causes me considerable reasonable doubt right
here. We’ve got this Mr. Jones, Kenneth Jones.
We already had one girl that said Mrs.
Jenkins[’s] car pulled out at 12:40. I don’t know
what time Mr. Jones was fooling around at that
motel that Sunday afternoon or that Sunday
morning. Or what he was really up to. But you
can kind of gather from his testimony, kind of
reading between the lines, he wasn’t a traveling
salesman just coming through; he had a usual
spot where he always went to; he was meeting
somebody. He said he got there around—what
did he say—12:00 o’clock? Something like that?
He saw a maroon car pull right up to Room 21
and a woman get out and bang on the door, a
baby crying. A blue car parked right in front of
#9 at that time. Was there anything about a
silver car being there? I wonder if whoever he
was meeting had a husband? I wonder if
whoever he was meeting might have thought
Mrs. Jenkins was this man’s girlfriend in Room
21. Maybe somebody hired somebody to go down
there and do something. I don’t know. It causes

App. 80
me some concern though I’ll tell you that; it
causes me a lot of concern.
(R. 173-6, PID 4394–95.) Trial counsel continued:
And I’ll tell you something else that causes me
some concern. Here we are, there’s a murder
that’s been commit[t]ed, and you got this man,
you saw how nervous Mr. Jones was, boy he was
quivering, he was wanting to get in here and
out. You saw that. Why didn’t he tell Sheriff
Weakley—and I feel sorry for Sheriff Weakley on
this—why didn’t he tell Sheriff Weakley, look,
Sheriff Weakley, I saw a blue car right beside #9
and I saw a maroon car and I saw a woman get
out and knock on Room 21. And wasn’t it a
casual relationship just going up and taking
Room 21 key out and going up there and him
just barging into Room 21. There was a lot of
something going on up there that day.
(Id. at PID 4395.)
On post-conviction review, Hines presented the
testimony of one of his trial counsel, William G.
Wilkinson, who stated that he did not attempt to
interview Jones before trial. Wilkinson testified about
a conversation he had with Sheriff Weakley concerning
Jones:
Sheriff Weakl[e]y told me that [Jones] was the
person who opened the door and discovered the
body. He told me that he was married and that
he was meeting there for the purpose of having
an affair and had been there just a very short
period of time and that he didn’t want his wife to

App. 81
find out that he was carrying on the affair and
that all he knew was that he was assigned that
room, opened the door and saw the body and
that is all that he knew about it.
(R. 176-3, PID 6195.)
Hines’s other trial counsel, Steve Stack, also
admitted that Jones was not interviewed, and
explained:
We never interviewed Mr. Jones. We were told
early on in the case by, I was told by Sheriff
Weakley that Mr. Jones had been over to the
motel that day to have a meeting with a lady
friend and that he didn’t, all that he did was go
in and discover the room and that he was there
for a brief period of time and he had no further
information and he didn’t want him to be
embarrassed by having it brought out that he
had been over there to meet with a lady friend.
(R. 176-4, PID 6404.) Stack acknowledged that, though
Jones found Jenkins’s body, they made no effort to
investigate Jones’s reasons for being at the motel; nor
did counsel make any attempt to find out who Jones’s
female companion was, despite the fact that she might
have also been a witness to the scene. When asked
whether he attempted to learn what Jones would say
in his testimony, Stack responded:
I remember being told by [Assistant Attorney]
General Kirby who just gave a brief synopsis
saying that Ken Jones will be testifying because
he was the one, the person that found the body.
Sheriff Weakley, like I said, talked to me more

App. 82
in detail explaining there that he was just there
a few minutes. [H]e went up, opened the door,
made the discovery and then left. I don’t recall
that he even described him going into the room
or anything. Quite frankly, Sheriff Weakley’s
main concern was just that we didn’t make an
issue of him being there to protect him from his
wife.
(Id. at PID 6407–08.) Stack explained that his trust in
Sheriff Weakley informed that decision:
And the Sheriff had asked me not to bring out
what [Jones] was [at the motel] for. The Sheriff
made it clear to me that Ken Jones had nothing
to do with this case. If Do[r]ris Weakley had told
me right now that it was going to rain so hard
this afternoon that I will need a boat to get home
I would be buying a boat right now. I mean, I
would take that man’s word for anything in the
world. He say’s [sic] this hadn’t got a dog in the
hunt, don’t embarrass the man. I wasn’t going to
embarrass the man.
(R. 176-5, PID 6415.) Stack acknowledged, however,
that “it was ridiculous for us not to have gone to
interview [Jones] to at least hear his version of what
happened so that we could confirm for ourselves, you
know, what we could legitimately ask him that might
help our case.” (Id. at PID 6416.)
Stack admitted that the failure to interview Jones
presented difficulties with the defense offered at trial,
because defense counsel were unable to resolve factual
discrepancies between Jones’s testimony and that of

App. 83
other witnesses. For example, Jones testified that he
called for the ambulance from the CeBon Restaurant
around 1:20, but Sizemore testified that the ambulance
service received the call at 2:36. Further, Sizemore
testified that the caller identified the victim as a
woman who suffered from stab wounds, but Jones
testified that he was unable to determine whether the
victim was male or female when he found Jenkins’s
body in Room 21. And given the way Jenkins’s body
was wrapped in a bedspread, Jones would have been
unlikely to determine the source of her wounds. In
short, “[k]nowing now, going back and looking at
things[,] definitely we should have interviewed him.”
(Id. at PID 6415.)
Trial counsel’s performance was clearly deficient
because they abandoned any effort to interview Jones
based on nothing more than an assurance by the sheriff
that Jones was not involved in Jenkins’s murder. In
Strickland, the Court explained that a reviewing “court
should keep in mind that counsel’s function, as
elaborated in prevailing professional norms, is to make
the adversarial testing process work in the particular
case.” 466 U.S. at 690. In Towns v. Smith, we
interpreted that language to assign to trial counsel an
“obligation to investigate all witnesses who may have
information concerning his or her client’s guilt or
innocence.” 395 F.3d 251, 258 (6th Cir. 2005) (citation
omitted). In determining whether a particular decision
not to investigate constituted ineffective assistance,
“the relevant question is not whether counsel’s choices
were strategic, but whether they were reasonable.” Id.
(citations omitted). Hines’s trial counsel made no effort
to interview or investigate Jones, even though Jones

App. 84
was a “known and potentially important witness” who
clearly had information relevant to Hines’s defense. See
id. at 259 (citation omitted). This decision was
unreasonable—as defense counsel Stack openly
admitted—and constituted deficient performance under
Strickland.
Hines has also shown prejudice, and the Tennessee
court’s conclusion to the contrary, see Hines, 2004 WL
1567120, at *27, was an unreasonable application of
Strickland. See 28 U.S.C. § 2254(d)(1). Hines was
prejudiced by his counsel’s failure to investigate Jones
because it hindered Hines’s ability to effectively
challenge the prosecution’s theory and timeline of
events, as well as undermined Hines’s ability to build
an affirmative argument pointing to Jones as an
alternative suspect. See Ramonez v. Berghuis, 490 F.3d
482, 489–91 (6th Cir. 2007) (concluding a state court’s
finding of no prejudice under Strickland was objectively
unreasonable—and thus the habeas petitioner was
entitled to relief—where trial counsel was ineffective
for failing to interview witnesses who could corroborate
petitioner’s version of events while undermining a key
prosecution witness’s testimony).
The failure to interview or investigate Jones left
defense counsel without key information regarding
Jones’s relationship with Jenkins and his activities at
the motel prior to and on the day of the murder—much
of which could have helped the defense to credibly cast
Jones as an alternative suspect, or at the very least
seriously undermine his testimony. At a deposition
taken during the initial state post-conviction
proceedings, Jones offered information that would have

App. 85
significantly aided Hines’s defense at the trial. Jones
stated that he and Vernedith White were at the CeBon
Motel to use a room on the day of the murder because
they were having an affair, which had been on-going for
“[a] couple of years.” (R. 174-5, PID 5674–75.) They
went to the motel almost every Sunday, arriving
“between 10:00 and 11:00.” (Id. at PID 5675.) Jones
explained that he usually contacted Jenkins about
obtaining a room: “The girl that was dead, usually she
took care of me when I was there.” (Id. at PID 5676.)
Most Sundays, Jones would get a motel room key from
Jenkins instead of the motel owners. Jones stated that
he “usually paid $20” for the room rather than the full
rate. (Id. at PID 5692.)
On the day of Jenkins’s murder, Jones was
specifically looking for Jenkins when he arrived at the
motel. Jones and White were at the motel for about an
hour before finding the body. During that hour, they
briefly left to go to the parking lot of a restaurant on
the top of the hill before quickly returning—but Jones
did not enter the restaurant because he wanted to
watch the motel parking lot from the top of the hill to
see if anyone would return who would be able to get
him a room.
Jones also stated that, contrary to his trial
testimony, he did not stick around after the call to the
sheriff was made, and instead drove his female
companion, Vernedith White, home. When he later
returned to the motel, Jones spoke with Sheriff
Weakley, whom Jones knew because “one of them boys
of mine was always in trouble.” (Id. at PID 5694.)

App. 86
Jones explained that Sheriff Weakley had tried to
put him at ease about the problem of why he was at the
hotel when he discovered the body, and Jones
“understood” that he would not be asked the reason for
his presence at the motel by either party at the trial.
(Id. at PID 5688–89.) Jones confirmed that he never
spoke with an investigator or an attorney for Hines
before trial. Jones said that he knew “[n]othing” about
the murder other than finding Jenkins’s body. (Id. at
PID 5695.) Notably, at this deposition Jones gave a
different timeline for when he found the body,
explaining that he arrived at the motel at “[a]bout
10:30 or so,” and found Jenkins’s body “[a]round 11:00.”
(Id. at PID 5695–96.)
Much of this information provided by Jones in his
post-conviction deposition could have provided ample
fodder for defense counsel to focus on Jones as a
reasonable alternative suspect. Jones, who was
married, was at the motel due to an affair with a
younger woman—an affair which he had a clear motive
to hide. Jones had known the victim, Jenkins, through
weekly interactions for approximately two years.
Jenkins knew of Jones’s secret affair with White, and
she helped to facilitate the affair by getting Jones room
keys and giving him a discounted rate for use of rooms.
On the day of Jenkins’s murder, Jones arrived at the
motel specifically looking for her and monitored the
parking lot of the motel closely for an hour. Jones
typically paid for the rooms he rented with $20, and a
$20 bill was found under the wrist band of Jenkins’s
watch when her body was found. Furthermore, Mary
Sizemore of the Cheatham County Ambulance Service
testified that she learned from dispatch that Jones had

App. 87
reported “there was a woman stabbed,” but when
Sizemore entered Room 21, she was unable to
determine that Jenkins had been stabbed until she
unwrapped the bedspread around Jenkins, which only
then revealed Jenkins’s stab wounds. (R. 173-2, PID
3890–91.) If defense counsel had investigated and
presented evidence of these suspicious circumstances
regarding Jones, there is a reasonable probability that
Hines would have been able to convincingly argue at
trial that reasonable doubt existed due to Jones’s role
as a viable alternative suspect for Jenkins’ murder. See
Poindexter v. Booker, 301 F. App’x 522, 531 (6th Cir.
2008) (affirming a district court’s grant of habeas relief
where the petitioner was prejudiced by trial counsel’s
failure to investigate witnesses who could have
implicated a third party as the shooter).
Contrary to the state court’s determination, Jones’s
desire to keep his affair a secret from his wife could
serve as motive, and the time he spent away from the
motel could have been used to dispose of important
evidence. Jones’s motive and opportunity to commit the
crime are at least as compelling as that offered by the
prosecution for Hines, if not more compelling. There
was no clear motive for Hines to have committed a
murder so gruesome of a woman he had never met
before, in which her body was brutally stabbed in the
vagina even after she was incapacitated and possibly
already dead.
Pointing to Jones as an alternative suspect may
have been a viable path for the defense, as the evidence
of Hines’s guilt was not overwhelming. See English v.
Romanowski, 602 F.3d 714, 730 (6th Cir. 2010) (finding

App. 88
prejudice from counsel’s failure to investigate where
the “evidence of [the habeas petitioner’s] guilt. . . [wa]s
not overwhelming” and “[t]he government presented no
physical evidence”). In so concluding, we are cognizant
of the difference between overwhelming evidence and
sufficient evidence. We do not question that there was
sufficient evidence to sustain Hines’s conviction for
first-degree murder. The dissent recounts this
evidence, which we have also carefully considered. But
Strickland’s prejudice inquiry differs from a
sufficiency-of-the-evidence analysis. See Ferensic v.
Birkett, 501 F.3d 469, 474 (6th Cir. 2007). Under
Strickland, we ask whether there is a “reasonable
probability” that one juror would have voted differently
but-for counsel’s deficient performance. See English,
602 F.3d at 730. Here, there was ample room for
defense counsel to point to Jones as an alternative
murder suspect. There was no DNA or fingerprint
evidence connecting Hines to Jenkins’s murder—not on
Jenkins’s body, not in the room where the murder took
place (Room 21), and not on Hines’s clothing. In
addition, no witness testified to seeing Hines near
Room 21. In contrast, Jones was clearly in Room 21 on
the day of the murder, had a plausible motive to kill
Jenkins, and knew information about the
circumstances of Jenkins’s injuries that would not have
been available to someone who just happened upon her
wrapped body.
Defense counsel’s closing argument at the guilt
phase alluded to the idea that Jones’s presence at the
motel had been suspicious. Yet without any evidence
collected from an investigation into Jones to support
this argument, defense counsel likely undermined the

App. 89
defense’s credibility with the jury by making this
implication. Where defense counsel fails to corroborate
statements to the jury, “the jury may well have counted
this . . . against [Hines] and his attorney.” English, 602
F.3d at 729. “[T]he jury would naturally assume” that
defense counsel’s uncorroborated Jones theory “lacked
reliability,” without knowing that the lack of
corroboration was instead a function of defense
counsel’s negligence in failing to investigate. See
Stewart v. Wolfenbarger, 468 F.3d 338, 360 (6th Cir.
2006). Had defense counsel collected evidence to
properly show the jury why Jones’s behavior that
morning and relationship with Jenkins were highly
suspicious, the strength of Hines’s defense likely would
have looked much different. “The difference between
the case that was and the case that should have been
is undeniable.” Id. at 361.
In any event, Hines does not need to show that
Jones was the actual killer to succeed on his claim
before this court. “Even though the jury could have
discredited” the theory that Jones was the true
murderer, “there certainly remained a reasonable
probability that the jury would not have,” and that is
sufficient to show prejudice under Strickland.
Ramonez, 490 F.3d at 491.
Furthermore, even absent attempting to
affirmatively argue that Jones was an alternative
suspect, pre-trial investigation into Jones could have
allowed defense counsel to effectively challenge the
prosecution’s case by, at the very least, seriously
undermining Jones’s testimony and calling the
prosecution’s timeline of events into question. As trial

App. 90
counsel explained during post-conviction proceedings,
there were numerous inconsistencies between Jones’s
testimony and the testimony of others—such as an
hour-long gap between when Jones allegedly found the
body at 1:20 and when dispatch was called at 2:36, as
well as the inexplicability of Jones’s first report
claiming that a woman had been stabbed given that
Jenkins’s body was wrapped in a bedspread and the
cause of her injury would not be apparent unless
someone attempted to unwrap her. Defense counsel
were unaware of these inconsistencies before trial—and
thus did not investigate them further—due to their
failure to interview or investigate Jones.
Given that Jones gave an entirely different timeline
for his presence at the motel and discovery of the body
during his post-conviction deposition—estimating he
found the body around 11:00, more than three hours
before dispatch was called—there is ample reason to
think a pre-trial interview of him would have provided
defense counsel further evidence to argue that the
prosecution’s timeline was flawed and that Jones was
an unreliable witness. Yet defense counsel was
unprepared to challenge the government’s case in this
manner, as counsel made no attempt to investigate or
interview Jones before trial—thereby prejudicing
Hines. See Stewart, 468 F.3d at 360–61 (finding
Strickland prejudice, and in turn the habeas petitioner
entitled to relief, where trial counsel’s failure to
investigate allowed the prosecution’s evidence “to go
unchallenged”).
The state court, in concluding there was no
prejudice from counsel’s failure to investigate Jones,

App. 91
unreasonably ignored the key evidence learned at
Jones’s post-conviction deposition. See Hines, 2004 WL
1567120, at *27. The state court ignored the serious
inconsistencies and gaps in Jones’s story, and it
ignored the new evidence of the extent of Jones’s
established relationship with the victim. See id. The
court mentioned that Jones was “known by the staff” at
the motel, “including the victim.” Id. But Jones’s
deposition testimony clearly evidences more than that.
It shows that Jenkins was the specific person at the
motel who, on a weekly basis for two years, would
provide Jones with a motel room to facilitate his affair
while allowing him to circumvent the motel’s
established daily rate. And on the morning of the
murder, Jones was lurking in the parking lot for about
an hour, specifically looking for Jenkins—not just any
staff member at the motel. Only by ignoring this
evidence did the state court conclude that pointing to
Jones as an alternative suspect would have been
“farfetched.” See id. For the state court’s analysis to
have ignored this evidence was objectively
unreasonable, as “weighing the prosecution’s case
against the proposed witness testimony” that was not
elicited due to counsel’s ineffectiveness “is at the heart
of the ultimate question of the Strickland prejudice
prong.” Ramonez, 490 F.3d at 491. As the Supreme
Court explained in Williams, a state court’s “prejudice
determination” is “unreasonable insofar as it fail[s] to
evaluate the totality of the available . . . evidence.” 529
U.S. at 397–98.
Given that presenting Jones as an alternative
suspect would not have been “farfetched” in light of
Jones’s deposition testimony, the state court was

App. 92
similarly unreasonable in concluding that presentation
of this theory “could have resulted in a loss of
credibility for the defense.” Hines, 2004 WL 1567120,
at *27. Armed with evidence to emphasize the
suspiciousness of Jones’s activities at the motel—which
is now apparent due to Jones’s post-conviction
testimony—Hines could have made a convincing
argument that Jones was a viable alternative suspect.
Hines’s counsel alluded to this argument at trial
anyway, without any evidence from an investigation in
support—and that, in turn, was what undermined the
defense’s credibility with the jury. See English, 602
F.3d at 729. The state court’s decision ignored the fact
the defense counsel in closing had already pointed at
Jones, and ignoring the trial record in its prejudice
determination was objectively unreasonable. See
Williams, 529 U.S. at 398 (explaining a state court’s
“prejudice determination was unreasonable” where it
“failed to even mention the . . . argument . . . that trial
counsel did advance”).
Hines needs only to show “a reasonable
probability”—not a certainty—“that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at
694. Hines has carried his burden. For the result of
Hines’s guilt trial to have been different, he only would
have needed to sow reasonable doubt in at least one
juror’s mind based on evidence related to Jones. “[T]he
negative consequences of defense counsel’s failure to
conduct a sufficient pre-trial investigation” into Ken
Jones “sufficiently creates a reasonable probability that
at least one juror would have struck a different balance
had defense counsel not performed deficiently.”

App. 93
English, 602 F.3d at 730. The state court’s contrary
ruling was an unreasonable application of Strickland.
B. Failure to present evidence of residual doubt at
the sentencing phase
Hines also contends that trial counsel were
ineffective because they did not present evidence
regarding Jones in support of residual doubt at the
penalty phase. The warden argues that this claim is
procedurally defaulted because it was not raised in
state court and because Hines cannot establish the
requisite cause and prejudice to excuse the default
under Martinez.
The warden is correct that Hines did not raise this
claim in the state trial court. Rather, he raised it at
oral argument on post-conviction appeal at the
Tennessee Court of Criminal Appeals, in conjunction
with the IATC claim arising from counsel’s failure to
interview Jones. Hines, 2004 WL 1567120, at *26 (“We
will review this argument along with the related claim,
made at oral argument, that trial counsel could have
created residual doubt by properly dealing with Ken
Jones.”). The Tennessee Court of Criminal Appeals
subsequently denied the claim for the same reasons it
denied the IATC claim. Id. at *28.
The Tennessee Court of Criminal Appeals thus
adjudicated this claim—at least as to Jones’s
involvement—on the merits without imposing a state
procedural bar. The claim is thus not defaulted and we
address its merits. See Ylst v. Nunnemaker, 501 U.S.
797, 801 (1991) (“If the last state court to be presented
with a particular federal claim reaches the merits, it

App. 94
removes any bar to federal-court review that might
otherwise have been available.”).
There is no Eighth Amendment right to a jury
instruction concerning residual doubt in the penalty
phase. See Franklin v. Lynaugh, 487 U.S. 164, 173
(1988). Under Tennessee law, however, a capital
defendant may present evidence of residual doubt at
the penalty phase. State v. Hartman, 42 S.W.3d 44,
55–56 (Tenn. 2001) (citing State v. Teague, 897 S.W.2d
248, 256 (Tenn. 1995)). The Tennessee Supreme Court
explained that “residual doubt is established by proof
that casts doubt on the defendant’s guilt. It is not
limited to proof that mitigates the defendant’s
culpability for the crime.” Id. at 57.
As discussed, trial counsel were ineffective for
failing to investigate Jones’s conduct at the motel when
Jenkins was killed, and were similarly ineffective for
failing to present this evidence in the penalty phase of
trial.5 If presented with this evidence regarding Jones,
there is a “reasonable probability” that the sentencing
jury would have reached a different verdict, see
Strickland, 466 U.S. at 694, and the Tennessee court’s
contrary conclusion was an unreasonable application of
Strickland.

5

Hines also argues that counsel were ineffective for failing to
present DNA evidence at the penalty phase in support of residual
doubt. However, we reject this argument for the same reasons
discussed above for why Hines was not entitled to an evidentiary
hearing related to the DNA evidence.

App. 95
CONCLUSION
Because Hines’s trial counsel were ineffective for
failing to investigate Ken Jones, and the state court’s
determination otherwise was an unreasonable
application of Strickland, we REVERSE the district
court’s order denying relief and REMAND for
proceedings consistent with this opinion.
KETHLEDGE, Circuit Judge, dissenting.
Respectfully, the majority opinion makes precisely the
same mistake for which our court was summarily
reversed in Etherton v. Rivard, 800 F.3d 737 (2015),
rev’d sub nom. Woods v. Etherton, 136 S. Ct. 1149
(2016) (per curiam). Specifically, the opinion “nowhere
gives deference to the state courts, nowhere explains
why their application of Strickland was unreasonable
rather than merely (in the majority’s view) incorrect,
and nowhere explains why fairminded jurists could
view [the petitioner’s] claim only the same way the
majority does. The opinion, in other words, does exactly
what the Supreme Court has repeatedly told us not to
do.” Etherton, 800 F.3d at 756–57 (dissenting opinion).
Here, neither Hines nor the majority has remotely
shown that Hines was prejudiced by his trial counsel’s
failure to investigate Ken Jones. To begin, the evidence
that Hines killed Katherine Jenkins was
overwhelming. Two days before the murder, Hines
boarded a bus in North Carolina with a one-way ticket
to Kentucky. He had a large hunting knife sheathed
beneath his shirt. His girlfriend’s mother—who had
bought the ticket because Hines could not afford it
himself—admonished him for taking the knife on the

App. 96
bus, but Hines responded, “I never go anywhere naked.
I always have my blade.” R. 173-4, Pg. ID 4201.
Shortly after midnight on March 3, Hines checked
into Room 9 of the CeBon Motel in Kingston Springs,
Tennessee. Later that morning, around 9:30 a.m., the
motel’s manager put maid Katherine Jenkins in charge
of the motel’s operations and gave her a bank bag
containing $100 in small bills. Three hours later,
around 12:40 p.m., another maid saw a man driving
Jenkins’s Volvo away from the motel. The maid got into
her own car and gave chase, but the Volvo sped off,
heading east toward Nashville.
Around the same time, Ken Jones arrived at the
CeBon Motel. Nobody was at the front desk, so Jones
eventually took the key to Room 21 and left a note
saying that he was using the restroom there.
(Testimony at a state post-conviction hearing revealed
that Jones was there that day with Vernedith White,
with whom he had been having an affair for 11 years.)
When Jones walked inside Room 21, however, he found
Jenkins’s body wrapped in a bedspread, on the floor on
the far side of the room’s two beds. He ran out of the
room and across the street to a restaurant, where he
asked someone to call the county sheriff.
Sheriff’s deputies arrived soon thereafter. They
searched Room 21 and, in addition to Jenkins’s body,
found the bank bag—bloody and empty—along with an
unfiltered cigarette burned down to a nub. Then they
examined the body. Someone had pulled Jenkins’s
clothing up to her breasts; her underwear was cut in
two pieces and scattered across the room. Her neck had
superficial wounds, consistent with “some firm sharp

App. 97
object [held] to [her] neck,” and her hands showed
defensive wounds as if she had tried to “ward off
injury.” R. 173-5, Pg. ID 4304. But the fatal wounds
were to her chest—five “deep, penetrating wounds,
ranging from 2.5 inches to 6.4 inches in depth.” Hines
v. State, No. M2004-01610-CCA-RM-PD, 2004 WL
1567120, at *2 (Tenn. Crim. App. July 24, 2004); see
also R. 173-4, Pg. ID 4168; R. 173-5, Pg. ID 4283. A
final knife wound, likely inflicted after Jenkins had
died, went through her vagina and penetrated her
abdominal cavity. The deputies also discovered stab
holes with similar widths and depths in the walls of
Room 9—the room that Anthony Hines stayed in the
prior night. Missing altogether from the scene was
Jenkins’s wallet, keys (which were attached to an “I
love Volvo” keychain), and her Volvo.
Meanwhile, a group of young adults spotted the
Volvo—along with Anthony Hines—on the side of the
road near Gallatin, Tennessee. The car’s engine had
overheated—perhaps from being driven at high
speeds—and the youths tried to help Hines cool it off.
When that failed, Hines offered them $10 for a ride to
his sister’s house in Bowling Green, Kentucky. They
accepted. On the way, the youths said, Hines “seemed
real nervous,” his eyes wide and bright; and he “talked
a lot”—saying, for example, that he had bought the
Volvo from “an old lady for $300 or $400.” R. 173-2, Pg.
ID 3910, 3932–33; R. 173-3, Pg. ID 4022. One of the
youths noticed dried blood on Hines’s shoulder. During
the drive, Hines carried a jacket that he kept folded.
Hines arrived in Bowling Green sometime between
3:00 and 4:00 p.m. His sister too noticed blood on his

App. 98
shirt. Hines explained that someone had attacked him
at the CeBon Motel, and that he had stabbed the
attacker “in the side . . . and in the chest[.]” R. 173-2,
Pg. ID 3967. But he told his brother-in-law a different
story: that he had hitchhiked a ride with a stranger
driving a Volvo, that the stranger had tried to rob him,
and that during the ensuing struggle the stranger’s
Volvo had run off the road and flipped over. Afterward,
Hines said, he had grabbed the Volvo’s keys and
escaped. He showed his brother-in-law the keychain,
which said something like, “I love Volvo.” The
brother-in-law gave Hines a ride to Cave City,
Kentucky, where Hines’s grandparents lived. When
Hines arrived in Cave City, he bought a grill as a gift
for his sister and brother-in-law.
The police found the Volvo around 4:45 p.m.,
precisely where Hines had abandoned it. They also
found Jenkins’s wallet about 20 feet in front of the car,
wrapped in a shirt. Any cash that had been in the
wallet was gone.
For the next eight days, Hines hid out in the hills
around Cave City. On March 11 he turned himself in to
a Kentucky sheriff. Before the sheriff said anything
about the murder, Hines volunteered that he had
stolen the Volvo but said that he had not killed
Jenkins. Later that day, Hines told deputies that he
would confess to the murder if they would guarantee
that he would be sentenced to death. Deputies
eventually investigated Hines’s campsite and found,
among other items, unfiltered cigarettes—much like
the one discovered in Room 21.

App. 99
The jury heard all this evidence at trial. They heard
that Hines always carried a large hunting knife; that
Jenkins’s neck had wounds suggesting that someone
had held her at knifepoint; that her chest and vagina
had knife wounds consistent with holes in the wall in
Hines’s motel room; that on March 1 Hines could not
afford a $20 bus ticket, but that on March 3—hours
after Jenkins’s murder—he was flush with cash and
bought a grill for his sister; that Hines had stolen
Jenkins’s wallet, keys, and car; that Hines had blood on
his shirt that afternoon; that he told his sister that he
had stabbed an “attacker” at the motel; and that he
volunteered to tell sheriff’s deputies “all about the
murder” if they guaranteed him the death penalty.
The question here is whether every “fairminded
jurist” would agree that, if only Hines’s counsel had
investigated Ken Jones, there would have been a
“reasonable probability” that the result at Hines’s trial
would have been different. See Harrington v. Richter,
562 U.S. 86, 101 (2011); Strickland v. Washington, 466
U.S. 668, 694 (1984). But neither Hines nor the
majority has even attempted to make that showing.
Nor could they. At trial, Jones offered no testimony
regarding Hines’s guilt, instead testifying about his
discovery of the body. Any post-investigation to
impeach him on that score would have been a waste of
time—which makes this case easily distinguishable
from the cases cited by the majority. See Ramonez v.
Berghuis, 490 F.3d 482, 489–91 (6th Cir. 2007)
(investigation could have led to impeachment of the
prosecution’s key witness); Stewart v. Wolfenbarger,
468 F.3d 338, 361 (6th Cir. 2006) (same). And there is
zero reason to think that, after investigation, counsel

App. 100
could have presented Jones as the “real killer” at trial.
Quite the contrary: in post-conviction proceedings,
Jones and White testified that they were regulars at
the CeBon Motel, and that they came to the motel on
March 3 to do what they had done at least “100
times”—namely, to carry on their affair, as part of their
“normal Sunday routine.” Hines, 2004 WL 1567120, at
*27. And White testified that Jones was in Room 21
that morning for “less than a minute”—with her
watching him the whole time—before he came running
out, scared and—unlike Hines—without any blood on
his clothes.
In sum, the Tennessee Court of Criminal Appeals
had every reason to reject Hines’s Strickland claim on
the ground that it was “farfetched.” See id. And we
have no reason whatever to grant habeas relief on that
same claim here. I respectfully dissent.

App. 101

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
Case No. 3:05-0002
Judge Haynes
[Filed: March 16, 2015]
___________________________________
ANTHONY HINES,
)
)
Petitioner,
)
)
v.
)
)
WAYNE CARPENTER, Warden,
)
)
Respondent.
)
___________________________________ )

MEMORANDUM

App. 102
TABLE OF CONTENTS
A. Request for An Evidentiary Hearing . . . . . . . . . . 9
1. Petitioner’s New Medical Proof. . . . . . . . . . . 16
2. Petitioner’s DNA and Fingerprint Proof . . . 23
3. Petitioner’s Other Suspects Proof. . . . . . . . . 34
4. Petitioner’s Trial and Post Conviction
Counsel Declarations. . . . . . . . . . . . . . . . . . . 39
B. Review of the State Record. . . . . . . . . . . . . . . . . 40
1. Procedural History . . . . . . . . . . . . . . . . . . . . 40
2. State Courts’ Findings of Fact . . . . . . . . . . . 41
C. Conclusions of Law . . . . . . . . . . . . . . . . . . . . . . . 44
1. Petitioner’s Undisputed Exhausted
Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
a. Sufficiency of the Evidence and Related
Claims. . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
b. Ineffective Assistance of Counsel
Claims. . . . . . . . . . . . . . . . . . . . . . . . . . . . 52
1. Ineffectiveness of Trial Counsel . . . . . 53
i.

Competency of Trial Counsel. . 54

ii.

Failure to Challenge the Jury
Panel . . . . . . . . . . . . . . . . . . . . . 60

iii.

Ineffective Cross Examination
of Jones . . . . . . . . . . . . . . . . . . . 64

App. 103
iv.

Failure to Acquire Forensic
Evidence . . . . . . . . . . . . . . . . . . 69

v.

Failure
to
Discover
Impeachment and Exculpatory
Evidence . . . . . . . . . . . . . . . . . 70

vi.

Failure to Make Closing
Argument . . . . . . . . . . . . . . . . 76

2. Counsel’s Ineffectiveness on Direct
Appeal . . . . . . . . . . . . . . . . . . . . . . . . . 81
3. Ineffectiveness of Counsel at
Resentencing . . . . . . . . . . . . . . . . . . . . 82
c. Aggravating Circumstances Claims . . . . 96
d. Trial Court’s Failure to Recuse . . . . . . . 104
2. Procedurally Defaulted Claims. . . . . . . . . . 105
a. Martinez Claims. . . . . . . . . . . . . . . . . . . 105
b. Brady and Giglio Claims . . . . . . . . . . . . 109
c. Remaining Defaulted Claims . . . . . . . . 116
1. Noncompliance with Applicable State
Rules . . . . . . . . . . . . . . . . . . . . . . . . . 118
2. “Firmly Established” and “Regularly
Followed” State Rules. . . . . . . . . . . . 119
3. Independent and Adequate State
Rule . . . . . . . . . . . . . . . . . . . . . . . . . . 120
4. T h e
Cause
and
Prejudice
Requirement . . . . . . . . . . . . . . . . . . . 122

App. 104
i. Cause . . . . . . . . . . . . . . . . . . . . . . 122
ii. Prejudice . . . . . . . . . . . . . . . . . . . 123
D. Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 124
E. Appendix of Defaulted Claims . . . . . . . . . . . . . 125

App. 105
Petitioner, Anthony Hines, filed this pro se action
under 28 U.S.C. § 2254 seeking the writ of habeas
corpus to set aside his conviction of first degree murder
for which Petitioner received the death sentence.
Petitioner moved for appointment of counsel and the
Court granted that motion. Petitioner’s counsel filed
two amended petitions (Docket Entry Nos. 14 and 23).
In his last amended petition, Petitioner asserts the
following core claims1:
9.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines was
denied his rights to due process, equal
protection, and to juries selected free from
discrimination and from a fair cross-section of
the community, given discrimination against
women in the selection of the petit jury, the
grand jury, and the grand jury foreperson[.]
10.
In violation of the Sixth, Eighth, and
Fourteenth Amendments and Brady v.
Maryland, 373 U.S. 83, 83 S. Ct. 1194 (1963),
and in order to convict Darrell Hines and
1

Petitioner filed two amended petitions. (Docket Entry Nos. 14
and 23). Rule 15 of the Federal Rules of Civil Procedure applies to
a habeas proceeding. Mayle v. Felix, 545 U.S. 644, 649 (2005); Rule
6(a), Rules Governing Section 2254 Cases. Under Fed. R. Civ. P. 15
(a), the filing of an amended complaint supersedes the prior
complaint. Clark v. Tarrant County, 798 F.2d 736, 740- 41 (5th Cir.
1986). Thus, the Court deems the last amended petition to
supersede the pro se and first amended petitions and the claims
therein. Unless adopted and supported by legal memorandum, the
Court deems the claims in the pro se and first amended petition to
be waived. In addition, the claims quoted above are characterized
as core claims because each claim has numerous subparts.

App. 106
sentence him to death, the prosecution
knowingly presented false testimony and
withheld exculpatory evidence which was
material to both the conviction and the
imposition of the death sentence.
11.
Counsel was ineffective at the guilt phase
of the proceedings, and absent counsel’s failures,
there is a reasonable probability that Darrell
Hines would not have been convicted and/or
sentenced to death. Counsel was ineffective for
the following reasons[.]
12.
In violation of the Eighth and Fourteenth
Amendments, Darrell Hines is actually innocent
of the offense for which he has been convicted.
He was erroneously convicted based on, for
example, the withholding of evidence, false
testimony, ineffectiveness of trial counsel,
prosecutorial misconduct, and other errors and
failures that occurred at the trial which led to an
erroneous conviction[.]
13.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, counsel was
ineffective at the re-sentencing proceedings, and
absent counsel’s failures, there is a reasonable
probability that Petitioner would not have been
sentenced to death.
14.
Counsel was ineffective on appeal, and
absent counsel’s failures, there is a reasonable
probability that Darrell Hines would have
received relief on direct appeal.

App. 107
15.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines’ death
sentence was based on a felony-murder
aggravating circumstance which duplicated the
jury’s guilt finding and failed to meaningfully
narrow the class of persons eligible for the death
penalty. See Clemons v. Mississippi, 494 U.S.
738, 110 S.Ct. 1441 (1990); State v.
Middlebrooks, 840 S.W.2d 317 (Tenn 1992).
16.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, the jury weighed an
unconstitutional “heinous, atrocious, or cruel”
aggravating circumstance when imposing the
death sentence.
17.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines’ 1989
death sentence was unconstitutional because the
1981 first-degree assault conviction which
served as a prior violent felony aggravating
circumstance under Tenn. Code Ann. § 39-2203(i)(2) was void, invalid, and unonstitutional.
18.
At re-sentencing, Darrell Hines’ jury was
misled into believing that mitigating
circumstances had to be found unanimously, in
violation of the Eighth and Fourteenth
Amendments.
19.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, jury instructions
lessened the prosecution’s burden of proof at the
guilt and re-sentencing stages[.]

App. 108
20.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, the prosecution
introduced inflammatory statements at the
guilt/innocence trial which were irrelevant to the
issue of guilt[.]
21.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, the prosecution made
improper arguments during closing statements
at the guilt/innocence trial, including arguments
which undermined the presumption of innocence
and lessened the prosecution’s burden of proof.
This misconduct rendered Darrell Hines’ trial
fundamentally unfair.
(Docket Entry No. 23 at 4, 9, 13, 25; Docket Entry No.
23-1 at 16-17,18, 19, 25, 27, 28 and 30).
22.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, at the re-sentencing
trial, the prosecution made misleading,
unconstitutional, and fundamentally unfair
statements to the jury which violated Darrell
Hines’ constitutional rights.
23.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines’ death
sentence is arbitrary under United States v.
Jackson, 390 U.S. 570,88 S. Ct 1209 (1968), and
unconstitutional.
25.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, the judge was and
appeared to be biased, and should have been
recused because of lack of impartiality.

App. 109
26.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, prior to the resentencing trial, the court failed to grant a
continuance when the prosecution failed to
provide timely notice of aggravating
circumstances, and where Darrell Hines was
prevented from securing attendance of necessary
out of state witnesses.
27.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines’
conviction and death sentence is
unconstitutional because the empaneling of the
jury at both the guilt/innocence trial and at the
re-sentencing trial was improper.
30.
In violation of the Fifth, Sixth, Eighth,
and Fourteenth Amendments and Miranda v.
Arizona, 384 US. 436, 86 S.Ct. 1602 (1966), the
introduction of Darrell Hines’ post-arrest
statements at the 1986 guilt/innocence trial and
the 1989 re-sentencing trial was
unconstitutional.
31.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines was
denied his right to compulsory process and due
process by the trial court’s failure to have
witnesses Norman Johnson and Bill Andrews
produced to testify at the re-sentencing hearing.
This likewise violated Darrell Hines’ rights to
present any and all available mitigating
evidence in support of a sentence less than
death.

App. 110
32.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, the evidence was
insufficient to support Darrell Hines’ conviction
and death sentence. Jackson v. Virginia, 443
U.S. 307, 99 S.Ct. 2781 (1979).
33.
In violation of the Fifth, Sixth, Eighth and
Fourteenth Amendments, and International
Law, the death penalty is unconstitutional.
34.
In violation of the Eighth and Fourteenth
Amendments, execution by lethal injection
constitutes cruel and unusual punishment, is
torturous, and violates contemporary standards
of decency, as it involves unnecessary, conscious
suffering.
35.
In violation of the Sixth, Eighth, and
Fourteenth Amendments, Darrell Hines’ 1986
first-degree murder conviction and 1989 death
sentence are unconstitutional because
Tennessee’s murder and death penalty statutes
(Tenn. Code Ann. § 39-2-202 through § 39-2-205)
are constitutionally defective.
37.
In violation of due process and equal
protection under the Eighth and Fourteenth
Amendments, the death sentence is
unconstitutional because there were no
standards for the decision to choose to seek (or
impose) the death sentence (both within
Cheatham County, and throughout the entire
state of Tennessee), nor are there any consistent
and objective standards for proportionality
review. As a result of these ailings, especially in

App. 111
a case where the prosecution has recognized that
Darrell Hines ought to be sentenced to life in
prison, the death sentence in this case (which
impinges upon the fundamental right to life)
violates rudimentary notions of due process and
equal protection. See Bush v. Gore, 531 U.S. 98,
121 S.Ct. 525 (2000).
38.
In violation of the Eighth and Fourteenth
Amendments, Darrell Hines’ death sentence is
unconstitutional, as a result of the length of time
(20 years) he has been incarcerated under
sentence of death following the offense for which
he was convicted. The death sentence is
therefore unconstitutionally cruel and unusual.
See Lackey v. Texas, 514 U.S. 1045, 115 S.Ct.
1421 (1995)(Stevens, J., respecting denial of
certiorari).
39.
In violation of the Eighth and Fourteenth
Amendments, Darrell Hines is not competent to
be executed. Ford v. Wainwright, 477 U.S. 399,
106 S.Ct. 2595 (1986). Mr. Hines acknowledges
that such claim is not ripe, as execution is not
imminent, but he raises this claim in accordance
with Stewart v. Martinez-Villareal, 52.3 U.S.
637, 118 S.Ct. 1618 (1998), which holds that it is
proper to raise the claim in the initial habeas
petition and then to litigate the claim if it ever
becomes ripe, i.e., once an execution date is
imminent.
40.
The cumulative effect of the errors at trial
and sentencing, including all errors cited in this

App. 112
petition, denied Darrell Hines due process of law
under the Fourteenth Amendment.
(Docket Entry No. 23-2 at 3-4, 7, 9, 11, 12, 17, 18, 19,
20 22 and 27-28). As noted earlier, within the above
quoted claims include numerous subparts.
The Court administratively closed this action twice.
The first closure was on November 3, 2005, when the
Court granted Respondent’s motion to hold this action
in abeyance pending completion of Petitioner’s state
court post-conviction proceeding, asserting Eighth and
Fourteenth Amendments claims for deoxyribonucleic
acid (DNA) testing of certain evidence at his trial.
(Docket Entry No. 44). On December 8, 2008, the
Tennessee Supreme Court denied Petitioner’s
application for permission to appeal the Tennessee
Court of Criminal Appeals decision denying his claims.
On January 14, 2009, Respondent moved to reopen this
action and the Court granted that motion on February
2, 2009. (Docket Entry Nos. 53 and 56). In subsequent
proceedings, the Court granted Petitioner’s motion for
DNA testing under an Agreed Protocol with the State.
(Docket Entry Nos. 79, 83 and 85). The Court set a
status conference on September 30, 2011. Throughout
2011 and 2012, Petitioner and Respondent filed
numerous motions for extensions of the Court’s
deadlines for discovery and to file the joint statement
of the relevant state record, the parties’ claims defenses
and the necessity for an evidentiary hearing. (Docket
Entry Nos. 89, 90, 94, 95, 99, 100, 102, 103, 104, 105,
107 and 108).
The second closure was on February 3, 2013, after
the United States Supreme Court granted certiorari in

App. 113
Trevino v. Thaler, 449 Fed. Appx. 415 (5th Cir. 2011),
cert. granted 568 U.S._ (Oct. 29, 2012) (U.S. No. 1110189), addressing the applicability of Martinez v.
Ryan, 566 U.S._ (2012). (Docket Entry No. 110). Given
the numerosity of claims and the extensive factual
record, the Court closed this action pending the Trevino
decision. On January 16, 2014, the Court reopened this
action and ordered the parties to submit an agreed
order for the proceedings. (Docket Entry No. 113). The
parties filed their schedule, but the Court shortened
the schedule given the length of the pendency of this
action.
Before the Court is the Respondent’s motion for
summary judgment (Docket Entry No. 118) contending,
in sum, that most of Petitioner’s claims were never
presented to the State courts and are procedurally
defaulted. For Petitioner’s exhausted claims,
Respondent argues that the State courts reasonably
determined those claims under clearly established
federal law. In his 191 page response with extensive
evidentiary submissions and citations to Trevino and
Martinez, Petitioner argues that he is actually innocent
and his claims for ineffective assistance of his post
conviction counsel will establish cause and prejudice
for his unexhausted claims and procedural defaults.
Petitioner contends that the State courts’ decisions on
his exhausted claims are erroneous and unreasonable
applications of federal law. Respondent filed a six page
reply to Petitioner’s response.
Before addressing Petitioner’s contentions, the
Court must evaluate Petitioner’s request for an
evidentiary hearing.

App. 114
A. Request for An Evidentiary Hearing
In the Joint Statement of the Case ordered by the
Court, Petitioner requests an evidentiary hearing on
his claims under Trevino and Martinez as well as his
claim of actual innocence. (Docket Entry No. 109 at 143). Respondent argues that Petitioner has not met his
burden of proof under 28 U.S.C.§2254(e)(2) and that
Supreme Court precedent limits this Court’s review to
the State court record. Id. at 43-4. Since that
submission, Petitioner has presented extensive
evidence (Docket Entry Nos. 124-1 through 129) that
Petitioner contends warrants an evidentiary hearing.
To decide this issue, the Court considers the State
court record that exceeds 7400 pages with a trial,
sentencing hearing, a resentencing hearing and a post
conviction hearing. (Addendum Nos. 1 through 28). The
post conviction hearing included depositions of experts
as well as extensive publications on trial and
sentencing issues in a death penalty case. (Addendum
No. 20, Vols. 1 through 4). As a proxy for the
extensiveness of the post conviction evidentiary
hearing, in his post conviction appeal, Petitioner’s lead
brief is 172 pages of which 93 pages are devoted to a
recitation of the evidence. The Tennessee appellate
court’s opinion reflects that the post conviction hearing
contains the testimony from several witnesses,
including a statistician on the issue of discrimination
in the selection of the grand jury, grand jury foreperson
and petit jury as well as testimony of a juror. Hines,
2004 WL 1567120 at* 6, 20-21. Seven
psychiatrists/psychologists testified at the second
sentencing hearing on Petitioner’s personal history and

App. 115
mental status. Id. at *14-18. See also Hines v. State,
919 S.W.2d 573, 577 (Tenn. 1995). Two doctors testified
on the victim’s stab wounds. Hines, 2004 WL 1567120
at *19. In addition, the witnesses who are cited as
giving false testimony testified at the post conviction
hearing, as well as witnesses whom Petitioner’s counsel
was cited for failing to call as witnesses at trial. Id. at
*4-6, 8.
For an evidentiary hearing in a habeas action, in
the AEDPA, Congress redefined the standards:
If the applicant has failed to develop the factual
basis of a claim in State court proceedings, the
court shall not hold an evidentiary hearing on
the claim unless the applicant shows that (A) the claims relies on - (i) a new rule of
constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that
was previously unavailable; or (ii) a factual
predicate that could not have been
previously discovered through the exercise
of due diligence; and (B) the facts
underlying the claim would be sufficient to
establish by clear and convincing evidence
that but for constitutional error, no
reasonable fact-finder would have found
the applicant guilty of the underlying
offense.
28 U.S.C.§ 2254(e)(2) (emphasis added).
In Williams v. Taylor, 529 U.S. 420 (2000), the
Supreme Court explained that if the petitioner
demonstrated diligence, then the inquiry ends, but if

App. 116
there is an issue of diligence the focus is on whether
the petitioner or his counsel knew of the matters at
issue and failed to pursue the matter:
The question is not whether the facts could have
been discovered but instead whether the
prisoner was diligent in his effort . . . Diligence
for purposes of the opening clause [on
Section 2254(e)(2)] depends upon whether
the prisoner made a reasonable attempt, in
light of the information available at the
time, to investigate and pursue claims in
state court; it does not depend, as the
Commonwealth would have it, upon whether
those efforts could have been successful.
***
For state courts to have their rightful
opportunity to adjudicate federal rights,
the prisoner must be diligent in developing
the record and presenting, if possible, all
claims of constitutional error. If the
prisoner fails to do so, himself or herself
contributing to the absence of a full and
fair adjudication in state court, § 2254(e)(2)
prohibits an evidentiary hearing to develop
the relevant claims in federal court, unless
the statute’s other stringent requirements
are met. Federal courts sitting in habeas
are not an alternative forum for trying
facts and issues which a prisoner made
insufficient effort to pursue in state
proceedings.

App. 117
***
Given knowledge of the report’s existence and
potential importance, a diligent attorney would
have done more. Counsel’s failure to investigate
these references in anything but a cursory
manner triggers the opening clause of
§ 2254(e)(2).
As we hold there was a failure to develop
the factual basis of this Brady claim in
state court, we must determine if the
requirements in the balance of § 2254(e)(2)
are satisfied so that petitioner’s failure is
excused . . . upon a showing, by clear and
convincing evidence, that no reasonable
factfinder would have found petitioner
guilty of capital murder but for the alleged
constitutional error.
Id. at 435, 437, 439-440.
Independent of § 2254(e)(2), the Court also has the
inherent authority to set an evidentiary hearing in a
habeas action. Abdur’ Rahman v. Bell, 226 F.3d 696,
705-06 (6th Cir. 2000). “[A] district court does have the
inherent authority to order an evidentiary hearing even
if the factors requiring an evidentiary hearing are
absent.” Id. at 705. Such hearings are set “to settle
disputed issues of material fact.” Id. at 706. Yet, “if [the
court] concludes that the habeas applicant was
afforded a full and fair hearing by the state court
resulting in reliable findings, [the court] may, and
ordinarily should accept the facts as found in the
hearing. But [the court] need not. In every case [the

App. 118
court] has the power, constrained only by [its] sound
discretion, to receive evidence bearing upon the
applicant’s constitutional claim.” Id. at 705 (quoting
Townsend v. Sain, 372 U.S. 293, 318 (1963)). This
authority extends to determine factual issues or if an
inadequate record exists to resolve the petitioner’s
claims, on a procedural default controversy. Alcorn v.
Smith, 781 F .2d 58, 60 (6th Cir. 1986).
Even prior to AEDPA, a habeas petitioner had to
show cause for his failure to develop the state record or
that “a fundamental miscarriage of justice would result
from failure to hold a federal evidentiary hearing,”
Kenney v. Tamayo-Reyes, 504 U.S.1, 11-12 (1992). In
a word, the distinction between § 2254(e)(2) and the
Court’s inherent authority to order a hearing is “when
a petitioner is entitled to a hearing [under § 2254(e)(2)]
. . . versus whether a district court has the inherent
discretion to order a hearing is still intact following
Williams.” Abdur’ Rahman, 226 F.3d at 706.
Evidentiary hearings have been held to be
appropriately denied where the habeas petitioner “has
not shown that his . . . claims would result in no
reasonable factfinder finding him guilty of the
underlying offenses . . . We therefore conclude that the
district court did not abuse its discretion by declining
to conduct an evidentiary hearing.” Abdus-Samad v.
Bell, 420 F .3d 614, 626-27 (6th Cir. 2005).
More recently, in Cullen v. Pinholster, _U.S._, 131
S. Ct 1388 (2011), the Supreme Court expressly stated
that the federal habeas review is limited to the state
court record:

App. 119
We now hold that review under § 2254(d)(1)
is limited to the record that was before the
state court that adjudicated the claim on
the merits. Section 2254(d)(1) refers, in the
past tense, to a state-court adjudication that
“resulted in” a decision that was contrary to, or
“involved” an unreasonable application of,
established law. This backward-looking
language requires an examination of the statecourt decision at the time it was made. It follows
that the record under review is limited to the
record in existence at that same time i.e., the
record before the state court.
This understanding of the text is compelled by
“the broader context of the statute as a whole,”
which demonstrates Congress’ intent to channel
prisoners’ claims first to the state courts.
Robinson v. Shell Oil Co., 519 U.S. 337, 341, 117
S.Ct. 843, 136 L.Ed.2d 808 (1997). “The federal
habeas scheme leaves primary responsibility
with the state courts .... ” Visciotti, supra, at 27,
123 S.Ct. 357. Section 2254(b) requires that
prisoners must ordinarily exhaust state
remedies before filing for federal habeas relief.
It would be contrary to that purpose to allow a
petitioner to overcome an adverse state-court
decision with new evidence introduced in a
federal habeas court and reviewed by that court
in the first instance effectively de novo.
Limiting § 2254(d)(1) review to the state-court
record is consistent with our precedents
interpreting that statutory provision. Our cases

App. 120
emphasize that review under § 2254(d)(1)
focuses on what a state court knew and did.
State-court decisions are measured against this
Court’s precedents as of “the time the state court
renders its decision.” Lockyer v. Andrade, 538
U.S. 63, 71-72, 123 S.Ct. 1166, 155 L.Ed.2d 144
(2003). To determine whether a particular
decision is “contrary to” then-established law, a
federal court must consider whether the decision
“applies a rule that contradicts [such] law” and
how the decision “confronts [the] set of facts”
that were before the state court. Williams v.
Taylor, 529 U.S. 362, 405, 406, 120 S.Ct. 1495,
146 L.Ed.2d 389 (2000) (Terry Williams). If the
state-court decision “identifies the correct
governing legal principle” in existence at the
time, a federal court must assess whether the
decision “unreasonably applies that principle to
the facts of the prisoner’s case.” Id., at 413, 120
S.Ct. 1495. It would be strange to ask federal
courts to analyze whether a state court’s
adjudication resulted in a decision that
unreasonably applied federal law to facts not
before the state court.
Our recent decision in Schriro v. Landrigan, 550
U.S. 465, 127 S.Ct. 1933, 167 L.Ed.2d 836
(2007), is consistent as well with our holding
here. We explained that “[b]ecause the
deferential standards prescribed by § 2254
control whether to grant habeas relief, a federal
court must take into account those standards in
deciding whether an evidentiary hearing is
appropriate.” Id., at 474, 127 S.Ct. 1933. In

App. 121
practical effect, we went on to note, this means
that when the state-court record “precludes
habeas relief” under the limitations of § 2254(d),
a district court is “not required to hold an
evidentiary hearing.” Id., at 474, 127 S.Ct. 1933
(citing with approval the Ninth Circuit’s
recognition that “an evidentiary hearing is not
required on issues that can be resolved by
reference to the state court record” (internal
quotation marks omitted)).
Id. at 1398-99 (footnote omitted). Yet, the Sixth Circuit
has since explained that Pinholster “was not a
wholesale bar on federal evidentiary hearings”, “such
as when the State court decision was not an
adjudication on the merits”. McClellan v. Rapelje. 703
F.3d 344, 356 (6 th Cir. 2013).
As to Petitioner’s reliance upon Martinez for an
evidentiary hearing on his post-conviction counsel’s
alleged deficiencies2, there, the Supreme Court created
an equitable exception to procedural default that
“qualifies Coleman by recognizing a narrow exception:
Inadequate assistance of counsel at initial-review
collateral proceedings may establish cause for a
prisoner’s procedural default of a claim of ineffective
assistance at trial.” 132 S. Ct. at 1315. The Supreme
Court defined “initial-review collateral proceedings” as
proceedings “which provide the first occasion to raise a
2

Petitioner’s challenges to the effectiveness of his post conviction
counsel are not in his second amended petition, but in his request
for an evidentiary hearing. (Docket Entry No. 109 at 1-43). In any
event, those challenges are addressed in the procedural default
section of this Memorandum, infra.

App. 122
claim of ineffective assistance at trial.” Id. In Martinez,
the Supreme Court expressly recognized that”[d]irect
appeals, without evidentiary hearings, may not be as
effective as other proceedings for developing the factual
basis for the [ineffective assistance of trial counsel]
claim.” Id. at 1318. In Trevino v. Thaler, _ U.S._, 133 S.
Ct. 1911 (2013), the Supreme Court extended the
Martinez exception where State law “does not expressly
require the defendant to raise a claim of ineffective
assistance of trial counsel in an initial collateral review
proceeding .... [but the State] law on its face appears to
permit (but not require) the defendant to raise the
claim on direct appeal.” Id. at 1918 (emphasis in the
original).
Based upon its analysis of Tennessee’s system, this
member of the Court concluded, consistent with
Trevino, that Tennessee’s system by “‘design and
operation makes it highly unlikely in a typical case
that a defendant will have a meaningful opportunity to
raise a claim of ineffective assistance of trial counsel on
direct appeal.”’ Morrow v. Brandon, No. 3:06-0955,
2014 WL 49817 at *9 (M. D. Tenn. Jan. 7, 2014)
(quoting Trevino, 133 S. Ct. at 1921and citing Fenton
v. Colson, No. 3:09cv1057, 2013 WL 704317 at *13 (M.
D. Tenn. Feb. 25, 2013) (emphasis in Brandon). In
Sutton v. Carpenter, 745 F.3d 787 (6thCir. 2014), the
Sixth Circuit ruled that “ineffective assistance of postconviction counsel can establish cause to excuse a
Tennessee defendant’s procedural default of a
substantial claim of ineffective assistance at trial.” Id.
at 795-96 (analyzing Trevino, 133 S. Ct. 1918-21 and
citing Martinez, 132 S.Ct. at 1320).

App. 123
Yet, “[t]o be successful under Trevino . . . [the
habeas petitioner] must show a ‘substantial’ claim of
ineffective assistance, and this requirement applies as
well to the prejudice portion of the ineffective
assistance claim.” McGuire v. Warden, Chillicothe
Correctional Inst., 738 F.3d 741, 752 (6th Cir. 2013)
(citing Trevino, 133 S.Ct. at 1918). Although
Petitioner’s claims about his post conviction counsel
may be raised under Martinez, the necessity of an
evidentiary hearing on Petitioner’s claims about his
counsel is a separate issue.
In assessing an evidentiary hearing based upon
Martinez, the Court considers the factual state record
in its entirety: the trial, two sentencing hearings and
an extensive post-conviction hearing. Of the issues that
Petitioner identifies for an evidentiary hearing (Docket
Entry No. 109 at 1-43), virtually all of the facts related
to those issues were part of the trial record, the
sentencing or resentencing hearings, or the post
conviction evidentiary hearing that was quite
extensive. As stated earlier, Petitioner’s post conviction
hearing reflects proof from several witnesses, including
a statistician on the issue of discrimination in the
selection of the grand jury, grand jury foreperson and
petit jury, as well as testimony of a juror. Seven
psychiatrists/psychologists testified at the second
sentencing hearing on Petitioner’s personal and
medical history. Two doctors testified on the victim’s
stab wounds. In addition, the witnesses who are cited
as giving false testimony testified at the post conviction
hearing, as well as witnesses whom Petitioner’s counsel
was cited for failing to call as witnesses at trial.

App. 124
Witnesses whom Petitioner asserts gave false
testimony testified at the post conviction hearing.
Yet, the Court must evaluate the evidence
submitted by Petitioner and whether such proof
warrants an evidentiary hearing.
1. Petitioner’s Medical Proof
Petitioner’s new proof on his mental condition
includes Dr. Stacey Wood, a clinical neuropsychologist
who performed a battery of tests for an “intellectual
and neuropsychological” evaluation” of Petitioner.
(Docket Entry No. 125-2 at 1-4). Dr. George W. Woods,
Jr., a neuropsychiatrist, who interviewed Petitioner on
three occasions and reviewed the reports of Drs. David
Lisak, Paul Moberg, Stacey Wood, Ruben Gur, and
Pamela Auble, opined as follows:
Darrell has multiple neurological and
neuropsychiatric symptoms, including affective
dysregulation, impaired regisration, defective
problem initiation, impaired judgment, clinical
perservation [sic], poor problem sequencing,
grandiosity, irritability, agitation, flight of ideas,
and circumstantiality. These symptoms are
associated with disorders that are
genetic/familial (Bipolar Disorder),
environmentally derived (Post Traumatic Stress
Disorder), and neurodevelopmental (FASD and
dysexecutive syndrome). The etiology of these
disorders is complex and interconnected,
creating a depth of impaired functioning and
disruptive behavior greater than would be
predicted from any one disorder independently.

App. 125
The multiplicity of symptoms explains Darrell’s
atypical presentation and behavioral
dysfunction.
Moreover, Darrell’s symptoms are interrelated
in a cognitive synergy that rendered Darrell
unable to function effectively as both an
adolescent and an adult. At the time of his trial,
Darrell was affectively labile, unable to tell his
story coherently, unable to gather related facts
and form an incisive conclusion, and impaired in
effective decision making skills – symptoms that
could have been presented to the triers of fact as
mitigation.
(Docket Entry No. 125-1 at 1, 8-19).
Dr. Ruben Gur, Ph.D., director of the Brain
Behavior Laboratory and Center for Neuroimaging in
Psychiatry, provided a report that, in essence, found as
follows:
Results of neuropsychological testing show
abnormalities indicating brain damage.
These abnormalities are in regions that are very
important for regulating behavior and executive
functioning, and often result in a lack of
inhibition, difficulty reading social cues,
perseveration, viscosity, and grandiosity, as well
as the inability to weigh and deliberate. The
opinions I express with regard to the
neuropsychological findings meet standards of
scientific certainty.
(Docket Entry No. 125-3, p. 2 of 2) (citing Dr. Stacey
Wood’s testing with emphasis added).

App. 126
In addition, Dr. David Lisak, Ph.D., a clinical
psychologist and assistant professor of psychology at
the University of Massachusetts and forensic
consultant, interviewed Petitioner and his two siblings;
reviewed Petitioner’s medical school and institutional
records including the prior evaluation by Dr. Kenner
and draft report of Dr. Richart; and reviewed the
affidavits of Victoria Hines, Petitioner’s sister, and
David Miles. In sum, Dr. Lisak concluded that:
There is overwhelming evidence that Darrel
Hines suffered extremely severe childhood
trauma. He was subjected to pervasive neglect,
and to years of violent physical abuse that left
him literally and physically scarred for life.
However, the most damaging trauma was very
likely the sexual abuse that he suffered at the
hands of multiple perpetrators over the course of
his childhood, including older women and,
almost certainly, his step-father, Bill Hines.
This sexual abuse is directly linked to the very
severe dissociative symptoms that Darrell
displayed as a child, symptoms that were
witnessed by and attested to by his siblings.
These severe dissociative symptoms underscore
the severity of the traumas that Darrell was
subjected to, and they are also markers of severe
and lifelong PTSD. The PTSD, in turn, is
associated with Darrell’s chronic emotional
dysregulation, a vulnerability that has left him
intensely reactive to stress and unable to deescalate normally when he does react.
(Docket Entry No. 125-4, at ¶¶ 65-66).

App. 127
Petitioner’s medical proof in this action reflects
mental evaluations almost three decades after the
crime that was committed in 1985. Although some
experts opine that Petitioner’s condition existed from
his youth, with an evidentiary hearing, this medical
testimony on Petitioner’s mental condition would be
almost thirty years after the offense. As the Sixth
Circuit stated:
In his federal habeas petition, Strouth seeks to
“supplement[ ]” the record with “expert
evaluations of his longstanding mental illness.”
Br. at 99-100. But in reviewing the state court’s
resolution of Strouth’s claim, federal courts must
“limit[ ]” themselves to “the record that was
before the state court.” Cullen v. Pinholster, 563
U.S. –, 131 S.Ct. 1388, 1398, 179 L.Ed.2d 557
(2011). The new mental-health evidence has no
bearing on whether AEDPA permits us to grant
him habeas relief on this claim. And because
that is the only ground on which Strouth seeks
relief with respect to this claim, the claim
necessarily fails. Even if that were not the case,
the district court’s reasoning on this score
independently suffices to reject this claim:
recent mental evaluations offer little
insight into Strouth’s state of mind twentyfive-plus years ago, as the state courts
reasonably concluded in finding no
prejudice.
Strouth v. Colson, 680 F.3d 596, 603 (6th Cir. 2012)
(emphasis added).

App. 128
In addition, the state court record includes evidence
of Petitioner’s personal history and abuse and his Post
Traumatic Stress Disorder (“PTSD”) and brain damage
and lack of executive control.
Dr. William Kenner, a psychiatrist, testified that
the petitioner suffered from post-traumatic
stress disorder (“PTSD”), antisocial personality
disorder, status post-head injury, and inhalant
abuse. He said that the petitioner was sexually
abused by both his stepfather and a maternal
uncle and physically abused by his stepfather,
opining that the abuse caused the petitioner’s
PTSD. The physical abuse inflicted upon the
petitioner by his stepfather included hitting him
in the head with a tobacco stick, whipping him
with car radio antennas, throwing him into a
pond although he could not swim, and shooting
the family dog and her puppies in front of him
and his siblings. The petitioner’s mother was
also a victim of Bill Hines’s abuse, and the
petitioner often tried to protect her. At the age of
eight or nine, the petitioner sustained a head
injury when he fell off a wagon of hay and was
knocked unconscious. The petitioner did not
receive any medical treatment for this injury.
Explaining how PTSD affects the brain, Dr.
Kenner said that a person with PTSD repeats or
replays traumatic events throughout life and
that PTSD can alter a person’s character and
change his or her behavior. Dr. Kenner testified
that in the petitioner, PTSD created a paranoid
quality. Dr. Kenner opined that the head

App. 129
injuries the petitioner suffered throughout his
life could have caused organic personality
syndrome, which made him even more volatile
and difficult to manage. The petitioner’s abuse of
inhalants such as glue and gasoline also caused
damage to his brain. Dr. Kenner concluded that
the petitioner’s choosing a woman for his victim
was inconsistent with the petitioner’s personal
history, as there was no indication that he had
hard feelings toward women.
On cross-examination, Dr. Kenner acknowledged
that the petitioner had been in and out of jail
since the age of fifteen. He further acknowledged
that a report prepared by the Middle Tennessee
Health Institute and the Harriet Comb Mental
Health Center indicated that the petitioner
experienced difficulty in relationships with
women, as the result of problems with
girlfriends and family interference, exhibited a
preoccupation with thoughts of violence, and
displayed extreme prejudice toward AfricanAmericans. Additionally, a report prepared by
the Tennessee Department of Correction stated
that the petitioner, once confined on death row,
acknowledged to security personnel that he
hated both women and African-Americans. Dr.
Kenner testified that although the petitioner
said that he hated women, he did not believe
him because his behavior indicated differently.
He said he had much more information
concerning the petitioner than Dr. Charvat did
prior to preparing her report for the
resentencing. He believed that Dr. Charvat

App. 130
should have interviewed the petitioner’s sisters
and mother in order to get a true picture of “how
bad things were for [the petitioner] growing up.”
Dr. Murry Wilton Smith, a specialist in
addiction medicine, testified that the petitioner
is a Type II alcoholic. He explained that Type II
alcoholism, a primary medical illness based in
brain chemistry, is inherited and involves rapid
early onset of alcoholism, usually between the
ages of nine and twelve, and is associated with
antisocial behavior and early legal trouble. Dr.
Smith also testified that the petitioner had used
inhalant solvents and marijuana. He was aware
of the petitioner’s low levels of serotonin, which
is associated with violent behavior and Type II
alcoholism. He said that current treatment for
Type II alcoholism, which was not available in
1989, consisted of alcohol and drug treatment,
intensive physiotherapy with a counselor, and
medication to improve the serotonin level. On
recross examination, Dr. Smith acknowledged
that although medications to increase serotonin
levels were available in 1986, there was not a
routine to monitor. He also stated that a
characteristic of Type II alcoholics is a lack of
motivation to follow instructions or a schedule.
Dr. Paul Rossby, an expert in molecular
neurobiology and the study of serotonin, testified
that, as a molecular biologist, he studies the
chemistry of the brain and the biological basis of
behavior. According to Dr. Rossby, serotonin
blocks pain and orchestrates inhibition within

App. 131
the brain. Dr. Rossby testified that research of
serotonin dated back to at least the 1970s. He
further said that there would have been a
“tremendous amount” of literature available on
serotonin at the time of the petitioner’s
resentencing in 1989 and a “great deal” of
literature available at the time of the
petitioner’s trial in 1986. He said that low levels
of serotonin have been associated with impulsive
behavior, but none of the studies has indicated
that it causes violence.
Dr. Rossby had a spinal tap performed on the
petitioner to determine his serotonin levels,
which were “at the extreme low level” of the
normal male population. He opined that the
petitioner’s serotonin levels, coupled with his
Type II alcoholism, resulted in the petitioner’s
being organically impaired and said that the
petitioner does not have the biological capacity
to control his impulsive behavior. Dr. Rossby
said that in a person with low levels of
serotonin, once an impulse is triggered, there is
no ability to control the impulse. He
acknowledged that he did not testify on the issue
of serotonin levels until 1999. He first worked on
a case involving a serotonin defense in
approximately 1992, and was not aware of any
expert who had testified on the issue of
serotonin prior to the time he was involved with
his first case.
Dr. Henry Cellini, an educational psychologist
who was offered as a rebuttal witness on behalf

App. 132
of the State, testified that serotonin research
began in the 1970s but had only been fully
developed in the last fifteen to twenty years.
With regard to the petitioner’s case, Dr. Cellini
testified that the practical application of
serotonin levels to behavior was in its “infancy”
in the mid-1980s. He said that research
indicates that the two primary factors of
antisocial personality disorder are impulsive
aggression and psychopathic tendencies or
thinking.
Two witnesses were presented as to the claims
regarding the Green River Boys Camp in
Kentucky and its alleged effects on the
petitioner. Tammy Kennedy, an investigator
with the post-conviction defender’s office, said
that she interviewed former residents and staff
members. The former residents told her that,
when they arrived at camp, they were
immediately subjected to grouping, which
consisted of several boys surrounding the new
resident and physically and verbally abusing
him. She said that the former residents told her
at times they had sewage detail, which involved
two boys holding a resident by the legs and
dumping him into the sewage. They were forced
to scrub the pavement until their brushes were
gone and their hands were blistered. A juvenile
specialist who had visited Green River advised
Ms. Kennedy that schooling was minimal and
that there were reports of physical, sexual, and
verbal abuse of the residents. Ms. Kennedy said

App. 133
that several other death row inmates were
former residents of Green River
Hines v. State, No. M2002-01352-CCA-R3-PD, 2004
WL 112876 at*15-17 (Tenn. Ct. Crim.App. Jan. 23,
2004).
In the state court proceedings, Dr. S. Paul Rossby,
Ph.D. at the Vanderbilt University Department of
Psychiatry and Division of Molecular Neurobiology,
cited Petitioner’s “extremely low” serotonin level that
“is essential for self-control.” (Docket Entry No. 29,
Addendum 20, Vol. 1, at 5193, 5198, 5199 (emphasis in
the original). Dr. Rossby cited the impact of low
serotonin on other psychiatric disorders. Id. Petitioner’s
“extremely low” serotonin level also impacts his
amygdala, an inhibitory part of Petitioner’s brain, id. at
5198, 5202, but “low serotonin activity does not in itself
produce violent behavior, it simply reduces or in the
case of Anthony Darrell Hines (and many other men)
virtually eliminates one’s capacity to control it after it
has been triggered.” Id. at 5202. Dr. Rossby reviewed
Petitioner’s medical records, institutional records and
interviewed Vicki Hines, Petitioner’s sister. Id. at 520102.
There are other such evaluations prior to
Petitioner’s trial. A 1977 psychological evaluation of
Petitioner by Dr. Hecht S. Lackey, Ph.D and Danny
Johnson, M.A., psychologist, found “no significant
indication of organic brain damage or visual motor
impairment.” Id., Vol. 4 at 6518. In addition, in
September and October 1985, Petitioner underwent a
psychological testing evaluation and was found to be
“rational, coherent, relevant, organized and devoid of

App. 134
circumstantiality, tangentiality, looseness of
associations, ideas of reference, paranoid ideation,
delusional content, and other evidence of thought
disorder.” Id.; Vol. 2 at 5230. Yet, on occasion,
Petitioner was “hostile, uncooperative, and virtually
nonverbal.” Id. at 5228.
Dr. Robert F. Heap, Ph.D, a clinical psychologist,
and Julie Maddox, M.A., a psychological examiner,
concluded that “at the time of the offense Mr. Hines
was exhibiting Continuous Alcohol Abuse and AntiSocial Personality Disorder.” Id. at 5231. Petitioner
was found competent to proceed to trial. Id. at 5232. In
November, 1985, another evaluation was performed by
Dr. John P. Filley, M.D. with the same assessment and
observations. Id. at 5250-51, 5333. In 1997 and 998,
Petitioner was administered fifteen (15) psychological
tests. Id. at 4890-95. Dr. Pamela Auble performed an
extensive evaluation of Petitioner. Id. at 4890-4895. Dr.
Auble concluded Petitioner was an “angry man with
poor self-esteem.” Id. at 4894.
Federal habeas relief has been awarded where the
habeas petitioner’s counsel presented essentially no
expert proof. Powell v. Collins, 332 F.3d 376, 400 (6th
Cir. 2003) (“We found that counsel should have found
a different psychiatric expert for trial of the penalty
phase, and that this deficient performance resulted in
presentation of essentially no mitigating evidence at
all, especially on the one topic which may have
convinced jury that the death sentence was not
justified-the defendant’s mild mental retardation and
his diminished mental capacity.”) (citing Skaggs v.
Parker, 235 F.3d 261 (6th Cir. 2000)).

App. 135
In addition, proof of brain damage does not entitle
a habeas petitioner convicted of murder to federal
habeas relief where, as here, Petitioner challenged his
guilt to this offense. Bowling v. Haeberlin, No. 03-28ART, 2012 WL 4498647, at* 63-67 (E.D. Ky. Sept. 28,
2012); see also Hill v. Mitchell, No. 1:98-cv-452, 2013
WL 1345831, at *59 (S. D. Ohio March 29, 2013) (where
claim based on “organic brain damage” held to be
defaulted barring review). In addition, under
Tennessee law, evidence of brain damage does not
preclude conviction of first degree murder nor
imposition of the death sentence. State v. Howell, 868
S.W.2d 238 (Tenn. 1993) (defendant convicted of
murder and sentenced to death despite evidence of
brain damage, learning disabilities and an eighth grade
education).
From the Court’s review, Petitioner’s trial and post
conviction counsel pursued Petitioner’s brain condition
and mental health condition and those facts are in the
state record, as reflected above. Hines, 2004 WL
112876 at *23-39. The Court concludes that Petitioner’s
medical proof does not warrant an evidentiary hearing.
Moreover, Petitioner’s trial counsel secured a reversal
and a new sentencing hearing. As discussed in more
detail infra, the Court does not deem Petitioner’s cited
bases for a hearing to justify another evidentiary
hearing. McGuire,738 F.3d at 752. The legality of the
State’s execution protocol in the petition has been
abandoned and Petitioner has not presented this claim
about the State’s new protocol in the State courts.3
3

The State’s new death penalty protocol is the subject of an action
before the State courts by another prisoner.

App. 136
In sum, to the extent Petitioner presents new expert
medical proof, such proof is not probative as a matter
of law. The expert proof in the state record is ample to
evaluate any omission of Petitioner’s trial and post
conviction counsel. An evidentiary hearing for such
witnesses is unnecessary given the extensive State
court record. Petitioner’s counsel seeks to expand these
medical issues into claims about trial and state post
conviction counsel. Petitioner’s counsel’s strategy is as
if he were Petitioner’s trial and post conviction counsel,
but that is not the standard for setting an evidentiary
hearing under 28 U.S.C.§ 2254(e)(2). Thus, the Court
concludes that Petitioner’s request for an evidentiary
hearing, based on Martinez, should be denied, but the
Court will consider Petitioner’s proof on whether
Petitioner has satisfied the standard for actual
innocence to excuse his procedural defaults.
2. Petitioner’s DNA and Fingerprint Proof
Petitioner next cites his forensic proof that
Petitioner contends establishes his actual innocence
and thereby excuses his procedural defaults.
As a general rule, claims forfeited under state
law may support federal habeas relief only if the
prisoner demonstrates cause for the default and
prejudice from the asserted error. The rule is
based on the comity and respect that must be
accorded to state-court judgments. The bar is
not, however, unqualified. In an effort to
“balance the societal interests in finality, comity,
and conservation of scarce judicial resources
with the individual interest in justice that arises

App. 137
in the extraordinary case,”the Court has
recognized a miscarriage-of-justice exception.
House v. Bell, 547 U.S. 518, 536 (2006) (quoting Schlup
v. Delo,, 513 U.S. 298, 324 (1995) (citations omitted)).
This doctrine “recognize[s] a narrow exception to the
general rule [of a procedural bar] when the habeas
applicant can demonstrate that the alleged
constitutional error has resulted in the conviction of
one who is actually innocent of the underlying offense.”
Dretke v. Haley, 541 U.S. 386, 388 (2004). The “actual
innocence ‘does not merely require a showing that a
reasonable doubt exists in the light of the new
evidence, but rather that no reasonable juror would
have found the defendant guilty.”’ Cleveland v.
Bradshaw, 693 F.3d 626, 633 (6th Cir. 2012) (quoting
Schlup, 513 U.S. at 329).
In this context, “‘actual innocence’ means factual
innocence, not mere legal insufficiency.” Bousley v.
United States, 523 U.S. 614, 623 (1998). “[A] credible
claim of actual innocence is extremely rare,” Souter v.
Jones, 395 F.3d 577, 600 (6th Cir. 2005), and “the actual
innocence exception should ‘remain rare’ and ‘only be
applied in the extraordinary case.”’ Id. at 590 (quoting
Schlup, 513 U.S. at 321) (internal quotation marks
omitted). Examples of “new reliable evidence” are
“exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence–that
was not presented at trial.” Schlup, 513 U.S. at 324.
“This ‘gateway actual innocence claim’ does not require
the granting of the writ, but instead permits the
petitioner to present his original habeas petition as if
he had not filed it late.” Perkins v. McQuiggin, 670

App. 138
F.3d 665, 670 (6th Cir. 2012). In assessing such proof,
“the habeas court must consider ‘all the evidence,’ old
and new, incriminating and exculpatory, without
regard to whether it would necessarily be admitted
under ‘rules of admissibility that would govern at
trial.’” House, 547 U.S. at 538 (quoting Schlup, 513
U.S. at 327-28) (internal quotation marks omitted);
Bell v. Howes, 703 F.3d 848, 855 (6 th 2012).
Petitioner principally cites the results of DNA
testing by Gary Harmor, a forensic serologist, who
analyzed a stain from the victim’s underwear
employing two different types of DNA analysis. Harmor
used the Identifiler™ and Minifiler™ typing systems that is called autosomal DNA. This testing identifies
Short Tandem Repeats markers (or STRs) that are in
every person’s DNA. Harmor also used the Yfiler™
system that identifies DNA from theY chromosome (or
Y-STRs) exclusive to males, who alone have a Y
chromosome. (Docket Entry No. 124-1, Exhibit 1,
Harmo Affidavit at 1, 3-4). Applying these systems,
Harmor concluded that the male DNA on the victim’s
underwear is not Petitioner’s DNA. Id. at 4.
The autosomal genetic marker result from the
bloodstain from the crotch hem of the victim’s
panties (item 6-1) is a mixture of DNA from at
least three individuals. The victim, Catherine
Jenkins (item 7-1) could be a contributor to the
mixture of types. Anthony Darrell Hines (item
14-1) is not a contributor to the genetic marker
profile obtained from item 6-1.
Id. (emphasis in original). Using Y-STR analysis, Harm
or determined that the underwear stain (6-1) contains

App. 139
a mixture of male DNA from two separate sources that
does not include Petitioner. Id.
Petitioner argues that such DNA evidence would
have led to his acquittal because DNA evidence is
reliable evidence. Petitioner cites as examples homicide
cases, including those involving sexual assault.
Petitioner also contends this DNA evidence proves that
Dr. Charles Harlan testified falsely that there was not
any semen on the victim. Petitioner presents a
Tennessee Bureau of Investigation record that the
various swabs from the victim tested positive for
semen. Respondent contends that the State courts
found that the semen was on the victim’s underwear
that was torn to pieces and found away from the
victim’s body, citing State v. Hines, 758 S.W.2d 515,
517 (Tenn. 1988).
On this issue, the Tennessee appellate court upheld
the trial court’s denial of DNA testing and found that
even if DNA test were provided and exculpatory, the
evidence would not exonerate Petitioner:
The State’s evidence against the Petitioner
consisted of accounts of the Petitioner driving
away from the motel in the victim’s car and
accounts of the Petitioner carrying a large
hunting knife. Additionally, the Petitioner had
$20 in spending money, and a $20 bill was left
under the victim’s watchband. Witnesses saw
dried blood on the Petitioner’s shirt, and, when
he arrived in Kentucky, he explained how he
had stabbed a male motel operator who attacked
him. The Petitioner also explained to his sister
that he obtained the victim’s car by grabbing the

App. 140
steering wheel and keys after an unidentified
driver attempted to rob him. When taken into
custody, before the arresting officer explained
that the victim had been killed, the Petitioner
admitted taking the victim’s car but denied
killing the victim. The victim’s wallet was found
a short distance from where her car was found
abandoned. When questioned by police, the
Petitioner stated that, if they could guarantee
the death penalty, he would tell them all they
wanted to know.
As we are required to presume the tests would be
exculpatory, the question is whether these
exculpatory results would form a reasonable
probability that the Petitioner would not have been
prosecuted or convicted-for mandatory testing-or
that there is a reasonable probability that the
Petitioner’s verdict or sentence would have been
more favorable-for discretionary testing. We
conclude that the post-conviction court did not
abuse its discretion in determining that, even if the
DNA evidence were found to be exculpatory, the
Petitioner would have still been prosecuted and
convicted, and his sentence and verdict would not
be any more favorable.
Initially, there does not appear to be any
evidence that this was a rape where sperm
might be present on the victim. The victim
was raped with a knife. However, even if
sperm could be found on the victim’s
underwear, dress, and slip, and that sperm
was identified with another man, that

App. 141
discovery does not preclude the prosecution
and conviction of the Petitioner. It may simply
mean the Petitioner was assisted by another
man in the murder. Further, the Petitioner
points to a cigarette butt, a spray bottle, a $20
bill, and a bloody bank bag. Again, even if all
these items contained the DNA of another
person, we still cannot find an abuse of
discretion on the part of the post-conviction
court. The State’s theory might slightly
change, but we are confident that the
Petitioner would still have been prosecuted
for the victim’s murder.
The Petitioner may have a right to testing if
the existence of exculpatory DNA evidence
raises a reasonable probability that he would
not have received the death penalty or been
convicted of first-degree murder, as opposed
to a lesser crime. However, again we cannot
find an abuse of discretion by the postconviction court. At best, if all this evidence
were tested, and every piece of evidence
revealed the presence of another person’s
DNA, the State might seek out another
individual who likely assisted the Petitioner
in the murder of the victim. In our view, the
jury would have still convicted the Petitioner
of first-degree murder.
We also note that the State contests the postconviction court’s determination that many of the
objects have met requirement (2), that “[t]he
evidence is still in existence and in such a condition

App. 142
that DNA analysis may be conducted.” T.C.A. § 4030-304(2), -305(2). The Petitioner has not made any
showing that there is any semen on the victim’s
dress, underwear, or slip. The Petitioner only cites
to his own request for a toxicology report in support
of his contention. We find no evidence to support a
contention that semen is “in existence.” In fact, the
State presented evidence at a sentencing hearing
that there was no semen found at the scene. When
these three pieces of evidence are removed from
consideration, the Petitioner’s “cumulative effect”
argument become much weaker. The Petitioner is
left to rely on the cigarette butt, the plastic spray
bottle, the $20 bill, and the bloody bank bag. In our
view, there is not a reasonable probability that
another person’s DNA on these four pieces of
evidence would have changed the outcome of the
trial or the Petitioner’s sentence. The Petitioner is
not entitled to relief on this issue.
Hines v. State, No. M2006-02447-CCA-R3-PC, 2008
WL 271941 at *5-6 (Tenn. Crim. App. Jan. 29, 2008)
(emphasis in original and added).
If this murder involved sexual intercourse, the
Court would be inclined to agree with Petitioner about
this DNA evidence warranting an evidentiary hearing.
Yet, the victim’s death was caused by multiple and
deep knife wounds to her chest area including her
heart, lungs and diaphragm. (Docket Entry No. 29,
Addendum 2, Vol. 3 at 948). The victim’s multiple stab
wounds were inflicted with a hunting type knife that
pierced the victim’s vagina to the extent of entering her
intestinal area. Contrary to Petitioner’s assertion, at

App. 143
trial, Dr. Charles Harlan only performed the autopsy
on the victim’s body, that is, “[a] visual inspection was
performed” of the victim’s body. Id.; Addendum 9, Vol.
1 at 2061. Dr. Harlan responded “correct” to the
question that “Q. So you didn’t even observe anything
indicating any type of sexual assault.” Id. Dr. Harlan
also testified that “I meant that there was no evidence
of ejaculation; that is, there was no semen present.” Id.
at 2064. Dr. Harlan’s report does not refer to his
examination of clothing nor the swabs taken from the
victim, id.; Addendum 2, Vol. 3 at 948-60 that were the
subject of another state witness’s testimony.
Daniel Michael Vansant, a TBI forensic serologist,
testified that Dr. Harlan’s office sent vaginal and rectal
swabs as well as other items to the TBI laboratory. Id.
at 644, 649, 962 Vansant testified that he examined a
field jacket, blue shirt, blue vest, blue jeans, a pocket
knife, knuckles attached to a knife, and the interior of
the victim’s vehicle. Id. at 645. There were not any
other articles of the victim’s clothing to examine. Id. at
648. Vansant did not testify to finding any semen. The
victim’s underwear, examined by Petitioner’s DNA
expert, had been removed and was found in a different
part of the room where the victim was found. Given the
State’s proof against Petitioner, this Court concludes
that Petitioner’s DNA proof does not warrant a hearing
or habeas relief. The State courts reached the same
conclusion. See Hines, 2008 WL 271941, at *5-6.
Petitioner next submits the declaration of Max
Jarrell, a certified latent print examiner, who is also a
retired FBI fingerprint examiner. (Docket Entry No.

App. 144
124-2). Jarrell examined “high resolution photographs”
of the latent fingerprints and opines as follows:
7. To that end, on January 10, 2012, I
accompanied Ms. Swift to the Tennessee Bureau
of Investigation to examine the fingerprints in
their custody and to determine whether it would
be possible for me to conduct my examination
using high resolution photographs of the prints.
8. After viewing the prints, I concluded that
high resolution photographs would be
acceptable for my examination.
9. On January 25, 2012, I received from Ms.
Swift, who had received from the TBI, high
resolution photographs of the following:
a. Original Latent Fingerprints (#17)
contained in one brown paper bag with
several paper items recovered from the
glovebox of the 1980 silver Volvo at the
scene of the homicide of Catherine
Jenkins on March 3, 1985;
b. Original Latent Fingerprints and Palm
Lifts (#18) contained in one brown paper
bag recovered from the exterior of the
1980 silver Volvo, at the scene of the
homicide of Catherine Jenkins on March
3, 1985;
c. Original Latent Fingerprints (#19)
contained on two (2) 8.5 x 11 sheets of
plastic bearing finger impressions of the

App. 145
victim, Catherine Jenkins, including
negatives and paper strips;
d. Original Latent Fingerprints (#34),
including One 3" x 5" card and one 6" x 6"
lifter, recovered from the inside entrance
door of Room #21 of the Ce Bon Motel at
the scene of the homicide of Catherine
Jenkins on March 3, 1985;
e. Original Latent Fingerprints (#35) from
one brown paper bag containing one tan
Cheatham County State Bank deposit bag
containing three registration cards, one
ink pen, and $.20 in change received from
Bob Doyle on March 4, 1985 at the Ce
Bon Motel Office, which was at the scene
of the homicide of Catherine Jenkins;
and,
f. Original Latent Fingerprints (#38) from
one manila envelope containing one S.O.
Ashland City, TN fingerprint card and
one 8.5" x 11" sheet of paper bearing the
inked finger and palm impressions of
subject Anthony Darrell Dugard Hines,
taken by Dorris Weakley, dated March
12, 1985.
10. Based upon my examination of these prints,
I determined that none of the prints in question
from the scene or on various pieces of evidence
match either Mr. Hines or the victim, Catherine
Jenkins.

App. 146
11. On March 9, 2012, I accompanied Ms. Swift
to Federal District Court to view and photograph
the prints of Bobby Joe Hines, which had been
received in chambers from the FBI. I examined
the prints and determined that high resolution
photographs of the prints would allow me to
conduct my examination.
12. On March 13, 2012, I received from Ms.
Swift the high resolution photographs of the
prints of Bobby Joe Hines and thereafter
conducted my examination of those prints by
comparing them to prints at the scene or on
various pieces of evidence.
Again, I did not identify a match.
13. In addition, as part of my examination, I was
asked to determine if the prints from the scene
or on various pieces of evidence were of the
quality that they could be run through the
Integrated Automated Fingerprint Information
System to produce a possible match.
14. I determined based on my extensive
experience with IAFIS and the criteria that are
necessary for a print to be IAFIS quality, that
four prints would be suitable for an IAFIS
search. Those are:
a. Exhibit # 17 - Two original latent
fingerprints from Volvo papers and
envelope recovered from the glovebox of
the victim’s 1980 silver Volvo;

App. 147
b. Exhibit # 18 - One original latent
fingerprint recovered from the exterior,
passenger side of the Volvo;
c. Exhibit #35 - One original latent
fingerprint recovered from a registration
card from the Ce Bon Motel.
15. Because I am not employed by a local law
enforcement agency, I am not authorized to
perform and cannot conduct an IAFIS search.
(Docket Entry No. 124-2 at 1-3) (emphasis added).
First, as to Jarrell’s utilization of digital
photographs, such photographs are subject to
enhancement and distortion. Thus, one court required
an additional showing to establish reliability of
fingerprint examination. Lorraine v. Markel American
Ins. Co., 241 F.R.D. 534 (D. Md. 2007).
Photographs have been authenticated for
decades under Rule 901(b)(1) by the testimony of
a witness familiar with the scene depicted in the
photograph who testifies that the photograph
fairly and accurately represents the scene.
Calling the photographer or offering exert [sic]
testimony about how a camera works almost
never has been required for traditional film
photographs. Today, however, the vast majority
of photographs taken, and offered as exhibits at
trial, are digital photographs, which are not
made from film, but rather from images
captured by a digital camera and loaded into a
computer. Digital photographs present unique
authentication problems because they are a form

App. 148
of electronically produced evidence that may be
manipulated and altered. Indeed, unlike
photographs made from film, digital
photographs may be “enhanced.” Digital image
“enhancement consists of removing, inserting, or
highlighting an aspect of the photograph that
the technician wants to change.” Edward J.
Imwinkelried, Can this Photo be Trusted?, Trial,
October 2005, at 48.
....
For digitally converted images, authentication
requires an explanation of the process by which
a film photograph was converted to digital
format. This would require testimony about the
process used to do the conversion, requiring a
witness with personal knowledge that the
conversion process produces accurate and
reliable images, Rules 901(b)(1) and 901(b)(9)the later rule implicating expert testimony
under Rule 702. Id. Alternatively, if there is a
witness familiar with the scene depicted who
can testify that the photo produced from the film
when it was digitally converted, no testimony
would be needed regarding the process of digital
conversion. Id..
For digitally enhanced images, it is unlikely that
there will be a witness who can testify how the
original scene looked if, for example, a shadow
was removed, or the colors were intensified. In
such a case, there will need to be proof,
permissible under Rule 901(b)(9), that the
digital enhancement process produces reliable

App. 149
and accurate results, which gets into the realm
of scientific or technical evidence under Rule
702. Id. Recently, one state court has given
particular scrutiny to how this should be done.
....
Because the process of computer enhancement
involves a scientific or technical process, one
commentator has suggested the following
foundation as a means to authenticate digitally
enhanced photographs under Rule 901(b)(9):
(1) The witness is an expert in digital
photography; (2) the witness testifies as to
image enhancement technology, including the
creation of the digital image consisting of pixels
and the process by which the computer
manipulates them; (3) the witness testifies that
the processes used are valid; (4) the witness
testifies that there has been “adequate research
into the specific application of image
enhancement technology involved in the case”;
(5) the witness testifies that the software used
was developed from the research; (6) the witness
received a film photograph; (7) the witness
digitized the film photograph using the proper
procedure, then used the proper procedure to
enhance the film photograph in the computer;
(8) the witness can identify the trial exhibit as
the product of the enchantment process he or
she performed. Edward J. Imwinkelried, Can
this Photo be Trusted?, Trial, October 2005 at
54. The author recognized that this is an
“extensive foundation,” and whether it will be

App. 150
adopted by courts in the future remains to be
seen. Id. However, it is probable that courts will
require authentication of digitally enhanced
photographs by adequate testimony that it is the
product of a system or process that produces
accurate and reliable results. Fed.R.Evid.
901(b)(9).
Id. at 561-62; see also Sandy L. Zabell, Ph.D,
“Fingerprint Evidence,” 13 J. L. & POL’Y 143, 155-58
(2005).
Second, as a basis for habeas relief, if there is
sufficient evidence of guilt, the Sixth Circuit has not
awarded habeas relief based upon proof of the absence
of the habeas petitioner’s fingerprints at the crime or
murder scene. Smith v. Romanowski, 341 Fed. Appx.
96, 99, 101-02 (6th Cir. 2009) (“Smith’s challenge to the
sufficiency of the convicting evidence in this case relies
upon his contention that the prosecution failed to
establish that he was in constructive possession of the
gun found in the pocket on the back of the front
passenger seat. According to Smith, no witness ever
saw him with a firearm, his fingerprints were not
found on the weapon or its ammunition, the
vehicle in which the gun was found did not belong to
Smith, the handgun was not in plain view of the driver,
and another friend of the petitioner admitted owning
the firearm. . . . Because Smith has thus failed to
satisfy the substantial burden placed upon him by the
provisions of AEDPA, the district court appropriately
denied the petition for the writ of habeas corpus.”)
(emphasis added); see also Brooks v. Tennessee, 626
F.3d 878, 887-88 (6 th Cir. 2010).

App. 151
Given the compelling evidence of Petitioner’s guilt,
with the presence of other fingerprints at the murder
scene (a public place) and the vehicle that belonged to
the victim, the Court does not deem this proof
fingerprint to warrant an evidentiary hearing except on
one issue
The Court set an evidentiary hearing on a TBI
laboratory report that was ambiguous on whether the
swab taken from the victim tested positive for semen.
(Docket Entry No. 131, Order, attaching report). At
that hearing, Michael Turbeville, the TBI laboratory
supervisor, testified that the document attached to the
Court’s Order was a request for testing for semen on
the swabs and provided the actual results of that test,
revealing that semen was not on any of the swabs.
(Docket Entry No. 142, at 6-12; Respondent’s Collective
Exhibit 1). Petitioner submitted several other TBI
laboratory documents that revealed the presence of
mold on one of the swabs that could not be tested for
semen. Id. at 14, 15, 17, 28; Petitioner’s Exhibit 3, 5
and 6. Petitioner submitted additional TBI documents
revealing additional versions of the TBI laboratory test
request with additional handwriting. (Petitioner’s
Exhibits 1 and 4). Petitioner notes that one of the
laboratory work papers reflects that mold was found on
one of the swabs and, thus, could not be tested.
Petitioner cites that the condition of the molded swab
was not noted on other TBI laboratory papers.
Petitioner also cited delay in the testing. The request to
test the swabs from the victim is shown as March 4,
1985, and the TBI testing began on March 22nd.
(Exhibits 2-4; Docket Entry No. 131 at 2; Docket Entry
No. 142 at 6-8, 24-25). Petitioner also proffered that if

App. 152
Petitioner’s trial counsel had had access to the TBI
laboratory’s working papers about the mold on one of
the swabs, he would have pursued testing and explored
the prospect of another suspect given the proof of
sperm on the victim’s panties. Petitioner’s trial counsel
proffered that the state prosecutor told him that the
murder did not involve a sexual assault, and
Petitioner’s current counsel described Dr. Harlan’s trial
testimony as false.
First, there is not any scientific evidence that the
mold was caused by the timing of the TBI laboratory
testing. The possibility of the mold impacting any
semen is speculative. There is not any scientific proof
that if Petitioner’s trial counsel had seen the laboratory
working papers about the molded swab that any testing
could have been conducted. As discussed infra, Dr.
Harlan’s trial testimony was based upon his visual
examination of the victim, not a laboratory test. At
Petitioner’s trial, a TBI laboratory technician testified
about the testing of the victim’s swabs. To date, the
proof remains that the several swabs taken from the
victim did not contain semen. Petitioner’s tying of the
inferences about another suspect was found by the
State courts to be “farfetched” and this Court agrees.
The cited suspect was not seen in the area at the time
of the murder and the witness did not testify that this
suspect, described as a wild person, was going to the
motel.

App. 153
3. Petitioner’s Other Suspects Proof
Coupled with his forensic proof , Petitioner
identifies Tommy Sells and Ken Jones as possible
murderers. According to Petitioner, Tommy Sells went
throughout the country committing dozens of murders
between 1980 and 1999 (including in Tennessee),
before he was finally apprehended in Texas, and later
executed. Sells was released from custody in February
1985 (Docket Entry No. 124-3, Tommy Sells Missouri
Dept. of Corrections Records) and admitted to
committing murder in Missouri in July 1985, months
after the murder of Jenkins. (Docket Entry No.124-4,
March 21, 2014 Article from the Branson Tri-Lake
News).
For the Sells suspect theory, Petitioner cites the
declarations of Norma Jean Rilling and Joe Nesbitt
who worked across from the CeBon motel at the Hot
Stop Market. Rilling purportedly identifies Sells as the
person with whom Rilling had a confrontation the day
of the murder, March 3, 1985, because she would not
let him pay with rolled coins. (Docket Entry No. 124-5).
According to Rilling, after the confrontation, this man
headed over to the CeBon, where the victim was found
shortly afterwards. Id. Rilling testified at Petitioner’s
trial that this man walked in the “general direction of
the CeBon” motel. (Docket Entry No. 29, Addendum 2,
Vol. 3 at 663). In her 2014 declaration, almost 30 years
after the encounter, Rilling states that the photograph
shown to her by Petitioner’s investigator “looks like”
that same man. (Docket Entry No. 124-5 at ¶ 12). At
trial, Rilling testified “we get a lot of weird people” at
her shop and described another man who was “wild-

App. 154
eyed.” (Docket Entry No. 29, Addendum 2, Vol. 3 at
662). Moreover, under Petitioner’s view of the evidence,
Petitioner opines that the murder occurred about 11:00
a.m. (Docket Entry No. 124, Petitioner’s Memorandum
at 11 n. 7). At trial, Rilling testified that she saw this
weird person about 1:30 to 2:30 p.m. (after the murder)
and then saw him walking in the general direction of
the CeBon motel, not to the CeBon motel. (Docket
Entry No. 29. Addendum 2, Vol. 3 at 663, 665).
Petitioner also identifies Ken Jones who was at the
motel for a tryst with Vernedith White and who
testified falsely that he arrived at the motel about
12:30 p.m. the day of the murder. (Docket Entry No. 29,
Addendum 2, Vol. 1 at 260, 266). Jones actually arrived
there between 10:00 a.m. and 11:00 a.m. This issue
about Jones as a murder suspect was explored at the
evidentiary hearing on Petitioner’s state court post
conviction proceeding. Hines, 2004 WL 1567120 at * 47. For this theory, Petitioner also submits excerpts of
unauthenticated medical records of Vernedith White,
Jones’s mistress, who was evaluated in 2000, 2001,
2008, 2009, 2010 and 2013 for psychiatric problems,
including schizophrenia. (Docket Entry No. 129). These
treatment notes cite White’s use of drugs and that her
baby was killed by her ex-husband twenty two years
ago, as of July 2000. Id. at 2-3. By 2008, White’s
prognosis was good so long as she remained on her
medications. Id. at 8. Yet, by 2010, White was smoking
marijuana. Id. at 10.
The state courts considered this proof on this theory
of Jones as the murderer of the victim:

App. 155
In his reply brief, the petitioner points to various
portions of the testimony to establish that Ken
Jones, himself, might have killed the victim. The
petitioner explains how he might have gotten
the keys to the victim’s car without confronting
her, surmising “because of the warmth on the
day at issue, [the victim] was wearing only a
very light weight summer shift” and that her
maid’s coat, where she kept her keys and wallet,
“was most likely hanging on the cleaning cart,
which gave [the petitioner] easy access.” The
petitioner argues that the statements of Jones
and White that they neither saw nor heard
anything “that was connected with the crime”
are “unbelievable.” The victim’s schedule to
clean the rooms, the petitioner asserts, was such
that she would not have reached room 21, where
she was killed, until “noon,” resulting in Jones
and White at least seeing her. The petitioner
notes that, at the 1986 trial, Jones said he did
not know whether the victim was male or
female, yet he told Maxey Kittrell, another
witness, that “a woman had been stabbed” and
told White that “there was a dead woman in
there.” This testimony, according to the
petitioner’s argument, demonstrates “knowledge
that no one but the perpetrator could have
known.” The petitioner points to other
discrepancies, including Jones’s testimony that
the “randomly selected key” which he picked up
“just happened to open the lock on room 21, the
murder room”; and the fact that White testified
that she and Jones were at the motel from 9:00
am until the emergency call, which was made at

App. 156
2:36 p.m., leaves two hours of Jones and White’s
activities “unaccounted for.” This time period,
according to the petitioner’s theory, allowed
Jones to drive White to Dickson and “to cleanse
himself and his van of the victim’s blood.” The
petitioner surmises that Jones then returned to
the motel to determine whether the motel
owners had come back and found the body, and
discovered that this had not occurred. Finally,
according to this argument, “by belatedly
announcing that a woman had been stabbed to
death, Jones successfully removed himself as a
suspect and thereby, with the help of his friend
the sheriff, was able to keep himself from being
investigated by the defense and by the
prosecution.”
The post-conviction court concluded that the
petitioner would not have benefitted from the
claim that Ken Jones had killed the victim:
Petitioner insists that his trial counsel should
have attempted to cast suspicion upon Ken
Jones as a possible perpetrator of the crime and
that counsel was ineffective in allowing Mr.
Jones to “perjure” himself in hiding his true
reason for being at the hotel. While counsel had
brought out that there had been another
stranger in the area of the CeBon Motel that
morning, they did not develop any reason for the
jury to consider that someone other than
Petitioner committed the offense. Petitioner
asserts that his trial counsel should have
suggested that perhaps, Ms. Jenkins had

App. 157
thwarted Mr. Jones [’s] planned sexual liaison
with Ms. White and that this was a motive to
kill her. He further suggests that their theory
might explain the twenty dollar bill under Ms.
Jenkins’s watch band [sic] and the careful
insertion of the knife into her vagina. Trial
counsel knew of the actual reason for Mr.
Jones[’s] presence at the motel, having learned
it from the sheriff. Of course, they could have
investigated further and learned the details of
the encounter but the Court does not find that
the information would have been particularly
useful. To present such a farfetched theory with
no supporting evidence would cause a loss of
credibility by the defense at trial. Admittedly, if
trial counsel had learned the exact details of the
movements of Mr. Jones, Ms. White and the
person(s) in the maroon or brown car, they could
have “muddied the water” concerning the details
of the discovery of the body. This would have
been insufficient, however, to cast reasonable
doubt on the guilt of Petitioner given the fact
that Petitioner was shown by the proof to have
taken the deceased’s car keys, presumably from
her billfold (in which she habitually kept them),
and stolen her car. To accept Petitioner’s
argument that he didn’t kill the deceased but
merely took her car keys from her body (which
was wrapped in a blanket) and stole her car
would require the trial jury to depart from
speculation and enter into fantasy.
Missing in the petitioner’s theory, which the
post-conviction court described as “farfetched,”

App. 158
is any motive or reason why Jones would want
to kill the victim, except the petitioner’s
suggestion, recounted in the post-conviction’s
findings, that the victim was killed because she
had “thwarted” the sexual liaison between Jones
and White. In effect, the petitioner argues that
fifty-one-year-old Ken Jones, accompanied by his
twenty-one-year-old girlfriend, Vernedith White,
following their normal Sunday morning routine
and checking into the same motel where they
had been together approximately 100 times
before and were known by the staff, including
the victim, stabbed the victim to death, with
Jones driving White to another location,
cleaning blood from himself and his vehicle, and
then returning to the scene to report the crime
and wait for law enforcement officers to arrive.
We agree with the post-conviction court that,
given the strength of proof against the
petitioner, making the argument that Ken Jones
was the actual killer would have been
“farfetched” and could have resulted in a loss of
credibility for the defense.
Hines, 2004 WL 112876 at *26-28.
The Court does not deem these facts about Jones
and White long after the murder in 1985 to warrant an
evidentiary hearing.
Petitioner next argues that his proof about other
suspects, coupled with his DNA proof, renders his
actual innocence claim similar to the claim in House.
Yet, in House, the murder was tied to a sexual offense:
“that the murder was committed in the course of a rape

App. 159
or kidnaping. The alleged sexual motivation relates to
both those determinations. This is particularly so given
that, at the sentencing phase, the jury was advised that
House had a previous conviction for sexual assault.” 54
7 U.S. at 541. Here, despite the substantial knife
wound to the victim’s vagina, the victim’s murder was
not committed in the context of a sexual act and the
causes of death were multiple wounds to her chest. The
Rilling testimony about a weird looking man on the day
of the murder does not rise to the level of substantial
proof of another murder suspect, as in House and as
reflected in the jury’s rejection of Rilling’s trial
testimony. The Court concludes that Petitioner’s
factual showing is insufficient to justify another
evidentiary hearing, and given the proof found by the
Tennessee courts tying the Petitioner to the victim, the
Court concludes that Petitioner’s other suspect proof
does not satisfy the standard for the actual innocence
exception.
Second, the proof of other murder suspects in House
was significant:
Other testimony suggests Mr. Muncey had the
opportunity to commit the crime. According to
Dennis Wallace, a local law enforcement official
who provided security at the dance on the night
of the murder, Mr. Muncey left the dance
“around 10:00, 10:30, 9:30 to 10:30.” R274:56-57.
Although Mr. Muncey told law enforcement
officials just after the murder that he left the
dance only briefly and returned, Wallace could
not recall seeing him back there again. Later
that evening, Wallace responded to Mr.

App. 160
Muncey’s report that his wife was missing.
Muncey denied he and his wife had been “a
fussing or a fighting”; he claimed his wife had
been “kidnapped.” Id., at 58. Wallace did not
recall seeing any blood, disarray, or knockedover furniture, although he admitted he “didn’t
pay too much attention” to whether the floor
appeared especially clean. According to Wallace,
Mr. Muncey said “let’s search for her” and then
led Wallace out to search “in the weeds” around
the home and the driveway (not out on the road
where the body was found). Id., at 58, 60, 63.
In the habeas proceedings, then, two different
witnesses (Parker and Letner) described a
confession by Mr. Muncey; two more (Atkins
and Lawson) described suspicious behavior (a
fight and an attempt to construct a false alibi)
around the time of the crime; and still other
witnesses described a history of abuse.
Id. at 550-51. The factual circumstances in which the
Supreme Court found a sufficient showing of actual
innocence are materially different from this action were
as follows: “[I]n direct contradiction of evidence
presented at trial, DNA testing has established that
the semen on Mrs. Muncey’s nightgown and panties
came from her husband, Mr. Muncey, not from House.”
Id. at 540.
Here, the murder was not sexual rape. Second, in
House:
the central forensic proof connecting House to
the crime–the blood and the semen–has been

App. 161
called into question, and House has put
forward substantial evidence pointing to a
different suspect. Accordingly, and although
the issue is close, we conclude that this is the
rare case where–had the jury heard all the
conflicting testimony–it is more likely than not
that no reasonable juror viewing the record as a
whole would lack reasonable doubt.
Id. at 554 (emphasis added). Here, “When asked by a
TBI agent to tell the truth about the death of
Katherine Jenkins [Petitioner] stated that if the officer
could guarantee him the death penalty he would
confess and tell him all about the murder and that he
could tell him everything he wanted to know if he was
of a mind to.” Hines, 758 S.W.2d at 518. As quoted
below, the State courts considered Petitioner’s proof
and theory of another suspect to be “far-fetched.”
Hines, 2004 WL 112876, at *27.
Petitioner next presents declarations of two
emergency medical technicians who responded to the
murder site and describe Sheriff Weakley as moving
about the motel and moving or touching items of
possible evidence. (Docket Entry Nos. 125-10 and 12511, Ken and Mary Sizemore declarations). Mary
Sizemore testified at Petitioner’s trial and post
conviction hearing, but never disclosed the Sheriff’s
conduct nor do the Sizemores describe any specific item
of evidence lost. Petitioner’s proof based upon the
victim’s cut panties suggests that critical proof was
undisturbed or destroyed by the Sheriff. Sheriff
Weakley testified as to what he did at the murder
scene and through his testimony, numerous items of

App. 162
evidence were admitted, including the victim’s torn
panties. (Docket Entry No. 29, Addendum No. 2, Vol. 2
at 527-84; Docket Entry No. 29, Addendum 2, Vol. 3 at
917-941, Trial Exhibits 49 through 65). Given that
Mary Sizemore testified at trial, but did not disclose
her observations 27 years ago, coupled with the
exhibits introduced through Weakley, lead the Court to
conclude that an evidentiary hearing based on the
Sizemore declarations is not warranted.
4. Petitioner’s Trial and Post Conviction
Counsel Declarations
As additional bases for an evidentiary hearing,
Petitioner submits the declarations of his trial and post
conviction counsel who describe their omissions.
(Docket Entry Nos. 124-9 and 124-10). For Petitioner’s
trial counsel, the omissions in his declaration describe
issues that were addressed either in the extensive state
post conviction proceedings or in Petitioner’s medical
proof about his brain damage. Post conviction counsel’s
declaration cites omissions on Petitioner’s appeal, is
based on Petitioner’s medical and other proof cited for
an evidentiary hearing in this action. In essence, for
the reasons stated on Petitioner’s proof for an
evidentiary hearing in this action and in the state
courts’ decisions, the Court concludes Petitioner’s
declarations from his prior counsels do not warrant an
evidentiary hearing. As discussed earlier, these
declarations do not present substantial claims under
Martinez.
For these collective reasons, the Court concludes
that Petitioner’s request for an evidentiary hearing is
not justified and should be denied.

App. 163
B. Review of the State Record
1. Procedural History
Petitioner was charged with first degree murder
and felony murder and on January 10, 1986, a jury
convicted Petitioner of first degree murder and
sentenced Petitioner to death. State v. Hines, 758
S.W.2d 515 (Tenn. 1988); (Docket Entry No. 299,
Addendum 1, Vol. 1 at 77-84). On direct appeal, the
Tennessee Supreme Court upheld his conviction, but
remanded for a new sentencing hearing, citing the
state trial court’s failure to instruct the jury properly
on the underlying felonies and the aggravating
circumstances necessary for a death sentence. Id. at
524. At resentencing, the jury imposed the death
penalty that was upheld on Petitioner’s second appeal.
State v. Hines, 919 S.W.2d 573 (Tenn. 1995). Although
Petitioner’s petition for rehearing was granted, the
Tennessee Supreme Court denied relief. State v. Hines,
1996 Tenn. LEXIS 149 (Tenn. Mar. 11, 1996). The
United States Supreme Court denied Petitioner’s
petition for the writ of certiorari. Hines v. Tennessee,
519 U.S. 847 (1996).
On March 4, 1997, Petitioner filed his state postconviction petition, and with the assistance of counsel,
Petitioner amended his petition twice. On May 9, 2002,
after an extensive evidentiary hearing, the trial court
denied relief and on appeal, the Tennessee Court of
Criminal Appeals affirmed. Hines v. State, No. M20021352-CCA-R3-PD, 2004 WL 112876, at* 1 (Tenn. Crim.
App. Jan. 23, 2004). On June 28, 2004, the Tennessee
Supreme Court granted Petitioner’s application for
permission to appeal and remanded the appeal to the

App. 164
Tennessee Court of Criminal Appeals to reconsider the
issue of the aggravating circumstances instruction.
Hines v. State, No. M2004-01610-CCA-RM-PD, 2004
WL 1567120 at *1 (Tenn. Crim. App. July 14, 2004). On
July 14, 2004, The Tennessee Court of Criminal
Appeals rendered its decision, concluding that the trial
court correctly instructed the jury on aggravated
circumstances. Id. On November 29, 2004, the
Tennessee Supreme Court denied Petitioner’s
application for permission to appeal. Id. On January 3,
2005, Petitioner filed this action.
2. State Court’s Findings of Fact4
In Petitioner’s direct appeal, the Tennessee
Supreme Court set forth the facts underlying
Petitioner’s conviction.
Between 1:00 and 1:30 p.m. on 3 March 1985 the
body of Katherine Jean Jenkins was discovered
wrapped in a sheet in Room 21 of the CeBon
Motel off Interstate 40 at Kingston Springs. The
victim was a maid at the motel and had been in
the process of cleaning the room when she was
killed. Her outer clothing had been pulled up to
her breasts. Her panties had been cut or torn in
two pieces and were found in another area of the
room. A $20 bill had been placed under the wrist
band of her watch.

4

State appellate court opinion findings can constitute factual
findings in a habeas action, Sumner v. Mata, 449 U.S. 539, 546-47
(1981), and have a statutory presumption of correctness. 28 U.S.C.
§ 2254(e).

App. 165
The cause of death was multiple stab wounds to
the chest. Four deep, penetrating wounds,
ranging from 2.5 inches to 6.4 inches in depth,
had been inflicted about the victim’s chest with
a knife similar to a butcher knife or a hunting
knife. Other superficial cuts were found in the
area of the neck and clavicle. There was also a
knife wound which penetrated through the
upper portion of the vagina into the mesentery
in the lower part of the abdominal cavity. Dr.
Charles Harlan who performed the autopsy on
the victim’s body testified that in view of the
small amount of blood in the vaginal vault it was
his opinion the wound occurred at or about the
time of death. The victim also had what he
described as “defensive wounds” on her hands
and arms.
Jenkins had been left in charge of the motel at
about 9:30 a.m. At that time the occupants of
Rooms 9, 21 and 24 had not yet checked out.
When the manager left her in charge she was
given a Cheatham County State Bank bag
containing $100 in small bills to make change
for motel guests as they paid. The bank bag,
bloody and empty, was discovered in the room
with her body. It was her established habit to
lock her automobile at all times and to keep her
keys and billfold on her person when she
worked. Her car keys, billfold and her 1980
silver-colored Volvo were missing.
On 1 March 1985 defendant had departed by bus
from Raleigh, North Carolina. He had been

App. 166
given a non-refundable ticket to Bowling Green,
Kentucky and $20 in spending money. The
traveling time from Raleigh, North Carolina to
Nashville, Tennessee was approximately 17
hours. Prior to his departure he was observed by
a witness to be carrying a hunting knife in a
sheath which was concealed beneath his shirt.
The witness admonished him that he could not
carry a knife like that on the bus to which he
responded “I never go anywhere naked.” “I
always have my blade.” Sometime in the early
morning hours of 3 March 1985 he checked in
and was assigned to Room 9 at the CeBon Motel.
He was wearing a green army-type fatigue
jacket, fatigue pants and boots. He was next
seen at approximately 9:30 a.m. walking in a
direction from his room toward a drink machine.
At that time he told the manager he was not yet
ready to check out. He was also seen sometime
prior to 9:30 purchasing a sandwich at a delirestaurant across the street from the motel. The
same witness who saw defendant also saw
another stranger there somewhere between 1:30
and 2:30 who she described as taller than
defendant with dark hair, kinky looking and
wild-eyed. He departed the restaurant in the
general direction of the CeBon Motel. The
Cehatham County Sheriff testified that he
responded to a call to the CeBon Motel at 2:37
p.m. When he arrived on the scene blood spots in
the room were beginning to dry and the body
was beginning to stiffen. Defendant was seen
between 11:00 and 11:30 a.m. walking from the

App. 167
direction of the Interstate toward the CeBon
Motel.
At 12:40 p.m. a witness saw the victim’s Volvo
automobile pulling out from the CeBon Motel
driveway. It was being operated by a person who
appeared to be a man with very short, light
colored hair. The vehicle crossed over the
Interstate and turned east on Interstate 40. She
followed behind and endeavored to catch up but
it sped off toward Nashville at a high rate of
speed. Defendant was next identified in
possession of the car a few miles past Gallatin
on Interstate 65, heading in the direction of
Bowling Green, Kentucky. A group of young
people first endeavored to help him start the
stalled automobile and then gave him a ride to
Bowling Green. During the trip to Bowling
Green one of these witnesses observed some
dried blood on the right shoulder of his shirt. He
carried a jacket which he kept folded. After he
arrived at his sister’s home in Bowling Green
defendant told her he had endeavored to pay
another day’s rent at a motel when he was
attacked by the motel operator. He
demonstrated to her how he had stabbed the
man. He also related to her he had a sum of
money. She could not remember whether he said
$35,000 or $3,500. Defendant also told his
sister’s husband he had earned approximately
$7,000 working as a mechanic in North
Carolina. He displayed a set of keys to a Volvo
automobile and explained that a man who had
given him a ride attempted to rob him.

App. 168
Defendant purportedly grabbed the steering
wheel and when the car ran off the road he
grabbed the keys and ran. According to the
witness he was wearing an army fatigue jacket
which had something large, heavy and bulky in
the pocket. The witness had previously seen
defendant with a survival knife with a 6 1/2 to 7
inch blade hanging from his belt. When
defendant was taken into custody he
volunteered the statement that he had taken the
woman’s car but had not killed her. According to
the arresting officer he had not advised the
defendant that a woman had been killed prior to
the volunteered statement. There was evidence
however that defendant was aware he had been
charged in Tennessee on a murder warrant. The
victim’s wallet was found wrapped in a thermal
underwear shirt a short distance from where her
car was found abandoned. The key to Room 9 of
the CeBon Motel was found at the site where
defendant had been camping out near Cave City,
Kentucky. When asked by a TBI agent to tell the
truth about the death of Katherine Jenkins
defendant stated that if the officer could
guarantee him the death penalty he would
confess and tell him all about the murder and
that he could tell him everything he wanted to
know if he was of a mind to. There were marks
on the wall of Room 9 at the CeBon Motel
apparently made by someone stabbing a knife
into the wall. When shown photographs of the
marks on the wall defendant responded that
they were knife marks. These marks were

App. 169
obviously made by a knife larger than two taken
from defendant at the time of his arrest.
Hines, 758 S.W.2d at 517-19.
As to the facts underlying Petitioner’s death
sentence, on his appeal after his resentencing hearing,
the Tennessee Supreme Court cited the following facts:
The State introduced proof that the defendant
had previously been convicted of assault in the
first degree. A detective who had investigated
the case testified that the defendant had
inflicted serious physical harm to the victim in
this prior case. The State also presented proof
that the defendant had stabbed the victim in the
present case multiple times with a sharp
instrument, probably a knife. Three of these
wounds were lethal and had penetrated the
victim’s chest five to six inches. The pathologist
who had performed the autopsy of the victim
testified that all the lethal wounds were inflicted
at about the same time and that death would
have occurred within four to six minutes, most of
which time the victim would have remained
conscious. Defensive wounds were found on the
victim’s hands. Her clothing had been pulled up
and her panties had been cut in half and
removed from her body. About the time of death,
and shortly after the infliction of the lethal
wounds to the chest, the defendant had inserted
a flat object through the victim’s vaginal orifice
into the vaginal pouch until the instrument
penetrated the vaginal dome and passed into the
abdominal cavity. A twenty dollar bill had been

App. 170
placed under the victim’s watchband. No semen
or any other evidence of ejaculation was found.
At the time of her death, the victim had in her
possession a bank bag containing approximately
$100 in proceeds from the motel. The empty bag
was discovered in the room where the victim’s
body was found. The victim’s automobile was
also missing. Around 12:40 p.m. the day of the
murder, another employee of the motel saw the
vehicle being driven out of the motel parking lot
by someone other than the victim.
In mitigation, the defendant presented proof
that, while in prison on this conviction, he had
presented no serious disciplinary problems and
posed no threat to the prison population. The
defendant also presented proof of a troubled
childhood. His father had abandoned the family
when the defendant was young. His mother had
an alcohol problem. In his teens the defendant
became involved in sniffing gasoline and glue
and began to abuse alcohol and drugs. He also
exhibited self-destructive behavior. Dr. Pamela
Auble, a clinical psychologist, testified that the
defendant was suffering from a paranoid
personality disorder and dysthymia, or chronic
depression. According to Dr. Auble, the
defendant would suppress his feelings until they
“boiled up” under stress. In her opinion, the
defendant, who had returned from turbulent
visits with his parents and girlfriend shortly
before he committed the murder, was under
stress when he killed the victim. Dr. Ann Marie

App. 171
Charvat, a sociologist, also testified about the
damaging effect of the circumstances of his
childhood on the defendant.
Hines, 919 S.W.2d at 577. The state courts’ other
factual findings will be set forth in the analysis of the
Petitioner’s claims.
C. Conclusions of Law
Petitioner’s viable habeas claims, if timely, are
governed by the provisions of the Antiterrorism and
Effective Death Penalty Act of 1996 (“AEDPA”). Lindh
v. Murphy, 521 U.S. 320, 336 (1997). Under the
AEDPA, federal courts may not grant habeas relief for
claims adjudicated on their merits in a state court
proceeding, unless that state court proceeding:
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the state court
proceeding.
28 U.S.C. § 2254(d).
In Williams v. Taylor, 529 U.S. 362, 413 (2000), the
Supreme Court stated that a state court judgment is
“contrary to” clearly established federal law “if the
state court arrives at a conclusion opposite to that
reached by [the Supreme] Court on a question of law or
if the state court decides a case differently than [the

App. 172
Supreme] Court on a set of materially
indistinguishable facts.” In such instances, the
Supreme Court held that a federal habeas court may
grant a writ. Id. The Supreme Court interpreted the
language “clearly established Federal law, as
determined by the Supreme Court of the United
States”as referring to “holdings, as opposed to dicta” of
its decisions “as of the time of the relevant state-court
decision.” Id. at 412. Moreover, the relevant analysis is
“to apply a rule of law that was clearly established at
the time [the Petitioner’s] state-court conviction
became final.” Id. at 390; accord, Joshua v. DeWitt, 341
F.3d 430, 436 (6th Cir. 2003). In Bell v. Cone, 535 U.S.
685, 693 (2002), the Court reiterated that the AEDPA
modified a federal court’s role in reviewing state
prisoner applications “in order to prevent federal
habeas ‘retrials’ and to ensure that state court
convictions are given effect to the extent possible under
the law.”
Under the “unreasonable application” clause, the
Supreme Court stated that a state court judgment
results in an “unreasonable application” of clearly
established federal law “if the state court correctly
identifies the correct governing legal principle from
[the Supreme] Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s
case.” Williams, 529 U.S. at 413. The district court
“must presume that all determinations of factual issues
made by the state court are correct unless the
defendant can rebut that presumption by clear and
convincing evidence.” Mitchell v. Mason, 325 F.3d 732,
737-38 (6th Cir. 2003) (citing 28 U.S.C. § 2254(e)(1)).

App. 173
The Supreme Court explained that a state court’s
application of clearly established federal law must be
“objectively unreasonable,” and a district court may not
grant habeas relief “simply because that court
concludes in its independent judgment that the
relevant state-court decision applied clearly established
federal law erroneously or incorrectly. Rather, that
application must also be unreasonable.” Williams, 529
U.S. at 411. A state court’s application of federal law is
unreasonable and habeas relief may be granted if the
“‘state court decision is so clearly incorrect that it
would not be debatable among reasonable jurists.”’
Herbert v. Billy, 160 F.3d 1131, 1135 (6th Cir. 1998)
(quoting Drinkard v. Johnson, 97 F.3d 751, 769 (5th
Cir. 1996)).
In reaching this decision, the Supreme Court
reiterated that the claims were to be decided on the
record before the state court:
In this and related contexts we have made clear
that whether a state court’s decision was
unreasonable must be assessed in light of the
record the court had before it. See Yarborough v.
Gentry, 540 U.S. 1, 6, 124 S.Ct. 1, 157 L.Ed.2d 1
(2003) (per curiam) 124 S.Ct., at 4 (denying
relief where state court’s application of federal
law was “supported by the record”); Miller-El v.
Cockrell, 537 U.S. 322, 348, 123 S.Ct. 1029, 154
L.Ed.2d 931 (2003) (reasonableness of state
court’s factual finding assessed “in light of the
record before the court”); cf. Bell v. Cone, 535
U.S. 685, 697, n. 4, 122 S.Ct. 1843, 152 L.Ed.2d
914 (2002) (declining to consider evidence not

App. 174
presented to state court in determining whether
its decision was contrary to federal law).
Holland v. Jackson, 542 U.S. 649, 652 (2004) (emphasis
added). The district court also “must presume that all
determinations of factual issues made by the state
court are correct unless the defendant can rebut that
presumption by clear and convincing evidence.”
Mitchell v. Mason, 325 F.3d 732, 737-38 (6th Cir. 2003)
(citing 28 U.S.C. § 2254(e)(1)). This presumption
includes credibility findings of the state courts. Skaggs
v. Parker, 235 F.3d 261,266 (6th Cir. 2001).
1. Petitioner’s Undisputed Exhausted Claims
For resolution of the Petitioner’s claims, the Court
addresses first the undisputed exhausted claims. These
undisputed claims are grouped to include closely
related claims, albeit under a different legal theory.
Thereafter, the analysis turns to Petitioner’s claims
that Respondent contends are procedurally defaulted.5
For those claims, Petitioner appears to assert facts in

5

Respondent seeks judgment as a matter of law based upon
Petitioner’s procedurally defaulted s claims in Paragraphs 9, 10,
11(b), (e), (i), (l), (n)-(u), 13(b), (c), (t), (u), (w)-(ee), 14, 17, 19, 21(b),
(d)-(f), portions of Paragraph 22, Paragraphs 23-24, 26-31, 33-34,
portions of Paragraph 35, and Paragraphs 36-38 and 40 of the
Second Amended Petition. (Docket Entry Nos. 23, 23-1 and 23-2).
Respondent contends that these claims were not fairly presented
to the state courts and the opportunity to present them under
Tennessee law has passed. The Court adds Claim 11v that reads
as follows: “Counsel failed to raise any and all challenges to the
validity of Darrell Hines’ conviction contained in this petition. See
e.g., ¶¶ 9, 10, 12, 19, 20, 21, 27, 29, .30, 31, 32, incorporated by
reference.” (Docket Entry No. 23, Second Amended Petition at 25).

App. 175
exhausted claims for claims under new and distinct
legal theories.
a. Sufficiency of the Evidence and
Related Claims
For this claim, Petitioner asserts that the State’s
proof was insufficient to support his guilt or his death
sentence in violation of the Sixth, Eighth, and
Fourteenth Amendments and Jackson v. Virginia, 443
U.S. 307 (1979). (Docket Entry No. 23-2, Amended
petition at ¶ 32). Petitioner’s related claims are that
“[i]n violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines’ death sentence was based
on a felony-murder aggravating circumstance which
duplicated the jury’s guilt finding and failed to
meaningfully narrow the class of persons eligible for
the death penalty,” citing Clemons v. Mississippi, 494
U.S. 738, 110 S.Ct. 1441 (1990); State v. Middlebrooks,
840 S.W.2d 317 (Tenn 1992), and that “[i]In violation of
the Sixth, Eighth, and Fourteenth Amendments, the
jury weighed an unconstitutional ‘heinous, atrocious, or
cruel’ aggravating circumstance when imposing the
death sentence.” Id. at ¶¶ 15-16.
Respondent contends that the Tennessee Supreme
Court reasonably decided the sufficiency of the
evidence claims and detailed the evidence against
Petitioner, including that he was found in possession of
the victim’s car keys, was in possession of a large
amount of money after the robbery and was seen with
a blood stain on his arm, citing Hines, 758 S.W.2d at
515, 518. Respondent cites the victim’s wallet that was
found near the location of the vehicle that Petitioner
admitted taking. Petitioner stayed at the hotel where

App. 176
the victim was found murdered by a knife, and
Petitioner was seen carrying a knife shortly before the
crime, and the hotel room in which he stayed had knife
marks in the walls. Id. at 517-18. Petitioner offered to
confess to the murder, if promised the death penalty.
Id. Respondent also argues that the State courts’
application of the harmless error doctrine was
reasonable given the State’s proof of alternative bases
for Petitioner’s conviction and death sentence.
From the Court’s review, Petitioner’s sufficiency
challenges on direct appeal were “that the State’s case
was based wholly on circumstantial evidence which
was insufficient to support the conviction. In argument
defendant concedes the proof was sufficient to support
a verdict of first degree murder but he insists it fails to
establish beyond a reasonable doubt that the offense
was committed by him to the exclusion of all others.”
758 S.W.2d at 517. In addition, Petitioner argued that
the State’s proof on the depravity or torture element
was insufficient to support his death sentence. Hines,
919 S.W.2d at 581.
For the former claim, the Tennessee Supreme Court
decided that in addition to the proof quoted, 758
S.W.2d at 517-19, that “[t]here is additional evidence in
the record incriminating defendant. That summarized
above establishes guilt of the conviction offense. A
criminal offense may be established exclusively by
circumstantial evidence and the record in this case is
abundantly sufficient for a rational trier of fact to find
defendant’s guilt beyond a reasonable doubt.... He
concedes that the statements made by him to the effect
that he would or could tell them all about the homicide

App. 177
were relevant because they raised a reasonable
inference he knew of the facts and circumstances of the
murder and was in some way involved with it.” 758 S.
W. 2d at 519.
The Tennessee Supreme Court decided the
sufficiency claim on the death sentence after the
resentencing hearing as follows:
Defendant says Tenn.Code Ann. § 39-2-203(i)(5)
(the murder was especially heinous, atrocious, or
cruel in that it involved torture or depravity of
mind) is unconstitutionally vague and was
unconstitutionally applied in this case. He
concedes that the Court has repeatedly rejected
vagueness challenges to this section of the
statute and asserts the issue is presented for
purposes of preserving the issue for later review.
Citing Shell v. Mississippi, 498 U.S. 1, 111 S.Ct.
313, 112 L.Ed.2d 1 (1990), he submits that the
definition of “depravity” in State v. Williams,
690 S.W.2d 517, 529 (Tenn.1985), cannot survive
constitutional scrutiny absent proof of
mutilation. The constitutionality of this
aggravating circumstance has been previously
upheld in State v. Barber, 753 S.W.2d 659, 670
(Tenn.1988). See also State v. Cazes, 875 S.W.2d
253, 267 (Tenn.1994); State v. Black, 815 S.W.2d
166, 171 (Tenn.1991). In Williams, we wrote that
‘Torture’ means the infliction of severe
physical or mental pain upon the victim
while he or she remains alive and
conscious. In proving that such torture

App. 178
occurred, the State, necessarily, also
proves that the murder involved
depravity of mind of the murderer,
because the state of mind of one who
willfully inflicts such severe physical or
mental pain on the victim is depraved.
******
If acts occurring after the death of the
victim are relied upon to show depravity
of mind of the murderer, such acts must
be shown to have occurred so close to the
time of the victim’s death, and must have
been of such a nature, that the inference
can be fairly drawn that the depraved
state of mind of the murderer existed at
the time the fatal blows were inflicted
upon the victim.
690 S.W.2d at 529.
When this case was originally considered on
direct appeal, this Court commented that the
evidence, equivalent to that presented at this
sentencing hearing, was clearly sufficient to
demonstrate that the murder was especially
heinous, atrocious, or cruel. State v. Hines, 758
S.W.2d at 523. We continue to agree with this
finding. At resentencing, the pathologist
testified that the stab wound to the victim’s
vagina was made around the time of death.
The willful insertion of a sharp instrument
into the vaginal cavity of a dying woman
(or a woman who had just died) satisfies

App. 179
the requirements of Williams, supra. If
committed prior to death, these acts
constitute torture and thereby also support
a finding of depravity. If they occurred
close in time to the victim’s death, they
allow the drawing of an inference of the
depraved state of mind of the murderer at
the time the fatal blows were inflicted on
the victim. The defendant also argues that
to find that multiple stab wounds and
defensive wounds constitute torture, there
must be proof that the defendant
specifically intended to inflict unnecessary
pain and suffering. The evidence of the
stab wound to the vagina was sufficient to
support a finding that the wounds were
intentionally inflicted and that the murder
involved torture under Williams.
919 S.W.2d at 581 (emphasis added).
For an insufficiency of the evidence claim, the
Supreme Court in Jackson set forth the standard for
this Court’s review.
[T]he critical inquiry on review of the sufficiency
of the evidence to support a criminal conviction
must be not simply to determine whether the
jury was properly instructed, but to determine
whether the record evidence could reasonably
support a finding of guilt beyond a reasonable
doubt. But this inquiry does not require a court
to “ask itself whether it believes that the
evidence at the trial established guilt beyond a
reasonable doubt.” Instead, the relevant

App. 180
question is whether, after viewing the
evidence in the light most favorable to the
prosecution, any rational trier of fact could
have found the essential elements of the
crime beyond a reasonable doubt. This
familiar standard gives full play to the
responsibility of the trier of fact fairly to resolve
conflicts in the testimony, to weigh the evidence,
and to draw reasonable inferences from basic
facts to ultimate facts. Once a defendant has
been found guilty of the crime charged, the
factfinder’s role as weigher of the evidence
is preserved through a legal conclusion
that upon judicial review all of the
evidence is to be considered in the light
most favorable to the prosecution. The
criterion thus impinges upon “jury” discretion
only to the extent necessary to guarantee the
fundamental protection of due process of law.
443 U.S. at 318-19 (emphasis added with footnotes and
citations omitted).
A presumption of correctness obtains in
determining whether there exists sufficient evidence to
support a conviction. If any rational finder of fact
would accept the evidence as establishing each
essential element of the crime, the Jackson standard of
review is satisfied. Id. at 324. Circumstantial evidence,
if sufficient to establish an element of the offense,
satisfies constitutional requirement of due process,
Wiley v. Sowders, 669 F.2d 386, 390 (6th Cir. 1982)
(per curiam), and such evidence need not remove every
reasonable hypothesis except that of guilt. Tilley v.

App. 181
McMackin, 989 F.2d 222, 225 (6th Cir. 1993); United
States v. Vannerson, 786 F.2d 221, 225 (6th Cir.1986).
Uncorroborated accomplice testimony is sufficient to
support a conviction under the United States
Constitution. Takacs v. Engle, 768 F.2d 122, 127 (6th
Cir. 1985).
Applying the Jackson principles here, the State’s
proof, as quoted at 758 S.W.2d at 517-19, included facts
that Petitioner was seen driving the victim’s car,
Petitioner told his sister that he had been in a fight at
a motel with the manager, Petitioner was observed
with blood on his clothes in the shoulder area.
Petitioner admitted taking the victim’s car, the motel
key to Room 9, the site of the murder, was found in the
area where the Petitioner had camped, and Petitioner
was observed with a survival knife with a 6 ½ to 7 inch
blade. Petitioner also made statements that he could
tell the officers all the details of the murder. With this
collective proof, this Court concludes that the state
courts could reasonably conclude that the state’s proof
supported Petitioner’s conviction of first degree
murder.
As to the merits of the State’s proof for the death
sentence, the Court concludes that given the nature of
the victim’s repeated hunting knife wounds to her
vagina, the state court’s decisions that Petitioner was
guilty of torture are reasonable applications of federal
law. As to the unconstitutionality of this statutory
torture requirement, the Sixth Circuit observed that as
in Bell v. Cone, 543U.S. 447 (2005), “the Tennessee
Supreme Court’s rejection of petitioner’s challenge to
the ‘heinous, atrocious, or cruel’ (“HAC”) aggravator

App. 182
was not contrary to clearly established federal law as
determined by the United States Supreme Court.”
Payne v. Bell, 418 F.3d 644, 653 (6th Cir. 2005). For
these reasons, the Court concludes that this claim does
not warrant habeas relief.
As to Petitioner’s reliance on Clemons, there, the
Supreme Court held that the harmless error doctrine
applied to a state appellate court’s reweighing of the
aggravating and mitigating factors and eliminating an
improper aggravating factor considered by the jury. 494
U.S. at 741-46. The “[f]ederal Constitution does not
prevent a state appellate court from upholding a death
sentence that is based in part on an invalid or
improperly defined aggravating circumstance either by
reweighing of the aggravating and mitigating evidence
or by harmless-error review.” Id. at 741. Given the
nature of the victim’s wounds and the State’s other
proof, the jury and Tennessee Supreme Court had
ample alternative bases, other than Petitioner’s prior
assault conviction and felony theft of the victim’s
automobile, to justify Petitioner’s death penalty
sentence. See Landrum v Mitchell, 625 F.3d 905, 926
(6th Cir 2010).
b. Ineffective Assistance of Counsel Claims
Petitioner’s ineffective assistance of counsel’s claims
are directed at the performances of his trial counsel
and counsel at his resentencing and appeal. Those
claims are addressed separately.

App. 183
1. Ineffectiveness of Trial Counsel
Of Petitioner’s claims on the ineffective assistance
of his trial counsel, the undisputed exhausted claims
about his trial counsel6 are that:
11.
Counsel was ineffective at the guilt phase
of the proceedings, and absent counsel’s failures,
there is a reasonable probability that Darrell
Hines would not have been convicted and/or
sentenced to death. Counsel was ineffective for
the following reasons, including:
a. Counsel lacked the experience necessary
to defend Darrell Hines (counsel had never tried
a murder case), was unaware of the law
applicable to Darrell Hines’ case, was
attempting to carry a full criminal practice while
representing Darrell Hines, and was not
properly compensated for his representation of
Mr. Hines.
6

Petitioner’ s challenges to the effectiveness of his post conviction
counsel are not in his second amended petition, but in his request
for an evidentiary hearing. (Docket Entry No. 109 at 1-43) In any
event , those challenges are addressed in the procedural default
section of this Memorandum, infra. In his post conviction appeal,
the Tennessee appellate court described Petitioner’s claims on
appeal: “In his argument on appeal, the petitioner has set out five
claims, three asserting that counsel were ineffective at his 1986
trial, his 1989 resentencing hearing, and on the direct appeal of his
conviction, one asserting that he was prejudiced because of the
exclusion of women from the jury panel, and one claiming that
imposition of the death penalty violates various of his rights
afforded by the federal and state constitutions.” Hines, 2004 WL
1567120 at *22. This Court analyzes only claims that were actually
presented to and decided by the state courts.

App. 184
***
c. Counsel failed to properly pursue and
inform Mr. Hines of possible terms and
consequences of a plea bargain.
d. Counsel was ineffective for failing to
allege that women were under-represented in
the Cheatham County venire and to challenge
women’s under-representation on the petit jury,
grand jury, and as forepersons of the grand jury.
See ¶ 9, incorporated by reference.
***
f. Counsel failed to develop and pursue a
comprehensive defense theory for the 1986
guilt/innocence phase of trial.
g. Counsel was ineffective for failing to
interview and effectively cross-examine Ken
Jones to show that he was lying at the trial.
Counsel knowingly allowed Jones to present
false testimony (which resulted in part from a
conflict of interest with the sheriff) about when
and why he was at the CeBon motel on the day
of the murder and what he observed while he
was there.
***
h. Counsel had a conflict of interest that
constructively denied Darrell Hines his right to
counsel where counsel purposefully did not
investigate and interview Ken Jones based upon
instructions from the Sheriff who directed him

App. 185
not to talk to Ken Jones. Counsel’s conflict
created a bias whereupon counsel sided with
Sheriff Weakley instead of diligently pursuing
all avenues of defense for Darrell Hines.
***
k. Counsel failed to properly identify, gather
and examine necessary documents, records and
physical evidence, including but not limited to:
arrest reports, reports of forensic testing, any
recorded or memorialized version of statements
made by Mr. Hines and others, autopsy reports,
physical evidence seized by the prosecution, and
prior criminal records of Mr. Hines and other
witnesses. In addition, counsel failed to view the
crime scene, and failed to fully investigate the
forensic evidence collected at or from the crime
scene or victim which was inconsistent with
Darrell Hines’ guilt and/or any testing done on
such evidence, including, but not limited to,
vacuumings from the room, a cigarette butt, an
ashtray, clothing and fabrics and swabs,
fingerprints, a bank bag, a $20 bill, a Pepsi
bottle, a roll of Turns, and a chapstick (all found
in room 21 where the victim was discovered).
Had counsel investigated and analyzed this
forensic evidence to establish the identity of any
person(s) in the room, counsel would have
established proof that Darrell Hines was not
guilty and/or that someone else killed the victim.
***

App. 186
m. Counsel was ineffective for failing to
discover impeachment evidence which would
have undermined the testimony of critical
witnesses for the prosecution
(Docket Entry Nos. 23-1, Seconded Amended Petition
at 13, 15,18-19). Again, each claim has subparts that
are discussed collectively infra.
i. Competency of Trial Counsel
The Court groups several of these claims that are
interrelated. The first group includes those claims 11
a, c, and f, that challenge the competency of Petitioner’s
trial counsel, namely that Petitioner’s trial counsel
lacked the experience of trying a death penalty case;
that Petitioner’s trial counsel could not represent
Petitioner and maintain his practice; that Petitioner’s
trial counsel failed to pursue and advise Petitioner on
a guilty plea; and that Petitioner’s trial counsel failed
to develop and pursue a comprehensive defense theory
for the guilt/innocence phase of the trial. For these
claims, Respondent argues that Petitioner’s trial
counsel’s inexperience is not ground for habeas relief
and that Petitioner fails to identify any particulars for
his comprehensive defense claim.
As to the guilt state of the proceedings, the
Tennessee appellate court found that five lawyers
represented Petitioner at various stages of his trial and
sentencing hearings:
Robert S. Wilson was the first attorney
appointed to represent the petitioner, but his
representation was short-lived because he was
hired by the district attorney general’s office

App. 187
approximately two months after his
appointment. He said that he represented the
petitioner from shortly after his arrest in
March1985 to approximately late June 1985. He
began employment with the district attorney
general’s office on August 16, 1985, and said
that he never discussed the case with anyone at
that office. He testified that he had
recommended Steve Stack as his co-counsel, and
Stack was appointed. He knew that Stack had
no prior death penalty experience when he
recommended him.
Steve Stack represented the petitioner at the
1986 trial and the 1989 resentencing. He had
tried two cases to a jury in the twenty months
that he had been practicing law prior to his
appointment and did not believe he was
qualified to serve as lead counsel on the case.
Stack estimated that between 60 and 75% of his
practice at the time was civil. William Wilkinson
was appointed to assist Stack after Wilson was
allowed to withdraw. Wilkinson had practiced
with Wilson prior to the time he joined the
district attorney general’s office. Stack
considered himself to be co-counsel in the case,
although he performed many of the lead
counsel’s duties. He spent 3 8.9 in-court hours
and 133.6 out-of-court hours on the petitioner’s
case. He believed he was paid, at the time of his
representation of the petitioner at the trial, $20
an hour for out-of-court time and $30 an hour for
in-court time. By contrast, in retained cases he
charged between $60 and $75 per hour for his

App. 188
services. At the time of his representation of the
petitioner, he did not have an office staff or an
investigator. Accordingly, he and Wilkinson did
all of the investigation themselves. Although
Stack was in private practice during the 1986
trial, he was employed at the public defender’s
office by the time the case was remanded by the
supreme court for resentencing and, as a public
defender, was appointed to represent the
petitioner at the resentencing.
Stack testified that he obtained a mental
evaluation for the petitioner to determine
competency issues and whether an insanity
defense would be available prior to the original
trial, but these services did not cover any
mitigation issues. He requested the services of
an independent psychiatrist, a private
investigator, and an independent mental
evaluation, but these requests were denied.
Stack said that he had interviewed many of the
witnesses who testified at trial, including the
owners of the motel and Sheriff Weakley. He
recalled traveling to Bowling Green, Kentucky,
but could not remember the specific witnesses he
interviewed there. He did not run a criminal
background check on Daniel Blair and,
therefore, did not know he had been convicted of
theft of livestock, which might have been used
for impeachment purposes. He also interviewed
Bill Hines, the petitioner’s stepfather; Bobby Joe
Hines, the petitioner’s half-brother; and possibly
Barbara Hines, the petitioner’s mother.

App. 189
Although he recalled traveling to the home of
Victoria Hines Daniel, the petitioner’s sister, he
did not remember actually meeting with her. He
acknowledged that he knew she would testify
that she saw blood on the petitioner’s clothing,
but he did not obtain any information to
impeach her testimony. He did not interview the
petitioner’s former girlfriend, Melanie Chandler,
or her mother, Virginia Chandler, both of whom
lived in North Carolina.
***
Stack testified that he became an assistant
public defender in 1988 and was appointed to
represent the petitioner at resentencing, as were
Shipp Weems, the public defender, and Phillip
Maxey. As for the defense team’s decision to
delay their opening statement at resentencing
until just prior to their proof, Stack testified that
they discussed this issue, but he did not know
why they decided to do so. He said that Maxey,
who was the least experienced of the three, gave
the opening statement for the defense, and both
he and Weems had anticipated a different
opening. He testified that the opening did not
outline the proof they planned to present, but
rather simply asked the jury to listen to their
proof. He testified that the defense team made
the tactical decision not to present a closing
argument because it was their opinion that
General Kirby had not “presented a very forceful
argument,” and they wanted to prevent General
Atkins, who was “exceptional in his ability to ...

App. 190
bring emotions out in a jury,” from making a
rebuttal argument. Stack said that General
Atkins had given a very impassioned closing
argument at the original trial, and they wanted
to keep him from doing so at the resentencing.
***
William G. Wilkinson, who had been practicing
law since 1968, testified that he was appointed
to assist Steve Stack, who had been in practice
a “relatively short time.” Wilkinson described his
role as “kind of senior counsel” but said that
Stack probably did more work on the case than
he did. He said he had billed 59.5 out-of-court
hours and 34.4 in-court hours on the petitioner’s
case, but those numbers were very conservative
and did not include time he spent traveling to
Bowling Green, Kentucky. Wilkinson testified
that he believed he had sufficient time to
prepare for the petitioner’s trial, that he was
adequately prepared for trial, and that none of
his tactical decisions turned out to be erroneous.
Wilkinson knew that the petitioner’s sister,
Victoria Hines Daniel, had an alcohol and drug
abuse problem and recalled examining her
husband, Ernest Daniel, about her drinking
problem. He was not aware of any sexual or
physical abuse allegations of Mrs. Daniel but
acknowledged that information as to this would
have been useful. Wilkinson said that the
petitioner “may” have told him about the abuse
inflicted upon him by his stepfather. He had the

App. 191
petitioner examined by a psychiatrist who
determined he was competent to stand trial.
Wilkinson said he did not interview the four
people from Kentucky who gave the petitioner a
ride and did not know before trial that one of
them, Daniel Blair, was going to testify that he
saw blood on the petitioner’s shirt. Had he
known of the substance of Blair’s testimony, he
would have checked Blair’s criminal record for
impeachment purposes. He recalled that Blair
testified about his ability to recognize blood and
about washing bloodstains out of fabric although
he could not recall Blair’s exact testimony. He
acknowledged that, in hindsight, it would have
been helpful to have had an expert refute Blair’s
testimony about washing out bloodstains.
Hines, 2004 WL 1567120 at *9-10.
Based upon these facts, the Tennessee appellate
court ruled that “The petitioner contends both that his
counsel were too inexperienced to try a capital case and
failed to represent him zealously because the
compensation provided appointed attorneys was too
low. The court determined that these arguments were
without merit, and the record supports this conclusion.
We have previously held that inexperience of counsel
alone does not equate to ineffective assistance of
counsel.” Hines, 2004 WL 1567120 at *30 (citing
Anthony J. Robinson v. State, No. 02C01-9707-CR00275, 1998 WL 538566, at *2 (Tenn.Crim.App.
Aug.26, 1998) (“The petitioner claims counsel’s lack of
trial experience constituted ineffective assistance. The
trial court noted the petitioner claimed, but presented

App. 192
no evidence, that his was the first trial that counsel
conducted. Further, the trial court noted that
inexperience, in itself, does not equate to ineffective
assistance. We concur. The petitioner must identify
specific acts and omissions to support the claim. The
petitioner does not; therefore, this issue is without
merit”).
Under Strickland v. Washington, 466 U.S. 668, 687
(1984), to prevail on his claims of ineffective assistance
of counsel, Petitioner must demonstrate that, under the
totality of the circumstances, his trial counsel
performed deficiently and that counsel’s deficient
performance resulted in prejudice. As the Supreme
Court has explained:
First, the defendant must show that counsel’s
performance was deficient. This requires
showing that counsel made errors so serious
that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show
that the deficient performance prejudiced the
defense. This requires showing that counsel’s
errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.
Id.
As to the “performance” inquiry, “[t]he proper
measure of attorney performance remains simply
reasonableness under prevailing professional norms.”
Id. at 688. Under Strickland, “counsel has a duty to
make reasonable investigations or to make a

App. 193
reasonable decision that makes particular
investigations unnecessary.” Id. at 691. As to the duty
to investigate:
These standards require no special amplification
in order to define counsel’s duty to investigate,
the duty at issue in this case. As the Court of
Appeals concluded, strategic choices made
after thorough investigation of law and
facts relevant to plausible options are
virtually unchallengeable; and strategic
choices after less than complete
investigation are reasonable precisely to
the extent that reasonable professional
judgments support the limitations on
investigation. In other words, counsel has
a duty to make reasonable investigations
or to make a reasonable decision that
makes particular investigations
unnecessary. In any ineffectiveness case, a
particular decision not to investigate must
be directly assessed for reasonableness in
all the circumstances, applying a heavy
measure of deference to counsel’s
judgments.
The reasonableness of counsel’s actions may be
determined or substantially influenced by the
defendant’s own statements or actions.
Counsel’s actions are usually based, quite
properly, on informed strategic choices
made by the defendant and on information
supplied by the defendant. In particular,
what investigation decisions are

App. 194
reasonable depends critically on such
information. For example, when the facts that
support a certain potential line of defense are
generally known to counsel because of what the
defendant has said, the need for further
investigation may be considerably diminished or
eliminated altogether. And when a defendant
has given counsel reason to believe that
pursing certain investigations would be
fruitless or even harmful, counsel’s failure
to pursue those investigations may not
later be challenged as unreasonable. In
short, inquiry into counsel’s conversations with
the defendant may be critical to a proper
assessment of counsel’s investigation decisions,
just as it may be critical to a proper assessment
of counsel’s other litigation decisions.
Id. at 690-91 (emphasis added).
Here, these claims center on Stack, one of
Petitioner’s several trial counsel. Petitioner’s second
counsel, Wilkinson, was an experienced trial lawyer
who felt himself prepared for trial. The Court concludes
that the state courts could reasonably determine that
this claim lacked factual support and legal merit. As to
the alleged lack of an overall defense strategy,
Petitioner does not identify any specifics of this claim
that were not presented to the state courts. These
contentions lack merit. As to the guilty aspect of this
claim, where counsel elected not to consult with a
defendant on a guilty plea and to focus only on
sentencing, counsel was not ineffective. Florida v.
Nixon, 543 U.S. 175 (2004). In any event, Petitioner

App. 195
reached a plea agreement with the State that the trial
court rejected. See Hines, 919 S. W .2d at 578-79. Thus,
in fact, Petitioner’s trial counsel fully explored a guilty
plea with Petitioner. This Court concludes that the
state courts reasonably determined these claims lack
factual merit.
ii. Failure to Challenge the Jury Panel
For this claim, Petitioner contends his trial counsel
was ineffective for failing to allege that women were
underrepresented in the Cheatham County venire for
the petit jury, grand jury, and as forepersons of the
grand jury. (Docket Entry No. 23 at ¶ 11d). Petitioner’s
related claim is that “[i]n violation of the Sixth, Eighth,
and Fourteenth Amendments, Darrell Hines was
denied his rights to due process, equal protection, and
to juries selected free from discrimination and from a
fair cross-section of the community, given
discrimination against women in the selection of the
petit jury, the grand jury, and the grand jury
foreperson. Id at ¶ 9.
The Tennessee appellate court made findings on
this claim on Petitioner’s post conviction appeal and
found this claim to lack factual support.
James W. Kirby, a former assistant district
attorney general and, at the time of the postconviction hearing, the Executive Director of the
Tennessee District Attorneys’ General
Conference, testified that he was involved in
prosecuting the petitioner at the 1986 trial. ....
Kirby also testified that in the 1980s most of the
juries he was involved with in Cheatham County

App. 196
were dominated by men; however, he recalled
one death penalty case where the jury had a
female foreperson.
***
Stack also testified that the defense did not
challenge the composition of the jury venire at
either the 1986 trial or the 1989 resentencing,
saying that it was not considered as an issue at
the original trial. Although he was aware that it
may have been an issue at the time of the
resentencing, they did not have the necessary
time to devote to pursuing it.
***
The proof at the post-conviction hearing on the
issue of the jury venire consisted of five
witnesses and a report prepared by a
statistician, Dr. James M. O’Reilly, which
concluded
that
there
was
an
underrepresentation of women on the jury
venire for Cheatham County for years 1979 to
1990. During the pertinent years, the female
population of Cheatham County accounted for
50.6 to 50.7% of the total population. By
contrast, the percentage of women in the
Cheatham County venire was between 10 and
22%.
Connie Westfall, of the post-conviction
defender’s office, testified that she had
investigated the issue of the composition of the
jury pool at the petitioner’s 1986 trial as well as
his resentencing. At the time of her

App. 197
investigation, only one of the three jury
commissioners for the relevant time period, C.E.
Dunn, was able to meet with her. Dorris
Winters, one of the commissioners, was
deceased; and the other, Martha Adkisson, was
confined to a nursing home and unable to be
interviewed because of her mental condition.
Dunn provided Westfall with an affidavit
because he had suffered a stroke and was unable
to travel to court. Basically, his affidavit stated
that they used the voter registration list as the
exclusive source of obtaining people for the
purpose of filling the jury box, and the jury
commissioners met every two years to fill the
jury box. Ms. Westfall testified that she also
interviewed Delores Moulton, Lloyd Harris, the
tax assessor, and trustees. She said that when
she first spoke with Mr. Harris, he recalled
using the voter registration list and later
remembered that they may have used property
lists and the telephone book.
Dorothy Jones, the Cheatham County Trustee,
said that she had been the trustee for six years
at the time of the post-conviction hearing and,
prior to her service as trustee, her husband was
the trustee. She had worked in the trustee’s
office since 1982. During her years of
employment in that office, no one ever had been
allowed to remove the tax roll books from the
office. She acknowledged, however, that the tax
records were public records and anyone could
come into the office and review them.

App. 198
Betty Balthrop, the Cheatham County Property
Assessor, said that she had occupied that
position since 1988 and had worked in the office
since 1978. Ms. Balthrop testified that since her
employment in the assessor’s office, no one had
physically removed the tax records for the
purpose of copying them. She acknowledged that
the tax records were public records which exist
in Nashville and elsewhere in the state.
Delores Moulton was the Cheatham County
Circuit Court Clerk from 1990 to 1998.
Previously, she served as the deputy clerk,
beginning in 1972. Her father, Lloyd Harris, was
the Cheatham County Circuit Court Clerk prior
to her tenure. Ms. Moulton testified that the
jury commissioners met every two years to
charge the jury box and that the voter
registration list was their major source of
obtaining names because they had more access
to it. She stated that they started out “randomly,
maybe, every sixteenth one or twentieth one
down and wr[o]te the name and address on a
little jury ticket.” She explained that each of the
jury commissioners took a different section of
the list and worked independently. While they
were charging the box, the only names taken out
were the names of those known to be deceased.
She further explained that at the end of the two
years, the names in the box were not removed,
but new names were added.
After the jury box was charged, they gathered
the jury list as needed. Either a child under the

App. 199
age of ten or Ms. Moulton, wearing a blindfold,
picked the names out of the box. Ms. Moulton
testified that the jury commissioners sat
together while compiling the names. Names of
deceased persons were discarded. If school was
in session, schoolteachers’ names were set aside.
Students away at college were omitted from the
list. Also, at times, if they knew a woman had
just had a baby, they removed her name. They
compiled a list of 150 or more names, which
made up the sheriff’s venire. The sheriff
summoned these persons to court where each
was assigned a number. The judge then drew
twelve numbers out of a box, and those persons
comprised the grand jury. Ms. Moulton testified
that Dorris Weakley was the sheriff in 1986 and
1989. During his administration, only thirty to
fifty prospective jurors out of 150 actually
appeared in court as summoned, but the
percentages increased drastically under the next
sheriffs administration.
On cross-examination, Ms. Moulton
testified that, in addition to the voter
registration list, they also used the
telephone book and tax records to
randomly select names, although the voter
registration list was the main source. She
believed they followed the Tennessee
statutes in gathering and preparing the
jury venire. She said the commissioners
“never discriminated anyone because of
race, color, or nationality or men or
women.” She recalled that Martha

App. 200
Adkisson complained if she thought too
many women were being put on the list;
however, she believed Ms. Adkisson’s
reason for doing so was “to equal out ... the
men and the women.”
Lloyd Harris, Delores Moulton’s father, served
as the Cheatham County Circuit Court Clerk
prior to Ms. Moulton, occupying the position for
twenty-four years. He testified that the three
jury commissioners met every two to three
months to select names, and he recalled Junior
Dozier, the tax assessor, providing him with
names from the tax lists. He used the telephone
book for this purpose, although most of the
names were taken from the voter registration
list. He testified that Martha Adkisson was a
schoolteacher and sometimes set aside the
names of teachers because, at that time, there
was a shortage of substitute teachers. He also
recalled that, a few times during harvest season,
a farmer’s name was set aside, and, during the
1970s and 1980s, it was easy for women with
young children to get out of serving on the jury,
but that changed through the years. He stated
that the jury box was charged about every two
years. He testified that they went down the
voter registration list, wrote down every
twentieth or twenty-fifth name, placed it in the
box, and tried not to discriminate against any
class of potential jurors. Harris said that the
voter registration list, the tax list provided by
Dozier, and the telephone books were the only

App. 201
sources used in the jury selection at the time of
the petitioner’s 1986 trial and in 1989.
Hines, 2004 WL 1567120 at* 7, 8, 20-21 (emphasis
added).
Based upon these facts, the state trial court found
an unrebutted prima facie showing of discrimination
against women in the petit and grand jury service, as
well as in the grand jury foreperson, but did not find
Petitioner to have suffered any prejudice due to his
counsel’s failure to raise this issue at trial. Id. at* 3436. Citing federal law, the Tennessee appellate court
reversed the trial court’s finding of discrimination, but
agreed about the lack of prejudice to Petitioner:
We respectfully disagree with the postconviction court’s finding that the
underrepresentation of women compels the
conclusion that women were systematically
excluded from the venire. While the petitioner
argues on appeal that “the state offer[ed] no
plausible explanation” for the disparity and,
therefore, he is entitled, as matter of law, to
prevail, we disagree with this claim. In fact,
substantial proof is in the record as to how the
panel of prospective jurors was selected; and
neither the petitioner nor the post-conviction
court has identified illegalities or deficiencies in
the process. Rather, both simply relied upon
percentages of women called to jury duty to
conclude that women had been systematically
excluded. In Truesdale v. Moore, 142 F.3d 749,
755 (4th Cir.1998), the court explained that a
statistical disparity does not, by itself, establish

App. 202
systematic exclusion of a group from the jury
pool:
Truesdale has not advanced any direct
evidence of “systematic exclusion” of
African Americans from the venire.
Instead he seeks to rely on the bare
assertion of substantial under
representation to prove that there was a
structural or systemic impediment to
voter registration by African Americans.
We have consistently required more to
make out a violation of the “fair crosssection” guarantee.... To allow Truesdale
to substitute evidence of substantial
underrepresentation for evidence of
systematic exclusion would go a long way
towards requiring perfect statistical
c o r r e s ponde n c e b e t w e e n r a c i a l
percentages in the venire and those in the
community. Such a rule would exalt racial
proportionality over neutral jury selection
procedure.
Accordingly, we conclude that the postconviction court erred in finding that women had
been systematically excluded from the venire.
Regarding this issue as a post-conviction claim,
the petitioner must prove that his counsel were
ineffective under Strickland because counsel did
not challenge the jury venire at trial and/or
resentencing. Attorney Stack testified that he
had no reason to suspect that women were
underrepresented in the jury venire in 1986,

App. 203
and, in fact, three women were on the
petitioner’s 1986 jury. Moreover, counsel
testified that they did not use all of their
peremptory challenges at the 1986 trial. Our
supreme court has found that the presence of
three women on the petit jury constitutes a “fair
representation of women on the jury and that is
all that is required by the Constitution of the
United States.” Strouth, 620 S.W.2d at 470. The
record supports the post-conviction court’s
finding that the petitioner was not prejudiced
because counsel did not challenge the 1986
venire.
Id. at *35-36.
Petitioner does not present any showing to
challenge the state appellate court’s ruling that the
jury selection process was not discriminatory.
Petitioner has not demonstrated that the rulings of the
state trial and appellate courts erred in concluding that
Petitioner was not prejudiced by his counsel’s failure to
raise this claim at trial. Moreover, whatever omission
of Petitioner’s trial counsel in this regard, the issue
was fully explored during Petitioner’s post conviction
proceedings, including the facts alleged in the second
amended petition. Accordingly, the Court concludes
these facts preclude any showing of prejudice required
by Strickland. Petitioner’s freestanding claim on
exclusion of women from the grand and petit juries, as
well as grand jury foreperson, also lacks merit. Thus,
Petitioner’s claims 9 and 11 should be denied for lack
of factual support.

App. 204
iii. Ineffective Cross Examination of Jones
In his post conviction appeal, Petitioner’s claims
about his trial counsel were “that trial counsel were
ineffective in failing to interview and effectively crossexamine Ken Jones, to object to Sheriff Weakley’s
participating in the voir dire of prospective jurors, to
discover impeachment evidence, and were ineffective as
well because of their lack of experience and resources.”
Id. at *23. This claim focuses on the testimony of Ken
Jones whom Petitioner now contends his counsel did
not elicit on cross examination that Jones had lied
about his presence at the motel, the scene of the
murder.
According to Petitioner, his counsel did not
investigate and cross-examine Ken Jones, even though
he could have proved as false, Jones’ s testimony that
he arrived at the CeBon motel at 12:30 p.m., left and
went to Stuckey’s, returned at 1:20 or 1:30 p.m, left a
note at the motel office saying he was using the
restroom in Room 21, went to Room 21 to use the
restroom, found the victim about whom he did not have
any knowledge, then returned the key to the office and
called the Sheriff, and waited his arrival. Petitioner
contends that the falsity of Jones’s testimony was also
known by Vernedith White, Jones’s mistress. Petitioner
contends that his trial counsel failed to cross-examine
Jones thoroughly because Sheriff Weakley advised
counsel not to talk to Jones, resulting in an alleged
conflict for Petitioner’s counsel. (Docket Entry No. 23
at ¶¶ 11g and h). According to Petitioner, his trial
counsel impermissibly accepted the Sheriff’s statement
that Ken Jones was at the CeBon motel to rent a room

App. 205
with his lover, Vernedith White, and that during the
time they were there, they did not see anything.
Respondent asserts that the state courts reasonably
determined that these claims lack proof of prejudice.
On this claim, the Tennessee appellate court made
the following findings of fact in Petitioner’s post
conviction appeal:
Stack said that he did not interview Ken Jones
prior to the trial because he had been told by
Sheriff Weakley that Jones was at the crime
scene for only a very short period of time and did
not know anything about the murder itself.
Stack testified that he knew at the time of trial
that part of Ken Jones’s testimony was false or
inaccurate. However, he explained that he held
Sheriff Weakley in high regard and trusted what
he had told him, saying: “I mean, I would take
that man’s word for anything in the world. He
say[ ]s this hadn’t got a dog in the hunt, don’t
embarrass the man. I wasn’t going to embarrass
the man.” Stack acknowledged that the defense
team should have interviewed Jones and that it
was “ridiculous for [them] not to have gone to
interview him.” He said there were discrepancies
in Jones’s testimony regarding his timing of the
events which should have been discovered and
developed for the defense. Stack acknowledged
that Jones testified at trial that he did not know
the gender of the victim at the time of discovery
because the victim’s body was covered with a
cloth or sheet. However, the person who made

App. 206
the emergency call said that a woman had been
stabbed.
***
Wilkinson said that he discussed Ken Jones’s
situation with Sheriff Weakley and believed
that Weakley had told him everything he knew.
He did not interview Ken Jones, Vernedith
White, or Virginia Chandler and, in hindsight,
would liked to have had more time to inquire
about why Jones and White sat in front of the
CeBon Motel for over three hours on the day of
the murder. As for Dr. Harlan’s testimony,
Wilkinson said that it may have been helpful to
have had another pathologist review Harlan’s
findings.
***
The petitioner argues that trial counsel
sanctioned the perjured testimony of Ken Jones
at the 1986 trial and failed, at the request of
Sheriff Weakley, to effectively cross-examine
Jones, these amounting to an actual conflict of
interest for the trial attorneys. As we have set
out, Ken Jones acknowledged at his deposition
in 1999 that he was at the CeBon Motel on the
day of the murder to rent a room to be with his
paramour. However, at the petitioner’s 1986
trial, Jones had testified that he was at the
motel because he needed to use the restroom.
Trial counsel Stack acknowledged that he knew
Jones was at the motel to rent a room with his
paramour, but did not cross-examine him on this

App. 207
fact. Sheriff Weakley did not want Jones to be
embarrassed and had assured trial counsel that
Jones knew nothing about the murder.
Id. at *8, 10, 23.
In response to Petitioner’s reliance on Kyles v.
Whitley, 514 U.S. 419, 434 (1995) and Jones v.
Kentucky, 97 F.2d 335 (6th Cir.1938), the Tennessee
appellate court, citing other federal circuit decisions,
ruled that Petitioner’s counsel did not have any conflict
of interest and that Petitioner did not suffer any
prejudice on this omission of his trial counsel.
While trial counsel did not question Ken Jones
as to why he was at the motel, this fact does not
result in their representing the interests of
Sheriff Weakley. Accordingly, to prevail on this
claim, the petitioner must establish that he was
prejudiced by trial counsel’s not ascertaining
and cross-examining Ken Jones’s true reason for
being at the motel, thus depriving the jurors of
this knowledge in addition to missing the
opportunity to cross-examine Vernedith White.
We will review this argument along with the
related claim, made at oral argument, that trial
counsel could have created residual doubt by
properly dealing with Ken Jones.
In his reply brief, the petitioner points to various
portions of the testimony to establish that Ken
Jones, himself, might have killed the victim. The
petitioner explains how he might have gotten
the keys to the victim’s car without confronting
her, surmising “because of the warmth on the

App. 208
day at issue, [the victim] was wearing only a
very light weight summer shift” and that her
maid’s coat, where she kept her keys and wallet,
“was most likely hanging on the cleaning cart,
which gave [the petitioner] easy access.” The
petitioner argues that the statements of Jones
and White that they neither saw nor heard
anything “that was connected with the crime”
are “unbelievable.” The victim’s schedule to
clean the rooms, the petitioner asserts, was such
that she would not have reached room 21, where
she was killed, until “noon,” resulting in Jones
and White at least seeing her. The petitioner
notes that, at the 1986 trial, Jones said he did
not know whether the victim was male or
female, yet he told Maxey Kittrell, another
witness, that “a woman had been stabbed” and
told White that “there was a dead woman in
there.” This testimony, according to the
petitioner’s argument, demonstrates “knowledge
that no one but the perpetrator could have
known.” The petitioner points to other
discrepancies, including Jones’s testimony that
the “randomly selected key” which he picked up
‘just happened to open the lock on room 21, the
murder room”; and the fact that White testified
that she and Jones were at the motel from 9:00
am until the emergency call, which was made at
2:36 p.m., leaves two hours of Jones and White’s
activities “unaccounted for.” This time period,
according to the petitioner’s theory, allowed
Jones to drive White to Dickson and “to cleanse
himself and his van of the victim’s blood.” The
petitioner surmises that Jones then returned to

App. 209
the motel to determine whether the motel
owners had come back and found the body, and
discovered that this had not occurred. Finally,
according to this argument, “by belatedly
announcing that a woman had been stabbed to
death, Jones successfully removed himself as a
suspect and thereby, with the help of his friend
the sheriff, was able to keep himself from being
investigated by the defense and by the
prosecution.”
The post-conviction court concluded that the
petitioner would not have benefitted from the
claim that Ken Jones had killed the victim:
Petitioner insists that his trial counsel
should have attempted to cast suspicion
upon Ken Jones as a possible perpetrator
of the crime and that counsel was
ineffective in allowing Mr. Jones to
“perjure” himself in hiding his true reason
for being at the hotel. While counsel had
brought out that there had been another
stranger in the area of the CeBon Motel
that morning, they did not develop any
reason for the jury to consider that
someone other than Petitioner committed
the offense. Petitioner asserts that his
trial counsel should have suggested that
perhaps, Ms. Jenkins had thwarted Mr.
Jones [’s] planned sexual liaison with Ms.
White and that this was a motive to kill
her. He further suggests that their theory
might explain the twenty dollar bill under

App. 210
Ms. Jenkins’s watch band [sic] and the
careful insertion of the knife into her
vagina. Trial counsel knew of the actual
reason for Mr. Jones[’s] presence at the
motel, having learned it from the sheriff.
Of course, they could have investigated
further and learned the details of the
encounter but the Court does not find
that the information would have been
particularly useful. To present such a
farfetched theory with no supporting
evidence would cause a loss of credibility
by the defense at trial. Admittedly, if trial
counsel had learned the exact details of
the movements of Mr. Jones, Ms. White
and the person(s) in the maroon or brown
car, they could have “muddied the water”
concerning the details of the discovery of
the body. This would have been
insufficient, however, to cast reasonable
doubt on the guilt of Petitioner given the
fact that Petitioner was shown by the
proof to have taken the deceased’s car
keys, presumably from her billfold (in
which she habitually kept them), and
stolen her car. To accept Petitioner’s
argument that he didn’t kill the deceased
but merely took her car keys from her
body (which was wrapped in a blanket)
and stole her car would require the trial
jury to depart from speculation and enter
into fantasy.

App. 211
Missing in the petitioner’s theory, which the
post-conviction court described as “farfetched,”
is any motive or reason why Jones would want
to kill the victim, except the petitioner’s
suggestion, recounted in the post-conviction’s
findings, that the victim was killed because she
had “thwarted” the sexual liaison between Jones
and White. In effect, the petitioner argues that
fifty-one-year-old Ken Jones, accompanied by his
twenty-one-year-old girlfriend, Vernedith White,
following their normal Sunday morning routine
and checking into the same motel where they
had been together approximately 100 times
before and were known by the staff, including
the victim, stabbed the victim to death, with
Jones driving White to another location,
cleaning blood from himself and his vehicle, and
then returning to the scene to report the crime
and wait for law enforcement officers to arrive.
We agree with the post-conviction court that,
given the strength of proof against the
petitioner, making the argument that Ken Jones
was the actual killer would have been
“farfetched” and could have resulted in a loss of
credibility for the defense.
Hines, 2004 WL 1567120 at *26-27.
Counsel’s failure “‘to conduct constitutionally
adequate pretrial investigation into potential
mitigation evidence’” can’” hamper[] [their] ability to
make strategic choices.’” Harries v. Bell, 417 F.3d 631,
639 (6th Cir. 2005) (citation omitted); see also Horton
v. Zant, 941 F.2d 1449, 1462 (11th Cir. 1991) (“[O]ur

App. 212
case law rejects the notion that a ‘strategic’ decision
can be reasonable when the attorney has failed to
investigate his options and make a reasonable choice
between them.”).
Yet, Petitioner has not presented any evidence to
suggest that Jones could have been the murderer.
Jones’s motivation for being at the motel was
undisputed. Given the State’s proof and Petitioner’s
statement to the officers, the Court concludes that
there is not any basis to suggest any other identifiable
person as the perpetrator of this horrendous crime. The
Court also concludes that Petitioner has not
demonstrated any prejudice for this claim. Given the
state courts’ finding of the absence of prejudice
required by Strickland, the Court concludes that this
claim was reasonably decided by the state courts
applying clearly established federal law.
iv. Failure to Acquire Forensic Evidence
For this claim, Petitioner alleges that his counsel
failed to view the crime scene and to have the forensic
evidence collected at or from the crime scene or victim
to be analyzed. Petitioner cites, vacuuming the motel
room, a cigarette butt, an ashtray, clothing and fabrics
and swabs, fingerprints, a bank bag, a $20 bill, a Pepsi
bottle, a roll of Tums, and a chapstick that were found
in room 21 where the victim was discovered. (Docket
Entry No. 23, Second Amended Petition at ¶ 11k).
Petitioner argues that if his trial counsel had acquired
and analyzed this forensic evidence counsel would have
found the presence of another person(s) in the room.
Thus, Petitioner would have been found not guilty and/
or that someone else killed the victim. Although

App. 213
Respondent does not challenge this claim as
procedurally defaulted, the Court has not identified nor
has Petitioner cited this claim as presented to the state
Courts. This claim is governed by the Court’s
procedural default conclusions. In any event, for the
reasons stated earlier on Petitioner’s request for an
evidentiary hearing, the State courts reasonably
rejected the facts cited for the other suspect claim and
Petitioner fails to present any material and persuasive
facts for this claim.
v. Failure to Discover Impeachment and
Exculpatory Evidence
For this claim, Petitioner alleges that “Counsel was
ineffective for failing to discover impeachment evidence
which would have undermined the testimony of critical
witnesses for the prosecution.” (Docket Entry No. 23,
Second Amended Petition, at ¶ 11m). For particulars of
this claim, Petitioner cites the probation status of Paul
Blair; the serious drinking problem of Victoria Hines
Daniel who saw blood on Petitioner’s shirt; the
testimony of Earnest Daniel who knew of his wife’s
drinking problem, but described her drinking as
occasional; and Virginia Chandler, Petitioner’s spurned
girl friend who had a drinking problem and was
motivated to get Petitioner. In a closely related claim,
Petitioner alleges that his trial counsel failed to request
material exculpatory evidence and cites Sheriff
Weakley’s information about Jones’s arrival at the
motel earlier in the morning for a tryst with Vernedith
White. The exculpatory nature of this proof is that
Jones was not at the motel to use the restroom. Id. at
¶ 11g.

App. 214
On the latter claim, the state technical record
reveals that Petitioner’s counsel, in fact, filed a motion
for, among other information, “All statements of
confession or admission against interest in the
possession of any law enforcement agency” as well as
for any evidence that is “exculpatory in nature.”
(Docket Entry No.29, Addendum No. 1 at 9). As to the
impeachment evidence claim, the Tennessee appellate
court found the lack of materiality in this proof about
Jones and the other cited witnesses.
Stack said that he had interviewed many of the
witnesses who testified at trial, including the
owners of the motel and Sheriff Weakley. He
recalled traveling to Bowling Green, Kentucky,
but could not remember the specific witnesses he
interviewed there. He did not run a criminal
background check on Daniel Blair and,
therefore, did not know he had been convicted of
theft of livestock, which might have been used
for impeachment purposes. He also interviewed
Bill Hines, the petitioner’s stepfather; Bobby Joe
Hines, the petitioner’s half-brother; and possibly
Barbara Hines, the petitioner’s mother.
Although he recalled traveling to the home of
Victoria Hines Daniel, the petitioner’s sister, he
did not remember actually meeting with her. He
acknowledged that he knew she would testify
that she saw blood on the petitioner’s clothing,
but he did not obtain any information to
impeach her testimony. He did not interview the
petitioner’s former girlfriend, Melanie Chandler,
or her mother, Virginia Chandler, both of whom
lived in North Carolina.

App. 215
***
Wilkinson knew that the petitioner’s sister,
Victoria Hines Daniel, had an alcohol and drug
abuse problem and recalled examining her
husband, Ernest Daniel, about her drinking
problem. He was not aware of any sexual or
physical abuse allegations of Mrs. Daniel but
acknowledged that information as to this would
have been useful. Wilkinson said that the
petitioner “may” have told him about the abuse
inflicted upon him by his stepfather. He had the
petitioner examined by a psychiatrist who
determined he was competent to stand trial.
Wilkinson said he did not interview the four
people from Kentucky who gave the petitioner a
ride and did not know before trial that one of
them, Daniel Blair, was going to testify that he
saw blood on the petitioner’s shirt. Had he
known of the substance of Blair’s testimony, he
would have checked Blair’s criminal record for
impeachment purposes. He recalled that Blair
testified about his ability to recognize blood and
about washing bloodstains out of fabric although
he could not recall Blair’s exact testimony. He
acknowledged that, in hindsight, it would have
been helpful to have had an expert refute Blair’s
testimony about washing out bloodstains.
***
Daniel Blair, who testified at the petitioner’s
original trial, was one of the four people from
Kentucky who picked up the petitioner on March

App. 216
3, 1985, on Interstate 65, after they noticed his
car was disabled, and drove him to Bowling
Green, Kentucky. Blair was on probation at the
time and was not supposed to have left the State
of Kentucky, although he was never charged
with violating his probation and was told by a
Kentucky deputy sheriff that his leaving the
state would not be a problem. At the postconviction hearing, Blair testified that he had
seen “what looked like blood” on the petitioner’s
shirt, although at the trial he had testified that
it was blood.
Melanie Chandler, the former girlfriend of the
petitioner and a friend of Victoria Hines Daniel,
his sister, testified that she and the petitioner
had a child, Anthony Scott Hines, who was born
January 1, 1981. The petitioner’s mother
adopted the child when he was two years old.
She testified she had last seen the petitioner
around February 1985 when he came to her
house in North Carolina. When he arrived, he
only had a few items with him, one of which was
a small, folding knife she previously had given
him. During his visit, they went to a party with
some friends of hers, and, as they were
returning home, the petitioner and the friend
who was driving got into an argument. After the
petitioner grabbed the friend who was driving
the car, Chandler grabbed the petitioner, who
accidentally struck her in the eye, causing
bruising. She said that he had never before
struck her but had always been protective.
Chandler’s mother, Virginia Chandler, called the

App. 217
police and forced the petitioner to leave. Later
that night, the petitioner appeared at Melanie’s
window. She allowed him inside, and he hid in
her closet for approximately one week before her
mother discovered him. Her mother bought the
petitioner a one-way bus ticket to Kentucky.
Chandler said that she knew her mother had
testified at the petitioner’s trial, but defense
counsel never contacted her. She acknowledged
knowing she was supposed to appear in court at
the trial, but she had just had a baby and
decided not to do so. She testified that she did
not know that the petitioner was on trial for
murder. She thought her mother lied at the trial
when she stated that she had seen the petitioner
sharpening his knife with a bootstrap. She said
that her mother later told her that the petitioner
had been found guilty of murder and had been
executed. She believed the petitioner was dead
until the post-conviction defender’s office
contacted her in 1997 or 1998. Since learning
that the petitioner was alive and in prison, she
had written him several letters and had visited
him in prison.
Robert Ernest Daniel testified that he had been
married to Victoria Hines, the petitioner’s sister,
for about two years. He met the petitioner while
the petitioner was on parole in Kentucky and
gave him a job doing construction work. The
petitioner was a hard worker, and they were
friends “[t]o a point.” Daniel said that the
petitioner carried a small pocketknife with him

App. 218
on the job and also had an “Army type survivor”
knife with a fixed blade. He believed that the
knife blade was approximately six inches long,
with one end serrated and the other sharp. He
recalled that the petitioner gave the knife to his
brother, Bobby Joe, who kept it in a drawer at
their home.
Daniel testified that on March 3, 1985, the
petitioner appeared at his apartment, wearing
blue jeans, a white t-shirt, an Army jacket, and
white tennis shoes. Victoria’s birthday was the
day before or the day after the petitioner
arrived, and the petitioner wanted to buy a grill
for her. Daniel gave the petitioner some money
because the petitioner did not have enough to
purchase the grill. He then drove the petitioner
to Park City or Cave City, Kentucky, and
dropped him off. Later that night, the police
came to his home and questioned him about the
petitioner’s whereabouts. At the time, he
thought the police wanted to question the
petitioner about a probation violation, so he
“acted stupid.” When he later learned that the
police wanted to question the petitioner in
connection with a murder, he told the police
where he had taken the petitioner.
On cross-examination, Daniel said that he
testified at the original trial that Victoria only
drank occasionally “because she was my wife at
the time and I would be very protective of her.”
This testimony was inaccurate because Victoria
drank heavily. He denied testifying that the

App. 219
petitioner had something bulky in his Army
jacket and that he did not know when Victoria’s
birthday was. He denied remembering seeing
the petitioner with a set of car keys or that he
had asked the petitioner why he had a Volvo.
During a recess, the court ordered Daniel to take
a breath alcohol test. Daniel admitted that he
had consumed “a couple of beers” before coming
to testify at the post-conviction hearing, and the
court found him to be in contempt, ordering him
to serve twenty-four hours in the Cheatham
County Jail.
Victoria Hines Daniel Furlong, the petitioner’s
sister, testified at both the original trial and the
post-conviction proceeding. She said that her
stepfather, Bill Hines, was abusive to her, her
siblings, and her mother. Her stepfather used
“tobacco sticks, belts, belt buckles ... anything
that he could get a hold of to whoop us with.” He
also drank beer and liquor “all the time” which
caused his attitude to change, and the “beatings
got worse.” She said that the petitioner often
attempted to intervene to protect her and their
sister, Debbie, which caused the petitioner to be
beaten more severely. She recalled one incident
where her stepfather knocked the petitioner into
the corner of a fireplace, rendering him
unconscious. However, medical attention was
not sought for the petitioner. Often there was
not much food in the house. In addition to the
physical abuse, Bill Hines sexually abused her
from the age of nine. She and the petitioner
began drinking at the age of eleven or twelve.

App. 220
They both also smoked “dope,” and the petitioner
sniffed glue. She admitted that she drank
heavily from the time she was twelve or thirteen
and had only recently stopped drinking. She also
said that she was married to Ernest Daniel for
five years, during which time he often beat her
severely.
Furlong said that her birthday was February 4
and that on March 3, 1985, the petitioner had
given her a grill as a belated birthday gift. She
said that, if she had testified at the original trial
that she saw blood on the petitioner on March 3,
1985, when he arrived at her house, it was
because she had been drinking. At the postconviction proceeding, she testified that the
petitioner had fallen in red clay mud prior to
arriving at her house and that is what she saw
on his clothes. She said she was not interviewed
by the petitioner’s attorneys prior to the
resentencing, and the prosecutors had tricked
her into talking to them prior to the original
trial by telling her they were the petitioner’s
attorneys. She said she was drinking whiskey
and water when they came to her house and
asked questions. She thought they were taperecording their conversation, but they denied it.
She said she later saw a recording device and
ordered the men out of her home.
Furlong acknowledged that she was an alcoholic.
She did not remember testifying that the
petitioner had gotten into a struggle at the motel
and did not believe that she had testified as the

App. 221
transcript of the original trial reflected. If the
transcript were correct, then she was
“[p]robably” lying in 1986 because of her
drinking. She admitted that she had never
reported any of the sexual abuse by her
stepfather. It was her understanding that her
stepfather had continued with his sexual abuse
of young girls, including her niece, but she had
never reported him to law enforcement officials.
Hines, 2004 WL 1567120 at* 8, 9-10, 11-13.
On these alleged omissions of Petitioner’s trial
counsel to secure the impeachment evidence concerning
these witnesses, the Tennessee appellate court did not
find any prejudice to Petitioner.
The petitioner contends that trial counsel were
ineffective by failing to discover impeachment
evidence that State’s witness Daniel Blair, on
the day that he had given the petitioner a ride,
was on felony probation for theft of livestock;
that State’s witness Victoria Hines Daniel
Furlong was an alcoholic and had been drinking
the day she supposedly saw blood on the
petitioner’s shirt; that State’s witness Ernest
Daniel also was an alcoholic and had not
testified completely truthfully about Furlong’s
drinking; and that Melanie Chandler would
have contradicted her mother’s testimony that
the petitioner carried a knife which he had been
seen sharpening. We will consider these claims.
As to Daniel Blair, trial counsel acknowledged
that they did not investigate his criminal

App. 222
history. The petitioner submits that the
combination of the impeachment evidence of
Blair’s felony, coupled with discrediting his
testimony that he saw blood on the petitioner’s
shirt on the day of the murder, would have
affected his credibility. The State argues that
Blair’s being on probation made him more
credible because, in admitting that he had
been in Tennessee, he admitted also that he
had violated his probation. The postconviction court found that effectively
impeaching this witness would have been
unlikely. We agree the petitioner’s claim is
speculative that Blair successfully could
have been impeached with this additional
information and conclude, accordingly,
that the record supports the postconviction court’s determination.
The petitioner also contends that trial counsel
were ineffective in failing to discover that
Victoria Hines Daniel Furlong was an
alcoholic and had been drinking on the day she
testified at the petitioner’s trial. At the postconviction proceeding, she contradicted
much of her prior testimony, as we have
previously set out. The post-conviction
court rejected Furlong’s entire testimony
as “incredible and worthless.” The record
supports this determination.
Additionally, the petitioner contends that
counsel were ineffective for failing to discover
that Ernest Daniel, Victoria Furlong’s husband

App. 223
at the time of the petitioner’s trial, was not
truthful regarding the amount and extent of his
wife’s drinking. The post-conviction court
found Daniel to be in contempt of court at
the post-conviction proceeding because he
had been drinking prior to testifying. The
court found the only fact that it could
determine with respect to Daniel’s and
Furlong’s testimony was that they each lied
under oath at either the trial or the postconviction hearing. Given this fact, the
court determined that interviewing either
of these witnesses would not have
benefitted counsel in impeaching them at
trial. The record supports this conclusion.
Counsel testified that they did not interview
Melanie Chandler or Virginia Chandler prior to
trial. Melanie Chandler testified at the hearing
that her mother had animosity toward the
petitioner and drank heavily. Melanie Chandler
admitted that she was not on good terms with
her mother. The post-conviction court noted
that Chandler “glance[d] affectionately” at
the petitioner during the hearing, making
it obvious that she still had feelings for
him. In conclusion, the court found that the
impeachment value of Melanie Chandler’s
testimony was “marginal, at best.” We
concur with this assessment. Accordingly,
as to this claim, we agree with the

App. 224
conclusion of the post-conviction court that
the petitioner failed to establish prejudice.
Id. at* 29-30 (emphasis added).
As stated earlier, the statutory presumption of
correctness applies to State courts’ credibility
determinations. Skaggs, 235 F.3d at 266. Here, the
state courts deemed most of the cited witnesses’
testimony as lacking credibility with the exception of
Blair. As to Blair, the state court accepted the State’s
argument that for Petitioner’s counsel to elicit Blair’s
probation status would have enhanced Blair’s
credibility, rather than diminish his testimony.
Petitioner’s trial counsel filed a motion for exculpatory
information as well as all statements against interests
in the possession of any law enforcement agency. With
these findings, the Court concludes that the state
courts reasonably determined this claim for which
Petitioner has not shown the requisite prejudice under
Strickland warrant any habeas relief.
vi. Failure to Make Closing Argument
For this claim, Petitioner contends that his counsel
was ineffective for not making a closing argument at
resentencing. (Docket Entry No. 23, Second Amended
Petition at ¶ 13p(2)). In a related claim, Petitioner
contends that Petitioner’s counsel failed to object to
improper statements of the state prosecutor during
opening and closing arguments. Id. at ¶ 11s(2). Another
related claim is that the prosecutor engaged in
improper closing argument. (Docket Entry No. 23-1 at
¶ 21).

App. 225
As to trial counsel’s election not to make a closing
argument, the Tennessee appellate court found the
following facts:
Stack testified that he became an assistant
public defender in 1988 and was appointed to
represent the petitioner at resentencing, as were
Shipp Weems, the public defender, and Phillip
Maxey. As for the defense team’s decision to
delay their opening statement at resentencing
until just prior to their proof, Stack testified that
they discussed this issue, but he did not know
why they decided to do so. He said that Maxey,
who was the least experienced of the three, gave
the opening statement for the defense, and both
he and Weems had anticipated a different
opening. He testified that the opening did not
outline the proof they planned to present, but
rather simply asked the jury to listen to their
proof. He testified that the defense team made
the tactical decision not to present a closing
argument because it was their opinion that
General Kirby had not “presented a very forceful
argument,” and they wanted to prevent General
Atkins, who was “exceptional in his ability to ...
bring emotions out in a jury,” from making a
rebuttal argument. Stack said that General
Atkins had given a very impassioned closing
argument at the original trial, and they wanted
to keep him from doing so at the resentencing.
***
Weems confirmed Stack’s testimony that they
agreed to waive closing argument at

App. 226
resentencing in order to prevent the prosecution
from giving a rebuttal argument ...
***
Phillip Maxey ... appointed to represent the
petitioner at resentencing .... believed they had
presented strong mitigation proof and said they
waived closing argument in an effort to prevent
the State from making a rebuttal argument.
They believed that the State would wait until
rebuttal to “really throw it all” at the jury.
Hines, 2004 WL 1567120 at *9, 10 and 11.
In its rejection of this claim, the Tennessee
appellate court reasoned as follows:
The petitioner contends that his counsel were
ineffective in not making a closing argument at
resentencing. As to this claim, all three of the
petitioner’s resentencing counsel testified that
their decision to waive closing argument was
based on the fact that they did not want the
State to present a rebuttal argument. The law is
clear that this court may not second-guess the
tactical and strategic choices made by trial
counsel unless those choices were uninformed
because of inadequate preparation. The postconviction court concluded that trial counsel had
made a tactical decision to waive closing
argument to prevent the State’s then being able
to make a strong rebuttal argument. The record
supports this conclusion.

App. 227
Id. at *33 (citing Bell v. Cone, 535 U.S. 685 (2002);
Hellard v. State, 629 S.W.2d4, 9 (Tenn.1982); and State
v. Menn, 668 S.W.2d 671, 673 (Tenn. Crim. App.1984)).
Counsel for the defendant has a right to make a
closing argument under the Sixth and Fourteenth
Amendments as part of the defendant’s right to
assistance of counsel. Herring v. New York, 422 U.S.
853, 857-58, 863 n. 15 (1975). Concurrently, the right
to effective assistance of counsel extends to closing
arguments. Yarborough v. Gentry, 540 U.S. 1, 5 (2003);
Bell v. Cone, 535 U.S. 685, 701-02 (2002); Herring, 422
U.S. at 864-65. Yet, “counsel’s tactical decisions in [the]
closing presentation ... because of the broad range of
legitimate defense strategy at that stage” is entitled to
“deference” and, as a matter of law, to “wide latitude.”
Yarborough, 540 U.S. at 6. “Indeed, it might sometimes
make sense to forgo closing argument altogether.” Id.
(citing Bell, 535 U.S. at 701-02) (holding that trial
counsel’s election to forgo the closing argument as a
tactical decision at the end of the sentencing phase of
a murder trial did not constitute ineffective assistance
of counsel). Under these principles, this Court
concludes that the state courts reasonably decided
these claims.
As to trial counsel’s failure to object to the state
prosecutor’s alleged improper argument, as well as the
related claim for the state prosecutor’s improper
closing argument, the Tennessee Supreme Court
determined that these statements were neither
improper nor unreasonable:
Defendant poses an issue complaining of various
purported improper arguments made by the

App. 228
State which he says was with the apparent
purpose to inflame the jury against him. He
refers to the State’s argument regarding his
statement that he wanted the death sentence
and that his statements to his sister were a
twisted confession of murder. He argues that the
Attorney General misstated the facts and made
statements based upon his own personal
knowledge rather than facts in evidence.
Here too, we find that defendant failed to make
any contemporaneous objection to the allegedly
improper argument. The record further reflects
that he failed to preserve these complaints in his
motion for new trial. Moreover, we do not find
fault with the first part of the argument
complained of. In reference to his statements to
his sister, the Attorney General argued “that
defendant would not admit to his sister he had
killed a woman; he told her I killed a guy at a
motel and robbed him.” There is no question that
he did tell his sister he stabbed a man at the
motel and he also told her that he had a large
sum of money. The trial judge admonished the
jury to rely on their own recollection of the
testimony and under the circumstances we do
not find the Attorney General’s comments to be
the distorted misstatement of the testimony
suggested in defendant’s brief.
We do not approve of the District Attorney’s
statement, “that presumption of innocence is
gone because we have shown you the proof to
connect him and show he committed the murder.

App. 229
There is no presumption of innocence anymore.
We removed his presumption of innocence by the
proof and you know that’s true.” This Court said
in State v. Duncan, 698 S.W.2d 63, 70 (Tenn.
1985), “On its face this seems a misstatement of
the position in Tennessee that the presumption
of innocence remains with the defendant up
until the verdict.” (Citations omitted). However
it becomes plain from reading the record that it
was not the intent of the Attorney General to
misstate the law. It is obvious he was carried
away by his own rhetoric and in light of the
failure of defense counsel to object coupled with
the correct instruction by the court to the jury on
the presumption of innocence, this statement
was not plain error, nor in our opinion did it
materially effect the verdict of the jury. State v.
Duncan, supra.
Defendant has also raised an issue in reference
to the argument of the State at the penalty
phase of the proceedings. He says that argument
was improper and inflammatory and encouraged
the jury to consider defendant’s statement that
he would kill a guard if given a life sentence. He
also complains that the District Attorney
General characterized a life sentence as a
reward rather than a penalty which he says is
not supported by the record and is a
mischaracterization which accrued to his
prejudice. There is also an objection on the
premise that the District Attorney General
injected the matter of parole into his argument
and argued that the jury would be recreant in its

App. 230
duty to society if the death sentence was not
imposed.
Most of the objections to the State’s argument
are made in isolated context which, when
considered in view of the argument as a whole,
gives them an exaggerated significance.
Once again, we observe there was no
contemporaneous objection at trial to any of the
statements which are now raised here as
grounds for error. We do find one or two of these
grounds asserted in the motion for new trial,
contrary to the State’s insistence.
We agree that defendant’s remark to the police
officers that he would kill a prison guard if
sentenced to life was inappropriate as a
sentencing consideration. However it was a
matter which had been properly placed in
evidence before the jury at the guilt phase of the
proceeding and if the comments of State’s
counsel were improper, they could not have
affected the jury’s verdict at the sentencing
phase of the trial. Defense counsel made an
impassioned plea against the death penalty in
which he dwelt at length on the vicissitudes of a
life sentence. The District Attorney’s argument
in that phase of his closing remarks was in
direct response to the defense argument and did
not exceed the reasonable latitude allowed to
counsel in arguing their respective positions.
It is difficult to tell where the District Attorney
General was going in argument when he
commented that defendant had been on parole.

App. 231
It was apparent that he was referring to
defendant’s prior conviction, as was defense
counsel when he mentioned in argument that
defendant had been on parole from Kentucky.
Had he gone on to mention parole possibilities
for defendant in this proceeding he certainly
would have been treading on forbidden ground.
See Smith v. State, 527 S.W.2d 737, 738
(Tenn.1975). However he was prevented from
proceeding in that direction by the
admonishment of the court to stay away from
the subject of parole and we cannot see how the
comments which were made could have
adversely impacted upon the jury’s
determination as to sentencing.
The District Attorney General made some
fanciful analogy to the frenzied conduct of wild
cattle in a herd when exposed to the attack of a
carnivore, and also called on the jury to do as he
and the people of Tennessee asked them to do in
following what the law called for in the case. We
do not agree with the defense contention that
the implication of these remarks was that the
jury’s responsibility was to impose the death
sentence and not to weigh the aggravating and
mitigating circumstances based on the evidence.
The contested argument did no more than
articulate the prosecutor’s intent that the jury
return a death sentence in accordance with the
law and their oath.
Defendant complains of other comments of the
State’s counsel to the effect that defendant had

App. 232
bragged about a murder and that he had killed
someone and got a lot of money and words to the
effect that some people get a high or are
exhilarated by killing and will go brag about it.
This was unquestionably a misstatement of the
evidence. These comments in argument were not
objected to when made and seem to be legitimate
inferences to be drawn from the proof which the
jury heard and certainly did not effect the
outcome of the sentencing hearing. State v.
Cone, 665 S.W.2d 87, 94 (Tenn.1984).
Hines, 758 S.W.2d at 519-21.
To be entitled to federal habeas corpus relief as a
violation of a defendant’s right to due process,
prosecutorial misconduct must be so egregious as to
deny Petitioner a fundamentally fair trial. Caldwell v.
Mississippi, 472 U.S. 320, 335-36 (1985); United States
v. Hastings, 461 U.S. 499, 509-12 (1983). In United
States v. Young, 470 U.S. 1 (1985), the Supreme Court
upheld the conviction and observed that even if “the
prosecutor’s remarks exceeded permissible bounds and
defense counsel raised a timely objection, a reviewing
court could reverse an otherwise proper conviction only
after concluding that the error was not harmless.” Id.
at 13 n.10 (citation omitted). As to the factors to be
considered, the Court stated:
Nevertheless, a criminal conviction is not to be
lightly overturned on the basis of a prosecutor’s
comments standing alone, for the statements or
conduct must be viewed in context; only by so
doing can it be determined whether the

App. 233
prosecutor’s conduct affected the fairness of the
trial.
***
[T]he remarks must be examined within the
context of the trial to determine whether the
prosecutor’s behavior amounted to prejudicial
error. In other words, the Court must consider
the probable effect the prosecutor’s response
would have on the jury’s ability to judge the
evidence fairly. In this context, defense counsel’s
conduct, as well as the nature of the prosecutor’s
response, is relevant. . . . Courts of Appeals,
applying these holdings, have refused to reverse
convictions where prosecutors have responded
reasonably in closing argument to defense
counsel’s attacks, thus rendering it unlikely that
the jury was led astray.
Id. at 11, 12.
Here, the Tennessee court considered the
prosecutor’s remarks and decided that for each
challenged statement, the prosecutor’s remarks were
consistent with the proof at trial or were tied to
Petitioner’s statements. The Tennessee appellate court
also evaluated the prosecutor’s remarks in the context
of the trial record and did not find any prejudice to
Petitioner. After review, this Court concludes that the
state courts’ reasonably decided these claims.
2. Counsel’s Ineffectiveness on Direct Appeal
As to the alleged ineffectiveness of his counsel on
direct appeal, Petitioner asserts that appellate

App. 234
counsel’s failures were: failure to preserve the claims in
this habeas action in the motion for a new trial and the
direct appeal; failure to obtain all necessary portions of
the transcript and record for appeal, including the voir
dire and the transcript of the motions hearings; failure
to include in its brief to the Tennessee Supreme Court
all issues raised in the Court of Criminal Appeals;
failure to file an adequate petition to rehear before the
Tennessee Supreme Court’s adverse ruling on
Petitioner’s appeal; and failure to argue that the
Tennessee Supreme Court erred when it concluded that
“‘in the instant case, a felony not underlying the felony
murder conviction [was] used to support the felony
murder aggravating circumstance.’” (Docket Entry No.
23-1, Second Amended Petition, at 46) (citing Hines,
919 S.W.2d at 583).
Under clearly established law on defense counsel’s
failure to raise a claim on appeal, the Supreme Court
has observed that “[t]his process of ‘winnowing out
weaker arguments on appeal and focusing on’ those
more likely to prevail, far from being evidence of
incompetence, is the hallmark of effective appellate
advocacy.” Smith v. Murray, 477 U.S. 527, 536 (1986)
(quoting Jones v. Barnes, 463 U.S. 745, 751-52 (1983)).
Moreover, Smith observed that:
It will often be the case that even the most
informed counsel will fail to anticipate a state
appellate court’s willingness to reconsider a
prior holding or will underestimate the
likelihood that a federal habeas court will
repudiate an established state rule. But, as
Strickland v. Washington made clear, “[a] fair

App. 235
assessment of attorney performance requires
that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel’s challenged conduct,
and to evaluate the conduct from counsel’s
perspective at the time.”
Id. (citation omitted).
Moreover, “the mere fact that counsel failed to
recognize the factual or legal basis for a claim, or failed
to raise the claim despite recognizing it, does not
constitute cause for procedural default.” Murray v.
Carrier, 477 U.S. 478, 486-87 (1986).
As these principles are applied here, the Court
concludes that Petitioner’s appellate counsel cannot be
second guessed as to issues to be raised on appeal.
Petitioner’s appellate counsel’s assessments cannot be
judged from the perspective of federal habeas counsel’s
review of the record decades later. Petitioner’s
appellate counsel successfully obtained a resentencing
hearing. Any omissions of appellate counsel were cured
by the extensive state post conviction petition and
hearing at which Petitioner presented numerous claims
with an extensive evidentiary record at the trial and on
appeal. The Court concludes that these claims lack
merit as a matter of law.
3. Ineffectiveness of Counsel at Resentencing
For this claim, Petitioner asserts that his counsel
were ineffective at the re-sentencing proceeding and
absent counsel’s failures, a reasonable probability
exists that Petitioner would not have been sentenced to
death. For particulars, Petitioner cites his counsel’s

App. 236
failures to challenge the lack of women representation
on petit and grand juries as well as forepersons in
Cheatham County; to present evidence of Petitioner’s
tragic personal history and his drug and alcohol abuse;
and to object to the prosecutors’ failure to give notice of
the aggravating circumstances as required by Tenn. R.
Crim. P. 12.3(b)(Docket Entry Nos. 23 and 23-1, Second
Amended petition, at 25-40). The facts about the
women on grand and petit juries as well as serving as
forepersons in Cheatham County are presented supra
at 61-65. For the reasons stated earlier, the Court
concludes that the state courts reasonably determined
that this claim lacked any showing of prejudice.
As to the failure to present evidence of Petitioner’s
personal history at resentencing, on the post conviction
appeal, the Tennessee appellate court first quoted
findings in Petitioner’s earlier appeal on the sentencing
record:
In mitigation, the defendant presented proof
that, while in prison on this conviction, he had
presented no serious disciplinary problems and
posed no threat to the prison population. The
defendant also presented proof of a
troubled childhood. His father had
abandoned the family when the defendant
was young. His mother had an alcohol
problem. In his teens the defendant became
involved in sniffing gasoline and glue and
began to abuse alcohol and drugs. He also
exhibited self-destructive behavior. Dr.
Pamela Auble, a clinical psychologist,
testified that the defendant was suffering

App. 237
from a paranoid personality disorder and
dysthymia, or chronic depression.
According to Dr. Auble, the defendant
would suppress his feelings until they
“boiled up” under stress. In her opinion,
the defendant, who had returned from
turbulent visits with his parents and
girlfriend shortly before he committed the
murder, was under stress when he killed
the victim. Dr. Ann Marie Charvat, a
sociologist, also testified about the
damaging effect of the circumstances of his
childhood on the defendant.
Hines, 919 S.W.2d at 577. The supreme court
characterized the petitioner’s mitigation proof as
“extensive.” Id. at 584.
Hines, 2004 WL 1567120 at *31 (emphasis added).
The Tennessee appellate court then analyzed the
extensive expert and other proof on sentencing at the
post conviction hearing:
Stack testified that he obtained a mental
evaluation for the petitioner to determine
competency issues and whether an insanity
defense would be available prior to the original
trial, but these services did not cover any
mitigation issues. He requested the services of
an independent psychiatrist, a private
investigator, and an independent mental
evaluation, but these requests were denied.
***

App. 238
Stack acknowledged that he did not present all
of the mitigation proof that the post-conviction
defender had been able to assemble. He pointed
out, however, that at the time of the trial and
resentencing, he did not have the benefit,
apparently referring to counsel representing the
petitioner at the post-conviction hearing, of a
three-year period of time to investigate the case
as well as numerous attorneys and investigators
to work on the mitigation proof. He testified
that, as an appointed attorney, he did not have
the benefit of working on the case as much as he
would have liked because he could not afford to
do so. However, he felt he had zealously
represented the petitioner.
***
Stack recounted that at resentencing they called
Dr. Pamela Auble and Dr. Ann Marie Charvat to
testify for mitigation purposes. The two had
been recommended by the Capital Case
Resource Center, with whom defense counsel
worked during the resentencing, and he believed
they could explain how the petitioner had
become the person he was. Dr. Charvat did not
come across as well as they had hoped, and he
did not believe the jury had grasped everything
she said. Stack said that the defense team did
not know the “extent and the nature of the types
of abuse that [the petitioner] went through
growing up” and that the resentencing jury
never saw the background that the petitioner
had. Stack ... concluded that the public

App. 239
defender’s office did not have, and still does not
have, the sufficient resources or the time to
devote to a capital case.”
***
Dr. Pamela Auble, a psychologist specializing in
clinical neuropsychology, who had testified at
the resentencing, testified also at the postconviction hearing, saying she first evaluated
the petitioner in May 1989. After meeting with
the petitioner, she reviewed his social history, as
well as his school records, prison records, and
records from the Middle Tennessee Mental
Health Institute which were provided by defense
counsel. Her diagnosis of the petitioner was
paranoid personality disorder and dystonia,
which is depression.
Dr. Auble said that she did not have enough
time prior to the resentencing hearing to develop
a trusting relationship with the petitioner. She
said she was only given a little over a month to
work on the petitioner’s case but that, in
general, three to four months was optimal,
depending on the case. It would have been
helpful to have had the petitioner evaluated by
an expert in chemical dependency and to have
had more information about his social history.
She acknowledged that, at the time of
resentencing, she knew little about the
petitioner’s alcohol abuse or the sexual abuse in
his family. She testified that Steve Stack “didn’t
seem very confident in his own abilities,” and
she believed defense counsel did not have much

App. 240
understanding of the mental health issues in the
case.
On cross-examination, Dr. Auble acknowledged
that she knew the petitioner’s parents drank
when they were not at work, suspected that he
had suffered physical abuse, and knew that he
abused alcohol and drugs. She said she was not
aware of the alcoholism in the petitioner’s family
or of the extent of the abuse suffered by the
Hines children. She believed her diagnosis of the
petitioner’s emotional problems, of which she
testified at the resentencing hearing, was
correct. She said that she would liked to have
referred the petitioner to an expert on the issue
of addiction, such an expert being needed to
determine the extent and nature of the
alcoholism and drug abuse and the effects these
had on the petitioner. She explained that the
combination of the history of addiction in the
petitioner’s family that she now had knowledge
of, together with his relatively normal
neuropsychological testing, raised the issue that
the petitioner may have a “chemical lack of
neurotransmitter substance.” Dr. Auble said
that this was one area of her testimony that
would have been different had she had
additional time to work on the petitioner’s case.
Dr. Ann Marie Charvat, a sociologist and a
mitigation specialist, also testified at the
petitioner’s resentencing hearing and again at
the post-conviction hearing, the former being the
first capital case on which she had worked. Her

App. 241
first involvement with the petitioner’s case was
on May 10, 1989, “just a matter of days” after
receiving her PhD. Dr. Charvat interviewed the
petitioner, several of his family members, and
several of his friends prior to the resentencing.
She did not obtain any medical records on any of
the family members. The petitioner told Dr.
Charvat about the physical abuse he and his
sisters endured, and she learned of the
petitioner’s alcohol and drug abuse. Dr. Charvat
was not told about the sexual abuse, but she
suspected that it had occurred. She said that
information about the sexual abuse and the fact
that the petitioner tried to be his sisters’
protector were important for purposes of
mitigation. Asked if she had overlooked
anything in her evaluation of the petitioner, Dr.
Charvat said that she had “failed to look at
certain factors ... which include family history,
medical records .... I would have collected more
records. I believe that I did identify that his
bond to society had suffered. I failed to tie it to
the crime. There are a number of things to
investigate that ... I hadn’t.”
Dr. Charvat testified, as she had done at
resentencing, regarding the petitioner’s
confinement at Green River Boys Camp in
Kentucky, where a method of behavior
modification known as grouping was used. The
groupings often became physically and verbally
abusive. She explained that the bad behavior of
one boy in the group caused the entire group to
lose privileges. Dr. Charvat testified at

App. 242
resentencing about one incident at Green River
where the petitioner and another boy were
pushed into sewage. She said that she was
aware in 1989, the time of resentencing, that
programs using grouping had extensive
problems and that there was literature available
on this issue. She explained that although the
activities and potential abuse at Green River, as
they related to the petitioner, could have been
extremely important for mitigation purposes,
she did not have enough time to further develop
those issues.
Dr. Charvat said that she still agreed with the
sociological conclusions that were presented to
the jury at the resentencing. She believed the
weakness was in the way they were presented to
the jury and said that “there were many parts of
[her testimony] that ... were not well articulated,
not clear.” It was also her opinion that the
petitioner’s background was not adequately
distinguished from that of any other unruly
child.
Dr. William Kenner, a psychiatrist, testified that
the petitioner suffered from post-traumatic
stress disorder (“PTSD”), antisocial personality
disorder, status post-head injury, and inhalant
abuse. He said that the petitioner was sexually
abused by both his stepfather and a maternal
uncle and physically abused by his stepfather,
opining that the abuse caused the petitioner’s
PTSD. The physical abuse inflicted upon the
petitioner by his stepfather included hitting him

App. 243
in the head with a tobacco stick, whipping him
with car radio antennas, throwing him into a
pond although he could not swim, and shooting
the family dog and her puppies in front of him
and his siblings. The petitioner’s mother was
also a victim of Bill Hines’s abuse, and the
petitioner often tried to protect her. At the age of
eight or nine, the petitioner sustained a head
injury when he fell off a wagon of hay and was
knocked unconscious. The petitioner did not
receive any medical treatment for this injury.
Explaining how PTSD affects the brain, Dr.
Kenner said that a person with PTSD repeats or
replays traumatic events throughout life and
that PTSD can alter a person’s character and
change his or her behavior. Dr. Kenner testified
that in the petitioner, PTSD created a paranoid
quality. Dr. Kenner opined that the head
injuries the petitioner suffered throughout his
life could have caused organic personality
syndrome, which made him even more volatile
and difficult to manage. The petitioner’s abuse of
inhalants such as glue and gasoline also caused
damage to his brain. Dr. Kenner concluded that
the petitioner’s choosing a woman for his victim
was inconsistent with the petitioner’s personal
history, as there was no indication that he had
hard feelings toward women.
On cross-examination, Dr. Kenner acknowledged
that the petitioner had been in and out of jail
since the age of fifteen. He further acknowledged
that a report prepared by the Middle Tennessee

App. 244
Health Institute and the Harriet Comb Mental
Health Center indicated that the petitioner
experienced difficulty in relationships with
women, as the result of problems with
girlfriends and family interference, exhibited a
preoccupation with thoughts of violence, and
displayed extreme prejudice toward African–
Americans. Additionally, a report prepared by
the Tennessee Department of Correction stated
that the petitioner, once confined on death row,
acknowledged to security personnel that he
hated both women and African–Americans. Dr.
Kenner testified that although the petitioner
said that he hated women, he did not believe
him because his behavior indicated differently.
He said he had much more information
concerning the petitioner than Dr. Charvat did
prior to preparing her report for the
resentencing. He believed that Dr. Charvat
should have interviewed the petitioner’s sisters
and mother in order to get a true picture of “how
bad things were for [ the petitioner] growing up.”
Dr. Murry Wilton Smith, a specialist in
addiction medicine, testified that the petitioner
is a Type II alcoholic. He explained that Type II
alcoholism, a primary medical illness based in
brain chemistry, is inherited and involves rapid
early onset of alcoholism, usually between the
ages of nine and twelve, and is associated with
antisocial behavior and early legal trouble. Dr.
Smith also testified that the petitioner had used
inhalant solvents and marijuana. He was aware
of the petitioner’s low levels of serotonin, which

App. 245
is associated with violent behavior and Type II
alcoholism. He said that current treatment for
Type II alcoholism, which was not available in
1989, consisted of alcohol and drug treatment,
intensive physiotherapy with a counselor, and
medication to improve the serotonin level. On
recross examination, Dr. Smith acknowledged
that although medications to increase serotonin
levels were available in 1986, there was not a
routine to monitor. He also stated that a
characteristic of Type II alcoholics is a lack of
motivation to follow instructions or a schedule.
Dr. Paul Rossby, an expert in molecular
neurobiology and the study of serotonin, testified
that, as a molecular biologist, he studies the
chemistry of the brain and the biological basis of
behavior. According to Dr. Rossby, serotonin
blocks pain and orchestrates inhibition within
the brain. Dr. Rossby testified that research of
serotonin dated back to at least the 1970s. He
further said that there would have been a
“tremendous amount” of literature available on
serotonin at the time of the petitioner’s
resentencing in 1989 and a “great deal” of
literature available at the time of the
petitioner’s trial in 1986. He said that low levels
of serotonin have been associated with impulsive
behavior, but none of the studies has indicated
that it causes violence.
Dr. Rossby had a spinal tap performed on the
petitioner to determine his serotonin levels,
which were “at the extreme low level” of the

App. 246
normal male population. He opined that the
petitioner’s serotonin levels, coupled with his
Type II alcoholism, resulted in the petitioner’s
being organically impaired and said that the
petitioner does not have the biological capacity
to control his impulsive behavior. Dr. Rossby
said that in a person with low levels of
serotonin, once an impulse is triggered, there is
no ability to control the impulse. He
acknowledged that he did not testify on the issue
of serotonin levels until 1999. He first worked on
a case involving a serotonin defense in
approximately 1992, and was not aware of any
expert who had testified on the issue of
serotonin prior to the time he was involved with
his first case.
Dr. Henry Cellini, an educational psychologist
who was offered as a rebuttal witness on behalf
of the State, testified that serotonin research
began in the 1970s but had only been fully
developed in the last fifteen to twenty years.
With regard to the petitioner’s case, Dr. Cellini
testified that the practical application of
serotonin levels to behavior was in its “infancy”
in the mid–1980s. He said that research
indicates that the two primary factors of
antisocial personality disorder are impulsive
aggression and psychopathic tendencies or
thinking.
Two witnesses were presented as to the claims
regarding the Green River Boys Camp in
Kentucky and its alleged effects on the

App. 247
petitioner. Tammy Kennedy, an investigator
with the post-conviction defender’s office, said
that she interviewed former residents and staff
members. The former residents told her that,
when they arrived at camp, they were
immediately subjected to grouping, which
consisted of several boys surrounding the new
resident and physically and verbally abusing
him. She said that the former residents told her
at times they had sewage detail, which involved
two boys holding a resident by the legs and
dumping him into the sewage. They were forced
to scrub the pavement until their brushes were
gone and their hands were blistered. A juvenile
specialist who had visited Green River advised
Ms. Kennedy that schooling was minimal and
that there were reports of physical, sexual, and
verbal abuse of the residents. Ms. Kennedy said
that several other death row inmates were
former residents of Green River.
Dr. David Richart, an expert in the operation of
the juvenile justice system and residential
treatment facilities in Kentucky, testified that
he had investigated Green River in connection
with his position as the Executive Director of
Kentucky Youth Advocates, Inc. He said that the
theory behind creating the juvenile camps was
to take youthful offenders out of large, training
school facilities and place them in smaller,
community-like settings where they would both
work and receive therapy consisting of guided
group interaction, positive peer culture, and
reality therapy. These theories of treatment

App. 248
were based on the fact that juveniles who
committed crimes did so for peer-related
reasons. The purpose of the therapy was “to turn
something negative into something positive .”
However, problems arose when the state
reduced the number of employees, which
resulted in the staff allowing the residents to
discipline themselves. Dr. Richart’s investigation
also revealed that the staff had not received the
essential training required for this type of
“sophisticated treatment.”
Dr. Richart testified that new residents at Green
River were first greeted by a group of fifty to
sixty boys who encircled the new resident,
screaming at and intimidating him. Because the
group would surround the new resident so
tightly that the staff could not see “what was
going on below shoulder height,” the new
resident was often physically assaulted as well.
Dr. Richart explained that residents at Green
River were subjected to “grouping” for simple
reasons, such as not having a good opinion of
themselves or taking an extra packet of sugar at
lunch. After becoming convinced that the
residents were being harmed “as a result of
using these very controversial emotionally and
psychologically harassing techniques,” Dr.
Richart became concerned about the youths’
psychological state and the damage that might
occur. He recalled having to transport some
youths to mental institutions because they
experienced “psychotic breaks” while at camp.
Dr. Richart said that Green River had

App. 249
compounded the youths’ feelings of isolation and
had done nothing to contribute to pro-social
behavior, and he was not surprised to learn that
many of them subsequently went to prison.
In Dr. Richart’s opinion, the petitioner’s six and
one-half months at Green River intensified his
criminal tendencies, exacerbated his antisocial
tendencies, and made him see the world as a
hostile place. Dr. Richart also believed that the
petitioner was completely inappropriate for
grouping, “because he just wasn’t the kind of
person that wanted to talk about his family.”
Referring to the treatment at Green River as
“psychological torture,” Dr. Richart opined that
it was “probably the worst experience of [the
petitioner’s] life.”
On cross-examination, Dr. Richart acknowledged
that some juveniles may have benefitted from
Green River and that residents, including the
petitioner who had a substance abuse problem
prior to going to Green River, would not have
had access to drugs or alcohol while there. Dr.
Richart read into evidence some of the staff’s
reports on the petitioner, which characterized
him as easily agitated and having a bad temper
but also as a capable person, a good worker, and
“fairly consistent in his supportive leadership in
the group.”
Id. at* 8, 9, 14-18.

App. 250
On the post conviction appeal, the Tennessee
appellate court addressed the proof at resentencing and
determined the following:
The petitioner argues that counsel should have
called his family members to testify regarding
the physical, sexual, and emotional abuse he
suffered. Counsel did not call family members as
witnesses at resentencing, presenting mitigation
proof of the petitioner’s abuse through two
experts. The petitioner further contends that
additional experts should have been employed,
and additional proof regarding his treatment at
Green River Boys Camp should have been
presented. The post-conviction court noted that
the detailed mitigation evidence presented at
the post-conviction hearing was prepared by two
attorneys, three investigators, and several
medical experts over a three-year period, stating
that that period of time was “far in excess of the
time which would have been allowed to prepare
for even a capital trial.” The court found the
additional mitigation proof of the petitioner’s
family background and abuse, presented at the
post-conviction hearing, was essentially the
same as that presented at the resentencing,
simply more in-depth. Accordingly, the court
determined that even with the additional
mitigation proof, the aggravating circumstances
would have continued to outweigh the
mitigating circumstances.
This court has stated that “[a]n investigation so
inadequate as to fail to formulate an ‘accurate

App. 251
life profile’ of the defendant may be the basis for
post-conviction relief. Yet the extent of
investigation required is largely dependent upon
information supplied by the defendant.” Bates v.
State, 973 S.W.2d 615, 633 (Tenn. Crim.
App.1997) (citing Jackson v. Herring, 42 F.3d
1350, 1367 (11th Cir.1995); Burger v. Kemp, 483
U.S. 776, 795, 107 S.Ct. 3114, 97 L.Ed.2d 638
(1987)).
In Goad v. State, 938 S.W.2d 363 (Tenn.1996),
our supreme court set out the relevant factors to
consider when determining if prejudice had
resulted from a trial attorney’s failure to present
mitigating evidence during the penalty phase of
a capital trial. There, the court found that
counsel’s failure to investigate, explore, and
prepare the proposed mitigating evidence was
not “ ‘the result of reasonable professional
judgment’ and ‘fell outside the wide range of
professionally competent assistance.”’ Id. at 3
71. If counsel’s performance is deficient, the
court must next determine if the petitioner has
discharged the duty of proving that prejudice
resulted from counsel’s performance. Id. The
court explained how this determination is made:
[If the] alleged prejudice under Strickland
involves counsel’s failure to present
mitigating evidence in the penalty phase
of a capital trial, several factors are
significant. First, courts have analyzed
the nature and extent of the mitigating
evidence that was available but not

App. 252
presented. Second, courts have considered
whether substantially similar mitigating
evidence was presented to the jury in
either the guilt or penalty phase of the
proceedings. Finally, the courts have
considered whether there was such strong
evidence of aggravating factors that the
mitigating evidence would not have
affected the jury’s determination.
Id. (citations omitted).
In the present appeal, the post-conviction court
found that counsel were not deficient in their
representation of the petitioner, saying that “[i]n
view of the overwhelming strength of the
aggravating factors in Petitioner’s case ... the
mitigating factors would not have affected the
jury’s determination. The jury would be required
by logic and common sense to find that the
aggravating circumstances outweighed the effect
of the mitigating factors beyond a reasonable
doubt.” Accordingly, under the principles
enunciated in Goad, the post-conviction court
found that the petitioner was not prejudiced by
the fact that counsel at the sentencing hearing
had not presented mitigating evidence in the
detail that was done at the post-conviction
hearing. We conclude that the record supports
this determination.FN2
FN2. As supplemental authority, the
petitioner relies on Wiggins v. Smith, 539
U.S. 510, 516, 123 S.Ct. 2527, 2532, 156
L.Ed.2d471 (2003), where the petitioner had

App. 253
sought post-conviction relief from his capital
conviction, alleging that trial counsel “had
rendered constitutionally defective assistance
by failing to investigate and present
mitigating evidence of his dysfunctional
background.” Trial counsel utilized the
defense that another person had killed the
victim and did not present evidence they had
showing the petitioner’s “limited intellectual
capacities and childlike emotional state ...
and the absence of aggressive patterns in his
behavior, his capacity for empathy, and his
desire to function in the world[.]” Id. Counsel
elected not to use specific information that
the petitioner and his siblings were left
“home alone for days, forcing them to beg for
food and to eat paint chips and garbage,” and
that he had been “gang-raped” on more than
one occasion. Id., 539 U.S. at 516-17, 123
S.Ct. at 2533. The court determined that
trial counsel’s decision not to utilize
background information was one which “did
not reflect reasonable professional judgment”
and that the petitioner had been prejudiced
as a result, there being a reasonable
probability that the jury would have returned
with a different sentence, had they known
this information. Id., 539 U.S. at 534, 123
S.Ct. at 2541-42. In the present appeal, trial
counsel presented substantial evidence at the
sentencing hearing, although not to the
extent that was done at the post-conviction
hearing. We find that Wiggins is not
applicable.

App. 254
b. Serotonin Defense
The petitioner contends that resentencing
counsel were ineffective for failing to present
evidence of his serotonin deficiency. As to this
claim, the post-conviction court determined that,
based upon the testimony of the witnesses at the
hearing, the serotonin evidence was not
reasonably available to the petitioner’s
resentencing counsel, since it was not known to
them and could not have been discovered by the
exercise of reasonable diligence.
Dr. Rossby acknowledged that he did not work
on developing this issue in a criminal case until
approximately 1992, three years after the
petitioner’s resentencing trial. Further, he said
that he did not actually testify on the issue of
serotonin until 1999, ten years after the
petitioner’s resentencing trial, and he knew of no
one who had testified on this issue prior to that.
As the post-conviction court stated: “Petitioner’s
counsel at re-sentencing could not reasonably
have been expected to search for experts on a
subject which they did not know existed.” The
record supports this conclusion.
C. Heinous, Atrocious, and Cruel
Aggravating Circumstance
The petitioner argues that counsel were
ineffective at resentencing because they did not
challenge the testimony of Dr. Charles Harlan
regarding the length of time the victim was
conscious and could have lived or experienced

App. 255
pain following the stabbing. At resentencing, the
petitioner offered the testimony of Dr. Chris
Sperry who disagreed with Dr. Harlan’s
testimony regarding the victim’s consciousness
and amount of time she could have survived
following the wound to the heart. Dr. Sperry
opined that the victim would have been
conscious only fifteen to thirty seconds following
the stab wound to the heart, as opposed to Dr.
Harlan’s testimony that the victim lived four to
five minutes following the wound to the heart
and would have been conscious approximately
80% of that time.
The post-conviction court found counsel were
deficient in failing to investigate and introduce
testimony to refute Dr. Harlan’s conclusions,
determining, however, that the petitioner was
not prejudiced by the lack of such testimony. The
court found that the jury would have been much
more persuaded by the testimony of the
pathologist who performed the autopsy, as
opposed to one who drew conclusions from the
autopsy report and photographs. Accordingly,
the court concluded that the testimony of Dr.
Sperry would not have resulted in reasonable
doubt that the victim was conscious during the
apparently final wound to the vagina, both
pathologists concluding that this wound
occurred at or shortly after the time of death.
Moreover, the court determined that even if the
jury did have reasonable doubt in this regard
and did not find this aggravating factor applied,
the remaining two aggravating factors were still

App. 256
strong enough to outweigh the mitigating factors
as presented at the post-conviction hearing.
As to this issue, the State also argued that even
if the victim were unconscious at the time the
vaginal wound was inflicted, the jury could have
found that the nature and infliction of that
wound constituted depravity of mind and that
the depraved state of mind of the petitioner
existed at the time the fatal blows were inflicted
upon the victim. Our supreme court has held
that depravity of mind of the murderer may be
inferred from acts committed at or shortly after
the time of death. See State v. Williams, 690
S.W.2d 517, 529-30 (Tenn.1985). The court
explained that the nature of injuries to a victim
may constitute depravity of mind under the
holding in Williams:
The willful insertion of a sharp
instrument into the vaginal cavity of a
dying woman (or a woman who had just
died) satisfies the requirements of
Williams, supra. If committed prior to
death, these acts constitute torture and
thereby also support a finding of
depravity. If they occurred close in time to
the victim’s death, they allow the drawing
of an inference of the depraved state of
mind of the murderer at the time the fatal
blows were inflicted on the victim.

App. 257
Hines, 919 S.W.2d at 581. We conclude that the
record supports the findings of the postconviction court as to this issue.
Id. at *31-33
The prevailing constitutional requirement is that
counsel who presents a defendant facing a death
sentence, must “conduct a thorough investigation of the
defendant’s background.” Williams, 529 U.S. at 396.
The rationale is that “[e]vidence about the defendant’s
background and character is relevant because of the
belief, long held by this society, that Defendants who
commit criminal acts that are attributable to a
disadvantaged background . . . may be less culpable
than defendants who have no such excuse . . .” Wiggins
v. Smith, 539 U.S. 510, 535 (2003) (quoting Penry v.
Lynaugh, 492 U.S. 302, 319 (1989) (internal quotation
marks omitted)).
In Wiggins, the Supreme Court adopted the
American Bar Association’s 1989 standards for death
penalty cases and stated that for mitigation evidence,
counsel’s duty is “to discover all reasonably available
mitigating evidence,” including, “medical history,
educational history, employment and training history,
family and social history, prior adult and juvenile
correctional experience, and religious and cultural
influences.” 539 U.S. at 524 (quoting ABA guidelines
for Appointment and Performance of Counsel on Death
Penalty Cases 11.4.1(C), 11.8.6 (1989) (emphasis
omitted)). Where appropriate, this inquiry should
include the Defendant’s potential brain damage.
Skaggs, 235 F.3d at 266-75. Although Wiggins adopted
the 1989 ABA standards, in 1975, the Tennessee

App. 258
Supreme Court adopted the earlier ABA standards.
Baxter v. Rose, 523 S.W.2d 930, 939 (Tenn. 1975).
The Sixth Circuit held that “when a client faces the
prospect of being put to death unless counsel obtains
and presents something in mitigation, minimal
standards require some investigation.” Mapes v. Coyle,
171 F.3d 408, 426 (6th Cir. 1999) (emphasis on original);
see also Austin v. Bell, 126 F.3d 843, 848-49 (6th Cir.
1997). This duty of inquiry now applies
notwithstanding the defendant’s preference or his
family’s information. Rompilla v. Beard, 545 U.S. 374,
377 (2005); Coleman v. Mitchell, 268 F.3d 417, 449-50
(6th Cir. 2001). For example, once counsel is aware
that the defendant has a mental illness, and despite
competency evaluations, where counsel, “declined to
seek the assistance of a mental health expert or
conduct a thorough investigation of [the defendant’s]
mental health,” counsel’s performance in a death
penalty case was held to be constitutionally
insufficient. Harries v. Bell, 417 F.3d 631, 638 (6th Cir.
2005). Likewise, counsel’s failure to “adequately
investigate [the defendant’s] . . . troubled childhood”
can be deficient performance and prejudicial. Id. at
638-641. As the Sixth Circuit has stated, “[o]ur circuit’s
precedent has distinguished between counsel’s complete
failure to conduct a mitigation investigation, where we
are likely to find deficient performance, and counsel’s
failure to conduct an adequate investigation, where the
presumption of reasonable performance is more
difficult to overcome.” Beuke v. Houk, 537 F.3d 618,
643 (6th Cir. 2008) (emphasis in original) (citing
Campbell v. Coyle, 260 F.3d 531, 552 (6th Cir.2001), &
Moore v. Parker, 425 F.3d 250, 255 (6th Cir.2005)).

App. 259
As to judicial deference to Petitioner’s trial counsel’s
strategic choices, Wiggins notes that “‘strategic choices
made after less than complete investigations are
reasonable precisely to the extent that reasonable
professional judgments support the limitations on
investigation. In other words, counsel has a duty to
make reasonable investigations or to make a
reasonable decision that makes particular
investigations unnecessary.’” 539 U.S. at 521 (citation
omitted). Where the issue involves mitigation evidence
in a death penalty case, the test to award habeas relief
was stated as follows: “although we suppose it is
possible that a jury could have heard [the mitigation
evidence] and still have decided on the death penalty,
that is not the test. . . . [T]he likelihood of a different
result if the evidence had gone in is “‘sufficient to
undermine confidence in the outcome’ actually
reached.” Rompilla, 545 U.S. at 393 (citations omitted).
Here, the State court considered the relevant
Supreme Court decisions of Wiggins and Burger as well
as federal circuit decisions on the applicable principles
on counsel’s obligations for a death sentence hearing.
In reviewing the evidence at the resentencing hearing,
two experts, Drs. Auble and Charvat, testified as to
Petitioner’s family history, troubled childhood, his
father’s abandonment of him, his mother’s alcohol
problem, Petitioner’s abuse of alcohol, glue and
gasoline, as well as his self-destructive behavior. Dr.
Auble, a clinical psychologist, described Petitioner’s
paranoid personality disorder and dysthymia, or
chronic depression. In Dr. Auble’s view, Petitioner
suppressed his feelings until those feelings “boiled up”
after turbulent visits with his parents and girlfriend

App. 260
shortly before the murder. Dr. Auble opined that
Petitioner was under stress when he killed the victim.
Dr. Charvat, a sociologist, described the damaging
effects of Petitioner’s childhood experiences. To be sure,
the expert testimony at the post conviction hearing was
more extensive, but those opinions were consistent
with the expert opinions at the resentencing and post
conviction hearings. The Tennessee appellate court
affirmed the trial court’s findings that “the additional
mitigation proof of the Petitioner’s family background
and abuse, presented at the post-conviction hearing,
was essentially the same as that presented at the
resentencing, simply more in-depth. Accordingly, the
court determined that even with the additional
mitigation proof, the aggravating circumstances would
have continued to outweigh the mitigating
circumstances.” Hines, 2004 WL 1567120 at *31.
Moreover, whatever the deficiencies of counsel at
the resentencing hearing, the post conviction hearing
present additional expert proof and afforded the state
courts yet an additional opportunity to evaluate the
appropriateness of Petitioner’s death sentence. The
state courts deemed the Petitioner’s extensive
mitigation evidence not to outweigh the State’s other
proof of aggravating circumstances of the wounds. The
victim’s wounds, Petitioner’s escape and possession of
the victim’s vehicle and key, Petitioner’s explanation of
events to his sister and the Petitioner’s statements to
officers that he could provide all the details of the
murder lead this Court to conclude that the state
courts’ decisions on the adequacy of counsel’s
performance at sentencing would not have caused a

App. 261
different result and those decisions were reasonable
applications of clearly established federal law.
c. Aggravating Circumstances Claims
In the first of these claims, Petitioner contends that
the application of the felony murder as an aggravating
circumstance violated his constitutional rights because
he was also convicted of felony murder. (Docket Entry
No. 23-1 at ¶ 15). In a related claim, Petitioner cites
the State’s alternative reliance on the “Heinous,
Atrocious or Cruel” aggravating factor to uphold his
death sentence. Id at ¶ 16. Other related claims are
that the Petitioner’s prior felony for assault that was
used as an aggravating circumstance is based upon an
invalid guilty plea and that the jury was improperly
instructed that all jurors must agree as to a mitigating
circumstance in order to consider it. Id. at ¶¶ 17,18.
Respondent contends that the actual jury instruction
does not support this contention, and instead reflects
only that aggravating circumstances be found
“unanimously.”
In Petitioner’s direct appeal, the Tennessee
Supreme Court reversed and remanded the sentencing
issue “for a new trial respecting the imposition of
punishment only” citing the lack of proper instructions
on the aggravating circumstance under Tennessee law.
Hines, 758 S.W.2d at 524. The district court stated:
It is insisted the death penalty cannot stand
because the trial judge failed to fully instruct the
jury on the aggravating circumstances of
“committing a felony,” “torture and depravity of
mind” as required by law. In State v. Williams,

App. 262
690 S.W.2d 517 (Tenn.1985), this Court
mandated that at a capital sentencing
proceeding a jury must be instructed as to the
statutory definition of any felony relied upon by
the State as an aggravating circumstance under
T.C.A. § 39-2-203(i)(7)FN1 and that a jury must
be fully instructed as to the meaning of the
terms “heinous,” “atrocious,” “cruel,” “torture,”
or “depravity of mind” as those words are used
in the aggravating circumstance set forth in
T.C.A. § 39-2-203(i)(5).FN2 This Court concluded
that
FN1. T.C.A. § 39-2-302(i)(7) reads:
The murder was committed while the
defendant was engaged in committing, or
was an accomplice in the commission of,
or was attempting to commit, or was
fleeing after committing or attempting to
commit, any first degree murder, arson,
rape, robbery, burglary, larceny,
kidnapping, aircraft piracy, or unlawful
throwing, placing or discharging of a
destructive device or bomb;
FN2. T.C.A. § 39-2-203(i)(5) reads:
The murder was especially heinous,
atrocious, or cruel in that it involved
torture or depravity of mind;
[u]nless a jury is instructed as required
..., its imposition of the death penalty
cannot stand.
***

App. 263
... Without such instructions we have a
“basically uninstructed jury,” as stated by
the Supreme Court in Godfrey [ v.
Georgia, 446 U.S. 420, 100 S.Ct. 1759, 64
L.Ed.2d 398 (1980) ]. Such a jury cannot
lawfully impose the death penalty.
690 S.W.2d at 533.FN3
FN3. See also the recent decision of
Maynard v. Cartwright, 486 U.S. 356, —,
108 S.Ct. 1853, 1858, 100 L.Ed.2d 372
(1988), wherein the Court noted that
Eighth
Amendment
claims
“characteristically assert that the
challenged provision fails adequately to
inform juries what they must find to
impose the death penalty and as a result
leaves them and appellate courts with the
kind of open-ended discretion which was
held invalid in Furman v. Georgia, 408
U.S. 238, 92 S.Ct. 2726, 33 L.Ed.2d 346
(1972).”
In the present case, which was tried eight
months after the decision in Williams was
released, the State relied upon four aggravating
circumstances and the jury was instructed as
follows:
(1) The defendant was previously
convicted of one or more felonies, other
than the present charge, which involved
the use or threat of violence to the person.
[§ 39-2-203(i)(2)]

App. 264
(2) The murder was especially heinous,
atrocious, or cruel in that it involved
torture or depravity of mind. [§ 39-2203(i)(5)]
(3) The murder was committed while the
defendant was engaged in committing, or
was an accomplice in the commission of,
or was attempting to commit, or was
fleeing after committing or attempting to
commit, any rape, robbery or larceny.
[§ 39-2-203(i)(7)]
(4) The murder was committed for the
purpose of avoiding, interfering with, or
preventing a lawful arrest or prosecution of
the defendant or another. [§ 39-2-203(i)(6)]
The jury returned a verdict unanimously finding
the first three listed aggravating circumstances
and that the punishment should be death.
It is clear that the trial court’s instruction was
inadequate under Williams. First of all, the
court’s instructions did not include any
definition of the terms “heinous,” “atrocious,”
“cruel,” “torture” or “depravity of mind.” Second,
the court failed to define at sentencing any of the
three felonies relied upon by the State in
establishing the third aggravating circumstance.
Such failures have not always proven reversible
error in the decisions this Court has rendered
after Williams. For example, State v. Claybrook,
736 S.W.2d 95 (Tenn.1987); State v. King, 718
S.W.2d 241 (Tenn.1986); State v. O’Guinn, 709

App. 265
S.W.2d 561 (Tenn.1986); and State v. Duncan,
698 S.W.2d 63 (1985), were all cases in which
the trial court failed to define the terms used in
T.C.A. § 39-2-203(i)(5) and in which this Court
found no reversible error since the evidence
clearly supported this aggravating circumstance
and the other aggravating circumstances found
by the jury were correctly charged and
supported by the evidence. A crucial factor in all
these cases, however, was that in each the trial
had occurred before Williams, and this Court
had held that the instructional requirement in
Williams was not retroactive. State v. O’Guinn,
supra, 709 S.W.2d at 568. This was consistent
with this Court’s prior holding, reiterated in
Williams itself, 690 S.W.2d at 533, that the
aggravating circumstance set out in T.C.A. § 392-203(i)(5) was not unconstitutionally vague and
overbroad under Godfrey v. Georgia. See, e.g.,
State v. Melson, 638 S.W.2d342, 367
(Tenn.1982); State v. Pritchett, 621 S.W.2d 127,
137-139 (Tenn.1981); State v. Groseclose, 615
S.W.2d 142, 151 (Tenn.1981). In these earlier
decisions this Court thoroughly reviewed the
evidence to assure that it supported the jury’s
finding as to this aggravating circumstance. It is
also notable that in Claybrook, Duncan and
O’Guinn, the defendant had not objected to the
pre- Williams instruction and that in King,
supra the defendant had only sought an
instruction as to the definition of “torture”.
In State v. Porterfield, 746 S.W.2d 441, 451
(Tenn.1988), a case, like the present one tried eight

App. 266
months after the Williams decision was released,
this Court found that the defendant was not
prejudiced by the trial court’s failure to give the
definitions of the terms “heinous,” “atrocious,” and
“cruel” exactly as set out in Williams or to define
“torture” or “depravity of mind” for the jury. After
examining the definitions that the trial court had
given, this Court stated:
It would have been better had the trial
judge used the definitions set out in State
v. Williams, 690 S.W.2d 517, 533
(Tenn.1985), as they have been approved
by this court. However, the definitions
given were in our opinion adequate.
Further, we find no prejudicial error in
the trial court’s failure to define the terms
“torture” or “depravity of mind.” The
evidence in this case supports the
aggravating circumstance, Tenn. Code
Ann., § 39-2-203(i)(5), as defined in State
v. Williams, supra, as the defendant
repeatedly struck the victim with a tire
iron, inflicting horrible head wounds.
Furthermore, the remaining two
aggravating circumstances were correctly
charged and are supported by the
evidence.
746 S.W.2d at 451.
In State v. Carter, 714 S.W.2d 241 (Tenn.1986),
this Court also did not find harmful error in the
trial court’s failure to instruct the jury properly
under Williams on the aggravating circumstance

App. 267
in T.C.A. § 39-2-203(i)(7). The trial in Carter had
occurred in November 1984. While this was
before Williams was released, it was after this
Court’s directive in State v. Moore, 614 S.W.2d
348, 350-351 (Tenn. 1981), that trial judges
“should regularly” include in their instructions
to the jury the statutory definition of any felony
relied on by the State as an aggravating
circumstance. The Court noted that
We recently held in State v. Williams, 690
S.W.2d 517 (Tenn.1985), that it was error
to fail to give the statutory definition of
the felonies which the jury was asked to
consider in determining whether it should
find the existence of the aggravating
circumstance defined in T.C.A. § 39-2203(i)(7). The felony involved in Williams
was robbery and the opinion is silent as to
whether the statutory definition of
robbery was given during the guilt phase.
In this case the jury had been given the
statutory definition of larceny, robbery
and kidnapping the day before they
retired at 9:37 a.m. to consider the
punishment. We think it is significant
that they eliminated robbery from their
finding of aggravated circumstances
under T.C.A. § 39-2-203(i)(7). The
definition of that crime includes the
element of forcible taking from the person
of the victim. The proof in this case was
that the victim’s wallet was found on his

App. 268
person with cash undisturbed and in
addition cash was found clipped to a
clipboard in the seat of the pick-up truck.
Price testified that defendant took
nothing from the person of Lile after
killing him and before throwing him over
the cliff. This demonstrates that the jury
had clearly in mind the elements
necessary to convict of the crime of the
felony of robbery and quite properly
declined to include it. It was patently
obvious that defendant was guilty of the
larceny of Lile’s truck and kidnapping
him from the Interstate 81 rest stop. We
find this situation distinguishable from
Williams and harmless.
714 S.W.2d at 250.
The present case is distinguishable from these
earlier cases. First, and most obviously, the trial
occurred several months after the Williams rule
was announced. This Court’s decisions in
Duncan, O’Guinn, King, and Claybrook are thus
inapposite in the present case. Unlike in
Porterfield and Carter, the trial court here has
erred in failing to instruct the jury fully on both
the aggravating circumstances involved in
Williams. Also unlike Porterfield, where two of
the three aggravating circumstances were
correctly charged, here there was plain error
patently contradictory to this Court’s clear
mandate in Williams in charging two of the
three aggravating circumstances found. Such

App. 269
cumulative error injects an undue degree of
unreliability into the sentencing procedure
where the jury must weigh all aggravating and
mitigating factors. See State v. Pritchett, supra,
621 S.W.2d at 139; State v. Moore, supra, 614
S.W.2d at 352. Compare State v. Laney, 654
S.W.2d 383, 388 (Tenn.1983). In Porterfield the
defendant presented no proof as to mitigating
circumstances.
In Williams the Court also made it clear that the
evil it sought to avoid by mandating these
instructions was that of “a basically
uninstructed jury” and the attending risk of
arbitrary and capricious sentencing. See also
State v. Laney, supra, 654 S.W.2d at 388 (“The
absence of proper legal guidance [at capital
sentencing] invites ... a certain degree of
capriciousness in the deliberation.”) In
Porterfield the trial court had adequately
instructed the jury as to the most ambiguous
terms in T.C.A. § 39-2-203(i)(5). In Carter the
jury had been instructed at the guilt hearing as
to the elements of the felonies relied upon by the
State; and its verdict, selectively omitting
certain of these felonies, revealed that, contrary
to being uninstructed, the jury “had clearly in
mind the elements necessary to convict” on one
of these felonies. In the present case there was
neither substantial compliance with Williams
nor a verdict clearly showing that the jury
understood the elements of the felonies it found
supporting T.C.A. § 39-2-203(i)(7). Also, unlike
Carter, only one of the felonies found by the jury

App. 270
had been instructed at the guilt hearing. The
jury was thus never told the legal definition of
larceny and rape, two offenses even those
trained in the law may at time have difficulty
defining. See, e.g., State v. Brobeck, 751 S.W.2d
828 (Tenn.1988) (addressing the issue of
whether a dead person may be raped, a factual
issue raised by the proof in the present case).
Again, it may be pointed out that the juries in
other cases where the Court has not found
reversible error under Williams had also been
correctly instructed as to all other aggravating
circumstances involved. In the present case the
jury was correctly instructed only as to one of
the aggravating circumstances it found.
On the other hand, this case is distinguishable
from Williams by the fact that the evidence here
fully supports the aggravating circumstances
found by the jury. In Williams the proof did not
support the aggravating circumstance in T.C.A.
§ 39-2-203(i)(5) and two of the three felonies
found by the jury under T.C.A. § 39-2-203(i)(7).
Furthermore, there is no mention in Williams of
whether the jury was ever instructed at the guilt
phase as to the felonies found by the jury at
sentencing. The jury in the present case was, as
noted earlier, instructed only on the elements of
robbery at the guilt phase. In Williams also both
aggravating circumstances found by the jury
were incorrectly instructed. Here one of the
three aggravating circumstances found was
correctly instructed. Thus in Williams there was

App. 271
no valid aggravating circumstance upon which a
sentence of death could be based.
Although language in Williams at first suggests
that any failure to comply with its holding
cannot be considered harmless, Porterfield
reveals that this Court has not taken this
approach. To the extent that the failure to give
the instruction mandated by Williams is
constitutional error in that it results in the
“standardless and unchanneled imposition of
death sentences in the uncontrolled discretion of
a basically uninstructed jury,” 690 S.W.2d at 532
quoting Godfrey v. Georgia, supra, 100 S.Ct. at
1765, the standard for determining harmless
error is whether the error committed is harmless
beyond a reasonable doubt. Satterwhite v.
Texas, 486 U.S. —, 108 S.Ct. 1792, 1797, 100
L.Ed.2d 284 (1988); Chapman v. California, 386
U.S. 18, 87 S.Ct. 824, 828, 17 L.Ed.2d 705
(1967); see also People v. Odle, 45 Cal.3d 386,
247 Cal.Rptr. 137, 151-155, 754 P.2d 184, 197201 (1988) (discussing the harmless error
doctrine as applied to instructional error in
capital sentencing and anticipating the rule that
the United States Supreme Court will adopt).
Despite the strong proof of the aggravating
circumstances shown here, it is difficult to say
that this standard has been met. To the extent
that the rule in Williams is procedural,
mandated by this Court acting in its supervisory
capacity to assure objective and reliable
sentencing in capital cases, it is difficult to
ignore the obvious failure of the trial court to

App. 272
follow the clear commands of this Court; nor can
it be said, where as here there was evidence of
both aggravating and mitigating circumstances,
that the defendant clearly was not prejudiced by
leaving the jury uninstructed, particularly as to
the felonies of rape and larceny.
FN4. In the present case the defendant did
not object to the trial court’s failure to charge
as required in Williams and did not call this
error to the judge’s attention. Such failure
may be a factor in considering whether
reversible error has occurred but is not
always fatal to appellate review in cases
where the defendant is under sentence of
death. See State v. Duncan, supra, 698
S.W.2d at 67-68.
We are of the opinion that this case should be
remanded for two reasons. First, the jury did
find two felonies supporting the death penalty,
the elements of which it had no way of knowing.
This indicates a degree of “sheer speculation”
and unguided discretion prohibited by Godfrey
v. Georgia, supra, and Eighth Amendment
jurisprudence. As the United States Supreme
Court has stated in the recent case of Mills v.
Maryland, 486 U.S. 367, —n. 10, 108 S.Ct. 1860,
1867 n. 10, 100 L.Ed.2d 384 (1988), “While juries
indeed may be capable of understanding the
issues posed in capital-sentencing proceedings,
they must first be properly instructed.” The jury
here was not properly instructed. Second, this
case represents a clear and inexcusable violation

App. 273
of Williams. We cannot say that the error
committed is harmless beyond a reasonable
doubt. Accordingly, the judgment of the trial
judge sustaining the defendant’s conviction of
first degree murder is affirmed but the verdict
and sentence imposing the death penalty is set
aside and this cause is remanded to the trial
court for a new trial respecting the imposition of
punishment only.
758 S.W.2d at 521-24.
Felony murder constitutes a “proper and
permissible narrowing factor at the eligibility stage.”
Coe v. Bell, 161 F.3d 320, 350 (6th Cir. 1998) (citing
Tison v. Arizona, 481 U.S. 137 (1987)). A narrowing
construction need only occur at one of the two stages
and there is no double-counting. Bell v. Cone, 543 U.S.
447, 448-49, 455-57 (2005); see also, Blystone v.
Pennsylvania, 494 U.S. 299, 306-07 (1990) (where the
Supreme Court stated:
At sentencing, petitioner’s jury found one
aggravating circumstance present in this case–
that petitioner committed a killing while in the
perpetration of a robbery. No mitigating
circumstances were found. Petitioner contends
that the mandatory imposition of death in this
situation violates the Eighth Amendment
requirement of individualized sentencing since
the jury was precluded from considering
whether the severity of his aggravating
circumstance warranted the death sentence. We
reject this argument. The presence of
aggravating circumstances serves the purpose of

App. 274
limiting the class of death-eligible defendants,
and the Eighth Amendment does not require
that these aggravating circumstances be further
refined or weighed by a jury. See Lowenfield v.
Phelps, 484 U.S. 231, 244 (1988) (“The use of
‘aggravating circumstances’ is not an end in
itself, but a means of genuinely narrowing the
class of death-eligible persons and thereby
channeling the jury’s discretion”) The
requirement of individualized sentencing in
capital cases is satisfied by allowing the jury to
consider all relevant mitigating evidence.
Id. at 306-07 (footnotes omitted).
As the Sixth Circuit stated, citing Supreme Court
precedent, “it is acceptable for a first-degree murder
conviction to be based on two alternative theories even
if there is no basis to conclude which one (if only one)
the jury used.” Coe, 161 F.3d at 348 (citing Schad v.
Arizona, 501 U.S. 624, 636-37 (1991)).
For the Tennessee Supreme Court, the basis for
Petitioner’s death sentence was “torture” reflected in
Petitioner’s “willful insertion of a sharp instrument
into the vaginal cavity of a dying woman (or a woman
who had just died) satisfies the requirements”
qualifying as torture or depravity of the mind. Hines,
919 S.W2d at 581. Thus, this Court concludes that
Petitioner’s aggravating circumstances claim was
reasonably decided by the State courts.
d. Trial Court’s Failure to Recuse
Petitioner’s next claim involves an alleged violation
of his due process rights when the trial court failed to

App. 275
recuse itself after the trial court’s rejection of the
State’s and Petitioner’s plea agreement for a life
sentence. (Docket Entry No. 23-2, Second Amended
Petition at ¶25 at 9-10). The Tennessee Supreme Court
rejected this claim because state law grants the trial
judge the discretion to reject a plea agreement:
In his brief defendant argues that the trial judge
should have recused himself from the case, or at
least from determining whether the plea bargain
was acceptable, because he was not a
disinterested and neutral judge since he did not
agree with the prior judgment of this Court in
this case. He implies the Court’s judgment was
warped and influenced by the need to
demonstrate he had been correct in the first
case. He says the judge ignored the fact that the
victim’s family accepted the agreement, and
dismissed defendant’s mitigating factors. The
argument is that even if actual partiality is not
shown, there is an appearance of partiality
which violates Supreme Court Rule 10, Canon
3(C)(1) mandating that the trial judge disqualify
himself in a proceeding in which his impartiality
might reasonably be questioned.
A motion for recusal based upon the alleged bias
or prejudice of the trial judge addresses itself to
the sound discretion of the trial court and will
not be reversed on appeal unless clear abuse
appears on the face of the record. State ex rel.
Phillips v. Henderson, 220 Tenn. 701, 423
S.W.2d 489, 492 (1968). The general rule is that
a trial judge should recuse himself whenever he

App. 276
has any doubt as to his ability to preside
impartially in a criminal case or whenever his
impartiality can reasonably be questioned. State
v. Cash, 867 S.W.2d 741, 749 (Tenn. Crim.
App.1993); Lackey v. State, 578 S.W.2d 101, 104
(Tenn. Crim. App.1978). A judge is in no way
disqualified because he tried and made certain
findings in previous litigation. King v. State, 216
Tenn. 215, 391 S.W.2d 637, 642 (1965). The trial
judge in this case stated that he was not
prejudiced against the defendant. There is no
indication in the record that the reversal of the
prior sentencing hearing in any way biased the
judge against the defendant or was the reason
for rejection of the plea agreement.
Furthermore, there is no showing that the judge
refused the plea bargain in order to vindicate
himself in reference to the prior proceedings.
Under this record, it cannot reasonably be
questioned that the trial judge was able to
render an impartial decision regarding the plea
bargain and to preside over this case in a
neutral and unbiased manner.
Hines, 919 S.W.2d 578-79.
For this claim, the dispositive issue is the lack of
clearly established federal law as determined by the
United States Supreme Court to grant relief on this
claim. Thus, the Court concludes that this claim fails
as a matter of law.

App. 277
2. Procedurally Defaulted Claims
Respondent asserts that most of Petitioner’s claims
are procedurally defaulted for his failures to present
these claims to the state courts and to provide those
courts with the opportunity to decide those claims.
Respondent also argues that under Tennessee law,
these defaulted claims are now time barred and are
deemed to be waived for which Petitioner has failed to
show cause or prejudice. Specifically, the Respondent
identifies the claims in Paragraphs 9, 10, 11(b), (e), (i),
(l), (n)-(u), 13(b), (c), (t), (u), (w)-(ee), 14, 17, 19, 21(b),
(d)-(f), portions of Paragraph 22, Paragraphs 23-24, 2631, 33-34, portions of Paragraph 35, and Paragraphs
36-38 and 40 of the Second Amended Petition. (Docket
Entry Nos 23, 23-1 and 23-2). 7
For his procedural defaults, Petitioner cites
Martinez and his state post conviction counsel’s
failures to present certain claims to excuse these
defaults. Petitioner also cites violations of Brady and
Giglio to excuse his procedural defaults. For the
reasons stated earlier on the evidentiary hearing issue,
the Court analyzes the particulars of these contentions
and thereafter conducts the procedural default
analysis.

7

Given their length and with exceptions for the defaulted claims
analyzed in this section, the remaining defaulted claims are
attached in Appendix A to this Memorandum and are reformatted
to make them more readable.

App. 278
a. Martinez Claims
Petitioner’s Martinez claims are asserted in the
parties’ joint statement, (Docket Entry No.109 at 1-43).
In sum, these claims are for post conviction counsel’s
failures:
to timely claim in the amended petition that
women were underrepresented in the petit jury
venire, particularly that for the relevant time
period women in Cheatham County were 50.650.7% of the population, but comprised only 1022% of the Cheatham County jury venire from
which Hines’ juries were drawn as well as
exclusion of women as grand jury forepersons;
to assert claims about trial counsel in ¶¶ 11 b, c,
d, e, f, g, h, i, k, l, m, n, o, p, q, r, s, t, u, v and
about sentencing counsel’s failures detailed in
¶¶ 13b, d, e, f, g, h, I, k, l, m, n, o, q, s, t, u, v, aa,
bb, dd, ee of the amended complaint (Docket
Entry No. 23 and 23-1);
to present evidence of Petitioner’s childhood
traumas, poverty with malnutrition, lack of medical
care and exposure to toxins, Petitioner’ untreated
head injuries and mental illness;
to seek a mistrial after jurors were informed
that the case had been reviewed on appeal;
to object to the use of restraints upon Petitioner
and to secure proof from any available jurors
about seeing Petitioner in shackles and
handcuffs;

App. 279
to timely subpoena Norman Johnson, a
counselor at the Comprehensive Care Center
where Hines was treated, and Bill Andrews, a
Juvenile Court Liaison Specialist with the
Bureau of Social Services(¶13cc);
to present any claims of ineffective assistance of
appellate counsel, including all claims in this
action;
to prove that Petitioner’s prior conviction was
invalid and unconstitutional, or to present a
valid defense of intoxication and self defense;
to object to the instructions identified in Claim
19, that jury instructions lessened the
prosecution’s burden of proof;
to fail to object to the prosecutor’s
unconstitutional arguments at sentencing to
object to the imposition of death after the trial
court’s rejection of the agreed-upon offer of life
under United States v. Jackson, 390 U.S. 570
(1968); and
to object to the trial judge’s denial of a
continuance after the prosecution’s untimely
notice of aggravating circumstances.
(Docket Entry No. 109 at 2, 9, 13, 14, 16, 17, 18, 22, 23,
24, 25, 27, 28, 30, 31, 33, 34, 36, 37, 38 and 39).
As stated earlier, Martinez created an equitable
exception to procedural default that “qualifies Coleman
by recognizing a narrow exception: Inadequate
assistance of counsel at initial-review collateral

App. 280
proceedings may establish cause for a prisoner’s
procedural default of a claim of ineffective assistance at
trial.” 132 S. Ct. at 1315 (emphasis added). In addition,
Martinez applies to “initial-review collateral
proceedings,” “which provide the first occasion to raise
a claim of ineffective assistance at trial.” Id. Martinez,
expressly recognized that “[d]irect appeals, without
evidentiary hearings, may not be as effective as other
proceedings for developing the factual basis for the
[ineffective assistance of trial counsel] claim.” Id. at
1318. Moreover, “[t]o be successful under Trevino, . . .
[the habeas petitioner] must show a ‘substantial’ claim
of ineffective assistance, and this requirement applies
as well to the prejudice portion of the ineffective
assistance claim.” McGuire,738 F.3d at 752 (citing
Trevino, 133 S.Ct. at 1918).
From the Court’s review of the State record and
decisions of the Tennessee courts, Petitioner’s various
counsel in fact presented these claims or a variation
thereof. First, the state post conviction trial court made
extensive and express findings on the exclusion of
women, (Addendum No. 17 at 3216-3224) including the
percentages cited by Petitioner. Id. at 3217; see also
Hines, 2004 WL 1567120 at* 34-36. The Martinez
claims about Petitioner’s trial counsel’s omissions at
trial and sentencing were extensively analyzed in the
post conviction appeal. The cited omissions of trial and
appellate counsel, who were experienced counsel, were
raised as claims in the state post conviction
proceedings, and were considered on the merits by the
state courts. Hines, 2004 WL 1567120 at *23-34. These
rulings include alleged omissions of expert and lay
proof on Petitioner’s childhood, his experiences as a

App. 281
juvenile and his mental condition as well as the
experiences of his family members. Id. at * 11-18, 3133. The Tennessee Supreme Court considered the
prosecutor’s arguments, some of which Petitioner’s trial
counsel objected and others they did not object, and
found those arguments to be justified by proof or
harmless without any effect on the jury’s verdict.
Hines, 758 S.W.2d at 519-21. Petitioner’s appellate
counsel raised jury instructions and vagueness issues
in Petitioner’s direct appeal. Id. at 521-24. Petitioner’s
counsel challenged the trial court’s failure to grant a
continuance based on the State’s late notice of
aggravating circumstances that the State intended to
rely upon at trial, as well as the trial court’s rejection
of the plea agreement. Hines, 919 S.W.2d at 577-80. 8
8

As to the claim that the trial court erred in denying a continuance
after the State failed to provide timely written notice of
aggravating circumstances to be presented at sentencing to justify
the death penalty under Tenn.R.Crim.P. 12.3(b), absent such
notice within 30 days, the trial judge must grant the defendant a
reasonable continuance of the trial. The Tennessee appellate court
ruled:
In light of the unique posture of this case, however, as a
continuation of an earlier proceeding and not a new
proceeding in itself, we conclude that the defendant was on
notice sufficient to satisfy the requirements of Rule
12.3(b), cf. State v. Chase, 873 S.W.2d7, 9 (Tenn.Crim.App.
1993), subject to the requirement that absent a new notice
the State was limited at the resentencing hearing to the
aggravating circumstances set forth in the initial notice. In
the present case, the State had filed written notice of
intent to seek the death penalty and of the aggravating
circumstances on which it intended to rely in October
1985, prior to the original trial. All three of the
aggravating circumstances relied upon by the State on

App. 282
In sum, the Court concludes that Petitioner’s
Martinez claims are not substantial and do not qualify
for the “narrow ” and equitable exception created by
Martinez. Petitioner’s widespread challenges to his
post conviction counsel’s performance would undermine
the Martinez exception and create a vehicle for a
wholesale de novo review of Petitioner’s claims despite
the state courts’ fora to address any claim about his
trial and appellate counsel.
b. Brady and Gigilio Claims
For these claims, Petitioner asserts that the State
withheld exculpatory evidence and false testimony in
violation of Brady v. Maryland, 373 U.S. 83 (1963) and
Giglio v. United States, 405 U.S. 150, 153-54 (1972).9
As to the specifics of these claims, Petitioner alleges:
that Ken Jones and Sheriff Dorris Weakley
testified falsely; that the prosecution presented
testimony from Dr. Charles Harlan and

resentencing were included in this notice. Under these
circumstances, we find that the requirements of Rule
12.3(b) were met and that a continuance was not
mandated. Furthermore, there has been no showing that
the defendant has suffered prejudice as a result of the
State’s failure to re-file the notice before the resentencing
hearing. Absent a showing of prejudice, the trial court did
not abuse its discretion in refusing to grant a continuance.
Cf. State v. Stephenson, 752 S.W.2d 80, 81 (Tenn.1988).
Hines, 919 S.W.2d at 579.
9

Petitioner also uses the facts of these claims to assert claims for
prosecutorial misconduct and ineffective assistance of counsel. See
Docket Entry No. 23-1 at ¶ 12.

App. 283
withheld material exculpatory evidence of his
conduct;
that state prosecutors improperly coached state
witnesses who testified about Petitioner with a
key with the number “9” on it, Petitioner
seeming nervous, there was a stain on the
shoulder of Petitioner’s shirt, and Petitioner had
a silver Volvo (Docket Entry No. 23, at ¶ 10f);
that the prosecution presented false testimony of
Dr. Harlan of no semen on the victim when Dr.
Harlan’s file reflects semen was found on the
victim;
that post-conviction counsel was unaware of the
falsity of Harlan’s testimony about time of
consciousness and the lack of semen evidence;
and
that petitioner has exculpatory evidence of
serology test showing a DNA exclusion from the
victim’s underwear and fingerprint exclusion.
(Docket Entry No. 109 at 11-12, 13-14).
On Petitioner’s post-conviction appeal, the
Tennessee appellate court made the following findings
of facts about Petitioner’s false testimony claims:
Witnesses testifying at the post-conviction
hearings included Ken Jones, who testified at
the petitioner’s 1986 trial and 1989 resentencing
hearing that he had found the victim’s body;
Marion Jones, Ken Jones’s wife; and Vernedith
White, his girlfriend. Neither Mrs. Jones nor Ms.

App. 284
White had testified previously in guilt or
sentencing proceedings.
Ken Jones testified via deposition from a
nursing home in Hendersonville, Tennessee. In
the years following the petitioner’s resentencing,
Jones suffered a stroke and was confined to a
nursing home; therefore, he was unable to
testify in person at the post-conviction hearing.
He testified that he found the victim’s body at
the CeBon Motel. He acknowledged that he went
to the motel on the day of the victim’s murder to
rent a room with Vernedith White, with whom
he had been having an affair for two years,
although at trial he had testified that his reason
for being at the motel was to use the restroom.
Jones explained that it had been his and Ms.
White’s custom to rent a room at the CeBon
Motel most every Sunday. He usually rented a
room from the victim, who was a maid at the
motel. He recalled that, on the day in question,
he and White had arrived at the motel between
10:00 and 11:00 a.m. Jones could not find
anyone at the motel, so he and Ms. White sat in
his van and waited for someone to arrive to rent
them a room. They subsequently drove to a
nearby restaurant and returned to the motel
within fifteen minutes. Jones said that he could
see the motel parking lot the entire time he was
at the restaurant and never got out of his car
while at the restaurant. He said that he found
the victim’s body within one hour of the time
they arrived at the motel. Jones further testified
he knew that keys were kept in a box outside the

App. 285
office, so after no one showed up to rent them a
room, he retrieved a key from the box.
Upon entering the motel room which had a
maid’s cart sitting outside, Jones saw the
victim’s body, immediately ran out of the room,
drove across the street to a restaurant, and had
someone call the sheriff. He could not recall
exactly what he told the person at the
restaurant about the victim. Thereafter, he
drove Ms. White to her home in Dickson and
returned to the motel to discuss his discovery
with Sheriff Weakley, whom he said was a
friend of his. He presumed that the sheriff knew
why he was at the motel that day and admitted
he told the sheriff that he was concerned about
his wife finding out why he had been there.
Jones testified that Sheriff Weakley tried to “put
[him] at ease about the problem of being at the
motel there with Vern[e]dith.” When asked
further about this issue, Jones said that he
understood Sheriff Weakley would not question
him about it. He also understood that none of
the attorneys would question him about it, but
remained nervous about testifying at the trial.
He said that Sheriff Weakley called him the
evening of the murder and asked him not to
discuss it with anyone. Jones said that he was
not contacted by any attorney prior to his
testimony at trial, and his first contact with any
attorney occurred when he was called to testify
at the trial. Jones testified that he knew nothing
concerning the actual murder itself. He stated
that he did not see anyone at the motel that

App. 286
morning other than a woman who pulled into
the parking lot in either a brown or maroon car.
He could not recall testifying at trial that the
woman left her car and knocked on the door of
the room where he later found the victim.
Marion Jones, Ken Jones’s wife, testified at the
post-conviction hearing as to her husband’s
longstanding affair with Vernedith White. She
did not remember exactly when she learned of
the affair but knew of it by the time of the
petitioner’s trial in 1986. She and Ken Jones had
been married since 1956, and he had been
involved in several extramarital affairs. She
testified that after Jones suffered a stroke and
entered the nursing home, she learned that he
had given power of attorney to Ms. White. She
also discovered that he had given Ms. White
approximately $30,000. She did not know that
her husband had testified at the 1986 trial until
Connie Westfall, an investigator with the postconviction attorney’s office, contacted her years
later. She said that her husband had a temper
and had been verbally abusive to her but had
never hit her.
Vernedith White, Ken Jones’s former girlfriend,
testified at the post-conviction hearing that she
had neither been called to testify at the 1986
trial nor been contacted by anyone for
investigative purposes prior to the postconviction proceedings. She acknowledged at the
hearing that she had been involved in an affair
with Ken Jones for eleven years and was at the

App. 287
CeBon Motel on the day Jones discovered the
victim’s body. Each week they rented one of two
rooms, normally from the manager or the maid,
and were usually at the motel from
approximately 9:00 a.m. until 12:00 noon.
According to Ms. White, Ken Jones picked her
up around 8:00 a.m. on Sunday, March 3, 1985,
as was his custom. She lived in Dickson and
estimated that they arrived at the motel around
9:00 a.m. They could not find anyone at the
motel and waited in the parking lot. She
suggested to Jones that they leave and go home
or somewhere else instead of waiting, but he did
not take her advice. She remembered a woman
pulling into the motel parking lot, but did not
recall her leaving her vehicle and knocking on
the door, as Jones had testified at the 1986 trial.
She said they did not leave the motel parking lot
to go to the restaurant as Jones had testified.
After they had waited awhile at the motel, Jones
told her he was going to get a room key from a
dish in the office and they would just use the
room and leave. Ms. White said that, after Jones
returned to the van with a key to room 21, they
drove over and parked in front of that room.
Jones told her to wait in the van while he went
to check the room. Ms. White testified that the
curtains to the room were open, and she could
see sheets on top of both beds. Jones walked in
the room past the beds, saw the victim’s body,
and ran out of the room. She could see Jones the
entire time he was in the room, which was “[n]ot
even a minute.” He was very scared when he ran

App. 288
out and told her there was a dead woman in the
room. She wanted to go inside, but he would not
let her. She said that Jones did not have any
blood on him when he came out of the room and
returned to the van. She believed that it was
approximately 12:00 noon when Jones found the
body. They immediately drove to the restaurant
and called the sheriff. She was not sure if Jones
or a woman at the restaurant actually placed the
call. Informed that the emergency call had been
made at 2:36 p.m, she said that she must have
had her times wrong. Jones drove her home,
which was an approximately forty-five-minute
drive from the motel, and then returned to talk
to the sheriff.
Ms. White testified that she and Mr. Jones had
been together at the CeBon Motel on at least 100
occasions prior to March 3, 1985, but they had
never before retrieved a key in the manner they
did that day. She could not recall if Jones
returned the key to room 21. Although she had
seen the victim cleaning rooms at the motel on
prior occasions, she did not know her name. She
recalled that the day of the murder was a warm
day, and she and Mr. Jones sat in the parking
lot with the van doors open. They neither saw
nor heard any suspicious activity at the motel
that day prior to Mr. Jones discovering the
victim’s body. She believed they would have seen
anyone who entered or left either room 21 or
room 9.

App. 289
Ms. White said that she and Mr. Jones were coowners of a sporting goods store and that Sheriff
Weakley was a regular customer. She testified
that she never discussed the events of March 3,
1985, with Weakley and understood that he had
told Jones that it was all right for him to take
White home and then return to discuss the
matter. She said that her relationship with
Jones had ended about two years after March 3,
1985. According to Ms. White, there was no
possibility that Ken Jones had anything to do
with the victim’s murder.
Sandra Kilgore testified that she served on the
jury in the petitioner’s 1986 trial. After learning
that she had been selected for a jury, she called
her pastor from home and asked for biblical
scriptures regarding capital punishment. She
said that she spoke to her pastor before she was
sworn in as a juror in the petitioner’s trial. She
did not know that the State was seeking the
death penalty in the petitioner’s case until she
came to court for jury service. According to Ms.
Kilgore, there was some division among the
jurors during deliberation.
Mary Sizemore of the Cheatham County
Ambulance Service testified she and her partner
went to the CeBon Motel in response to a call
from someone at the Donnell Restaurant about
a stabbing at the motel. Ms. Sizemore and her
partner searched room to room until they came
to a room with a maid cart outside. Her partner
indicated that the room was open. They entered

App. 290
the room and found the victim lying on her back
wrapped in what appeared to be a bedspread up
to her neck. The victim’s wounds were not
readily apparent, and they had to unwrap her
and pull up her dress to actually see the wounds.
They were not able to find a pulse on the victim.
Ms. Sizemore remembered that the man who
had reported the stabbing subsequently
returned to the scene and talked with the
sheriff. She later learned that this man was Ken
Jones.
Maxey Jean Kittrell testified that she was
working at the CeBon Restaurant on March 3,
1985, when a man came in and reported a
stabbing at the CeBon Motel. She called an
ambulance service and reported the stabbing.
J. Kenneth Atkins, one of the prosecutors in the
petitioner’s original trial in 1986, testified that
he was involved both in the preparation for trial
and the trial itself. He denied that Sheriff
Weakley had asked him not to question Ken
Jones regarding his reason for being at the
CeBon Motel on the day of the murder, but
acknowledged knowing that Jones was at the
motel with a woman other than his wife and
that Sheriff Weakley was concerned about
embarrassing Jones. Atkins said that he had
known Jones prior to his involvement in the
petitioner’s case because he had “prosecuted a
guy that sold drugs and resulted in [Jones’s]
son’s death.” He testified that Jones did not
express any reservation about testifying at the

App. 291
petitioner’s trial, and Sheriff Weakley never
asked him to limit his questioning of Jones.
Atkins acknowledged that he did not interview
Vernedith White. In his opinion, trial counsel
were not deficient in their representation of the
petitioner.
James W. Kirby, a former assistant district
attorney general and, at the time of the postconviction hearing, the Executive Director of the
Tennessee District Attorneys’ General
Conference, testified that he was involved in
prosecuting the petitioner at the 1986 trial. He
said that Atkins was the prosecutor who talked
with Ken Jones and examined him on the
witness stand. Kirby acknowledged that he was
present at the deposition of Jones taken prior to
the post-conviction hearing and had briefly
discussed it with Atkins. He said that the
deposition contained testimony that was not
brought out at the 1986 trial. He did not recall
having any discussions with Sheriff Weakley
prior to the petitioner’s trial, but it was . his
understanding that Atkins recalled discussing
Jones’s situation with Sheriff Weakley.
Hines, 2004 WL 1567120 at* 4-7
The Tennessee Court of Criminal Appeals ruled that
Petitioner’s claim about Jones’s false testimony about
his presence at the hotel was not material under Brady
standards and was without a reasonable probability of
producing a different result. Id. at *26-28. Under Brady
v. Maryland, 373 U.S. 83, 87 (1963), the prosecution’s
suppression of evidence favorable to an accused

App. 292
violates due process where the evidence is material
either to guilt or punishment. Petitioner has not
established materiality nor that the evidence was
suppressed. Indeed, Petitioner’s counsel testified that
he knew Jones’s testimony as to why he was at the
hotel was false at the time it was presented, but that
he did not believe the falsity in that detail was
relevant. Hines, 2004 WL 1567120, at *8.
After review of the state record, this Court
concludes that Petitioner has not satisfied the
materiality element for a “‘substantial’” Brady claim.
McGuire,738 F.3d at 752 (quoting Trevino, 133 S.Ct. at
1918). Petitioner’s Giglio claims for false testimony fail
for the same reasons. “[T]o establish a claim of
prosecutorial misconduct or denial of due process, the
defendant must show that the statement in question
was false, that the prosecution knew it was false, and
that it was material.” Byrd v. Collins, 209 F.3d 486,
517 (6th Cir. 2000.) As noted, the state courts deemed
the Jones’s testimony issue not to be material and
given the State’s proof against Petitioner, including his
offer to give the details of the murder and Jones’s effort
to avoid disclosure of his affair, this Court concludes
that these Brady and Giglio claims based upon Jones’s
testimony do not qualify as “‘substantial”’ claims to
violate Brady or Giglio or justify a Martinez hearing.
McGuire, 738 F.3d at 752 (quoting Trevino, 133 S.Ct.
at 1918).
As to Petitioner’s false testimony concerning Dr.
Charles Harlan, Dr. Harlan testified as to the victim’s
cause and time of death, a showing that an expert’s
opinion is inaccurate does not violate due process.

App. 293
Fuller v. Johnson, 114 F.3d 491, 496-97 (5th Cir. 1997)
(use of incorrect methods by expert does not
demonstrate testimony was false). A challenge to the
expert’s opinions and the methodology implicates the
sufficiency of the evidence, not its truth. Id. at 497.
Likewise, the burden of proving indisputable falsity is
not fulfilled with evidence of a difference of opinion or
methodology. Rosencrantz v. Lafler, 568 F.3d 577, 586
(6th Cir. 2009). Despite the Court’s authorization of
discovery, Petitioner has not shown any Brady evidence
concerning Dr. Harlan at the time of Petitioner’s trial
or his 1989 resentencing. Petitioner’s allegations about
Dr. Harlan have not been imputed to the State in
habeas actions. See Sutton v. Bell, No. 3:06-cv-388,
2011 WL 1225891, *12-15 (E.D. Tenn. Mar. 30, 2011)
(civil investigation into Dr. Harlan not imputable to
prosecutors uninvolved with said proceeding).
As to Petitioner’s cited serology testimony showing
a DNA exclusion from the victim’s underwear and
fingerprint exclusion, as well as the presence of semen
in the TBI report, those assertions, if true, would not
warrant habeas relief, given the State’s proof and the
absence of exonerating proof from these cited
materials.
The State introduced proof that the defendant
had previously been convicted of assault in the
first degree. A detective who had investigated
the case testified that the defendant had
inflicted serious physical harm to the victim in
this prior case. The State also presented proof
that the defendant had stabbed the victim in the
present case multiple times with a sharp

App. 294
instrument, probably a knife. Three of these
wounds were lethal and had penetrated the
victim’s chest five to six inches. The pathologist
who had performed the autopsy of the victim
testified that all the lethal wounds were inflicted
at about the same time and that death would
have occurred within four to six minutes, most of
which time the victim would have remained
conscious. Defensive wounds were found on the
victim’s hands. Her clothing had been pulled up
and her panties had been cut in half and
removed from her body. About the time of death,
and shortly after the infliction of the lethal
wounds to the chest, the defendant had inserted
a flat object through the victim’s vaginal orifice
into the vaginal pouch until the instrument
penetrated the vaginal dome and passed into the
abdominal cavity. A twenty dollar bill had been
placed under the victim’s watchband. No semen
or any other evidence of ejaculation was found.
Hines, 919 S.W.2d at 577.
Under the facts of this action, the absence of
Petitioner’s blood or fingerprint on two evidentiary
items alone does not establish material evidence under
Brady and Giglio standards. In addition, Petitioner has
not demonstrated prejudice due to any omission of
Petitioner’s trial counsel for not asserting this claim at
trial, sentencing, resentencing or the post conviction
proceeding. The absence of Petitioner’s blood or
fingerprint on two evidentiary items alone does not
establish material exculpatory proof nor prove
Petitioner’s actual innocence under the standards of

App. 295
Schlup v. Delo, 513 U.S. 298, 329 (1995) (“It is not the
district court’s independent judgment as to whether
reasonable doubt exists that the standard addresses;
rather the standard requires the district court to make
a probabilistic determination about what reasonable,
properly instructed jurors would do. Thus, a petitioner
does not meet the threshold requirement unless he
persuades the district court that, in light of the new
evidence, no juror, acting reasonably, would have voted
to find him guilty beyond a reasonable doubt.”).
Given the State’s proof described supra, the Court
concludes that neither the DNA nor the finger print
proof proves Petitioner’s actual innocence nor
demonstrates establish prejudice due to any omission
of Petitioner’s trial counsel for not testing these
materials and asserting this claim at trial, sentencing,
resentencing or the post conviction proceeding.
c. Remaining Defaulted Claims
Under the “Procedural Default Doctrine” the
general rule is that for federal habeas proceedings,
claims that were not fairly presented or were not
presented to the State courts are barred as federal
habeas claims for relief Coleman v. Thompson, 501
U.S. 722, 729-30 (1992). The exhaustion rule requires
that the grounds raised in a petition for the federal
writ of habeas corpus must have been “fairly
presented” to the state courts. Duncan v. Henry, 513
U.S. 364, 365-66 (1995). A claim supported only by
citation to state law is insufficient to present a federal
claim, even if the cited state decision restated an
analysis of federal law. Anderson v. Harless, 459 U.S.
4, 7-8 n.3 (1982) (per curiam). The federal petitioner

App. 296
must inform the state courts of his federal legal theory
or of the issue that arises under federal law. Franklin
v. Rose, 811 F.2d 322, 325, 326 (6th Cir. 1987) (“To
fairly present his constitutional argument to the state
courts required more than the use of a generalized
catch-all phrase which merely alleged the deprivation
of a fair trial under the United States Constitution.”).
Petitioners can cite state law decisions that were based
upon federal law grounds in similar factual
circumstances. Levine v. Torvick, 986 F.2d 1506, 151617 (6th Cir. 1993). Yet, “mere similarity of claims is
insufficient to exhaust.” Duncan, 513 U.S. at 366.
The rationale for the procedural default doctrine
arises out of federal respect for federalism and
maintaining comity with state courts. Id. at 730-32.
The Supreme Court further recognized that state
procedural rules also serve a legitimate state interest
in finality of criminal convictions. Francis v.
Henderson, 425 U.S. 536, 542 (1976). State procedural
rules channel the controversy to the state trial and
appellate courts. Murray v. Carrier, 477 U.S. 478, 49091 (1986). The first step in this analysis is whether
Petitioner’s claims in this action were fairly presented
to the state courts. To fairly present a federal claim to
a state court, the habeas petitioner: (1) must rely on
federal cases interpreting the federal constitutional
provision involved or state cases interpreting the
federal constitutional provision involved; (2) identify
the specific right guaranteed by the federal
constitution; or (3) allege a factual pattern within the
mainstream of federal constitutional litigation. Dietz v.
Money, 391 F.3d 804, 808 (6th Cir. 2004). Procedural
default can be excused where the habeas petitioner

App. 297
proves his actual innocence of the offense based upon
the elements of the offense and/or aggravating
circumstances, resulting in a fundamental miscarriage
of justice. Sawyer v. Whitley, 505 U.S. 333, 344-45
(1992).
Although the Tennessee appellate courts found that
some of the Petitioner’s claims were defaulted, Hines,
2004 WL 1567120 at* 29, 34, 36, 39, procedural default
is inapplicable, if the state court decision “‘fairly
appears to rest primarily on federal law, or to be
interwoven with the federal law, and when the
adequacy and independence of [the] state law ground
is not clear from the face of the opinion.’” Coleman, 501
U.S. at 735 (citation omitted). A state court’s actual
ruling on a presented claim is not required for federal
habeas review. Smith v. Digmon, 434 U.S. 332, 333-34
(1978). Moreover, a petitioner is not required to present
to the state court every specific fact in support of his
federal claim, and supplemental evidence that was not
presented to the state court can be considered if that
evidence does not “fundamentally alter the legal claim
already considered by the state courts.” Vasquez v.
Hillery, 474 U.S. 254, 260 (1986).
In the Sixth Circuit, the analysis under the
procedural default doctrine was set forth in the often
cited decision, Maupin v. Smith, 785 F.2d 135 (6th Cir.
1986):
When a state argues that a habeas claim is
precluded by the petitioner’s failure to observe a
state procedural rule, the federal court must go
through a complicated analysis. First, the court
must determine that there is a state procedural

App. 298
rule that is applicable to the petitioner’s claim
and that the petitioner failed to comply with the
rule.
***
Second, the court must decide whether the state
courts actually enforced the state procedural
sanction.
***
Third, the court must decide whether the state
procedural forfeiture is an “adequate and
independent” state ground on which the state
can rely to foreclose review of a federal
constitutional claim. This question generally will
involve an examination of the legitimate state
interests behind the procedural rule in light of
the federal interest in considering federal
claims.
Id. at 138 (citations omitted).
1. Noncompliance with Applicable State Rules
Under Maupin, the threshold issue is the existence
of an applicable state law rule and the petitioner’s
noncompliance therewith. Here, Tennessee’s
limitations period in the Tennessee Post-Conviction
Act, Tenn. Code Ann.§ 40-30-102, was amended in 1995
to provide a one year period of limitation and is now
codified at Tenn. Code Ann. § 40-30-202. Tenn. Code
Ann. § 40-30-112(a), presumes that any issues not
raised in an initial post conviction petition are waived,
and Tenn. Code Ann. § 40-30-112(b) provides that any

App. 299
issues raised in a prior proceeding were previously
determined and therefore barred from further
consideration. These statutes were amended in 1995
and recodified at Tenn. Code Ann. §§ 40-30-201
through 40-30-222. The waiver and previously
determined provisions are now in Tenn. Code Ann.
§ 40-30-106(g), (h). Respondent contends this limitation
statute bars Petitioner’s remaining defaulted claims.
For the remaining procedurally default claims, the
Court concludes that the State records and state court
opinions demonstrate Petitioner’s non-compliance with
these Tennessee statutes.
2. “Firmly Established” and “Regularly
Followed” State Rules
To qualify for the procedural default rule, the cited
state law must also be “firmly established and
regularly followed” at the time the claim arose. Ford v.
Georgia, 498 U.S. 411, 423-24 (1991). As the Sixth
Circuit explained, “[c]onsiderations of comity do not
require a federal court to abstain from deciding a
constitutional claim on grounds of procedural default
where the state courts have not enforced a given state
procedural rule.” Rice v. Marshall, 816 F.2d 1126, 1129
(6th Cir. 1987). Tennessee courts have enforced Tenn.
Code Ann. § 40-30- 112(a) and (b) that were established
in 1967 and 1971, as part of the Tennessee PostConviction Procedure Act. 1967 Tenn. Pub. Acts, 310
and 1971 Tenn. Pub. Acts, 96. The “previously
determined” provision of Tenn. Code Ann. § 40-30112(a), now Tenn. Code Ann.§ 40-30-106(h), has been
regularly followed. See Harvey v. State, 749 S.W.2d
478, 479 (Tenn. Crim. App. 1987), as reflected in the

App. 300
numerous annotations to former Tenn. Code. Ann. § 4030-112(a); Simpson v. State, No. E2008-02288-CCA-R3PC, 2010 WL 323049, at *7 (Tenn. Crim. App. Jan. 28,
2010). Moreover, the waiver rule, Tenn. Code Ann.
§ 40- 30-112(b)(l), now Tenn. Code Ann. § 40-30-106(g),
is regularly enforced in state post-conviction
proceedings, Holiday v. State, 512 S.W.2d 953 (Tenn.
1972); Williams v. State, No. W2010-01013- CCA-R3PC, 2011 WL 3903224, at *8 (Tenn. Crim App. Sept. 1,
2011), unless the claim was not cognizable at the time,
Pruett v. State, 501 S.W.2d 807, 809 (Tenn. 1973), or
the petition is withdrawn before a decision on the
merits. Williams v. State, 831 S.W.2d 281 (Tenn. 1992).
In Coe, the Sixth Circuit held that the Tennessee
courts strictly and regularly followed the waiver rule
and ruled that any cited exceptions “are isolated and
unpublished, and so are insufficient to defeat an
otherwise ‘strict and regular’ practice.” 161 F.3d at 331.
In Cone v. Bell, 243 F.3d 961, 970 (6th Cir. 2001),
overruled on other grounds, Bell v. Cone, 535 U.S. 685
(2002), the Sixth Circuit cited the waiver and
previously determined provisions in § 40-30-112(a) and
(b) to conclude that habeas claims were procedurally
defaulted because “the state actually enforced the state
rule.” In Hutchinson v. Bell, 303 F.3d 720, 738 (6th cir.
2002), the Sixth Circuit found the Tennessee
limitations statute constituted a firmly established and
regularly followed state law. Thus, the Court concludes
Tennessee’s waiver and limitations statutes are
regularly enforced.

App. 301
3. Independent and Adequate State Rule
As to what is an independent and adequate state
rule, the Supreme Court recognized the following state
interests as constituting adequate grounds for state
procedural rules:
the possible avoidance of an unnecessary trial or
of a retrial, the difficulty of making factual
determinations concerning grand juries long
after the indictment has been handed down and
the grand jury disbanded, and the potential
disruption to numerous convictions of finding a
defect in a grand jury only after the jury has
handed down indictments in many cases.
Coleman, 501 U.S. at 745-46.
Another reason to support a finding of adequate
state rules was articulated in Francis, wherein the
Supreme Court enforced a state rule that promoted
finality, noting a comparable federal rule.
“Plainly the interest in finality is the same with
regard to both federal and state prisoners. . . .
There is no reason to ... give greater preclusive
effect to procedural default by federal
defendants than to similar defaults by state
defendants. To hold otherwise would reflect an
anomalous and erroneous view of federal-state
relations.”
425 U.S. at 542 (citation omitted). The Sixth Circuit
has stated that “whether the state procedural ground
is ‘independent and adequate’ . . . turns on the
substantiality of the state interest involved.”

App. 302
Wesselman v. Seabold, 834 F.2d 99, 101 (6th Cir. 1987).
There the court held, “Kentucky’s interests in finality
of judgments, judicial economy, and permitting
defendants just ‘one bite at the apple”’ were deemed
“both obvious and substantial.” Id. (citation omitted).
An exception to this rule, however, arises “where state
collateral review is the first place a prisoner can
present a challenge to his conviction.” Coleman, 501
U.S. at 755.
As to types of procedural rules which have been
found to be independent and adequate, in Coleman, the
Supreme Court upheld a procedural rule that bars
consideration of a federal claim for failure to meet state
law requirements for timely appeals. 501 U.S. at 75051. “‘No procedural principle is more familiar to this
court than that a constitutional right may be forfeited
in criminal as well as in civil cases by the failure to
make timely assertions of the right before a tribunal
having jurisdiction to determine it”’ ... and “[n]o less
respect should be given to state rules of procedure.” Id.
at 751 (quoting Yakus v. United States, 321 U.S. 414,
444 (1944); accord Brown v. Allen, 344 U.S. 443, 485-86
(1953) (procedural default rule applied a state rule that
placed time limits on appellate rights).
Procedural default also applies if counsel failed to
pursue a claim on appeal in which event the claim can
be defaulted. Murray, 477 U.S. at 489-92, (noting that
in the federal system, counsel’s failure to perfect an
appeal precludes review of constitutional claims unless
counsel’s conduct was constitutionally deficient).
Similarly, in Smith v. Murray, 477 U.S. 527 (1986), the
petitioner’s failure to raise his claim, objecting to a

App. 303
psychiatrist’s testimony, in the Virginia Supreme Court
on his direct appeal precluded habeas relief. In Cone,
the Sixth Circuit found the waiver and previously
determined rules in former Tenn. Code Ann. §§ 40-30112 (a) and (b) to be “independent and adequate” state
rules. 243 F.3d at 970.
Based upon Coleman, Cone and Hutchinson, the
Court concludes that Tennessee’s limitations period for
a post-conviction petition as well as its waiver and
previously determined statutes are independent and
adequate state rules that promote the timely
presentation of claims. This Court is bound by Coe on
the firmly established and adequacy of these Tennessee
statutes.
4. The Cause and Prejudice Requirement
i. Cause
Once the respondent establishes procedural default,
the burden shifts to the petitioner to show cause for the
procedural default and actual prejudice or that the
failure to consider the claim will result in a miscarriage
of justice by the conviction of one who is actually
innocent. Schlup, 513 U.S. at 322. Cause for a
procedural default must depend on some “‘objective
factor external to the defense”’ that interfered with the
petitioner’s efforts to comply with the procedural rule.
Coleman, 501 U.S. at 752-53 (quoting Murray, 477 U.S.
at 488). Under Martinez, inadequate defense counsel
can prove cause, but only if counsel’s conduct violates
Sixth Amendment standards.
As to Petitioner’s trial counsel, in Engle v. Isaac,
456 U.S. 107 (1982), the Court ruled that trial counsel’s

App. 304
strategic decisions do not establish cause, id. at 133-34,
unless the decision is of constitutional significance.
Murray, 477 U.S. at 486-88. Procedural defaults
attributed to ignorance or the inadvertence of counsel
or as a result of a deliberate appellate strategy that
fails to raise a “particular claim” precludes federal
habeas review of a claim. Id. at 487, 492. “[T]he mere
fact that counsel failed to recognize the factual or legal
basis for a claim, or failed to raise the claim despite
recognizing it, does not constitute cause for procedural
default.” Id. at 486. As to the failure to raise a claim on
appeal, the Court also observed that “[t]his process of
‘winnowing out weaker arguments on appeal and
focusing on’ those more likely to prevail, far from being
evidence of incompetence, is the hallmark of effective
appellate advocacy. Smith, 477 U.S. at 536. (quoting
Jones v. Barnes, 463 U.S. 745, 751-52 (1983)).
Given that this Court concluded that the state
courts reasonably determined that Petitioner’s trial
counsel were effective, the Court also concludes that
Petitioner cannot establish cause due to his appellate
counsel’s nor post-conviction counsel’s performance.
Without an extended repetition, the Court adopts the
state court rulings that Petitioner’s Brady claims lack
materiality and this Court reaffirms its earlier
conclusion that Petitioner’s Martinez claims are not
substantial to excuse these remaining defaults. Thus,
the Court concludes that Petitioner has not established
cause for any of these procedural defaults.
ii. Prejudice
Assuming Petitioner established “cause” for these
defaults, Petitioner must also prove that he was

App. 305
‘’actually prejudiced by the alleged constitutional
error,” Maupin, 785 F.2d at 138. The Supreme Court
conceded that it has not given “precise content” to the
term “prejudice,” that has not been defined, “expressly
leaving to future cases further elaboration of the
significance of that term.” United States v. Frady, 456
U.S. 152, 168 (1982) (quoting Wainwright v. Sykes, 433
U.S. 72, 91 (1977)). For the reasons stated above and as
found by the state courts, the Court concludes that
neither Petitioner’s ineffective assistance of counsel
claims nor his Brady and Giglio claims support a
finding of prejudice to excuse his procedural defaults.
D. CONCLUSION
For the above stated reasons, the Court concludes
that the petition for the writ of habeas corpus should be
denied.
An appropriate Order is filed herewith.
ENTERED this the 16th day of March, 2015.
/s/ William J. Haynes, Jr.
WILLIAM J. HAYNES, JR.
Senior United States District Judge

App. 306
APPENDIX
E. DEFAULTED CLAIMS
9.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines was denied his rights to
due process, equal protection, and to juries selected
free from discrimination and from a fair cross-section
of the community, given discrimination against women
in the selection of the petit jury, the grand jury, and
the grand jury foreperson:
a.
At the relevant times when the grand jury
and petit juries were selected in this matter, the
population of Cheatham County was 50.7 percent
female.
b.
Venires were selected by creating a large pool
of names from voter registration lists, which was
subsequently narrowed through the selection of a
“sheriff’s venire .. ”
c.
The grand and petit jury venires were then
selected from the sheriffs venire, with the grand
jury being selected first, after which the remaining
persons would constitute the petit jury venire.
d.
In selecting the sheriff’s venire, however, jury
commissioners not only would remove persons
known to be dead or non-residents, but they also
removed women with young children and those who
worked as schoolteachers.
e.
Women constitute a distinctive group for
purposes of jury selection, and discrimination
against women in the process of jury selection is

App. 307
prohibited. There was, however, unconstitutional
discrimination against women in this case.
f.
Given the process by which women were
excluded from the sheriff’s venires because they
were women, the sheriff’s venires severely
underrepresented women during the time Darrell
Hines was indicted, tried, and sentenced, and
throughout the period of 1980 through 1989:
1) Between 1980 and 1989, women comprised
only 816 of 5655 members of the sheriffs venires,
or 14.6% of such venires . This constitutes an
absolute disparity of36% and a comparative
disparity of 71 %. This is statistically significant:
Women were underrepresented by -53 standard
deviations during the period.
2) During 1985, when Darrell Hines was
indicted, the sheriff’s venires contained 450
persons, only 49 of whom were women. The
venires during 1985 thus comprised only 11.1 %
women. There was an absolute disparity of 40%
and a comparative disparity of 78%. This is
statistically significant: Women were
underrepresented by -16.7 standard deviations
in 1985.
3) During 1986, when Darrell Hines was
convicted of first-degree murder, the sheriffs
venires contained 375 persons, only 38 of whom
-- or 10.2 % -- were women. This constitutes an
absolute disparity of 40.5 % and a comparative
disparity of 80%. This is statistically significant:

App. 308
Women were underrepresented
standard deviations in 1986.

by

-15.7

4) During 1989, when Darrell Hines was
sentenced to death, the sheriff’s venires
contained 475 persons, only 78 of whom- or
16.6%- were women. This constitutes an
absolute disparity of 34.1% and a comparative
disparity of 67%. This is statistically significant:
Women were underrepresented by -14.8
standard deviations in 1989.
g.
As a result of this process for jury selection,
Darrell Hines was subjected to pervasive, invidious,
and unconstitutional discrimination against women
in the selection of the grand jury:
1) The grand jury venires in 1985 comprised 185
persons, only 29 of whom- or 10.2%-were women.
Women were underrepresented by 40.5% in
absolute terms, and 80% in comparative terms.
2) The 12-person June 1985 grand jury which
indicted Darrell Hines only contained four (4)
women. The percentage of women on the grand
jury, therefore, was 33.3%. The absolute
disparity between the percentage which should
have appeared in the grand jury absent
discrimination was 17.4%. The comparative
disparity was nearly 50%. Throughout 1985,
women were underrepresented by -13.9 standard
deviations in the grand jury venires.
3) From 1980 through 1989, of a total of 2525
persons selected for possible service on the
grand jury, only 418 persons -- or 16 . 6 % of all

App. 309
the venires -- were women. Absent
discrimination, one would have expected 1295
women to have been in the venires from 1980
through 1989. Women were thus
underrepresented with an absolute disparity of
35.1 %, and a comparative disparity of 68%. This
is statistically significant: From 1980 through
1989, women were underrepresented by-34.6
standards.
h.
Darrell Hines was also subjected to
pervasive, invidious, and unconstitutional
discrimination against women in the selection of the
petit jury:
1) As with the grand jury venires, as to the petit
jury venires from 1980 through 1989, of a total
of2525 persons selected for possible se1vice on
the petit jury, only 418 persons -- or 16.6% of all
the venires - were women. Absent
discrimination, one would have expected 1295
women to have been in the venires from 1980
through 1989. Women were thus
underrepresented with an absolute disparity of
35.1 %, and a comparative disparity of 68% This
is statistically significant: From 1980 through
1989, when it came to the selection of petit
juries, women were underrepresented by -34.6
standards.
2) As with the grand jury venires from 1985, the
petit jury venires from 1985 comprised 185
persons, only 29 of whom - or 102% - were
women. Women were underrepresented by 40

App. 310
5% in absolute terms, and 80% in comparative
terms.
3) The October 1985 petit jury venire -- from
which the guilt-phase jury was selected --only
comprised 20.8% women. This represents an
absolute disparity of 29.9% and a comparative
disparity of 59%.
4) The petit jury venires from 1989 comprised
338 persons, only 48 of whom -or 14.2% --were
women. This represents an absolute disparity of
36.5%, and a comparative disparity of 72%.
5) The June 1989 petit jury venire - from which
the sentencing-phase jury was selected comprised 42 persons, only 5 of whom -- or
10.6% -- were women. This represents an
absolute disparity of 40.1% and a comparative
disparity of 79 %.
i.
Darrell Hines was also subjected to invidious,
pervasive discrimination against women and
minorities in the selection of the grand jury
foreperson in violation of the Sixth, Eighth and
Fourteenth Amendments:
1) The process for selecting forepersons (who had
the same powers as all grand jurors) was
susceptible to discrimination or abuse.
2) Tenn R. Crim. P 6(g), governing the
appointment of grand jury forepersons gave
unfettered discretion to judges to appoint the
forepersons of the grand jury.

App. 311
3) Rule 6(g) provides: “The judge of the court
authorized by law to charge the grand jury and
to receive the report of that body shall appoint
the foreperson of the grand juries in the counties
of then respective jurisdictions. If concurrent
grand juries are impaneled, a foreperson shall be
appointed for each grand jury. Every person
appointed as a foreperson shall possess all the
qualifications of a juror. The foreperson shall
hold office for a term of two (2) years from
appointment: however, in the discretion of the
presiding judge, the foreperson may be removed,
relieved, or excused from office for good cause at
any time ... The foreperson may vote with the
grand jury and this vote shall count toward the
twelve necessary for the return of an
indictment... . ”
4) Throughout the period from 1979 from 1990,
there were only two grand jury forepersons, and
both were white males. None were female. None
were African-American, and Hines is partAfrican-American.
5) Between 1980 and 1989, there were twentynine (29) separate grand juries. Not one of the
19 grand juries had a woman or an AfricanAmerican as a foreperson.
j.
As a result of discrimination against women
in the selection of the grand jury, grand jury
foreperson, and petit jury, Darrell Hines was denied
due process of law, the equal protection of the laws,
the right to be free from invidious discrimination in
the selection of juries, and the right to a

App. 312
representative jury from a fair cross-section of the
community. As a result, the indictment in this
matter violated the Fifth, Sixth, Eighth, and
Fourteenth Amendments; Darrell Hines’s resulting
conviction violated the Fifth, Sixth, Eighth, and
Fourteenth Amendments; and Darrell Hines’s death
sentence violated the Fifth, Sixth, Eighth, and
Fourteenth Amendments. He is entitled to habeas
corpus relief.
10.
In violation of the Sixth, Eighth, and Fourteenth
Amendments and Brady v. Maryland, 373 US. 83, 83 S
Ct. 1194 (1963), and in order to convict Darrell Hines
and sentence him to death, the prosecution knowingly
presented false testimony and withheld exculpatory
evidence which was material to both the conviction and
the imposition of the death sentence.
a.
In order to convict Darrell Hines and
sentence him to death, the prosecution knowingly
presented false testimony from Ken Jones (who was
a friend of the Sheriff) while simultaneously failing
to disclose material, exculpatory evidence showing
the falsity of Jones’ testimony.
1) At the guilt/innocence trial, Jones claimed
that he arrived at the CeBon motel at 12:30
p.m., left and went to Stuckey’s, returned at 1:20
or 1:30 pm, left a note at the motel office saying
he was using the restroom in Room 21, went to
Room 21 to use the restroom, found the victim’s
body but didn’t know anything about what
happened to the victim, returned the key to the
office, called the Sheriff immediately after
finding the body, and waited for the Sheriff. See

App. 313
e.g., 1986 Trial Tanscript 149-155. Jones’ story
to the jury was false.
2) Evidence known to the prosecution and law
enforcement (including Sheriff Weakley, who
received information about Jones’ activities from
Jones himself) confirms the falsity of Jones’
testimony. The state knew that, in actuality,
Jones arrived at the motel earlier in the morning
for a tryst with Vernedith White (and not to use
the restroom), the key to Room 21 was never
recovered, no alleged note was ever found, Jones
didn’t call the Sheriff or wait for him after
making any such alleged call, but Jones did tell
the person who made the call that a woman had
been stabbed, a fact which only the killer would
have known.
3) While presenting Jones’ false testimony, the
prosecution also failed to disclose material
exculpatory evidence showing the falsity of
Jones’ testimony, including evidence known to
the prosecution and authorities (including
Sheriff Weakley) that Jones arrived at the motel
earlier in the morning for a tryst with Vernedith
White (and not to use the restroom); that the key
to Room 21 was never found; that no alleged
note from Jones was ever recovered by
authorities; and that Jones didn’t call the Sheriff
or wait for him after making any such alleged
call. There is a reasonable probability that, had
the prosecution properly complied with its
constitutional obligations to disclose material,

App. 314
exculpatory evidence, Darrell Hines would not
have been convicted and/or sentenced to death.
b.
The prosecution convicted and sentenced
Darrell Hines to death by knowingly presenting
false evidence and testimony from Sheriff Dorris
Weakley and arguing that false testimony while
withholding material exculpatory evidence showing
that Weakley’ s testimony was false.
1) Sheriff Weakley falsely stated in his March 7,
1985 affidavit of complaint that “the only
persons at the motel at the time of this homicide
were the victim, Catherine Jean Jenkins and the
defendant,” Darrell Hines. That was a
knowingly false statement. Weakley knew full
well that at the time of the homicide his friend
Ken Jones and Vernedith White were at the
motel for a tryst.
2) As with his false affidavit, Sheriff Weakley
falsely testified that only Darrell Hines and the
victim were at the motel at the time of the
offense (Tr 4 70), while withholding material
exculpatory evidence that Ken Jones and his
paramour Vernedith White were at the motel at
the time of the homicide for a tryst. Weakley and
the prosecution knew that Jones was at the
motel and that Weakley’s testimony was
therefore false.
3) The prosecution heavily relied on Sheriff
Weakley’ s false testimony when arguing for
conviction by claiming that only Darrell Hines
and the victim were at the motel at the time of

App. 315
the homicide (Ir 581), when the prosecution
knew that Jones and White were there when the
victim was murdered.
4) In addition, Sheriff Weakley falsely testified
that a cigarette butt in the victim’s room
connected Darrell Hines to the homicide (Tr.
469), while withholding material exculpatory
evidence that the cigarette butt was not shown
to connect Mr. Hines to Room 21.
c.
The prosecution also knowingly presented
false testimony from Dr. Charles Harlan and
withheld material exculpatory evidence concerning
Petitioner’s guilt and sentence:
1) At the guilt phase of trial, the prosecution
presented the false testimony of Harlan when
Harlan claimed that the victim would have
survived 4-5 minutes while remaining conscious
eighty percent of that interval, while the
prosecution simultaneously withheld material
and exculpatory evidence that Harlan knew and
the proof would show that the victim would have
lost consciousness in less than 30 seconds.
2) At the sentencing phase of trial, the
prosecution knowingly presented false testimony
from Dr. Charles Harlan when Harlan claimed
that the victim survived up to 6 minutes and
would have remained conscious up to 4-5
minutes, where that testimony was inconsistent
with Harlan’s prior testimony, while the
prosecution simultaneously withheld material
and exculpatory evidence that Harlan knew and

App. 316
the proof would show that the victim would have
lost consciousness in less than 30 seconds.
3) The prosecution also knowingly presented
false testimony from Harlan that there was no
evidence of semen and that there was no study
performed on any such evidence, and the
prosecution withheld evidence which
demonstrated the falsity of that testimony and
which was otherwise material to the jury’s guilt
and death verdicts, including proof of the results
of any such scientific or laboratory study
concerning the existence and nature of any
semen.
4) The falsity of Harlan’s testimony is confirmed
by the fact that Harlan has recently had his
medical license stripped by the Board of Medical
Examiners, because Harlan has engaged in
numerous criminal, unprofessional, and
unethical actions. See In The Matter of Charles
Harlan. MD, No.17.18-022307A, Before The
Board Of Medical Examiners, Tennessee
Department Of Health.
d.
The false testimony of Jones, Weakley, and/or
Harlan affected the judgment of the jury at both the
guilt and sentencing phases of trial.
e.
There is a reasonable probability that had
the prosecution not withheld exculpatory evidence
concerning the testimony of Jones, Weakley, and/or
Harlan, Darrell Hines would not have been
convicted of first-degree murder and/or sentenced to
death.

App. 317
f.
In addition, the prosecution improperly
coached witnesses concerning their description of
events which occurred while with Darrell Hines. In
particular, witnesses were improperly influenced to
claim at trial that they saw Mr. Hines with a key
with the number “9” on it (Tr 120), that Mr. Hines
seemed nervous (Tr. 121), that Mr. Hines had a
stain on the shoulder of his shirt (Tr. 185), and that
Mr. Hines had a silver Volvo (Tr. 225).
g.
As a result, Darrell Hines is entitled to
habeas corpus relief.
11.
Counsel was ineffective at the guilt phase of the
proceedings, and absent counsel’s failures, there is a
reasonable probability that Darrell Hines would not
have been convicted and/or sentenced to death. Counsel
was ineffective for the following reasons, including:
***
b.
Counsel failed to properly interview and
build a relationship with Darrell Hines. Counsel
met with Mr. Hines only a few times during the
course of the guilt-innocence phase of the trial.
***
e.
Counsel failed to competently select the jury
for the 1986 guilt/innocence phase of the trial,
including but not limited to:
1) Counsel failed to object to Sheriff Weakley’ s
participation in voir dire, where it was likely that
the Sheriff would testify for the prosecution and

App. 318
that this premature exposure to the jury would lend
the Sheriff a prejudicial aura of credibility.
2) Counsel failed to object to the court’s failure to
properly sequester the jury panel on the night of
January 6, 1986, prior to the conclusion of voir dire
on January 7, 1986. As a result, juror Sandra
Kilgore was improperly exposed to extraneous
information. ·See ¶ 27b, incorporated by reference.
3) Counsel failed to object to the state’s incorrect
presentation of the definitions of the elements of the
charge, burdens of proof, and definitions of
sentencing terms. Specifically, the state incorrectly
stated that it was entitled to a fair trial. See Tr. at
15. The state also incorrectly stated on several
occasions that in some circumstances the death
penalty was required.
4) Counsel failed to object to the court’s failure to
order a mistrial following prejudicial statements
made by potential jurors, including but not limited
to juror Anderson’s statement that it was a “brutal
murder” and juror Winn’s statement that it was a
“horrendous act.” See Tr. at 23-26.
5) Counsel failed to object to the court’s failure to
strike juror Cothan who was biased against Darrell
Hines. See ¶ 27e, incorporated by reference.
6) Counsel failed to conduct adequate voir dire
which would have exposed biases prejudicial to Mr.
Hines - including jurors who were relatives and
close friends of law enforcement, who had been
victims of crime or were close to crime victims, and

App. 319
jurors who had strong negative feelings about
people who carry knives.
7) Counsel failed to challenge for cause those jurors
who held some kind of bias against Mr. Hines, his
case, or any class or group to which he belongs.
***
i.
All of counsel’s failures regarding Ken Jones’
story were especially egregious where counsel put
Darrell Hines on the stand to get Mr Hines to say
that he and counsel discussed all tactical decisions
(Tr. 697), while at the same time counsel misled
Darrell Hines about their knowledge of the falsity
of Ken Jones’ testimony. This further denied Mr.
Hines his very right to counsel.
***
l.
Counsel failed to investigate potentially
illegal activities occurring at the CeBon motel, and
whether the victim was engaged in any affairs, and
if so, with whom.
***
n.
Counsel was ineffective for allowing the
prosecution to present prejudicial and/or
inflammatory information which was irrelevant to
Darrell Hines’ guilt, including but not limited to,
allegations that Mr. Hines had blood on his shirt
(Tr. 128, 129), and information that Mr. Hines had
been on parole at the time of the offense. Tr. 207.
See ¶¶ 11m & 20f, incorporated by reference.

App. 320
o.
Counsel failed to object to the court requiring
that Darrell Hines roll up his sleeves to aid the
testimony and identification of the witnesses for the
prosecution.
p.
Counsel failed to object to the qualifications
of medical examiner Dr. Charles Harlan to testify
regarding marks found in the wall of the room at
the motel where Darrell Hines had stayed. See ,
¶ 10(c), incorporated by reference.
q.
Counsel failed to adequately object to the
prosecution’s inappropriate methods of introducing
evidence at the 1986 guilt/innocence phase of the
trial, including but not limited to the prosecution’s
extensive practice of leading witnesses on direct
examination. See e.g., Tr. at 231, 568. Counsel
failed to move for a mistrial on the basis that the
prosecution’s extensive practice of leading witnesses
rendered the prosecution’s evidence ureliable and
the entire proceeding fundamentally flawed.
r.
Counsel failed to object to unconstitutional
jury instructions given by the Court.
1) The guilt/innocence jury was allowed to
convict Darrell Hines of felony-murder without
being instructed on, or specifically finding, the
element of malice. See ¶19aa, incorporated by
reference.
2) The court’s instructions regarding “reasonable
doubt” were unconstitutional. The court
instructed the jury that it could convict Darrell
Hines based upon mere “moral certainty” of guilt
(Tr. 63 7, 650) or a “satisfactory conclusion”of

App. 321
guilt (Tr. 650), while allowing conviction based
upon mere ability to let the mind rest easily
about guilt (Tr. 637) and excluding “possible”
doubts about guilt. Tr. 637 .. See ¶19b,
incorporated by reference.
3) The trial court improperly instructed the
guilt/innocence jury that it was required to
presume the truthfulness of witnesses, thereby
violating the jury’s prerogative to assess the
credibility of witnesses and determine facts. Tr
648.
4) The court improperly instructed the jury
regarding the definitions of premeditation and
the presumption of innocence. Tr. 638-639.
5) In addition, counsel failed to request the trial
court to instruct the jury on the elements of all
lesser included offenses.
s.
Counsel did not competently perform during
opening and closing arguments during the 1986
guilt/innocence phase of the trial, including but not
limited to:
1) Counsel failed to adequately and accurately
argue the evidence and law in their opening and
closing arguments.
2) Counsel failed to object to the prosecution’s
improper, inflammatory , prejudicial,
inappropriate and misleading or inaccurate
statements concerning the law, the evidence and
Darrell Hines during opening and closing
arguments:

App. 322
a) In closing arguments, the prosecution
falsely told the jury that there was no
presumption of innocence anymore because
they had proved that Darrell Hines was
guilty. Tr. 608. See ¶21(a), incorporated by
reference.
b) The prosecution improperly vouched for
the credibility of its witnesses, including
Vicki Hines (Tr. 579), who later admitted
that she was under the influence of alcohol at
the time and recanted her testimony: and
Sheriff Weakley (Tr. 611, 617), who the
prosecution knew was testifying falsely. The
prosecution also expressed his personal
opinion about their credibility during his
closing argument. See ¶21(b), incorporated
by reference.
c) The prosecution injected passion and
arbitrariness into the proceedings by
persuading the jury to protect themselves,
the county, and their country by convicting
Darrell Hines. See ¶21(c), incorporated by
reference.
d) The prosecution belittled Darrell Hines’
exercise of his constitutionally guaranteed
rights by focusing them on the victim’s
rights. Tr. 608. See ¶21(d),incorporated by
reference.
e) The prosecution boasted to prospective
jurors that this case was the most important
in the history of the county, emphasizing his

App. 323
lengthy experience and expertise. This type
of argument is fundamentally unfair and
unconstitutional See ¶21(e), incorporated by
reference.
f) The prosecution shifted the burden of proof
and encroached on Darrell Hines’ right to
present a defense and have witnesses testify
in his favor when he implied that Darrell
Hines must put on proof to secure an
acquittal or avoid conviction. This argument
violated due process. See ¶21(f), incorporated
by reference.
t.
Counsel failed to file proper pre-trial motions
on Mr Hines’ behalf: including but not limited to:
1) Any motion challenging Mr. Hines’ illegal
arrest, detention, and interrogation in Kentucky
and his subsequent transfer from KY to
Tennessee See ¶17, incorporated by reference.
2) Any motion challenging the constitutionality
of Tennessee’s murder statute, Tenn. Code
Ann.§ 39-2-201 to -202 (repealed 1991). See ¶35,
incorporated by reference.
3) Any motion requesting a bill of particulars.
4) Any motion seeking the prosecution’s
compliance with constitutional, statutory, and
local rules governing the disclosure of discovery.
5) Any motion seeking preservation of all law
enforcement rough notes and a complete copy of
the District Attorney General’s file.

App. 324
6) Any motions seeking the resources necessary
for competent representation in a capital murder
trial, including but not limited to: investigative
assistance, jury selection assistance, forensic
expert witnesses, forensic evidence testing, and
mental health experts.
7) Any motions in limine seeking special voir
dire rules, including but not limited to the light
to submit a jury questionnaire and the right to
conduct individual voir dire.
8) Any adequate motion for judgment of
acquittal alleging that the prosecution failed to
meet its burden of proving the elements of
robbery in order to support the felony murder
charge and that Mr.. Hines’ prim convictions
were not applicable to support that aggravating
circumstance .. See ¶¶15, 17, 32, incorporated by
reference.
9) Any motion seeking an order which would
have requi1ed the prosecution to elect which of
two murder counts would go to the jury. See ¶15,
incorporated by reference.
10) Any adequate motion seeking a continuance
of the filing of the motion for new trial, and the
hearing on the motion for new trial.
11) Any adequate and comprehensive motion for
new trial.
12) Any motion to dismiss and/or motion to
arrest the judgment on grounds that Tennessee’s

App. 325
murder statute was unconstitutional. See ¶35,
incorporated by reference.
u. Counsel failed to raise the objections necessary
to preserve issues for appellate review.
***
13.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, counsel was ineffective at the resentencing proceedings, and absent counsel’s failures,
there is a reasonable probability that Petitioner would
not have been sentenced to death. Counsel was
ineffective for the following reasons, including:
***
b.
Counsel was ineffective for failing to
competently select the jury in this case, including
but not limited to:
1) Counsel failed to object to the trial court’s
improper dismissal of jurors who expressed
concern about the death penalty, See
Witherspoon v. Illinois, 391 U.S 510, 88 S. Ct
1770 (1968): Adams v. Texas, 448 U.S. 38, 110
S.Ct. 2521 (1980), especially juror Citro. See
¶27(g), incorporated by reference.
2) Counsel failed to conduct a voir dire that
would have exposed biases held by some jurors
which prejudiced Darrell Hines and to challenge
those jurors for cause.
c.
Counsel failed to develop and pursue a
comprehensive mitigation theory for Darrell Hines’
re-sentencing trial. Counsel failed to develop a

App. 326
comprehensive social history in order to get a
complete picture of Darrell Hines’ life. In fact,
counsel admitted that at the time of resentencing,
he had no idea how to put together a mitigation
case. Tr. 587.
***
t.
Counsel failed to present evidence of false
statements of Sheriff Weakley who stated in his
March 7, 1985 affidavit of complaint that “the only
persons at the motel at the time of this homicide
were the victim, Catherine Jean Jenkins and the
defendant,” Darrell Hines. That was a knowingly
false statement. Weakley knew full well that his
friend Ken Jones and Vernedith White were at the
motel at the time of the homicide for a tryst See
¶10, incorporated by reference.
u.
As with his false affidavit, counsel failed to
present evidence of the false testimony of Sheriff
Weakley who claimed that only Darrell Hines and
the victim were at the motel at the time of the
offense (Ir 4 70), while he withheld material
exculpatory evidence that the Sheriffs friend, Ken
Jones, and his paramour, Vernedith White, were at
the motel at the time of the homicide for a tryst
Weakley and the prosecution knew that Jones was
at the motel and that Weakley’s testimony was
therefore false. See ¶10, incorporated by reference.
***
w.
Counsel was ineffective for failing to object to
the prosecution’s improper, inappropriate, and

App. 327
inflammatory statements during voir dire. See, ¶22,
incorporated by reference.
x.
Counsel was ineffective for failing to object to
the prosecution’s improper coaching of witnesses.
See ¶22, incorporated by reference.
y.
Counsel was ineffective for failing to object to
the prosecution’s introduction of the indictment
against Mr. Hines which misled jurors into thinking
that Mr Hines had been convicted of premeditated
murder when, in fact, the guilt phase jury only
found Darrell Hines guilty of felony-murder. See
if22( d), incorporated by reference.
z.
Counsel was ineffective for failing to properly
object to the prosecution’s improper and personal
comment about Darell Hines’ exercise of his right to
counsel and to use the assistance of persons who
assisted him in preparing his case, including the
Capital Case Resource Center. See ¶22(e),
incorporated by reference.
aa.
Counsel was ineffective for failing to object to
unconstitutional jury instructions and for failing to
file proposed jury instructions, including but not
limited to:
1) Counsel failed to object to jury instructions
which equated “reasonable doubt” with “moral
certainty” and permitted the finding of
aggravating circumstances and the imposition of
the death penalty based upon a “satisfactory
conclusion” of the jury’ s findings, while also
improperly excluding from the jury’ s
consideration “possible” doubts about the

App. 328
existence of a circumstance or the
appropriateness of the death sentence. See
¶19(c), incorporated by reference.
2) Counsel failed to object to a jruy instruction
which misstated that law regarding the
necessity for a unanimous verdict in order for
Darrell Hines to receive a life sentence. R Tr. 63,
588-590. See ¶18, incorporated by reference.
Moreover, counsel failed to seek an instruction
clarifying that the decision regarding sentence is
to be made by individual jurors and does not
have to be unanimous.
3) Counsel failed to seek an instruction
clarifying that a life sentence means “life” and
that a death sentence means “death” and that
these sentences will be carried out.
4) Counsel failed to seek instructions clarifying
the law regarding sentencing factors.
Specifically, counsel failed to request:
a) an instruction clarifying that only
statutory aggravating factors are to be
considered;
b) an instruction defining aggravating and
mitigating circumstances, including listing
all non-statutory mitigating circumstances;
c) an instruction clarifying how aggravating
circumstances are to be weighed;
d) an instruction establishing that the jury
must find, unanimously, the existence of

App. 329
aggravating circumstances
reasonable doubt:

beyond

a

e) an instruction clarifying that Darrell
Hines began the sentencing phase of the trial
under the presumption that no aggravating
circumstances existed in his case;
f) an instruction that the first degree murder
conviction itself is not an aggravating
circumstance;
g) an instruction clarifying that evidence put
on to establish mitigating circumstances
cannot be used to establish aggravating
circumstances.
h) an instruction establishing that lingering
doubt regarding Darrell Hines’ guilt may
serve as a non-statutory mitigating
circumstance.
i) an instruction establishing that doubts
regarding the appropriate sentence are to be
resolved in favor of a life sentence.
j) an instruction establishing that the jury
may base its decision on mercy, sympathy,
and compassion.
5) Counsel failed to file a proposed verdict form
that listed all mitigating circumstances raised
by the evidence, statutory and non-statutory,
and which required the jury to specifically state
what mitigating circumstances were found to

App. 330
exist by any juror, and failed to object to the
verdict form used by the court.
bb.
Counsel failed to object to the use of physical
restraints on Darrell Hines in full view of the
jurors. See ¶28, incorporated by reference.
cc.
Counsel failed to timely subpoena witnesses
or evidence, including witnesses Norman Johnson
and Bill Andrews in violation of Mr. Hines’ right to
compulsory process, due process, and his rights to
present any and all available mitigating evidence in
support of a sentence less than death. See ¶31,
incorporated by reference.
dd.
Counsel was ineffective for failing to seek a
mistrial once the re-sentencing jury was informed
that the case had previously been reviewed by the
Tennessee Supreme Court. Resentencing Transcript
215.
ee.
Counsel failed to engage in the motions
practice necessary to protect Mr. Hines’ rights,
including but not limited to:
1) Counsel failed to file pre-trial motions
challenging the constitutionality of the
sentencing provisions of Tennessee’s murder
statute, which is arbitrary and capricious and
violates the Eighth and Fourteenth
Amendments. See ¶35 incorporated by reference.
2) Counsel filed inadequate pre-trial motions
seeking the state’s compliance with
constitutional, statutory, and local discovery

App. 331
obligations and also objecting to the state’s
reciprocal discovery requests.
3) Counsel failed to file pre-trial motions seeking
preservation of all law enforcement rough notes
and a complete copy of the state’s file, both for in
camera inspection and later use on postconviction.
4) Counsel filed inadequate and untimely pretrial motions seeking expert assistance,
including investigative services, mitigation
specialist, jury selection assistance, and
witnesses able to address forensic sentencing
issues in this case, Mr. Hines’ life history, and
his mental condition.
5) Counsel filed inadequate pre-trial motions
seeking timely notice of the state’s intent to seek
the death penalty and the mandatory
continuance awarded upon the untimely filing of
notice of intent to seek death. See Tenn. R.
Crim. P 12.3(b).
6) Counsel filed inadequate pre-trial motions
seeking a continuance of the re-sentencing
hearing in order to adequately prepare.
Counsel’s request for a continuance
inadequately addressed the state’s failure to
serve timely notice of its intent to seek death.
7) Counsel filed inadequate pre-trial motions
seeking special voir dire rules, including but not
limited to, the right to submit a comprehensive
jury questionnaire and the right to conduct

App. 332
individual voir dire as to death qualification of
the venire members.
8) Counsel failed to file pre-trial motions
charging the prosecution with abuse of
discretion in seeking the death penalty,
asserting the disproportionate application of the
death penalty, and challenging the
proportionality of the death sentence in Mr.
Hines’ case.
10) Counsel failed to file pre-trial motions
seeking the right to allocution for Darrell Hines
at the re-sentencing trial.
11) Counsel failed to file pre-trial motions
seeking to limit the state’s proof at the
sentencing hearing to specific aggravating
circumstances
12) Counsel failed to file pre-trial motions
seeking dismissal of the invalid felony-murder
aggravating circumstance because it duplicated
Mr. Hines’ felony-murder conviction and failed
to produce the necessary narrowing of death
eligible defendants. See ¶15, incorporated by
reference.
13) Counsel filed an inadequate post-conviction
petition challenging the constitutionality of
Darrell Hines’ prior felony conviction in
Kentucky and then failed to properly challenge
the invalid prior felony conviction aggravating
circumstance See ¶17, incorporated by reference.

App. 333
14) Counsel failed to timely file pre-trial motions
causing the court to claim that counsel’s motions
were “dilatory.” See R. Tr. 4.
15) Counsel failed to file motions seeking
judgment of acquittal with respect to the death
sentence based upon the improper application of
aggravating circumstances.
***
14.
Counsel was ineffective on appeal, and absent
counsel’s failures, there is a reasonable probability that
Darrell Hines would have received relief on direct
appeal. Counsel was ineffective for the following
reasons, including:
a.
Counsel failed to timely object or otherwise
preserve for appeal any or all of the claims
presented in this petition for writ of habeas corpus.
b.
Counsel failed to obtain all necessary
portions of the transcript and record for appeal,
including but not limited to, a transcript of the voir
dire, and the transcript of the motions hearings in
this case.
c.
Counsel failed to adequately research and
prepare Mr. Hines’ case for appeal.
d.
Counsel failed to raise all available issues in
their motion for a new trial and to brief all issues on
appeal.
e.
Counsel failed to include in its brief to the
Tennessee Supreme Court all issues raised in the
Court of Criminal Appeals.

App. 334
f.
Counsel filed an inadequate petition to
rehear following the Tennessee Supreme Court’s
adverse ruling on Darrell Hines’ appeal.
Specifically, counsel failed to argue that the
Supreme Court erred when it concluded that” in the
instant case, a felony not underlying the felony
murder conviction [was] used to support the felony
murder aggravating circumstance. “ State v. Hines,
919 S.W2d 573, 583 (Tenn. 1995). There is no
evidence in the record supporting this conclusion.
g.
On appeal, counsel failed to raise any or all
claims raised in this petition for writ of habeas
corpus.
***
17.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines’ 1989 death sentence was
unconstitutional because the 1981 first-degree assault
conviction which served as a prior violent felony
aggravating circumstance under Tenn. Code Ann.. § 392-203(i)(2) was void, invalid, and unconstitutional.
a.
On August 21, 1981, Darrell Hines was
involved in a series of escalating verbal assaults
upon him by a number of college students.
b.
These college students were attending a
party in Bowling Green, Kentucky where Darrell
Hines lived.. The students had all been drinking.
c.
Darrell Hines was also intoxicated that night,
but was not disturbing the college students. Mr
Hines was standing and watching the party in an

App. 335
alley on the perimeter of the yard of the home
where the party was being held.
d.
The victim and other eye-witnesses confirm
that Darrell did nothing to provoke the students’
verbal assaults, which were intended to force
Darrell to leave the area and which were
accompanied by aggressive body language and
implied threats of physical force.
e.
Only after several hours of these verbal
assaults, and only after being confronted by four or
five individuals “one final time,” did Mr Hines arm
himself with a lead pipe.
f.
Mr. Hines then swung the pipe at the victim,
breaking the victim’s arm, because he reasonably
believed it was necessary to protect himself against
the hostile group of students that were surrounding
him.
g.
The victim suffered only a broken arm in the
assault.
h.
Mr. Hines was then charged with an offense
under Kentucky law. Count I of the indictment as
found by the grand jury specifically alleged that he
committed an assault upon Stan Williams, and that
his actions were “Contrary to 508.020” of the
Kentucky Revised Statutes. The indictment did not
allege any mental state, and while it identified the
use of the pipe, it never alleged that the pipe was a
deadly weapon.
i.
Ky. Rev. Stat §508.020 governs the crime of
assault in the second-degree and provides that a

App. 336
second-degree assault occurs when a person
“intentionally causes serious physical injury to
another person” or “intentionally causes physical
injury to another person by means of a deadly
weapon or a dangerous instrument,” or “wantonly
causes selious physical injury to another person by
means of a deadly weapon or a dangerous
instrument.
j.
In addition, Ky. Rev. Stat. Ann. § 508.010
dictates that: “A person is guilty of assault in the
first degree when: (a) He intentionally causes
se1ious physical injury to another person by means
of a deadly weapon or a dangerous instrument; or
(b) Under circumstances manifesting extreme
indifference to the value of human life he wantonly
engages in conduct which creates a grave risk of
death to another and thereby causes serious
physical injury to another person.”
k.
On October 10, 1981, Darrell Hines pleaded
guilty to a charge of assault in the first-degree and
received a sentence often years imprisonment.
l.
However, as noted supra, Count I of the
indictment alleged that Hines’ actions were
“Contrary to 508.020,” the statute governing
second-degree assault.
m.
Consequently, because Hines pleaded guilty
to an offense which was never properly alleged in
the indictment, his conviction for the greater offense
of first-degree assault is void.
n.
In addition, though Mr.. Hines entered a
guilty plea, his attorney had failed to inform him

App. 337
regarding his constitutional rights and the waiver
of those rights upon entering a guilty plea.
o.
Moreover, the court failed to sufficiently
advise Darrell Hines of his constitutional rights at
the time he was entering his guilty plea.
p.
As a result, Darrell Hines was unaware that
he was waiving his rights when he entered a guilty
plea to this 1981 charge.
q.
Specifically, the court failed to inform Darrell
Hines that he had a right to confront those who
were accusing him and that he was waiving that
right by pleading guilty.
r.
As a result, Darrell Hines did not know that
he had a constitutional right to confront his
accusers.
1) Darrell Hines’ knowledge of his constitutional
right to confront his accusers and his ability to
voluntarily and intelligently waive that right,
was substantially impaired by the fact that Mr.
Hines suffered from severe addictions, mental
illness, and intellectual deficiencies.
2) At the time Darrell Hines pleaded guilty to
this offense, he was an alcoholic and a severe
abuser of inhalants and other drugs.
3) These addictions significantly impaired
Darrell Hines’ ability to know of or voluntarily
waive his rights, especially a right of which he
had not been advised.

App. 338
4) Prior to pleading guilty in 1981, Darrell Hines
was diagnosed with a number of mental
illnesses including adjustment reaction,
dysthymia and paranoia.
5) Mr. Hines also suffered from significant
intellectual deficiencies-he stopped attending
school after he reached the ninth grade, at which
time his math and reading skills were
determined to be at a third grade level.
6) Mr Hines’ IQ has been determined to be in the
low average range.
7) Moreover, despite Darrell Hines’ previous
contact with the judicial system, Mr. Hines had
never seen a trial and had never observed a
cross-examination conducted on his behalf or for
anyone else.
s.
Darrell Hines did not voluntarily and
intelligently waive his rights at the time he pleaded
guilty. Boykin v. Alabama, 395 U.S. 238, 89 S. Ct
1709 (1969).
t.
In addition, Darrell Hines’ court-appointed
counsel was ineffective. She failed to conduct any
investigation into the factual basis of the crime or
into Mr .. Hines’ mental health background and also
failed to raise important legal claims available to
Mr Hines.
1) Counsel failed to know the law regarding
assault. Had counsel known the legal definitions
related to the assault statute, counsel would
have known that Mr. Hines could not be legally

App. 339
convicted of the greater charge of first-degree
assault when Count I of the indictment only
specifically said that his actions violated §508
.020, the second-degree assault statute.
2) Counsel also would have been able, after
investigation, to conclude that Mr. Hines was
not guilty of aggravated assault because the
victim did not suffer “serious physical injury”
which is defined as a “serious and prolonged
disfigurement or impairment” See Ky. Rev Stat.
Ann.§ 508.010 and 500.080(15). The victim in
this case merely had a broken arm.
3) Moreover, counsel failed to challenge the
indictment which was insufficient as it did not
allege any serious physical injury and only was
sufficient to support a charge of the lesser
offense of second-degree assault.
4) Counsel failed to challenge the fact that the
indictment failed to charge mens rea. Counsel
then failed to advance a defense of intoxication
for Mr. Hines since he was intoxicated and
unable to form any intent at the time of the
incident.
5) Counsel failed to investigate Mr. Hines’
placement in Green River Boys Camp. Had
counsel investigated, counsel would have
learned that the abuse the college boys directed
at Mr. Hines was virtually identical to the abuse
Mr. Hines suffered at Green River which often
preceded violence being inflicted on the boy

App. 340
being abused See ¶13(i), incorporated by
reference.
6) Counsel failed to investigate and present
evidence respecting Darrell Hines’ extremely low
serotonin level See ¶13(i), incorporated by
reference. Had counsel investigated that
serotonin level, counsel would have learned that:
a) Serotonin is a naturally occurring
neuromodulator in the brain.
b) A low serotonin level affects brain
functioning by adversely affecting a person’s
ability to control extreme emotions (such as
anger, fear, rage, sadness, etc.): adversely
affecting the various systems of inhibition in
the brain; and, adversely affecting a person’s
ability to control impulsive behavior
associated with emotions such as anger, fear,
rage, and sadness.
c) Darrell Hines has an extremely low
serotonin level which renders him incapable
of controlling impulsive behavior associated
with emotions such as anger, fear, rage,
sadness, etc.
d) Low serotonin levels have also been
associated with Type II alcoholism, which is
characterized an inability to abstain from
ingesting intoxicants and thus persistent
alcohol/drug seeking behavior; and
impulsivity, high risk-taking/low harm
avoidance, fighting and other violence, and
arrests.

App. 341
e) Darrell Hines’ social history is replete with
incidents exhibiting symptoms of having low
serotonin level and Type II alcoholism.
7) Counsel failed to conduct an investigation into
the facts of the incident or into Mr Hines’
background. See ¶¶7(a)-(g), supra. Had counsel
investigated, she would have known that Mr.
Hines was provoked and was only defending
himself and that he had a valid defense of selfdefense under Kentucky law. In addition, she
would have been aware of Mr. Hines’ mental
illness and learning deficiencies.
8) In addition, counsel only met with Mr. Hines
two times during the course of her
representation.
u.
Had counsel properly researched the law,
reviewed the indictment, and investigated the facts
and the victim’s background, she would not have
advised Darrell Hines to plead guilty and Mr. Hines
would not have entered a guilty plea. Instead, Mr
Hines would have challenged the insufficiency of
the indictment, raised the defenses of self-defense
and intoxication, and would have been acquitted.
v.
As a result, the 1981 guilty plea was
unconstitutional.
w.
Mr Hines is actually innocent of any offense,
because all the evidence(including proof of the
taunting and threats made by the students) would
establish that he did not commit a first-degree
assault and/or that he had, as a matter of fact acted

App. 342
in self~defense and was therefore not guilty of the
offense for which he was convicted
x.
Mr. Hines is therefore entitled to habeas
corpus relief because the prior felony conviction
aggravating circumstance was void and invalid, but
the jury relied on that aggravating circumstance
when it imposed the death sentence. Mr. Hines is
entitled to habeas corpus relief Under the Eighth
and Fourteenth Amendment, Mr. Hines is entitled
to a new sentencing proceeding free from the taint
of this invalid prior conviction.
***
19.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, jury instructions lessened the
prosecution’s burden of proof at the guilt and resentencing stages:
a.
The guilt/innocence jury was allowed to
convict Darrell Hines of felony murder without
being instructed on, or specifically finding, the
element of malice. Tr. 640. The Jury was
unconstitutionally allowed to convict by merely
finding a “killing” in the course of a felony, when all
“murder” under Tennessee law required a finding of
killing with malice. See Tenn. Code Ann. 39-2-201
(1982).
b.
The jury was instructed at the guilt phase of
trial that it could convict Darrell Hines based upon
mere “moral certainty” of guilt (Tr. 637, 650) or a
“satisfactory conclusion” of guilt (Tr. 650), while
allowing conviction based upon mere ability to let
the mind rest easily about guilt (Tr. 637) and

App. 343
excluding “possible” doubts about guilt. Tr. 637.
These instructions relieved the prosecution of
proving guilt beyond a reasonable doubt of the
charges for which Darrell Hines was ultimately
convicted.
c.
Similar instructions at the re-sentencing
phase (R. Tr. 580) unconstitutionally understated
the prosecution’s burden of proof; allowing the
finding of aggravating circumstances based upon
mere “moral certainty” of guilt (R Tr 580), so long as
jurors could let the mind rest easily that any such
circumstance existed, while also improperly
excluding from the jury’s consideration “possible”
doubts about the existence of a circumstance or the
appropriateness of the death sentence
d.
The trial court improperly instructed the
guilt/innocence jury that it was required to presume
the truthfulness of witnesses, thereby violating the
jury’s prerogative to assess the credibility of
witnesses and determine fact.. Ir 648.
e.
At the guilt/innocence trial, the court
improperly instructed the jury regarding the
definitions of premeditation and the presumption of
innocence. Tr. 638-639.
f.
Because these jury instructions are
unconstitutional, Darrell Hines is entitled to habeas
corpus relief.
***
21.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, the prosecution made improper

App. 344
arguments during closing statements at the
guilt/innocence trial, including arguments which
undermined the presumption of innocence and lessened
the prosecution’s burden of proof. This misconduct
rendered Darrell Hines’ trial fundamentally unfair
***
b.
The prosecution improperly vouched for the
credibility of its witnesses, also expressing his
personal opinion about their credibility during his
closing argument:
1) The prosecution told the jury that Darrell
Hines’ sister, Vicki, was telling the truth when
she claimed to the jury that she saw on her
brother’s clothing.
2) The prosecution told the jury: “this is his
sister It’s not easy for her to get up here and
testifying knowing the consequences that might
befall her brother She got on the witness stand
and took that oath to tell the truth and when
she did that she told the truth. It wasn’t easy for
her. But she wasn’t going to get up here and
perjure herself” Tr. 579.
3) In fact, Vicki Hines was under the influence of
alcohol during her testimony and later recanted
her story. This argument violated due process.
4) In addition, the prosecution repeatedly
attempted to bolster the credibility of the Sheriff
and his performance during this case.

App. 345
5) First, the prosecution claimed to the jury that:
“The Sheriff did one of the best jobs on this case
that I’ve seen in a long time.” Tr. 611.
6) Then, the prosecution told the jury: “I’m kind
of glad we’ve got a sheriff like we’ve got.” Tr.
617.
7) This was improper and also violated due
process.
***
d.
The prosecution belittled Darrell Hines’
exercise of his constitutionally guaranteed rights by
focusing them on the victim’s rights.
1) The prosecution questioned the jury: “What
about the rights of Mrs. Jenkins? What about
her rights?” Tr. 608.
2) As a result, jurors were induced to find Mr.
Hines guilty for irrelevant and constitutionally
impermissible reasons This was highly
prejudicial to the jury’s decision, as it skewed
the jury’s decision toward guilt.
e.
The prosecution told prospective jurors that
this case was the most important in the history of
the county, emphasizing his lengthy experience and
expertise.
1) The prosecution boasted: “There’s never been
a more important case in Cheatham County.
There’s never been a more atrocious murder in
Cheatham County - any individual that went
through the suffering that this lady did, and I’ve

App. 346
never been involved in anything quite like this
since I’ve been District Attorney General, and
while I was with General Lockert for several
years while he was the District Attorney
General.” Tr. 606.
2) This type of “prosecutorial expertise”
statement or argument is fundamentally unfair,
as it unfairly persuades jurors to impose death
out of deference to the prosecution’s supposed
“expertise” in determining the proper outcome
for the jury’ s decision. See Brooks v. Kemp, 762
F.2d 1381, 1410 (11th Cir. 1985) (en banc);
Tucker v. Kemp, 762 F2d 1496, 1505 (11th Cir
1985); Hance v. Zant, 696 F2d 940, 953 (11th
Cir. 1983).
3) Such a “prosecutorial expertise” argument is
unconstitutional, because it “improperly
suggest[s] that the prosecutor had canvassed all
murder cases and selected this one as
particularly deserving of the death penalty, thus
infringing upon the jury’s decision-making
discretion and improperly invoking the
prosecutorial mantle of authority. Brooks, 762 F
2d at 1413.
f.
The prosecution shifted the burden of proof
and encroached on Darrell Hines’ right to present a
defense and have witnesses testify in his favor.
1) The prosecution told the jury that “you know
if he had any conversation with his grandfather
or anybody else - I remember Mr. Wilkinson
asking that sheriff about did you talk with that

App. 347
grandfather -and if the grandfather had told him
anything about it that would’ve helped them in
their defense the grandfather would’ve been
brought in and put on the witness stand.. If any
family member had passed any word on to him,
these are good defense lawyers, they would have
had them in here to tell you about it.” Tr. 627.
2) Because the prosecution was attempting to
shift the burden of proof in the jury’ s mind by
implying that Darrell Hines must put on proof to
secure an acquittal or avoid conviction, this
argument violated due process.
***
22.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, at the re-sentencing trial, the
prosecution made misleading, unconstitutional, and
fundamentally unfair statements to the jury which
violated Darrell Hines’ constitutional rights.
a.
During voir dire at re-sentencing, the
prosecution made various misstatements to jurors
indicating, incorrectly, that the death sentence had
to be returned merely if aggravating circumstances
were found. R. Tr. 18, 19, 40, 41.
b.
During voir dire at re-sentencing, the
prosecution made objectionable statements
concerning the rights of the victim which denigrated
Darrell Hines’ constitutional rights and improperly
focused jurors on irrelevant factors. R. Tr. 164. This
violated due process and led to the arbitrary
imposition of the death sentence in violation of the
Eighth and Fourteenth Amendments.

App. 348
c.
During voir dire at re-sentencing, jurors were
misled about their responsibility for imposing the
death sentence, by being misled into thinking that
Darrell Hines’ acts relieved them of their individual
responsibility for imposing the death sentence, in
violation of the Eighth and Fourteenth
Amendments. R. Tr. 423.
d.
At re-sentencing, the prosecution misled
jurors into thinking that Darrell Hines had been
convicted of premeditated murder when the
prosecution introduced the indictment against Mr.
Hines, when, in fact, the guilt phase jury only found
Darrell Hines guilty of felony murder. R. Tr. 130.
This prejudiced the jury against Darrell Hines and
led jurors to erroneously believe that the offense
was more agg[r]avated than it actually was, leading
to the arbitrary imposition of the death sentence
e.
At re-sentencing, the prosecution made
improper comment and personal comment about
Darrell Hines’ exercise of his right to counsel and to
use the assistance of persons who assisted him in
preparing his case, including the Capital Case
Resource Center (CCRC).
1) During the cross-examination of two key
witnesses and in closing argument, the
prosecution, over defense objection, repeatedly
referred to the fact that Darrell Hines had used
CCRC and attorney Brock Mehlet. The
prosecution distorted the role and purpose of the
organization in attempt to impeach the
witnesses.

App. 349
a) During the cross-examination of expert
witness Pam Auble, the prosecution asked
Dr. Auble about her familiarity with CCRC..
R Tr 347. The prosecution asked Dr. Auble if
she had worked with CCRC and in how many
cases she had consulted with them R. Tr.
347, 348.
b) The prosecution characterized CCRC as an
organization that “assists in the defense of
people charged with capital crimes” whose
“primary motivation or primary reason for
their existence is to keep somebody from
going to the electric chair” R. Tr. 349, 350.
c) The prosecution then asked Dr Auble if she
had worked with CCRC during the Darrell
Hines’ case, indicating that CCRC had done
“background investigation” for Dr. Auble and
were providing her with information. R. Tr.
349,350.
d) The prosecution went so far as to imply
that CCRC might be paying Dr Auble to
testify in the Darrell Hines case. R. Tr. 351.
e) Then, the prosecution asked Dr. Auble to
identify Brock Mehler in the courtroom and
identify what sort of information Mr. Mehlrl,
who was an attorney at CCRC, had given to
her. R. Tr. 352.
f) The prosecution also asked Dr. Charvat
about her familiarity with CCRC, with Brock
Mehler, and with the nature of the assistance
that CCRC provided to her. R. Tr. 492,493.

App. 350
g) The prosecution asked Dr. Charvat if she
had worked with CCRC on other ca ses and
if she was opposed to the death penalty. R.
Tr. 495, 496.
h) Finally, during closing arguments, the
prosecution attempted to impeach Dr
Charvat one more time: “Ms Charvat was
assisting attorneys in this case. She was
assisting the Capital Case Resources Group
whose sole function in life is to fight against
the death penalty regardless of the
circumstances. “R. Tr. 556.
2) The prosecution’s comments about the CCRC
and attempts to impeach Darrell Hines’ expert
witnesses penalized Darrell Hines’ exercise of his
right to counsel.
a) The prosecution is not permitted to use the
defendant’s choice of defense counsel as a
basis for impeachment or rebuttal. Nor is the
prosecution permitted to attack the integrity
of defense counsel.
b) In this situation, the prosecution’s attack
on CCRC (a government-funded organization
established to assist capital defense
attorneys), and the prosecution’s attempt to
impeach key defense witnesses because they
utilized the services of CCRC, is
fundamentally fair and contrary to due
process
c) The assistance provided by the CCRC is
intended to ensure that a capital defendant

App. 351
receives the effective assistance of counsel
g ua ra nt eed b y t he Const it ut i on.
Prosecutorial comment about CCRC’ s
assistance to defense counsel and their
agents penalized Darrell Hines for exercising
his right to counsel.
3) The prosecution’s comments deprived Darrell
Hines of a reliable and individualized sentencing
determination.
a) In this case, the testimony of Dr. Auble
and Dr. Charvat was at the heart of Darrell
Hines’ case in mitigation.
b) The prosecution’s improper attack on their
credibility adversely affected the jury’s
consideration of mitigating factors and
violated the defendant’s constitutional right
to a reliable and individualized sentencing
determination See Lockett v. Ohio, 438 U.S.
586, 98 S. Ct 2965 (1978).
c) The prosecution misstated the role and
purpose of CCRC, improperly used the fact
that the CCRC had provided assistance to
the defense as a basis for impeachment, and
then implied to the jury that the testimony of
Dr. Auble and Dr. Charvat was biased
because of their affiliation with CCRC.
d) In a proceeding where the jury must weigh
aggravating and mitigating circumstances
and determine whether the defendant shall
be sentenced to death, it cannot be said that
the prosecution’s calculated and repeated

App. 352
efforts did not affect the verdict beyond a
reasonable doubt
g.
As a result, Darrell Hines is entitled to
habeas corpus relief
23.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines’ death sentence is
arbitrary under United States v. Jackson, 390 U.S. 570,
88 S. Ct 1209 (1968), and unconstitutional.
a.
Prior to re-sentencing, Mr Hines and the
prosecution agreed that Mr. Hines should enter a
plea of guilty and be sentenced to two consecutive
life sentences in order to avoid proceeding with the
re-sentencing trial.
b.
The prosecution’s sentencing offer establishes
that it has no compelling interest in executing Mr.
Hines and that a lesser sentence is appropriate
under the circumstances. There are less restrictive
means of punishing Darrell Hines than imposing
the death sentence.
c.
Moreover, the prosecution’s sentencing offer
demonstrates that it does not believe that Mr.
Hines’s case merited the death penalty.
d.
However, because the trial court believed
that Darrell Hines should get the death penalty, he
forced both the prosecution and Mr. Hines to resentencing.
e.
As a result, the death sentence infringes
upon Mr. Hines’ fundamental right to life and is

App. 353
arbitrary. Darrell Hines is entitled to habeas corpus
relief
24.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, the trial court’s rejection of the
prosecution’s offer to sentence Darrell Hines to
consecutive sentences of life imprisonment was
unconstitutional.
a.
Prior to re-sentencing, Mr. Hines and the
prosecution agreed that Mr. Hines should enter a
plea of guilty and be sentenced to two consecutive
life sentences in order to avoid proceeding with the
re-sentencing trial.
b.
Upon presenting this agreement to the trial
court on June 20, 1989, the trial court refused to
accept two consecutive life sentences for Mr Hines
and insisted that the parties proceed to the resentencing hearing.
c.
Regarding its decision, the trial court stated,
“I think [Mr. Hines’ case] is a case that requires, if
the jury so finds, the ultimate punishment. I think
it’s just the plain justice of it.” R. Tr. at 3. “I think
justice requires the court to reject the proffered plea
agreement as to sentencing and we will allow the
jury to decide this issue.” R. Tr. at 4.
d.
The court’s rejection of the sentencing offer
revealed that the court was indeed biased against
Mr. Hines and believed that he should have the
death penalty. Because of this bias, the trial court
should have been recused.

App. 354
e.
Moreover, the court’s rejection of the
sentencing offer improperly interfered with the
district attorney general’s discretion regarding
sentencing.
1) Specifically, the district attorney is solely
vested with the discretion whether or not to seek
the death penalty.
2) Darrell Hines was denied due process and
equal protection when the court stripped the
district attorney general of his sentencing
disc1etion in this case.
3) The district attorney general had exercised
his discretion not to seek the death penalty in
this case, as evidenced by the prosecution’s offer
to sentence Mr. Hines to consecutive life
sentences and by the fact that the district
attorney general had not filed notice of the
prosecution’s intent to seek the death penalty, as
required by Tenn. R. Crim. P. 12.3(b).
f.
As a result, Darrell Hines is entitled to
habeas corpus relief.
***
26.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, prior to the resentencing trial, the court
failed to grant a continuance when the prosecution
failed to provide timely notice of aggravating
circumstances, and where Darrell Hines was prevented
from seeming attendance of necessary out of state
witnesses.

App. 355
a.
Prior to the re-sentencing trial, Darrell Hines
filed two motions to require the prosecution to
provide written notice of aggravating circumstances
pursuant to Tenn R Crim. P. 12.3(b).
b.
The prosecution failed to respond to these
motions until just one week before trial.
c.
Darrell Hines filed a motion for a
continuance on June 20, 1989 based on the
prosecution’s failure to give notice of the
aggravating circumstances and difficulties in
obtaining the cooperation and attendance of out-ofstate witnesses. (Obtaining the necessary court
orders and subpoenas could not be accomplished
unless the trial court granted Mr.. Hines’ motion for
a continuance.)
d.
Rule 12.3(b) contains mandatory language written notice of aggravating circumstance must be
filed not later than 30 days plior to trial and the
court must grant the defendant a reasonable
continuance of his trial if the notice is not timely
e.
The trial court denied Mr Hines’ motion for a
continuance claiming that “You wouldn’t be in any
better shape four months from now than you would
be now.”
f.
The trial court’s failure to grant the
continuance was in error and prejudiced Mr. Hines.
Mr. Hines had a due process liberty interest
established by Tenn. R. Crim. P 12.3(b) which was
violated by the trial court. As a result, Mr. Hines is
entitled to habeas corpus relief.

App. 356
27.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines’ conviction and death
sentence is unconstitutional because the empaneling of
the jury at both the guilt/innocence trial and at the resentencing trial was improper.
a.
During voir dire at the guilt/innocence trial,
the court failed to properly prohibit the
participation of Sheriff Weakley in the selection of
the jury where it was likely that the Sheriff would
testify for the prosecution and that this premature
exposure to the jury would lend the Sheriff a
prejudicial aura of credibility.
b.
During voir dire at the guilt/innocence trial,
the court failed to properly sequester the jury panel
on the night of January 6, 1986, prior to the
conclusion of voir dire on January 7, 1986. As a
result, juror Sandra Kilgore improperly exposed the
jury to extraneous information See ¶¶27(b), 29,
incorporated by reference.
c.
During voir dire, the cout failed to order a
mistrial or to seek to correct the state’s incorrect
presentation of the definitions of the elements of the
charge, burdens of proof, and definitions of
sentencing terms. Specifically, the state incorrectly
stated that it was entitled to a fair trial. See Tr. at
15. The state also incorrectly stated on several
occasions that in some circumstances the death
penalty was required.
d.
During voir dire at the guilt/innocence trial,
the court failed to order a mistrial following
prejudicial statements made by potential jurors,

App. 357
including but not limited to juror Anderson’s
statement that it was a “brutal murder” and juror
Winn’s statement that it was a “horrendous act” See
Tr. At 23-26.
e.
During voir dire at the guilt/innocence trial,
the court failed to strike juror Cothan who was
biased against Darrell Hines.
1) Cothan was related to the victim in this case the victim was married to juror Cothan’s second
cousin. Tr. 171.
2) Cothan claimed that he could tell whether a
person was lying if he could look in their eyes as
he spoke. For this reason, Cothan wanted the
witnesses to look at the jury as they testified. Tr.
146-147.
3) In addition, Cothan had served together with
another juror as a magistrate on the “county
court” .. See Tr. 1.
f.
At the re-sentencing trial, the prosecution
impermissibly struck jurors in violation of Batson v.
Kentucky, 476 U.S. 79, 106 S Ct. 1712 (1989).
g.
At the re-sentencing trial, the trial court
impermissibly struck jurors who expressed concern
about the death penalty. See Witherspoon v.
Illinois, 391 U.S. 510, 88 S. Ct 1770 (1968); Adams
v. Texas, 448 U.S. 38, 110 S.Ct. 2521 (1980).
1) During voir dire at the re-sentencing trial,
Juror Citro was questioned about his thoughts
on the death penalty. Citro indicated that he

App. 358
was not sure about the death penalty. R. Tr. 1836.
2) The trial court asked juror Citro if, in regard
to imposing the death penalty, there was “a
reasonable possibility that your personal beliefs
might affect or will affect your decision” R. Tr.
27. Juror Citro responded that he believed that
his personal beliefs might affect his decision. Id.
3) However, juror Citro also indicated that he
would not automatically vote against the death
penalty and that he believed that there were
circumstances where the death penalty would be
proper R Tr. 29-31.
4) The trial court then struck juror Citro for
cause because the court believed that “[his]
personal opinions may get in the way of
following the law.” R Tr. 36.
5) Because juror Citro stated that he could
impose the death penalty and merely indicated
that his personal beliefs might affect his
decision, juror Citro should not have been
excused for cause. See Adams v. Texas, 448 US
38, 110 S .Ct2521 (1980) (it is unconstitutional
to strike jurors who honestly concede that their
personal opinions about the death penalty might
affect their decision at sentencing).
h.
At the guilt/innocence and re-sentencing
trials, the trial court failed to conduct voir dire to
expose biases of jurors which prejudiced Darrell
Hines, including jurors who were relatives and/or
close friends of law enforcement: jurors who had

App. 359
been victims of crime and/or were close to crime
victims; and, jurors who had strong negative
feelings about drug and alcohol abuse.
i.
At the guilt/innocence and re-sentencing
trials, the trial court failed to strike, for cause,
those jurors who held some kind of bias against
Darrell Hines, his case, or any class or group to
which Darrell Hines belongs.
j.
As a result, Darrell Hines is entitled to
habeas corpus relief.
28.
In violation of the Sixth, Eighth, and Fourteenth
Amendments and Deck v. Missouri, 544 U.S. (May 23,
2005), the jurors were permitted to observe Darrell
Hines in handcuffs and shackles prior to rendering a
verdict at the re-sentencing hearing.
a.
Mr Hines was restrained with handcuffs and
shackles in full view of the jury.
b.
Prior to allowing jurors to observe Mr. Hines
in handcuffs and shackles, the trial court had made
no determination that restraints were justified by a
state interest See Deck v. Missouri, supra
c.
Displaying Mr. Hines to the jury in physical
restraints created an impression that Mr Hines
posed a present and future danger.
1) This impression permitted juror’s to consider
future dangerousness as a non-statutory
aggravating circumstance, which is not
permissible under Tennessee law.

App. 360
2) Mr. Hines was unable to rebut the impression
of future dangerousness created by the physical
restraints.
d.
Displaying Mr. Hines to the jurors in physical
restraints, created an inference that Mr Hines
deserved the death sentence.
e.
The use of physical restraints lessened the
prosecution’s burden of proof.
f.
The use of physical restraints shifted the
burden of proof to Mr. Hines.
g.
The use of physical restraints denied Mr.
Hines the opportunity to rebut damaging inferences
against him.
h.
The use of physical restraints lead to an
arbitrary sentencing determination at Mr . Hines’
re-sentencing trial.
i.
As a result, Darrell Hines is entitled to
habeas corpus relief.
29.
In violation of the Fifth, Sixth, Eighth, and
Fourteenth Amendments, the conviction in this matter
is unconstitutional because jurors considered and/or
were exposed to extraneous and prejudicial
information.
a.
At the 1986 guilt/innocence phase, juror
Sandra Kilgore contacted her pastor to find out
whether the Bible said capital punishment was
right or wrong. P. Tr. 66.

App. 361
1) Juror Kilgore contacted her pastor from home
after the jury had been selected. It was “after
they said I was going to be on a jury, that we
were supposed to be back here at a certain time
and in between that time I called and asked him
about the scriptures on it” P. Tr 74, 78, 79.
2) The call was made when the jurors “were told
to go home and get your things and come back to
begin your jury service and that is the period of
time which you made your call.” P. Tr. 80.
3) Juror Kilgore’s pastor gave her scripture
verses that supported capital punishment,
including the verse that says, “An eye for an eye
.. ” P Tr. 67.
4) Such extraneous contact tainted the jury and
their deliberations. As a result, Darrell Hines
was denied his light to a fair trial He is entitled
to habeas corpus relief.
30.
In violation of the Fifth, Sixth, Eighth, and
Fourteenth Amendments and Miranda v. Arizona, 384
US 436, 86 S. Ct 1602 (1966), the introduction of
Darrell Hines’ post-arrest statements at the 1986
guilt/innocence trial and the 1989 re-sentencing trial
was unconstitutional.
a.
On June 11, 1985, Darell Hines surrendered
to Barren County, Kentucky law enforcement
officers who had been searching for Mr. Hines in
connection with the murder of the victim at the
CeBon motel.

App. 362
b.
Upon his surrender, Mr. Hines was not
advised of his Miranda rights by Barren County
officials. He was not informed regarding his rights
to remain silent or to have an attorney to represent
him. Tr. 248.
c.
Despite the fact that Kentucky officials did
not advise Mr Hines of his rights, they talked to
him about the murder and the circumstances
surrounding the incident. Tr. 248, 281.
d.
As a result of their questions, Mr. Hines told
the Sheriff of Barren County that “he took the
automobile but he didn’t murder the woman.” Tr
248, 252.
e.
Subsequently, Mr. Hines was transported to
Cheatham County, Tennessee.
f.
On June 12, 1985, Mr Hines was interrogated
by TBI Agent Sherman McGill.
g.
Agent McGill did not advise Mr. Hines of his
Miranda rights prior to interrogating him, although
he asserted that Mr Hines had previously been read
and waived his rights. Tr. 371.
h.
Agent McGill then took a statement from Mr.
Hines regarding his involvement in the murder at
the CeBon motel.
i.
As a result, the statements obtained by
Barren County Officials and TBI Agent McGill were
taken in violation of Darrell Hines’ right to remain
silent and his right to counsel.

App. 363
j.
Because the prosecution did not prove that
Darrell Hines knowingly, intelligently, and
voluntarily waived these rights, Darrell Hines is
entitled to habeas corpus relief
31.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines was denied his right to
compulsory process and due process by the trial court’s
failure to have witnesses Norman Johnson and Bill
Andrews produced to testify at the re-sentencing
hearing. This likewise violated Darrell Hines’ rights to
present any and all available mitigating evidence in
support of a sentence less than death.
***
33.
In violation of the Fifth, Sixth, Eighth and
Fourteenth Amendments, and International Law, the
death penalty is unconstitutional.
a.
The death penalty is unconstitutional
because the discretion to impose death is not closely
confined in order to avoid arbitrariness, See
Furman v. Georgia, 408 U.S 238, 92 S. Ct. 2726
(1972).
b.
The death penalty is unconstitutional
because the sentencer does not have unlimited
discretion not to impose death. See Lockett v. Ohio,
438 U.S. 586, 98 S .Ct. 2954 (1978).
c.
The death penalty is unconstitutional
because the death penalty, which is not imposed
“fairly, with reasonable consistency.” Callins v.
Collins, 510 U.S 1141, 1144, 114 S.Ct 1127, 1129
(1994) (Blackmun, J, dissenting from the denial of

App. 364
cert.), quoting Eddings v. Oklahoma, 455 U.S 104,
112, 102 S.Ct. 869, 875 (1982).
d.
As a result, because the death penalty has
proven impossible to administer in practice, there is
no way to constitutionally administer the death
penalty and it should not be imposed “at all”
Callins, supra
e.
In addition, the death penalty violates
International Law.
1) Article 6 of the International Covenant on
Civil and Political Rights (ICCPR), GA. res
2200A(XXI), 21 UN. GAOR Supp (No. 16) at 52,
UN. Doc. A/6316 (1966), 999 U.N.T.S. 171,
entered into force on March 23, 1976, provides
that “Every human being has the inherent right
to life... sentence of death may only be imposed
for the most serious of crimes. ”
2) Article 7 states that “No one shall be
subjected to torture or to cruel, inhuman, or
degrading treatment or punishment.”
3) At least one Justice on the United States
Supreme Court has suggested that the long
delays inherent in the review of death sentences
violate this provision of the ICCPR. See Knight
v. Florida, 528 U.S. 990, 120 S.Ct. 459 (1999)
(Breyer, J, dissenting from the denial of cert).
f.
As a result, Darrell Hines is entitled to
habeas corpus relief.

App. 365
34.
In violation of the Eighth and Fourteenth
Amendments, execution by lethal injection constitutes
cruel and unusual punishment, is tortuous, and
violates contemporary standards of decency, as it
involves unnecessary, conscious suffering:
a.
In Tennessee, the lethal injection protocol
involves the use of three separate chemicals: sodium
thiopental, pancuronium bromide (pavulon), and
potassium chloride.
b.
The sodium thiopental used in the process
does not adequately anaesthetize an individual
prior to the injection of pavulon and potassium
chloride, which, absent anesthesia, cause a
gruesome and horrifying death of which the
individual is conscious
1) Researchers have made clear that the amount
of sodium thiopental used in lethal injection is
inadequate to produce anesthesia, which
requires blood levels of at least 63 mg/L. Almost
all lethal injections studied by researchers in a
recent study have failed to provide that amount
of anesthesia. See Leonidas Koniaris et al,
Inadequate Anaesthesia In Lethal Injection For
Execution, Lancet 2005: 365:1412-1414.
2) In the only modem-day execution in
Tennessee, thiopental blood levels in Robert Coe
were only approximately 10 mg/L, which clearly
indicates that Robert Coe was not anesthetized
when he was executed.
c.
Pancuronium bromide is prohibited for
euthanizing animals in Tennessee, notably because

App. 366
it is a paralyzing agent which stops breathing. A
person who is not anesthetized, however, would be
fully conscious of the extreme pain caused by
pancuronium bromide. Pancuronium bromide also
serves no legitimate state interest, and it violates
due process and the equal protection of the laws for
the state to use pancuronium bromide in lethal
injections, especially when its use on animals is
categorically prohibited.
d.
Further, the amount of potassium chloride
used in lethal injection is inadequate to stop the
heart. The amount of potassium used in the
execution of Robert Coe was also inadequate to stop
the heart. As a result, any individual lethally
injected in Tennessee actually dies from the
pancmonium bromide, while at the same time being
conscious, given the lack of anesthesia from the
sodium thiopental.
e.
Consequently, it violates the Eighth and
Fourteenth Amendments for Respondent to seek to
execute Darrell Hines using sodium thiopental,
pancuronium bromide, and potassium chloride.
Such a process is cruel and unusual: inflicts and
creates the risk of imposing excessive, wanton, and
gratuitous suffering: and violates contemporary
standards of decency. See Brown v. Crawford, __F
3d __, 2005 US. App. Lexis 8813 (8th Cir.
2005)(Bye, J, dissenting) (detailing Eighth
Amendment violation arising from execution
protocol involving sodium thiopental, pancuronium
bromide, and potassium chloride); See also Brown
v. Crawford, 544 US (2005) (Stevens, J, dissenting).

App. 367
f.
Likewise, the use of pancuronium bromide
violates the Eighth and Fourteenth Amendments,
including Darrell Hines’ entitlement to due process
of law and to the equal protection of the laws, and
the First Amendment as the use of pancuronium
bromide precludes access to the courts.
g.
As a result, Darrell Hines is entitled to
habeas corpus relief.
***
35.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, Darrell Hines’ 1986 first-degree murder
conviction and 1989 death sentence are
unconstitutional because Tennessee’s model and death
penalty statutes (Tenn. Code Ann. § 39-2-202 through
§ 39-2-205) are constitutionally defective. The
constitutional defects include, but are not limited to:
a.
Tennessee’s model statue is vague and failed
to fulfill the requirements of Article II § 17 which
prohibits the enactment of any bill that embraces
more than one subject expressed in the title of the
bill. Tenn. Code Ann. § 39-2-202 (repealed 1991)
contains more than one subject and the title of the
statute gives no notice of some of the subjects
addressed by the statute. As a matter of due process
under the Fourteenth Amendment, Mr. Hines had
a protected liberty interest under § 17 which has
been violated here.
b.
Tennessee’s death penalty statute violates
the Eighth and Fourteenth Amendments because it
provides for the sentence of death by electrocution,
which is cruel and unusual.

App. 368
c.
Tennessee’s death penalty statute provides
insufficient guidance to the jury concerning what
standard of proof the jury should use in making the
determination that the aggravating circumstances
outweigh the mitigating circumstances.
d.
Tennessee’s death penalty statute does not
sufficiently limit the exercise of the jury’s
discretion, because once the jury finds the existence
of one aggravating factor, it can impose a sentence
of death no matter what evidence of mitigation is
shown.
e.
Tennessee’s death penalty statute limits the
jury’s discretion to exercise mercy by requiring the
jury to impose a sentence of death if it finds that the
aggravating factors outweigh the mitigating factors.
f.
Tennessee’s death penalty statute fails to
ensure that non-statutory mitigating factors are
given the same weight as statutory mitigating
factors by failing to require that the jury be given
written instructions on the equal weight of nonstatutoly mitigating factors.
g.
Tennessee’s death penalty statue does not
require the jury to make the ultimate determination
that the appropriate punishment is a death
sentence.
h.
Tennessee’s death penalty statute does not
require that the jury be instructed in writing that it
may impose a life sentence on the basis of mercy
alone.

App. 369
i.
Tennessee’s death penalty statute does not
provide a way to correct, by written instructions or
the presentation of evidence, jurors’ common
misperceptions regarding the actual terms of life
sentences and death sentences, the cost of
incarceration, the cost of execution, the death
penalty’s deterrent effect, and the painful nature of
death by electrocution.
j.
Tennessee’s death penalty statute prevents
effective review on appeal because it does not
require the jury to make specific findings with
respect to the presence or absence of mitigating
factors.
k.
Tennessee’s death penalty statute provides
for a punishment (death), which is cruel and
unusual.
l.
Tennessee’s death penalty statute is applied
in a discriminatory manner- unfairly affecting
racial, gender, geographic, economic, and political
classes.
m.
Tennessee’s death penalty statute does not
provide an adequate method for proportionality and
arbitrariness review by the Tennessee Supreme
Court.
n.
Tennessee’s death penalty statute has been
applied by prosecutors in a manner that abuses
their discretion because the statutes do not provide
uniform standards for application of the death
sentence.

App. 370
o.
Tennessee’s death penalty statute violates
equal protection because it does not provide uniform
standards for qualifying jurors for service on capital
juries.
p.
Tennessee’s death penalty statute permits
the introduction of unreliable evidence in support of
aggravating factors and in rebuttal of mitigating
factors.
q.
Tennessee’s death penalty statute allows the
prosecution to make closing arguments to the jury
in the penalty phase.
r.
Tennessee’s death penalty statute does not
require that the jury be instructed regarding the
consequences of its failure to reach a unanimous
verdict in the penalty phase.
s.
Tennessee’s death penalty statute requires
the jury to agree to an unanimous verdict in order
to impose a life sentence.
t.
Tennessee’s death penalty statute violates
international law.
1) Article 6 of the International Covenant on
Civil and Political Rights (ICCPR), G.A. res
2200A (XXI), 21 U.N. GAOR Supp. (No. 16) at
52, UN. Doc. A/6316 (1966),999U.N.T.S. 171,
entered into force on March 23, 1976, provides
that “Every human being has the inherent right
to life . . . sentence of death may only be imposed
for the most serious of crimes . . . ”

App. 371
2) Article 7 states that “No one shall be
subjected to torture or to cruel, inhuman, or
degrading treatment or punishment.” At least
one Justice on the United States SupremeCourt
has suggested that the long delays inherent in
the review of death sentences violate this
provision of the ICCPR. See Knight v. Florida,
528 U.S. 990, 120 S. Ct. 459 (1999) (Breyer, J.,
dissenting from the denial of cert.).
u.
Tennessee’s death penalty statute imposes a
penalty, death, that is unconstitutional because it
affects the right to life and doesn’t promote a
compelling state interest
v.
Tennessee’s death penalty statute does not
require that aggravating circumstances be found by
a grand jury and included in the indictment.
w.
As a result, Darrell Hines is entitled to
habeas corpus relief.
36.
In violation of the Sixth, Eighth, and Fourteenth
Amendments, the proportionality review conducted by
the Tennessee Supreme Court was unconstitutional.
a.
In reviewing a sentence of death, Tennessee
appellate courts are charged with determining
whether “[t]he sentence of death is excessive or
disproportionate to the penalty imposed in similar
cases, considering both the nature of the crime and
the defendant.” T.. C.A. § 39-13-206(c)(1)(D)(Supp.
1994): Tennessee Supreme Court Rule 12.
b.
At the time of the Tennessee Supreme
Court’s proportionality review in Mr. Hines’ case,

App. 372
Rule 12 provided that a specified Rule 12 form
“shall be completed in its entirety” by the trial court
and “included in the technical record” in every case
where a defendant has been convicted of firstdegree murder. The Tennessee Supreme Court
relies on information found in the Rule 12 form as
a starting point for its comparative review.
c.
The Rule 12 proportionality review form is
not part of the 1986 or 1989 technical records in
Darrell Hines’ case.
d.
The Rule 12 forms from other first-degree
murder convictions, which were to serve as the
baseline for the Tennessee Supreme Court’s
proportionality review for Mr Hines’ case, had not
been completed in their entirety at the time of Mr
Hines’ proportionality review, as required by Tenn.
Sup Ct. R. 12.
e.
In fact, the Tennessee Supreme Court had
access to fewer than 20% of the Rule 12 forms “from
similar cases,” which were to provide the baseline
for the Court’s proportionality review in Mr. Hines’
case.
f.
As a result, the proportionality review
process in Darrell Hine’ case denied him due
process because the material facts used for the
determination of proportionality, including his own
Rule 12 forms and the Rule 12 forms of other
defendants, were non-existent.
g.
Therefore, Darrell Hines was denied a
meaningful opportunity for proportionality review.

App. 373
h.
As a result, Darrell Hines is entitled to
habeas corpus relief.
37.
In violation of due process and equal protection
under the Eighth and Fourteenth Amendments, the
death sentence is unconstitutional because there were
no standards for the decision to choose to seek (or
impose) the death sentence (both within Cheatham
County, and throughout the entire state of Tennessee),
nor are there any consistent and objective standards
for proportionality review. As a result of these failings,
especially in a case where the prosecution has
recognized that Darrell Hines ought to be sentenced to
life in prison, the death sentence in this case (which
impinges upon the fundamental right to life) violates
rudimentary notions of due process and equal
protection. See Bush v. Gore, 531 U.S 98, 121 S. Ct. 525
(2000).
38.
In violation of the Eighth and Fourteenth
Amendments, Darrell Hines’ death sentence is
unconstitutional, as a result of the length of time (20
years) he has been incarcerated under sentence of
death following the offense for which he was convicted.
The death sentence is therefore unconstitutionally
cruel and unusual. See Lackey v. Texas, 514 U.S. 1045,
115 S. Ct. 1421 (1995)(Stevens, J., respecting denial of
certiorari).
***
40.
The cumulative effect of the errors at trial and
sentencing, including all errors cited in this petition,

App. 374
denied Darrell Hines due process of law under the
Fourteenth Amendment.
(Docket Entry Nos. 23, 23-1 and 23-2).

App. 375
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
No.3:05-0002
Senior Judge Haynes
[Filed: March 16, 2015]
_________________________________
ANTHONY HINES
)
)
Petitioner,
)
)
v.
)
)
RICKY BELL, Warden
)
)
Respondent.
)
________________________________ )
ORDER
In accordance with the Memorandum filed
herewith, the Respondent’s motion for summary
judgment (Docket Entry No. 118) is GRANTED. This
action is DISMISSED with prejudice. Pursuant to
28 U. S. C. § 2253(c), the Court GRANTS a Certificate
of Appealability on all claims in this action that
involves a death sentence.
This is the Final Order in this action.
It is so ORDERED.
ENTERED this the 16th day of March, 2015.

App. 376
/s/ William J. Haynes, Jr.
WILLIAM J. HAYNES, JR.
Senior United States District Judge

App. 377

APPENDIX C
IN THE COURT OF CRIMINAL APPEALS
OF TENNESSEE AT NASHVILLE
Remanded by Supreme Court June 28, 2004
No. M2004-01610-CCA-RM-PD
[Filed: July 14, 2004]
____________________________________
ANTHONY DARRELL HINES
)
)
v.
)
)
STATE OF TENNESSEE _______ ___)
Appeal from the Circuit Court
for Cheatham County
No. 9852 Robert E. Burch, Judge
The opinion of the court in this matter was released
on January 23, 2004, and the petitioner filed an
application for permission to appeal. On June 28, 2004,
our supreme court granted the application and
remanded to this court, directing that we reconsider
our previous conclusion that “the trial court charged
the incorrect version of the aggravating circumstance
in Tennessee Code Annotated section 39-2-203(i)(5)
(1982).” We have reconsidered this issue and conclude
that the trial court utilized the correct version of this
statute when instructing the jury at the resentencing
hearing as to aggravating circumstances. Additionally,
as explained in this opinion on remand, we erred in the

App. 378
original opinion by stating that our supreme court had
addressed, in the direct appeal of the resentencing
hearing, whether “instructing an inapplicable version
of aggravating circumstance (i)(5) was harmless error.”
In fact, the court did not do so. In our opinion on
remand, we again affirm the post-conviction court’s
denial of relief, and refile our opinion which has been
altered only to reflect our consideration of those
matters, as previously explained, set out in the remand
order.
Tenn. R. App. P. 3 Appeal as of Right; Judgment
of the Circuit Court Affirmed
ALAN E. GLENN, J., delivered the opinion of the court,
in which JOE G. RILEY and THOMAS T. WOODALL, JJ.,
joined.
Donald E. Dawson, Post-Conviction Defender; and Jon
Joseph Tucci, Assistant Post-Conviction Defender,
Nashville, Tennessee, for the appellant, Anthony
Darrell Hines.
Paul G. Summers, Attorney General and Reporter;
Michael E. Moore, Solicitor General; Angele M.
Gregory, Assistant Attorney General; Dan M.
Alsobrooks, District Attorney General; and B. Dent
Morriss, Assistant District Attorney General, for the
appellee, State of Tennessee.
OPINION ON REMAND
I. BACKGROUND
The petitioner, Anthony Darrell Hines, was
originally tried in 1986 in the Cheatham County

App. 379
Circuit Court for the murder of Katherine Jean
Jenkins. The jury found him guilty of first degree
felony murder and sentenced him to death. Although
the petitioner’s 1986 conviction for first degree felony
murder was affirmed on direct appeal by the Tennessee
Supreme Court, the case was remanded for
resentencing because of erroneous jury instructions.
State v. Hines, 758 S.W.2d 515 (Tenn. 1988).
On remand, the Cheatham County jury again
sentenced the petitioner to death, finding three
aggravating circumstances: “[t]he [petitioner] was
previously convicted of one or more felonies, other than
the present charge, which involve the use or threat of
violence to the person,” Tenn. Code Ann.
§ 39-2-203(i)(2) (1982); “[t]he murder was especially
heinous, atrocious, or cruel in that it involved torture
or depravity of mind,” id. § 39-2-203(i)(5) (1982); and
“[t]he murder was committed while the [petitioner] was
engaged in committing, or was an accomplice in the
commission of, or was attempting to commit, or was
fleeing after committing or attempting to commit, any
first degree murder, arson, rape, robbery, burglary,
larceny, kidnapping, aircraft piracy, or unlawful
throwing, placing or discharging of a destructive device
or bomb,” id. § 39-2-203(i)(7) (1982). Subsequently, the
Tennessee Supreme Court affirmed the petitioner’s
conviction and death sentence, and the United States
Supreme Court denied certiorari. State v. Hines, 919
S.W.2d 573 (Tenn. 1995), cert. denied, 519 U.S. 847,
117 S. Ct. 133, 136 L. Ed. 2d 82 (1996).
The petitioner filed a petition for post-conviction
relief on March 4, 1997, which was twice amended. On

App. 380
May 9, 2002, after evidentiary hearings, the
post-conviction court filed its findings of fact and
conclusions of law and entered an order denying the
petition.
A. Proof Presented at 1986 Trial
The following proof, introduced at the petitioner’s
original trial in 1986, was set out by our supreme court
in affirming the petitioner’s conviction:
Between 1:00 and 1:30 p.m. on 3 March 1985
the body of Katherine Jean Jenkins was
discovered wrapped in a sheet in Room 21 of the
CeBon Motel off Interstate 40 at Kingston
Springs. The victim was a maid at the motel and
had been in the process of cleaning the room
when she was killed. Her outer clothing had
been pulled up to her breasts. Her panties had
been cut or torn in two pieces and were found in
another area of the room. A $20 bill had been
placed under the wrist band [sic] of her watch.
The cause of death was multiple stab wounds
to the chest. Four deep, penetrating wounds,
ranging from 2.5 inches to 6.4 inches in depth,
had been inflicted about the victim’s chest with
a knife similar to a butcher knife or a hunting
knife. Other superficial cuts were found in the
area of the neck and clavicle. There was also a
knife wound which penetrated through the
upper portion of the vagina into the mesentery
in the lower part of the abdominal cavity. Dr.
Charles Harlan who performed the autopsy on
the victim’s body testified that in view of the

App. 381
small amount of blood in the vaginal vault it was
his opinion the wound occurred at or about the
time of death. The victim also had what he
described as “defensive wounds” on her hands
and arms.
Jenkins had been left in charge of the motel
at about 9:30 a.m. At that time the occupants of
Rooms 9, 21 and 24 had not yet checked out.
When the manager left her in charge she was
given a Cheatham County State Bank bag
containing $100 in small bills to make change
for motel guests as they paid. The bank bag,
bloody and empty, was discovered in the room
with her body. It was her established habit to
lock her automobile at all times and to keep her
keys and billfold on her person when she
worked. Her car keys, billfold and her 1980
silver-colored Volvo were missing.
On 1 March 1985 defendant had departed by
bus from Raleigh, North Carolina. He had been
given a non-refundable ticket to Bowling Green,
Kentucky and $20 in spending money. The
traveling time from Raleigh, North Carolina to
Nashville, Tennessee was approximately 17
hours. Prior to his departure he was observed by
a witness to be carrying a hunting knife in a
sheath which was concealed beneath his shirt.
The witness admonished him that he could not
carry a knife like that on the bus to which he
responded “I never go anywhere naked.” “I
always have my blade.” Sometime in the early
morning hours of 3 March 1985 he checked in

App. 382
and was assigned to Room 9 at the CeBon Motel.
He was wearing a green army-type fatigue
jacket, fatigue pants and boots. He was next
seen at approximately 9:30 a.m. walking in a
direction from his room toward a drink machine.
At that time he told the manager he was not yet
ready to check out. He was also seen sometime
prior to 9:30 purchasing a sandwich at a
deli-restaurant across the street from the motel.
The same witness who saw defendant also saw
another stranger there somewhere between 1:30
and 2:30 who she described as taller than
defendant with dark hair, kinky looking and
wild-eyed. He departed the restaurant in the
general direction of the CeBon Motel. The
Cheatham County Sheriff testified that he
responded to a call to the CeBon Motel at 2:37
p.m. When he arrived on the scene blood spots in
the room were beginning to dry and the body
was beginning to stiffen. Defendant was seen
between 11:00 and 11:30 a.m. walking from the
direction of the Interstate toward the CeBon
Motel. At 12:40 p.m. a witness saw the victim’s
Volvo automobile pulling out from the CeBon
Motel driveway. It was being operated by a
person who appeared to be a man with very
short, light colored hair. The vehicle crossed over
the Interstate and turned east on Interstate 40.
She followed behind and endeavored to catch up
but it sped off toward Nashville at a high rate of
speed. Defendant was next identified in
possession of the car a few miles past Gallatin
on Interstate 65, heading in the direction of
Bowling Green, Kentucky. A group of young

App. 383
people first endeavored to help him start the
stalled automobile and then gave him a ride to
Bowling Green. During the trip to Bowling
Green one of these witnesses observed some
dried blood on the right shoulder of his shirt. He
carried a jacket which he kept folded. After he
arrived at his sister’s home in Bowling Green[,]
defendant told her he had endeavored to pay
another day’s rent at a motel when he was
attacked by the motel operator. He
demonstrated to her how he had stabbed the
man. He also related to her he had a sum of
money. She could not remember whether he said
$35,000 or $3,500. Defendant also told his
sister’s husband he had earned approximately
$7,000 working as a mechanic in North
Carolina. He displayed a set of keys to a Volvo
automobile and explained that a man who had
given him a ride attempted to rob him.
Defendant purportedly grabbed the steering
wheel and when the car ran off the road he
grabbed the keys and ran. According to the
witness he was wearing an army fatigue jacket
which had something large, heavy and bulky in
the pocket. The witness had previously seen
defendant with a survival knife with a 6½ to 7
inch blade hanging from his belt. When
defendant was taken into custody he
volunteered the statement that he had taken the
woman’s car but had not killed her. According to
the arresting officer he had not advised the
defendant that a woman had been killed prior to
the volunteered statement. There was evidence
however that defendant was aware he had been

App. 384
charged in Tennessee on a murder warrant. The
victim’s wallet was found wrapped in a thermal
underwear shirt a short distance from where her
car was found abandoned. The key to Room 9 of
the CeBon Motel was found at the site where
defendant had been camping out near Cave City,
Kentucky. When asked by a TBI agent to tell the
truth about the death of Katherine Jenkins[,]
defendant stated that if the officer could
guarantee him the death penalty he would
confess and tell him all about the murder and
that he could tell him everything he wanted to
know if he was of a mind to. There were marks
on the wall of Room 9 at the CeBon Motel
apparently made by someone stabbing a knife
into the wall. When shown photographs of the
marks on the wall defendant responded that
they were knife marks. These marks were
obviously made by a knife larger than two taken
from defendant at the time of his arrest.
There is additional evidence in the record
incriminating defendant. That summarized
above establishes guilt of the conviction offense.
A criminal offense may be established
exclusively by circumstantial evidence and the
record in this case is abundantly sufficient for a
rational trier of fact to find defendant’s guilt
beyond a reasonable doubt.
Hines, 758 S.W.2d at 517-19.

App. 385
B. Proof Presented at 1989 Resentencing
The following proof was presented during the
resentencing and set out by the supreme court in
affirming the petitioner’s death sentence:
The State introduced proof that the
defendant had previously been convicted of
assault in the first degree. A detective who had
investigated the case testified that the
defendant had inflicted serious physical harm to
the victim in this prior case. The State also
presented proof that the defendant had stabbed
the victim in the present case multiple times
with a sharp instrument, probably a knife.
Three of these wounds were lethal and had
penetrated the victim’s chest five to six inches.
The pathologist who had performed the autopsy
of the victim testified that all the lethal wounds
were inflicted at about the same time and that
death would have occurred within four to six
minutes, most of which time the victim would
have remained conscious. Defensive wounds
were found on the victim’s hands. Her clothing
had been pulled up and her panties had been cut
in half and removed from her body. About the
time of death, and shortly after the infliction of
the lethal wounds to the chest, the defendant
had inserted a flat object through the victim’s
vaginal orifice into the vaginal pouch until the
instrument penetrated the vaginal dome and
passed into the abdominal cavity. A twenty
dollar bill had been placed under the victim’s

App. 386
watchband. No semen or any other evidence of
ejaculation was found.
At the time of her death, the victim had in
her possession a bank bag containing
approximately $100 in proceeds from the motel.
The empty bag was discovered in the room
where the victim’s body was found. The victim’s
automobile was also missing. Around 12:40 p.m.
the day of the murder, another employee of the
motel saw the vehicle being driven out of the
motel parking lot by someone other than the
victim.
In mitigation, the defendant presented proof
that, while in prison on this conviction, he had
presented no serious disciplinary problems and
posed no threat to the prison population. The
defendant also presented proof of a troubled
childhood. His father had abandoned the family
when the defendant was young. His mother had
an alcohol problem. In his teens the defendant
became involved in sniffing gasoline and glue
and began to abuse alcohol and drugs. He also
exhibited self-destructive behavior. Dr. Pamela
Auble, a clinical psychologist, testified that the
defendant was suffering from a paranoid
personality disorder and dysthymia, or chronic
depression. According to Dr. Auble, the
defendant would suppress his feelings until they
“boiled up” under stress. In her opinion, the
defendant, who had returned from turbulent
visits with his parents and girlfriend shortly
before he committed the murder, was under

App. 387
stress when he killed the victim. Dr. Ann Marie
Charvat, a sociologist, also testified about the
damaging effect of the circumstances of his
childhood on the defendant.
Hines, 919 S.W.2d at 577.
C. Proof Presented at Post-Conviction Hearing
Witnesses testifying at the post-conviction hearings
included Ken Jones, who testified at the petitioner’s
1986 trial and 1989 resentencing hearing that he had
found the victim’s body; Marion Jones, Ken Jones’s
wife; and Vernedith White, his girlfriend. Neither Mrs.
Jones nor Ms. White had testified previously in guilt or
sentencing proceedings
Ken Jones testified via deposition from a nursing
home in Hendersonville, Tennessee. In the years
following the petitioner’s resentencing, Jones suffered
a stroke and was confined to a nursing home; therefore,
he was unable to testify in person at the post-conviction
hearing. He testified that he found the victim’s body at
the CeBon Motel. He acknowledged that he went to the
motel on the day of the victim’s murder to rent a room
with Vernedith White, with whom he had been having
an affair for two years, although at trial he had
testified that his reason for being at the motel was to
use the restroom. Jones explained that it had been his
and Ms. White’s custom to rent a room at the CeBon
Motel most every Sunday. He usually rented a room
from the victim, who was a maid at the motel. He
recalled that, on the day in question, he and White had
arrived at the motel between 10:00 and 11:00 a.m.
Jones could not find anyone at the motel, so he and Ms.

App. 388
White sat in his van and waited for someone to arrive
to rent them a room. They subsequently drove to a
nearby restaurant and returned to the motel within
fifteen minutes. Jones said that he could see the motel
parking lot the entire time he was at the restaurant
and never got out of his car while at the restaurant. He
said that he found the victim’s body within one hour of
the time they arrived at the motel. Jones further
testified he knew that keys were kept in a box outside
the office, so after no one showed up to rent them a
room, he retrieved a key from the box.
Upon entering the motel room which had a maid’s
cart sitting outside, Jones saw the victim’s body,
immediately ran out of the room, drove across the
street to a restaurant, and had someone call the sheriff.
He could not recall exactly what he told the person at
the restaurant about the victim. Thereafter, he drove
Ms. White to her home in Dickson and returned to the
motel to discuss his discovery with Sheriff Weakley,
whom he said was a friend of his. He presumed that
the sheriff knew why he was at the motel that day and
admitted he told the sheriff that he was concerned
about his wife finding out why he had been there.
Jones testified that Sheriff Weakley tried to “put [him]
at ease about the problem of being at the motel there
with Vern[e]dith.” When asked further about this issue,
Jones said that he understood Sheriff Weakley would
not question him about it. He also understood that
none of the attorneys would question him about it, but
remained nervous about testifying at the trial. He said
that Sheriff Weakley called him the evening of the
murder and asked him not to discuss it with anyone.
Jones said that he was not contacted by any attorney

App. 389
prior to his testimony at trial, and his first contact with
any attorney occurred when he was called to testify at
the trial. Jones testified that he knew nothing
concerning the actual murder itself. He stated that he
did not see anyone at the motel that morning other
than a woman who pulled into the parking lot in either
a brown or maroon car. He could not recall testifying at
trial that the woman left her car and knocked on the
door of the room where he later found the victim.
Marion Jones, Ken Jones’s wife, testified at the
post-conviction hearing as to her husband’s
longstanding affair with Vernedith White. She did not
remember exactly when she learned of the affair but
knew of it by the time of the petitioner’s trial in 1986.
She and Ken Jones had been married since 1956, and
he had been involved in several extramarital affairs.
She testified that after Jones suffered a stroke and
entered the nursing home, she learned that he had
given power of attorney to Ms. White. She also
discovered that he had given Ms. White approximately
$30,000. She did not know that her husband had
testified at the 1986 trial until Connie Westfall, an
investigator with the post-conviction attorney’s office,
contacted her years later. She said that her husband
had a temper and had been verbally abusive to her but
had never hit her.
Vernedith White, Ken Jones’s former girlfriend,
testified at the post-conviction hearing that she had
neither been called to testify at the 1986 trial nor been
contacted by anyone for investigative purposes prior to
the post-conviction proceedings. She acknowledged at
the hearing that she had been involved in an affair

App. 390
with Ken Jones for eleven years and was at the CeBon
Motel on the day Jones discovered the victim’s body.
Each week they rented one of two rooms, normally from
the manager or the maid, and were usually at the
motel from approximately 9:00 a.m. until 12:00 noon.
According to Ms. White, Ken Jones picked her up
around 8:00 a.m. on Sunday, March 3, 1985, as was his
custom. She lived in Dickson and estimated that they
arrived at the motel around 9:00 a.m. They could not
find anyone at the motel and waited in the parking lot.
She suggested to Jones that they leave and go home or
somewhere else instead of waiting, but he did not take
her advice. She remembered a woman pulling into the
motel parking lot, but did not recall her leaving her
vehicle and knocking on the door, as Jones had testified
at the 1986 trial. She said they did not leave the motel
parking lot to go to the restaurant as Jones had
testified. After they had waited awhile at the motel,
Jones told her he was going to get a room key from a
dish in the office and they would just use the room and
leave. Ms. White said that, after Jones returned to the
van with a key to room 21, they drove over and parked
in front of that room. Jones told her to wait in the van
while he went to check the room. Ms. White testified
that the curtains to the room were open, and she could
see sheets on top of both beds. Jones walked in the
room past the beds, saw the victim’s body, and ran out
of the room. She could see Jones the entire time he was
in the room, which was “[n]ot even a minute.” He was
very scared when he ran out and told her there was a
dead woman in the room. She wanted to go inside, but
he would not let her. She said that Jones did not have
any blood on him when he came out of the room and

App. 391
returned to the van. She believed that it was
approximately 12:00 noon when Jones found the body.
They immediately drove to the restaurant and called
the sheriff. She was not sure if Jones or a woman at the
restaurant actually placed the call. Informed that the
emergency call had been made at 2:36 p.m, she said
that she must have had her times wrong. Jones drove
her home, which was an approximately
forty-five-minute drive from the motel, and then
returned to talk to the sheriff.
Ms. White testified that she and Mr. Jones had been
together at the CeBon Motel on at least 100 occasions
prior to March 3, 1985, but they had never before
retrieved a key in the manner they did that day. She
could not recall if Jones returned the key to room 21.
Although she had seen the victim cleaning rooms at the
motel on prior occasions, she did not know her name.
She recalled that the day of the murder was a warm
day, and she and Mr. Jones sat in the parking lot with
the van doors open. They neither saw nor heard any
suspicious activity at the motel that day prior to Mr.
Jones discovering the victim’s body. She believed they
would have seen anyone who entered or left either
room 21 or room 9.
Ms. White said that she and Mr. Jones were
co-owners of a sporting goods store and that Sheriff
Weakley was a regular customer. She testified that she
never discussed the events of March 3, 1985, with
Weakley and understood that he had told Jones that it
was all right for him to take White home and then
return to discuss the matter. She said that her
relationship with Jones had ended about two years

App. 392
after March 3, 1985. According to Ms. White, there was
no possibility that Ken Jones had anything to do with
the victim’s murder.
Sandra Kilgore testified that she served on the jury
in the petitioner’s 1986 trial. After learning that she
had been selected for a jury, she called her pastor from
home and asked for biblical scriptures regarding
capital punishment. She said that she spoke to her
pastor before she was sworn in as a juror in the
petitioner’s trial. She did not know that the State was
seeking the death penalty in the petitioner’s case until
she came to court for jury service. According to Ms.
Kilgore, there was some division among the jurors
during deliberation.
Mary Sizemore of the Cheatham County Ambulance
Service testified she and her partner went to the CeBon
Motel in response to a call from someone at the Donnell
Restaurant about a stabbing at the motel. Ms.
Sizemore and her partner searched room to room until
they came to a room with a maid cart outside. Her
partner indicated that the room was open. They
entered the room and found the victim lying on her
back wrapped in what appeared to be a bedspread up
to her neck. The victim’s wounds were not readily
apparent, and they had to unwrap her and pull up her
dress to actually see the wounds. They were not able to
find a pulse on the victim. Ms. Sizemore remembered
that the man who had reported the stabbing
subsequently returned to the scene and talked with the
sheriff. She later learned that this man was Ken Jones.
Maxey Jean Kittrell testified that she was working
at the CeBon Restaurant on March 3, 1985, when a

App. 393
man came in and reported a stabbing at the CeBon
Motel. She called an ambulance service and reported
the stabbing.
J. Kenneth Atkins, one of the prosecutors in the
petitioner’s original trial in 1986, testified that he was
involved both in the preparation for trial and the trial
itself. He denied that Sheriff Weakley had asked him
not to question Ken Jones regarding his reason for
being at the CeBon Motel on the day of the murder, but
acknowledged knowing that Jones was at the motel
with a woman other than his wife and that Sheriff
Weakley was concerned about embarrassing Jones.
Atkins said that he had known Jones prior to his
involvement in the petitioner’s case because he had
“prosecuted a guy that sold drugs and resulted in
[Jones’s] son’s death.” He testified that Jones did not
express any reservation about testifying at the
petitioner’s trial, and Sheriff Weakley never asked him
to limit his questioning of Jones. Atkins acknowledged
that he did not interview Vernedith White. In his
opinion, trial counsel were not deficient in their
representation of the petitioner.
James W. Kirby, a former assistant district attorney
general and, at the time of the post-conviction hearing,
the Executive Director of the Tennessee District
Attorneys’ General Conference, testified that he was
involved in prosecuting the petitioner at the 1986 trial.
He said that Atkins was the prosecutor who talked
with Ken Jones and examined him on the witness
stand. Kirby acknowledged that he was present at the
deposition of Jones taken prior to the post-conviction
hearing and had briefly discussed it with Atkins. He

App. 394
said that the deposition contained testimony that was
not brought out at the 1986 trial. He did not recall
having any discussions with Sheriff Weakley prior to
the petitioner’s trial, but it was his understanding that
Atkins recalled discussing Jones’s situation with
Sheriff Weakley. Kirby also testified that in the 1980s
most of the juries he was involved with in Cheatham
County were dominated by men; however, he recalled
one death penalty case where the jury had a female
foreperson.
Robert S. Wilson was the first attorney appointed to
represent the petitioner, but his representation was
short-lived because he was hired by the district
attorney general’s office approximately two months
after his appointment. He said that he represented the
petitioner from shortly after his arrest in March 1985
to approximately late June 1985. He began
employment with the district attorney general’s office
on August 16, 1985, and said that he never discussed
the case with anyone at that office. He testified that he
had recommended Steve Stack as his co-counsel, and
Stack was appointed. He knew that Stack had no prior
death penalty experience when he recommended him.
Steve Stack represented the petitioner at the 1986
trial and the 1989 resentencing. He had tried two cases
to a jury in the twenty months that he had been
practicing law prior to his appointment and did not
believe he was qualified to serve as lead counsel on the
case. Stack estimated that between 60 and 75% of his
practice at the time was civil. William Wilkinson was
appointed to assist Stack after Wilson was allowed to
withdraw. Wilkinson had practiced with Wilson prior

App. 395
to the time he joined the district attorney general’s
office. Stack considered himself to be co-counsel in the
case, although he performed many of the lead counsel’s
duties. He spent 38.9 in-court hours and 133.6
out-of-court hours on the petitioner’s case. He believed
he was paid, at the time of his representation of the
petitioner at the trial, $20 an hour for out-of-court time
and $30 an hour for in-court time. By contrast, in
retained cases he charged between $60 and $75 per
hour for his services. At the time of his representation
of the petitioner, he did not have an office staff or an
investigator. Accordingly, he and Wilkinson did all of
the investigation themselves. Although Stack was in
private practice during the 1986 trial, he was employed
at the public defender’s office by the time the case was
remanded by the supreme court for resentencing and,
as a public defender, was appointed to represent the
petitioner at the resentencing.
Stack testified that he obtained a mental evaluation
for the petitioner to determine competency issues and
whether an insanity defense would be available prior to
the original trial, but these services did not cover any
mitigation issues. He requested the services of an
independent psychiatrist, a private investigator, and
an independent mental evaluation, but these requests
were denied.
Stack said that he had interviewed many of the
witnesses who testified at trial, including the owners of
the motel and Sheriff Weakley. He recalled traveling to
Bowling Green, Kentucky, but could not remember the
specific witnesses he interviewed there. He did not run
a criminal background check on Daniel Blair and,

App. 396
therefore, did not know he had been convicted of theft
of livestock, which might have been used for
impeachment purposes. He also interviewed Bill Hines,
the petitioner’s stepfather; Bobby Joe Hines, the
petitioner’s half-brother; and possibly Barbara Hines,
the petitioner’s mother. Although he recalled traveling
to the home of Victoria Hines Daniel, the petitioner’s
sister, he did not remember actually meeting with her.
He acknowledged that he knew she would testify that
she saw blood on the petitioner’s clothing, but he did
not obtain any information to impeach her testimony.
He did not interview the petitioner’s former girlfriend,
Melanie Chandler, or her mother, Virginia Chandler,
both of whom lived in North Carolina.
Stack acknowledged that he did not present all of
the mitigation proof that the post-conviction defender
had been able to assemble. He pointed out, however,
that at the time of the trial and resentencing, he did
not have the benefit, apparently referring to counsel
representing the petitioner at the post-conviction
hearing, of a three-year period of time to investigate
the case as well as numerous attorneys and
investigators to work on the mitigation proof. He
testified that, as an appointed attorney, he did not have
the benefit of working on the case as much as he would
have liked because he could not afford to do so.
However, he felt he had zealously represented the
petitioner.
Stack also testified that the defense did not
challenge the composition of the jury venire at either
the 1986 trial or the 1989 resentencing, saying that it
was not considered as an issue at the original trial.

App. 397
Although he was aware that it may have been an issue
at the time of the resentencing, they did not have the
necessary time to devote to pursuing it.
Stack said that he did not interview Ken Jones prior
to the trial because he had been told by Sheriff
Weakley that Jones was at the crime scene for only a
very short period of time and did not know anything
about the murder itself. Stack testified that he knew at
the time of trial that part of Ken Jones’s testimony was
false or inaccurate. However, he explained that he held
Sheriff Weakley in high regard and trusted what he
had told him, saying: “I mean, I would take that man’s
word for anything in the world. He say[]s this hadn’t
got a dog in the hunt, don’t embarrass the man. I
wasn’t going to embarrass the man.” Stack
acknowledged that the defense team should have
interviewed Jones and that it was “ridiculous for
[them] not to have gone to interview him.” He said
there were discrepancies in Jones’s testimony
regarding his timing of the events which should have
been discovered and developed for the defense. Stack
acknowledged that Jones testified at trial that he did
not know the gender of the victim at the time of
discovery because the victim’s body was covered with a
cloth or sheet. However, the person who made the
emergency call said that a woman had been stabbed.
Stack testified that he became an assistant public
defender in 1988 and was appointed to represent the
petitioner at resentencing, as were Shipp Weems, the
public defender, and Phillip Maxey. As for the defense
team’s decision to delay their opening statement at
resentencing until just prior to their proof, Stack

App. 398
testified that they discussed this issue, but he did not
know why they decided to do so. He said that Maxey,
who was the least experienced of the three, gave the
opening statement for the defense, and both he and
Weems had anticipated a different opening. He
testified that the opening did not outline the proof they
planned to present, but rather simply asked the jury to
listen to their proof. He testified that the defense team
made the tactical decision not to present a closing
argument because it was their opinion that General
Kirby had not “presented a very forceful argument,”
and they wanted to prevent General Atkins, who was
“exceptional in his ability to . . . bring emotions out in
a jury,” from making a rebuttal argument. Stack said
that General Atkins had given a very impassioned
closing argument at the original trial, and they wanted
to keep him from doing so at the resentencing.
Stack recounted that at resentencing they called Dr.
Pamela Auble and Dr. Ann Marie Charvat to testify for
mitigation purposes. The two had been recommended
by the Capital Case Resource Center, with whom
defense counsel worked during the resentencing, and
he believed they could explain how the petitioner had
become the person he was. Dr. Charvat did not come
across as well as they had hoped, and he did not believe
the jury had grasped everything she said. Stack said
that the defense team did not know the “extent and the
nature of the types of abuse that [the petitioner] went
through growing up” and that the resentencing jury
never saw the background that the petitioner had.
Stack further acknowledged that they did not attempt
to challenge the petitioner’s prior felony conviction in
Kentucky because of the time constraints. He

App. 399
concluded that the public defender’s office did not have,
and still does not have, the sufficient resources or the
time to devote to a capital case.
William G. Wilkinson, who had been practicing law
since 1968, testified that he was appointed to assist
Steve Stack, who had been in practice a “relatively
short time.” Wilkinson described his role as “kind of
senior counsel” but said that Stack probably did more
work on the case than he did. He said he had billed
59.5 out-of-court hours and 34.4 in-court hours on the
petitioner’s case, but those numbers were very
conservative and did not include time he spent
traveling to Bowling Green, Kentucky. Wilkinson
testified that he believed he had sufficient time to
prepare for the petitioner’s trial, that he was
adequately prepared for trial, and that none of his
tactical decisions turned out to be erroneous.
Wilkinson knew that the petitioner’s sister, Victoria
Hines Daniel, had an alcohol and drug abuse problem
and recalled examining her husband, Ernest Daniel,
about her drinking problem. He was not aware of any
sexual or physical abuse allegations of Mrs. Daniel but
acknowledged that information as to this would have
been useful. Wilkinson said that the petitioner “may”
have told him about the abuse inflicted upon him by his
stepfather. He had the petitioner examined by a
psychiatrist who determined he was competent to
stand trial.
Wilkinson said he did not interview the four people
from Kentucky who gave the petitioner a ride and did
not know before trial that one of them, Daniel Blair,
was going to testify that he saw blood on the

App. 400
petitioner’s shirt. Had he known of the substance of
Blair’s testimony, he would have checked Blair’s
criminal record for impeachment purposes. He recalled
that Blair testified about his ability to recognize blood
and about washing bloodstains out of fabric although
he could not recall Blair’s exact testimony. He
acknowledged that, in hindsight, it would have been
helpful to have had an expert refute Blair’s testimony
about washing out bloodstains.
Wilkinson said that he discussed Ken Jones’s
situation with Sheriff Weakley and believed that
Weakley had told him everything he knew. He did not
interview Ken Jones, Vernedith White, or Virginia
Chandler and, in hindsight, would liked to have had
more time to inquire about why Jones and White sat in
front of the CeBon Motel for over three hours on the
day of the murder. As for Dr. Harlan’s testimony,
Wilkinson said that it may have been helpful to have
had another pathologist review Harlan’s findings.
Regarding the petitioner’s jury, Wilkinson said that
three women, two of whom he knew, served on the jury
and he believed he had adequately prepared for the
jury selection. He was not aware of any disparity
between the number of women available and the
number actually called to serve in Cheatham County.
He was aware of some Tennessee case law prior to 1985
where challenges had been made to jury composition
based on race or gender.
Shipp Weems was the District Public Defender for
the Twenty-Third Judicial District, which included
Cheatham County, at the time of resentencing and in
that capacity had been appointed to represent the

App. 401
petitioner at resentencing. He was not involved in the
preparation phase of resentencing but assisted in voir
dire. Weems confirmed Stack’s testimony that they
agreed to waive closing argument at resentencing in
order to prevent the prosecution from giving a rebuttal
argument. He had tried six or seven capital cases prior
to the petitioner’s resentencing and was aware of the
importance of mitigation proof. In hindsight, he felt
that much more work should have been done on the
petitioner’s social history for purposes of mitigation. As
to the workload of the public defender’s office in 1989,
Weems said that the office had three attorneys who
each handled approximately 800 cases. Although the
office was budgeted to have an investigator, that
position was filled by an attorney because the office
was only budgeted to have two attorneys, and that
number could not handle the entire district. In his
opinion, at the time of the petitioner’s resentencing, the
attorneys in that public defender’s office “didn’t have
the luxury to prepare a misdemeanor case much less a
capital case.” Weems testified that they were “looking
for women” when choosing the jury for resentencing,
and concluded that the defense team did not get the
jury pool they wanted for the resentencing.
Phillip Maxey, a juvenile court judge at the time of
the post-conviction hearing, had been appointed to
represent the petitioner at resentencing. At the time,
he had been practicing for about five years. Although
he had taken several cases to trial, he “knew very
little” about capital case representation at the penalty
phase. He testified that he interviewed Sheriff
Weakley, the investigating officers, and a juvenile court
judge in Bowling Green, Kentucky. He also worked

App. 402
with Drs. Auble and Charvat and the Capital Case
Resource Center. He said that the defense team was as
prepared as they could have been and that they had
been able to negotiate two life sentences for the
petitioner, which were denied. He believed they had
presented strong mitigation proof and said they waived
closing argument in an effort to prevent the State from
making a rebuttal argument. They believed that the
State would wait until rebuttal to “really throw it all”
at the jury. He did not recall any discussions about
challenging the jury venire.
Daniel Blair, who testified at the petitioner’s
original trial, was one of the four people from Kentucky
who picked up the petitioner on March 3, 1985, on
Interstate 65, after they noticed his car was disabled,
and drove him to Bowling Green, Kentucky. Blair was
on probation at the time and was not supposed to have
left the State of Kentucky, although he was never
charged with violating his probation and was told by a
Kentucky deputy sheriff that his leaving the state
would not be a problem. At the post-conviction hearing,
Blair testified that he had seen “what looked like blood”
on the petitioner’s shirt, although at the trial he had
testified that it was blood.
Melanie Chandler, the former girlfriend of the
petitioner and a friend of Victoria Hines Daniel, his
sister, testified that she and the petitioner had a child,
Anthony Scott Hines, who was born January 1, 1981.
The petitioner’s mother adopted the child when he was
two years old. She testified she had last seen the
petitioner around February 1985 when he came to her
house in North Carolina. When he arrived, he only had

App. 403
a few items with him, one of which was a small, folding
knife she previously had given him. During his visit,
they went to a party with some friends of hers, and, as
they were returning home, the petitioner and the friend
who was driving got into an argument. After the
petitioner grabbed the friend who was driving the car,
Chandler grabbed the petitioner, who accidentally
struck her in the eye, causing bruising. She said that
he had never before struck her but had always been
protective. Chandler’s mother, Virginia Chandler,
called the police and forced the petitioner to leave.
Later that night, the petitioner appeared at Melanie’s
window. She allowed him inside, and he hid in her
closet for approximately one week before her mother
discovered him. Her mother bought the petitioner a
one-way bus ticket to Kentucky.
Chandler said that she knew her mother had
testified at the petitioner’s trial, but defense counsel
never contacted her. She acknowledged knowing she
was supposed to appear in court at the trial, but she
had just had a baby and decided not to do so. She
testified that she did not know that the petitioner was
on trial for murder. She thought her mother lied at the
trial when she stated that she had seen the petitioner
sharpening his knife with a bootstrap. She said that
her mother later told her that the petitioner had been
found guilty of murder and had been executed. She
believed the petitioner was dead until the
post-conviction defender’s office contacted her in 1997
or 1998. Since learning that the petitioner was alive
and in prison, she had written him several letters and
had visited him in prison.

App. 404
Robert Ernest Daniel testified that he had been
married to Victoria Hines, the petitioner’s sister, for
about two years. He met the petitioner while the
petitioner was on parole in Kentucky and gave him a
job doing construction work. The petitioner was a hard
worker, and they were friends “[t]o a point.” Daniel
said that the petitioner carried a small pocketknife
with him on the job and also had an “Army type
survivor” knife with a fixed blade. He believed that the
knife blade was approximately six inches long, with one
end serrated and the other sharp. He recalled that the
petitioner gave the knife to his brother, Bobby Joe, who
kept it in a drawer at their home.
Daniel testified that on March 3, 1985, the
petitioner appeared at his apartment, wearing blue
jeans, a white t-shirt, an Army jacket, and white tennis
shoes. Victoria’s birthday was the day before or the day
after the petitioner arrived, and the petitioner wanted
to buy a grill for her. Daniel gave the petitioner some
money because the petitioner did not have enough to
purchase the grill. He then drove the petitioner to Park
City or Cave City, Kentucky, and dropped him off.
Later that night, the police came to his home and
questioned him about the petitioner’s whereabouts. At
the time, he thought the police wanted to question the
petitioner about a probation violation, so he “acted
stupid.” When he later learned that the police wanted
to question the petitioner in connection with a murder,
he told the police where he had taken the petitioner.
On cross-examination, Daniel said that he testified
at the original trial that Victoria only drank
occasionally “because she was my wife at the time and

App. 405
I would be very protective of her.” This testimony was
inaccurate because Victoria drank heavily. He denied
testifying that the petitioner had something bulky in
his Army jacket and that he did not know when
Victoria’s birthday was. He denied remembering seeing
the petitioner with a set of car keys or that he had
asked the petitioner why he had a Volvo. During a
recess, the court ordered Daniel to take a breath
alcohol test. Daniel admitted that he had consumed “a
couple of beers” before coming to testify at the postconviction hearing, and the court found him to be in
contempt, ordering him to serve twenty-four hours in
the Cheatham County Jail.
Victoria Hines Daniel Furlong, the petitioner’s
sister, testified at both the original trial and the
post-conviction proceeding. She said that her
stepfather, Bill Hines, was abusive to her, her siblings,
and her mother. Her stepfather used “tobacco sticks,
belts, belt buckles . . . anything that he could get a hold
of to whoop us with.” He also drank beer and liquor “all
the time” which caused his attitude to change, and the
“beatings got worse.” She said that the petitioner often
attempted to intervene to protect her and their sister,
Debbie, which caused the petitioner to be beaten more
severely. She recalled one incident where her
stepfather knocked the petitioner into the corner of a
fireplace, rendering him unconscious. However,
medical attention was not sought for the petitioner.
Often there was not much food in the house. In
addition to the physical abuse, Bill Hines sexually
abused her from the age of nine. She and the petitioner
began drinking at the age of eleven or twelve. They
both also smoked “dope,” and the petitioner sniffed

App. 406
glue. She admitted that she drank heavily from the
time she was twelve or thirteen and had only recently
stopped drinking. She also said that she was married
to Ernest Daniel for five years, during which time he
often beat her severely.
Furlong said that her birthday was February 4 and
that on March 3, 1985, the petitioner had given her a
grill as a belated birthday gift. She said that, if she had
testified at the original trial that she saw blood on the
petitioner on March 3, 1985, when he arrived at her
house, it was because she had been drinking. At the
post-conviction proceeding, she testified that the
petitioner had fallen in red clay mud prior to arriving
at her house and that is what she saw on his clothes.
She said she was not interviewed by the petitioner’s
attorneys prior to the resentencing, and the prosecutors
had tricked her into talking to them prior to the
original trial by telling her they were the petitioner’s
attorneys. She said she was drinking whiskey and
water when they came to her house and asked
questions. She thought they were tape-recording their
conversation, but they denied it. She said she later saw
a recording device and ordered the men out of her
home.
Furlong acknowledged that she was an alcoholic.
She did not remember testifying that the petitioner had
gotten into a struggle at the motel and did not believe
that she had testified as the transcript of the original
trial reflected. If the transcript were correct, then she
was “[p]robably” lying in 1986 because of her drinking.
She admitted that she had never reported any of the
sexual abuse by her stepfather. It was her

App. 407
understanding that her stepfather had continued with
his sexual abuse of young girls, including her niece, but
she had never reported him to law enforcement
officials.
Lee David Miles testified at the post-conviction
hearing that he is a transsexual and formerly had been
the petitioner’s oldest sister, Debbie Hines. According
to Miles, the petitioner and Bill Hines were very close
until the petitioner was approximately age six and
learned that Bill Hines was not his biological father. At
that time, the petitioner became resentful toward Bill
Hines. Miles saw Bill Hines hit the petitioner with his
hands, a belt, a tobacco stick, and a car antenna. Hines
beat the petitioner “four or five times a week.” Miles
related one incident where Bill Hines threw the
petitioner, who could not swim, into a partially frozen
pond as punishment for throwing tires in the pond. An
uncle and Miles had to go in after the petitioner, and
Miles pulled him out. Miles also testified that their
stepfather got mad at Miles for breaking an antenna off
his car. He beat Miles, Furlong, and the petitioner with
the antenna to the point that he drew blood. Miles
further testified that the petitioner once fell off a stack
of hay bales on top of a wagon. He hit his head on the
ground and was bleeding, but Bill Hines refused to
take him to the doctor. Miles also testified that the
petitioner was very protective of his siblings and often
intervened during Bill Hines’s attacks and abuse. Bill
Hines also shot and killed the family dog and her
puppies in front of the children.
Miles also testified that Bill Hines sexually abused
him four to five times a week from the age of six until

App. 408
the age of eighteen and that he was a female at the
time the sexual abuse occurred. Miles also said that he
was raped at the age of sixteen by Bill Hines and that
Hines tried to force him to have sex with a friend of his,
but Miles “fought with his friend for a while and then
his friend got tired and said well I am not going to do
this, let’s just leave.”
Miles said that when the family moved to Bowling
Green, Kentucky, the petitioner and Victoria began
drinking heavily and the petitioner also began sniffing
glue and gasoline and smoking marijuana. The children
often ate cereal with water for all three meals because
their parents spent their money on beer and cigarettes.
However, Bill Hines bought food for Bobby Joe Hines
because he was his biological son. Miles never saw Bill
Hines strike Bobby Joe. Miles recalled visiting the
petitioner at the Green River Boys Camp and the
petitioner cried and begged their mother to take him
home, but their stepfather refused to let her. After
their mother attempted suicide, she left with only
Bobby Joe and moved to Illinois. Soon thereafter, Miles
left home also. Their mother subsequently returned
home after learning that Miles had left. Miles testified
that he was never contacted by the defense attorneys,
but he tried to contact them to offer to pay their fees.
Connie Westfall, an investigator in the
post-conviction defender’s office, said that she met with
the Hines family and that it took them a “great deal of
time” to open up to her. Ms. Westfall estimated that
she worked more than 1000 hours on the petitioner’s
case.

App. 409
Dr. Pamela Auble, a psychologist specializing in
clinical neuropsychology, who had testified at the
resentencing, testified also at the post-conviction
hearing, saying she first evaluated the petitioner in
May 1989. After meeting with the petitioner, she
reviewed his social history, as well as his school
records, prison records, and records from the Middle
Tennessee Mental Health Institute which were
provided by defense counsel. Her diagnosis of the
petitioner was paranoid personality disorder and
dystonia, which is depression.
Dr. Auble said that she did not have enough time
prior to the resentencing hearing to develop a trusting
relationship with the petitioner. She said she was only
given a little over a month to work on the petitioner’s
case but that, in general, three to four months was
optimal, depending on the case. It would have been
helpful to have had the petitioner evaluated by an
expert in chemical dependency and to have had more
information about his social history. She acknowledged
that, at the time of resentencing, she knew little about
the petitioner’s alcohol abuse or the sexual abuse in his
family. She testified that Steve Stack “didn’t seem very
confident in his own abilities,” and she believed defense
counsel did not have much understanding of the mental
health issues in the case.
On cross-examination, Dr. Auble acknowledged that
she knew the petitioner’s parents drank when they
were not at work, suspected that he had suffered
physical abuse, and knew that he abused alcohol and
drugs. She said she was not aware of the alcoholism in
the petitioner’s family or of the extent of the abuse

App. 410
suffered by the Hines children. She believed her
diagnosis of the petitioner’s emotional problems, of
which she testified at the resentencing hearing, was
correct. She said that she would liked to have referred
the petitioner to an expert on the issue of addiction,
such an expert being needed to determine the extent
and nature of the alcoholism and drug abuse and the
effects these had on the petitioner. She explained that
the combination of the history of addiction in the
petitioner’s family that she now had knowledge of,
together with his relatively normal neuropsychological
testing, raised the issue that the petitioner may have
a “chemical lack of neurotransmitter substance.” Dr.
Auble said that this was one area of her testimony that
would have been different had she had additional time
to work on the petitioner’s case.
Dr. Ann Marie Charvat, a sociologist and a
mitigation specialist, also testified at the petitioner’s
resentencing hearing and again at the post-conviction
hearing, the former being the first capital case on
which she had worked. Her first involvement with the
petitioner’s case was on May 10, 1989, “just a matter of
days” after receiving her PhD. Dr. Charvat interviewed
the petitioner, several of his family members, and
several of his friends prior to the resentencing. She did
not obtain any medical records on any of the family
members. The petitioner told Dr. Charvat about the
physical abuse he and his sisters endured, and she
learned of the petitioner’s alcohol and drug abuse. Dr.
Charvat was not told about the sexual abuse, but she
suspected that it had occurred. She said that
information about the sexual abuse and the fact that
the petitioner tried to be his sisters’ protector were

App. 411
important for purposes of mitigation. Asked if she had
overlooked anything in her evaluation of the petitioner,
Dr. Charvat said that she had “failed to look at certain
factors . . . which include family history, medical
records. . . . I would have collected more records. I
believe that I did identify that his bond to society had
suffered. I failed to tie it to the crime. There are a
number of things to investigate that . . . I hadn’t.”
Dr. Charvat testified, as she had done at
resentencing, regarding the petitioner’s confinement at
Green River Boys Camp in Kentucky, where a method
of behavior modification known as grouping was used.
The groupings often became physically and verbally
abusive. She explained that the bad behavior of one boy
in the group caused the entire group to lose privileges.
Dr. Charvat testified at resentencing about one
incident at Green River where the petitioner and
another boy were pushed into sewage. She said that
she was aware in 1989, the time of resentencing, that
programs using grouping had extensive problems and
that there was literature available on this issue. She
explained that although the activities and potential
abuse at Green River, as they related to the petitioner,
could have been extremely important for mitigation
purposes, she did not have enough time to further
develop those issues.
Dr. Charvat said that she still agreed with the
sociological conclusions that were presented to the jury
at the resentencing. She believed the weakness was in
the way they were presented to the jury and said that
“there were many parts of [her testimony] that . . .
were not well articulated, not clear.” It was also her

App. 412
opinion that the petitioner’s background was not
adequately distinguished from that of any other unruly
child.
Dr. William Kenner, a psychiatrist, testified that
the petitioner suffered from post-traumatic stress
disorder (“PTSD”), antisocial personality disorder,
status post-head injury, and inhalant abuse. He said
that the petitioner was sexually abused by both his
stepfather and a maternal uncle and physically abused
by his stepfather, opining that the abuse caused the
petitioner’s PTSD. The physical abuse inflicted upon
the petitioner by his stepfather included hitting him in
the head with a tobacco stick, whipping him with car
radio antennas, throwing him into a pond although he
could not swim, and shooting the family dog and her
puppies in front of him and his siblings. The
petitioner’s mother was also a victim of Bill Hines’s
abuse, and the petitioner often tried to protect her. At
the age of eight or nine, the petitioner sustained a head
injury when he fell off a wagon of hay and was knocked
unconscious. The petitioner did not receive any medical
treatment for this injury.
Explaining how PTSD affects the brain, Dr. Kenner
said that a person with PTSD repeats or replays
traumatic events throughout life and that PTSD can
alter a person’s character and change his or her
behavior. Dr. Kenner testified that in the petitioner,
PTSD created a paranoid quality. Dr. Kenner opined
that the head injuries the petitioner suffered
throughout his life could have caused organic
personality syndrome, which made him even more
volatile and difficult to manage. The petitioner’s abuse

App. 413
of inhalants such as glue and gasoline also caused
damage to his brain. Dr. Kenner concluded that the
petitioner’s choosing a woman for his victim was
inconsistent with the petitioner’s personal history, as
there was no indication that he had hard feelings
toward women.
On cross-examination, Dr. Kenner acknowledged
that the petitioner had been in and out of jail since the
age of fifteen. He further acknowledged that a report
prepared by the Middle Tennessee Health Institute and
the Harriet Comb Mental Health Center indicated that
the petitioner experienced difficulty in relationships
with women, as the result of problems with girlfriends
and family interference, exhibited a preoccupation with
thoughts of violence, and displayed extreme prejudice
toward African-Americans. Additionally, a report
prepared by the Tennessee Department of Correction
stated that the petitioner, once confined on death row,
acknowledged to security personnel that he hated both
women and African-Americans. Dr. Kenner testified
that although the petitioner said that he hated women,
he did not believe him because his behavior indicated
differently. He said he had much more information
concerning the petitioner than Dr. Charvat did prior to
preparing her report for the resentencing. He believed
that Dr. Charvat should have interviewed the
petitioner’s sisters and mother in order to get a true
picture of “how bad things were for [the petitioner]
growing up.”
Dr. Murry Wilton Smith, a specialist in addiction
medicine, testified that the petitioner is a Type II
alcoholic. He explained that Type II alcoholism, a

App. 414
primary medical illness based in brain chemistry, is
inherited and involves rapid early onset of alcoholism,
usually between the ages of nine and twelve, and is
associated with antisocial behavior and early legal
trouble. Dr. Smith also testified that the petitioner had
used inhalant solvents and marijuana. He was aware
of the petitioner’s low levels of serotonin, which is
associated with violent behavior and Type II
alcoholism. He said that current treatment for Type II
alcoholism, which was not available in 1989, consisted
of alcohol and drug treatment, intensive physiotherapy
with a counselor, and medication to improve the
serotonin level. On recross examination, Dr. Smith
acknowledged that although medications to increase
serotonin levels were available in 1986, there was not
a routine to monitor. He also stated that a
characteristic of Type II alcoholics is a lack of
motivation to follow instructions or a schedule.
Dr. Paul Rossby, an expert in molecular
neurobiology and the study of serotonin, testified that,
as a molecular biologist, he studies the chemistry of the
brain and the biological basis of behavior. According to
Dr. Rossby, serotonin blocks pain and orchestrates
inhibition within the brain. Dr. Rossby testified that
research of serotonin dated back to at least the 1970s.
He further said that there would have been a
“tremendous amount” of literature available on
serotonin at the time of the petitioner’s resentencing in
1989 and a “great deal” of literature available at the
time of the petitioner’s trial in 1986. He said that low
levels of serotonin have been associated with impulsive
behavior, but none of the studies has indicated that it
causes violence.

App. 415
Dr. Rossby had a spinal tap performed on the
petitioner to determine his serotonin levels, which were
“at the extreme low level” of the normal male
population. He opined that the petitioner’s serotonin
levels, coupled with his Type II alcoholism, resulted in
the petitioner’s being organically impaired and said
that the petitioner does not have the biological capacity
to control his impulsive behavior. Dr. Rossby said that
in a person with low levels of serotonin, once an
impulse is triggered, there is no ability to control the
impulse. He acknowledged that he did not testify on
the issue of serotonin levels until 1999. He first worked
on a case involving a serotonin defense in
approximately 1992, and was not aware of any expert
who had testified on the issue of serotonin prior to the
time he was involved with his first case.
Dr. Henry Cellini, an educational psychologist who
was offered as a rebuttal witness on behalf of the State,
testified that serotonin research began in the 1970s but
had only been fully developed in the last fifteen to
twenty years. With regard to the petitioner’s case, Dr.
Cellini testified that the practical application of
serotonin levels to behavior was in its “infancy” in the
mid-1980s. He said that research indicates that the two
primary factors of antisocial personality disorder are
impulsive aggression and psychopathic tendencies or
thinking.
Two witnesses were presented as to the claims
regarding the Green River Boys Camp in Kentucky and
its alleged effects on the petitioner. Tammy Kennedy,
an investigator with the post-conviction defender’s
office, said that she interviewed former residents and

App. 416
staff members. The former residents told her that,
when they arrived at camp, they were immediately
subjected to grouping, which consisted of several boys
surrounding the new resident and physically and
verbally abusing him. She said that the former
residents told her at times they had sewage detail,
which involved two boys holding a resident by the legs
and dumping him into the sewage. They were forced to
scrub the pavement until their brushes were gone and
their hands were blistered. A juvenile specialist who
had visited Green River advised Ms. Kennedy that
schooling was minimal and that there were reports of
physical, sexual, and verbal abuse of the residents. Ms.
Kennedy said that several other death row inmates
were former residents of Green River.
Dr. David Richart, an expert in the operation of the
juvenile justice system and residential treatment
facilities in Kentucky, testified that he had
investigated Green River in connection with his
position as the Executive Director of Kentucky Youth
Advocates, Inc. He said that the theory behind creating
the juvenile camps was to take youthful offenders out
of large, training school facilities and place them in
smaller, community-like settings where they would
both work and receive therapy consisting of guided
group interaction, positive peer culture, and reality
therapy. These theories of treatment were based on the
fact that juveniles who committed crimes did so for
peer-related reasons. The purpose of the therapy was
“to turn something negative into something positive.”
However, problems arose when the state reduced the
number of employees, which resulted in the staff
allowing the residents to discipline themselves. Dr.

App. 417
Richart’s investigation also revealed that the staff had
not received the essential training required for this
type of “sophisticated treatment.”
Dr. Richart testified that new residents at Green
River were first greeted by a group of fifty to sixty boys
who encircled the new resident, screaming at and
intimidating him. Because the group would surround
the new resident so tightly that the staff could not see
“what was going on below shoulder height,” the new
resident was often physically assaulted as well. Dr.
Richart explained that residents at Green River were
subjected to “grouping” for simple reasons, such as not
having a good opinion of themselves or taking an extra
packet of sugar at lunch. After becoming convinced that
the residents were being harmed “as a result of using
these very controversial emotionally and
psychologically harassing techniques,” Dr. Richart
became concerned about the youths’ psychological state
and the damage that might occur. He recalled having
to transport some youths to mental institutions
because they experienced “psychotic breaks” while at
camp. Dr. Richart said that Green River had
compounded the youths’ feelings of isolation and had
done nothing to contribute to pro-social behavior, and
he was not surprised to learn that many of them
subsequently went to prison.
In Dr. Richart’s opinion, the petitioner’s six and
one-half months at Green River intensified his criminal
tendencies, exacerbated his antisocial tendencies, and
made him see the world as a hostile place. Dr. Richart
also believed that the petitioner was completely
inappropriate for grouping, “because he just wasn’t the

App. 418
kind of person that wanted to talk about his family.”
Referring to the treatment at Green River as
“psychological torture,” Dr. Richart opined that it was
“probably the worst experience of [the petitioner’s] life.”
On cross-examination, Dr. Richart acknowledged
that some juveniles may have benefitted from Green
River and that residents, including the petitioner who
had a substance abuse problem prior to going to Green
River, would not have had access to drugs or alcohol
while there. Dr. Richart read into evidence some of the
staff’s reports on the petitioner, which characterized
him as easily agitated and having a bad temper but
also as a capable person, a good worker, and “fairly
consistent in his supportive leadership in the group.”
Dr. Chris Sperry, the Chief Medical Examiner for
the State of Georgia, testified concerning the number
and location of stab wounds found on the victim. He
had reviewed the victim’s autopsy report, photographs
of the crime scene, and witness reports of Mary
Sizemore and Sheriff Weakley. He testified that there
were pools of blood beneath the air conditioning unit
and a spot where the victim’s body was found, but none
between those two areas. Due to the lack of blood in the
room, Dr. Sperry concluded that the struggle was “very
quick” and may have occurred in less than one minute.
He also stated that all of the wounds, except the
vaginal wound, were inflicted very rapidly. He opined
that the victim remained conscious for about fifteen to
thirty seconds following the stab to the heart. He
explained that once she lost consciousness, she felt no
pain; it was as if she were under anesthesia. As a
result of the wounds to her heart, it was not possible

App. 419
for her to have been conscious for three or four
minutes, contrary to Dr. Harlan’s testimony. Dr.
Sperry further estimated that the victim would have
been dead, her heart would have stopped beating,
between three and four minutes after she sustained the
heart wounds. On cross-examination, Dr. Sperry
acknowledged that the stab to the heart could have
occurred last, and, if so, the victim could have been
conscious until that time.
Dr. Sperry also testified that it was possible that
the assailant had blood transferred onto his or her
person because the victim had blood on the inside of
her legs, and it appeared that someone with bloody
hands had gripped her legs. It also appeared that the
victim had been dragged to the area where her body
was found, which would also have caused a transfer of
blood from her to the assailant. He said that blood is
difficult to wash out of clothing and that if someone
committed a stabbing, washed off the blood, and then
immediately got into a vehicle, there would usually be
traces of blood transferred to the vehicle. Dr. Sperry
testified that the wound to the victim’s vagina occurred
at or after the time of death. He said that the infliction
of this type of wound was “an indicator of some kind of
mental problem dealing with . . . women. Hatred or
anger towards women.” He also said that this type of
injury was a “very specific expression of power of a
female victim.”
Dr. Charles W. Harlan, who performed the victim’s
autopsy, testified that he strongly disagreed with Dr.
Sperry’s opinion that the victim’s attack and injuries
occurred in less than one minute. He said that the

App. 420
victim lost 950 “cc’s” of blood into her chest. He
explained that the heart pumps between 25 and 30
“cc’s” per heartbeat “under an optimum situation,” but
the stroke volume would be “gradually diminishing”
because of blood squeezing the victim’s heart, as the
result of the wound, and the loss of blood itself. He
further testified that an individual is usually conscious
approximately 80% of the time that it takes to bleed to
death. He believed that it would have taken
considerably longer than thirty seconds to a minute for
the victim to bleed to death, opining that “she probably
lived a minimum of four to five minutes and that she
would have been conscious for 80 percent of that time.
It’s possible that she lived longer than that, up to ten
to fifteen minutes, but at least a minimum of four to
five minutes.” In his opinion, the victim’s vaginal
wound was inflicted at or near the time of her death,
and there was no way to know for certain whether she
was conscious at the time it was inflicted. Dr. Harlan
acknowledged that Dr. Sperry had testified in
contradiction to his testimony in nine cases, including
the petitioner’s case.
The proof at the post-conviction hearing on the issue
of the jury venire consisted of five witnesses and a
report prepared by a statistician, Dr. James M.
O’Reilly, which concluded that there was an
underrepresentation of women on the jury venire for
Cheatham County for years 1979 to 1990. During the
pertinent years, the female population of Cheatham
County accounted for 50.6 to 50.7% of the total
population. By contrast, the percentage of women in
the Cheatham County venire was between 10 and 22%.

App. 421
Connie Westfall, of the post-conviction defender’s
office, testified that she had investigated the issue of
the composition of the jury pool at the petitioner’s 1986
trial as well as his resentencing. At the time of her
investigation, only one of the three jury commissioners
for the relevant time period, C.E. Dunn, was able to
meet with her. Dorris Winters, one of the
commissioners, was deceased; and the other, Martha
Adkisson, was confined to a nursing home and unable
to be interviewed because of her mental condition.
Dunn provided Westfall with an affidavit because he
had suffered a stroke and was unable to travel to court.
Basically, his affidavit stated that they used the voter
registration list as the exclusive source of obtaining
people for the purpose of filling the jury box, and the
jury commissioners met every two years to fill the jury
box. Ms. Westfall testified that she also interviewed
Delores Moulton, Lloyd Harris, the tax assessor, and
trustees. She said that when she first spoke with Mr.
Harris, he recalled using the voter registration list and
later remembered that they may have used property
lists and the telephone book.
Dorothy Jones, the Cheatham County Trustee, said
that she had been the trustee for six years at the time
of the post-conviction hearing and, prior to her service
as trustee, her husband was the trustee. She had
worked in the trustee’s office since 1982. During her
years of employment in that office, no one ever had
been allowed to remove the tax roll books from the
office. She acknowledged, however, that the tax records
were public records and anyone could come into the
office and review them.

App. 422
Betty Balthrop, the Cheatham County Property
Assessor, said that she had occupied that position since
1988 and had worked in the office since 1978. Ms.
Balthrop testified that since her employment in the
assessor’s office, no one had physically removed the tax
records for the purpose of copying them. She
acknowledged that the tax records were public records
which exist in Nashville and elsewhere in the state.
Delores Moulton was the Cheatham County Circuit
Court Clerk from 1990 to 1998. Previously, she served
as the deputy clerk, beginning in 1972. Her father,
Lloyd Harris, was the Cheatham County Circuit Court
Clerk prior to her tenure. Ms. Moulton testified that
the jury commissioners met every two years to charge
the jury box and that the voter registration list was
their major source of obtaining names because they had
more access to it. She stated that they started out
“randomly, maybe, every sixteenth one or twentieth
one down and wr[o]te the name and address on a little
jury ticket.” She explained that each of the jury
commissioners took a different section of the list and
worked independently. While they were charging the
box, the only names taken out were the names of those
known to be deceased. She further explained that at
the end of the two years, the names in the box were not
removed, but new names were added.
After the jury box was charged, they gathered the
jury list as needed. Either a child under the age of ten
or Ms. Moulton, wearing a blindfold, picked the names
out of the box. Ms. Moulton testified that the jury
commissioners sat together while compiling the names.
Names of deceased persons were discarded. If school

App. 423
was in session, schoolteachers’ names were set aside.
Students away at college were omitted from the list.
Also, at times, if they knew a woman had just had a
baby, they removed her name. They compiled a list of
150 or more names, which made up the sheriff’s venire.
The sheriff summoned these persons to court where
each was assigned a number. The judge then drew
twelve numbers out of a box, and those persons
comprised the grand jury. Ms. Moulton testified that
Dorris Weakley was the sheriff in 1986 and 1989.
During his administration, only thirty to fifty
prospective jurors out of 150 actually appeared in court
as summoned, but the percentages increased
drastically under the next sheriff’s administration.
On cross-examination, Ms. Moulton testified that,
in addition to the voter registration list, they also used
the telephone book and tax records to randomly select
names, although the voter registration list was the
main source. She believed they followed the Tennessee
statutes in gathering and preparing the jury venire.
She said the commissioners “never discriminated
anyone because of race, color, or nationality or men or
women.” She recalled that Martha Adkisson
complained if she thought too many women were being
put on the list; however, she believed Ms. Adkisson’s
reason for doing so was “to equal out . . . the men and
the women.”
Lloyd Harris, Delores Moulton’s father, served as
the Cheatham County Circuit Court Clerk prior to Ms.
Moulton, occupying the position for twenty-four years.
He testified that the three jury commissioners met
every two to three months to select names, and he

App. 424
recalled Junior Dozier, the tax assessor, providing him
with names from the tax lists. He used the telephone
book for this purpose, although most of the names were
taken from the voter registration list. He testified that
Martha Adkisson was a schoolteacher and sometimes
set aside the names of teachers because, at that time,
there was a shortage of substitute teachers. He also
recalled that, a few times during harvest season, a
farmer’s name was set aside, and, during the 1970s and
1980s, it was easy for women with young children to
get out of serving on the jury, but that changed through
the years. He stated that the jury box was charged
about every two years. He testified that they went
down the voter registration list, wrote down every
twentieth or twenty-fifth name, placed it in the box,
and tried not to discriminate against any class of
potential jurors. Harris said that the voter registration
list, the tax list provided by Dozier, and the telephone
books were the only sources used in the jury selection
at the time of the petitioner’s 1986 trial and in 1989.
II. ANALYSIS
In his argument on appeal, the petitioner has set
out five claims, three asserting that counsel were
ineffective at his 1986 trial, his 1989 resentencing
hearing, and on the direct appeal of his conviction, one
asserting that he was prejudiced because of the
exclusion of women from the jury panel, and one
claiming that imposition of the death penalty violates
various of his rights afforded by the federal and state
constitutions.

App. 425
A. Standard of Review
In order to determine the competence of counsel,
Tennessee courts have applied standards developed in
federal case law. See State v. Taylor, 968 S.W.2d 900,
905 (Tenn. Crim. App. 1997) (noting that the same
standard for determining ineffective assistance of
counsel that is applied in federal cases also applies in
Tennessee). The United States Supreme Court
articulated the standard in Strickland v. Washington,
466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984),
which is widely accepted as the appropriate standard
for all claims of a convicted petitioner that counsel’s
assistance was defective. The standard is firmly
grounded in the belief that counsel plays a role that is
“critical to the ability of the adversarial system to
produce just results.” Id. at 685, 104 S. Ct. at 2063. The
Strickland standard is a two-prong test:
First, the defendant must show that counsel’s
performance was deficient. This requires
showing that counsel made errors so serious
that counsel was not functioning as the “counsel”
guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show
that the deficient performance prejudiced the
defense. This requires showing that counsel’s
errors were so serious as to deprive the
defendant of a fair trial, a trial whose result is
reliable.
Id. at 687, 104 S. Ct. at 2064. The Strickland Court
further explained the meaning of “deficient
performance” in the first prong of the test in the
following way:

App. 426
In any case presenting an ineffectiveness claim,
the performance inquiry must be whether
counsel’s assistance was reasonable considering
all the circumstances. . . . No particular set of
detailed rules for counsel’s conduct can
satisfactorily take account of the variety of
circumstances faced by defense counsel or the
range of legitimate decisions regarding how best
to represent a criminal defendant.
Id. at 688-89, 104 S. Ct. at 2065. The petitioner must
establish “that counsel’s representation fell below an
objective standard of reasonableness under prevailing
professional norms.” House v. State, 44 S.W.3d 508,
515 (Tenn. 2001) (citing Goad v. State, 938 S.W.2d 363,
369 (Tenn. 1996)).
As for the prejudice prong of the test, the Strickland
Court stated: “The defendant must show that there is
a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is
a probability sufficient to undermine confidence in the
outcome.” 466 U.S. at 694, 104 S. Ct. at 2068; see also
Overton v. State, 874 S.W.2d 6, 11 (Tenn. 1994)
(concluding that petitioner failed to establish that
“there is a reasonable probability that, but for counsel’s
errors, the outcome of the proceedings would have been
different”).
Courts need not approach the Strickland test in a
specific order or even “address both components of the
inquiry if the defendant makes an insufficient showing
on one.” 466 U.S. at 697, 104 S. Ct. at 2069; see also
Goad, 938 S.W.2d at 370 (stating that “failure to prove

App. 427
either deficiency or prejudice provides a sufficient basis
to deny relief on the ineffective assistance claim”).
By statute in Tennessee, the petitioner at a
post-conviction relief hearing has the burden of proving
the allegations of fact by clear and convincing evidence.
See Tenn. Code Ann. § 40-30-210(f) (1997). A petition
based on ineffective assistance of counsel is a single
ground for relief, therefore all factual allegations must
be presented in one claim. See Tenn. Code Ann.
§ 40-30-206(d) (1997).
The procedure which we follow in our review was
explained in detail by our supreme court in State v.
Honeycutt, 54 S.W.3d 762, 766-67 (Tenn. 2001):
The issue whether a petitioner has been
denied the effective assistance of counsel is a
mixed question of law and fact. State v. Burns,
6 S.W.3d 453, 461 (Tenn. 1999). A trial court’s
findings of fact are entitled to substantial
deference on appeal unless the evidence
preponderates against those findings. See
Henley v. State, 960 S.W.2d 572, 579 (Tenn.
1997). Under this standard, appellate courts do
not substitute their own inferences for those
drawn by the trial court, and questions
concerning the credibility of the witnesses, the
weight and value to be given their testimony,
and the factual issues raised by the evidence are
to be resolved by the trial judge. Henley, 960
S.W.2d at 579. However, this Court reviews de
novo the application of law to those factual
findings to determine whether counsel’s
performance was deficient or whether the

App. 428
defendant was prejudiced by that deficiency.
Thus, when evaluating a claim of ineffective
assistance of counsel, we review the trial court’s
findings of fact under a de novo standard,
accompanied by a presumption that the findings
are correct unless the preponderance of the
evidence suggests otherwise, while the trial
court’s conclusions of law are reviewed de novo
with no presumption of correctness. Fields v.
State, 40 S.W.3d 450, 457-58 (Tenn. 2001).
B. Ineffective Assistance of Counsel at 1986
Trial
The petitioner alleges that trial counsel were
ineffective in failing to interview and effectively
cross-examine Ken Jones, to object to Sheriff Weakley’s
participating in the voir dire of prospective jurors, to
discover impeachment evidence, and were ineffective as
well because of their lack of experience and resources.
We will review these claims.
1. Failure to Interview and Effectively
Cross-Examine Ken Jones
The petitioner argues that trial counsel sanctioned
the perjured testimony of Ken Jones at the 1986 trial
and failed, at the request of Sheriff Weakley, to
effectively cross-examine Jones, these amounting to an
actual conflict of interest for the trial attorneys. As we
have set out, Ken Jones acknowledged at his deposition
in 1999 that he was at the CeBon Motel on the day of
the murder to rent a room to be with his paramour.
However, at the petitioner’s 1986 trial, Jones had
testified that he was at the motel because he needed to

App. 429
use the restroom. Trial counsel Stack acknowledged
that he knew Jones was at the motel to rent a room
with his paramour, but did not cross-examine him on
this fact. Sheriff Weakley did not want Jones to be
embarrassed and had assured trial counsel that Jones
knew nothing about the murder.
To support his arguments as to counsel’s limiting
his cross-examination of Jones, the petitioner relies
upon State v. Thompson, 768 S.W.2d 239 (Tenn. 1989),
in which our supreme court explained the broad scope
of the right to counsel:
Plainly, an accused is entitled to zealous
representation by an attorney unfettered by a
conflicting interest. To establish a denial of the
sixth amendment right to counsel, it is sufficient
to show that an actual conflict existed. If an
attorney actively represents conflicting
interests, no analysis of prejudice is necessary;
it is presumed that his divided interests
adversely affected his representation.
Id. at 245 (citations omitted). The petitioner argues
that trial counsel had an actual conflict of interest and,
therefore, the second prong of the Strickland test,
requiring a showing of prejudice, is eliminated, the
petitioner contending that “an actual conflict or an
apparent conflict may exist anytime a lawyer cannot
exercise his or her independent professional judgment
free of ‘compromising influences and loyalties.’” State
v. Culbreath, 30 S.W.3d 309, 315 (Tenn. 2000) (citing
State v. Tate, 925 S.W.2d 548, 554 (Tenn. Crim. App.
1995)). Additionally, the petitioner argues that “[w]hen
the fairness of a trial is compromised by an actual

App. 430
conflict of interest, the conclusion that finding that
trial counsel’s performance, per se, deprived the
defendant to his right to a fair trial is not subject to
‘harmless error analysis.’”
As to these arguments, the State responds that any
agreement between Sheriff Weakley and trial counsel
not to question Ken Jones about his reason for being at
the CeBon Motel did not constitute an actual conflict
and, thus, cannot warrant a presumption of prejudice.
The petitioner disputes this analysis, citing Rule 1.7(b)
of the Rules of Professional Conduct which provides:
A lawyer shall not represent a client if the
representation of that client may be materially
limited by the lawyer’s responsibilities to
another client or to a third person, or by the
lawyer’s own interests, unless:
(1) The lawyer reasonably believes the
representation will not be adversely affected;
and
(2) The client consents in writing after
consultation[.]
Tenn. Sup. Ct. R. 8, RPC 1.7(b) (2003).1 The petitioner
notes that the disciplinary rule that was in effect in
1986 provided that “[a] lawyer shall decline proffered
employment . . . if it would likely involve the lawyer
representing differing interests.” He responds to the
State’s contention that prejudice was not shown by
1

As the petitioner notes in his brief, this rule is a part of the new
Rules of Professional Conduct that came into effect in March 2003.

App. 431
arguing that all he has to do is “undermine confidence
in the outcome of the trial.” See Kyles v. Whitley, 514
U.S. 419, 434, 115 S. Ct. 1555, 1566, 131 L. Ed. 2d 490
(1995). To support his argument in this regard, the
petitioner cites Jones v. Kentucky, 97 F.2d 335 (6th
Cir. 1938), where the court determined that the
conviction of the defendant was based in part on
perjury as follows:
that “the fundamental conceptions of justice
which lie at the base of our civil and political
institutions” must with equal abhorrence
condemn as a travesty a conviction upon
perjured testimony if later, but fortunately not
too late, its falseness is discovered, and that the
state in the one case as in the other is required
to afford a corrective judicial process to remedy
the alleged wrong, if constitutional rights are
not to be impaired.
Id. at 338.
This court has explained the showing which must be
made to establish that counsel had a conflict of
interest:
An actual conflict of interest is usually defined
in the context of one attorney representing two
or more parties with divergent interests. An
actual conflict of interest occurs when “regard
for one duty tends to lead to [the] disregard of
another.” State v. Reddick, 230 Neb. 218, 222,
430 N.W.2d 542, 545 (1988); see Gardner v.
Nashville Housing Authority, 514 F.2d 38 (6th
Cir. 1975). In Ford v. Ford, the court declared a

App. 432
conflict of interest when an “attorney was placed
in a position of divided loyalties.” 749 F.2d 681,
682 (11th Cir. 1985).
The right to counsel requires complete
devotion to the interest of the defendant. State
v. Knight, 770 S.W.2d 771 (Tenn. Crim. App.
1988). When counsel is unable to provide a
“zealous representation . . . unfettered by
conflicting interests,” there has been a breach of
the right to the effective assistance of counsel.
State v. Thompson, 768 S.W.2d 239 (Tenn.
1989). In Cuyler v. Sullivan, the United States
Supreme Court held that because there is a
breach of loyalty in cases involving a conflict of
interest, prejudice is presumed. 446 U.S. 335,
100 S. Ct. 1708, 64 L. Ed. 2d 333 (1980). Unless
the petitioner can establish that his counsel
“actively represented conflicting interests,” he
can not established [sic] the constitutional
predicate for his claim. Id. at 350. To establish a
claim based upon conflict of interests, the
conflict must be actual and significant, not
irrelevant or “merely hypothetical.” Howard
Clifton Kirby v. State, No. 03C01-9303-CR00074 (Tenn. Crim. App., at Knoxville, Sept. 28,
1994).
Jesse Jameel Dawan v. State, No. W2001-00792-CCAR3-CD, 2002 WL 1483210, at *2 (Tenn. Crim. App.
Mar. 11, 2002), perm. to appeal denied (Tenn. Sept. 23,
2002).
The petitioner argues that because the attorneys
allowed Mr. Jones to testify falsely at the 1986 trial

App. 433
and agreed not to question Mr. Jones about why he was
present at the CeBon Motel on the day of the murder,
his trial was not a true adversarial proceeding and
that, by not investigating, his attorneys missed an
opportunity to develop and present additional defense
theories.
The Eighth Circuit explained the limited
circumstances in which prejudice may be presumed:
We believe there is much to be said in favor
of holding that Cuyler’s [Cuyler v. Sullivan, 446
U.S. 335, 100 S. Ct. 1708 (1980)] rationale
favoring the “almost per se rule of prejudice”
does not apply outside the context of a conflict
between codefendants or serial defendants. As
Strickland explained, some finding of prejudice
is an essential factor in proving ineffective
assistance of counsel. Under Cuyler, loyalties
divided between codefendants necessarily will
infect the very core of at least one’s defense, and
prejudice should be presumed. However, the
same impact will not be found automatically in
other conflict situations. The latter may have
such limited consequences that they will not
invariably demonstrate prejudice and “a denial
of the ‘right to have the effective assistance of
counsel.’” Cuyler, 446 U.S. at 349, 100 S. Ct.
1708 (quoting Glasser [v. United States], 315
U.S. [60], 76, 62 S. Ct. 457 [(1942)]. In those
cases, sound reasoning supports requiring a
defendant to prove actual prejudice under the
Strickland standard in order to meet the

App. 434
constitutional standard for ineffective assistance
of counsel.
Caban v. United States, 281 F.3d 778, 782 (8th Cir.
2002).
While trial counsel did not question Ken Jones as to
why he was at the motel, this fact does not result in
their representing the interests of Sheriff Weakley.
Accordingly, to prevail on this claim, the petitioner
must establish that he was prejudiced by trial counsel’s
not ascertaining and cross-examining Ken Jones’s true
reason for being at the motel, thus depriving the jurors
of this knowledge in addition to missing the
opportunity to cross-examine Vernedith White. We will
review this argument along with the related claim,
made at oral argument, that trial counsel could have
created residual doubt by properly dealing with Ken
Jones.
In his reply brief, the petitioner points to various
portions of the testimony to establish that Ken Jones,
himself, might have killed the victim. The petitioner
explains how he might have gotten the keys to the
victim’s car without confronting her, surmising
“because of the warmth on the day at issue, [the victim]
was wearing only a very light weight summer shift”
and that her maid’s coat, where she kept her keys and
wallet, “was most likely hanging on the cleaning cart,
which gave [the petitioner] easy access.” The petitioner
argues that the statements of Jones and White that
they neither saw nor heard anything “that was
connected with the crime” are “unbelievable.” The
victim’s schedule to clean the rooms, the petitioner
asserts, was such that she would not have reached

App. 435
room 21, where she was killed, until “noon,” resulting
in Jones and White at least seeing her. The petitioner
notes that, at the 1986 trial, Jones said he did not
know whether the victim was male or female, yet he
told Maxey Kittrell, another witness, that “a woman
had been stabbed” and told White that “there was a
dead woman in there.” This testimony, according to the
petitioner’s argument, demonstrates “knowledge that
no one but the perpetrator could have known.” The
petitioner points to other discrepancies, including
Jones’s testimony that the “randomly selected key”
which he picked up “just happened to open the lock on
room 21, the murder room”; and the fact that White
testified that she and Jones were at the motel from
9:00 am until the emergency call, which was made at
2:36 p.m., leaves two hours of Jones and White’s
activities “unaccounted for.” This time period,
according to the petitioner’s theory, allowed Jones to
drive White to Dickson and “to cleanse himself and his
van of the victim’s blood.” The petitioner surmises that
Jones then returned to the motel to determine whether
the motel owners had come back and found the body,
and discovered that this had not occurred. Finally,
according to this argument, “by belatedly announcing
that a woman had been stabbed to death, Jones
successfully removed himself as a suspect and thereby,
with the help of his friend the sheriff, was able to keep
himself from being investigated by the defense and by
the prosecution.”
The post-conviction court concluded that the
petitioner would not have benefitted from the claim
that Ken Jones had killed the victim:

App. 436
Petitioner insists that his trial counsel
should have attempted to cast suspicion upon
Ken Jones as a possible perpetrator of the crime
and that counsel was ineffective in allowing Mr.
Jones to “perjure” himself in hiding his true
reason for being at the hotel. While counsel had
brought out that there had been another
stranger in the area of the CeBon Motel that
morning, they did not develop any reason for the
jury to consider that someone other than
Petitioner committed the offense. Petitioner
asserts that his trial counsel should have
suggested that perhaps, Ms. Jenkins had
thwarted Mr. Jones[’s] planned sexual liaison
with Ms. White and that this was a motive to
kill her. He further suggests that their theory
might explain the twenty dollar bill under Ms.
Jenkins’s watch band [sic] and the careful
insertion of the knife into her vagina. Trial
counsel knew of the actual reason for Mr.
Jones[‘s] presence at the motel, having learned
it from the sheriff. Of course, they could have
investigated further and learned the details of
the encounter but the Court does not find that
the information would have been particularly
useful. To present such a farfetched theory with
no supporting evidence would cause a loss of
credibility by the defense at trial. Admittedly, if
trial counsel had learned the exact details of the
movements of Mr. Jones, Ms. White and the
person(s) in the maroon or brown car, they could
have “muddied the water” concerning the details
of the discovery of the body. This would have
been insufficient, however, to cast reasonable

App. 437
doubt on the guilt of Petitioner given the fact
that Petitioner was shown by the proof to have
taken the deceased’s car keys, presumably from
her billfold (in which she habitually kept them),
and stolen her car. To accept Petitioner’s
argument that he didn’t kill the deceased but
merely took her car keys from her body (which
was wrapped in a blanket) and stole her car
would require the trial jury to depart from
speculation and enter into fantasy.
Missing in the petitioner’s theory, which the
post-conviction court described as “farfetched,” is any
motive or reason why Jones would want to kill the
victim, except the petitioner’s suggestion, recounted in
the post-conviction’s findings, that the victim was
killed because she had “thwarted” the sexual liaison
between Jones and White. In effect, the petitioner
argues that fifty-one-year-old Ken Jones, accompanied
by his twenty-one-year-old girlfriend, Vernedith White,
following their normal Sunday morning routine and
checking into the same motel where they had been
together approximately 100 times before and were
known by the staff, including the victim, stabbed the
victim to death, with Jones driving White to another
location, cleaning blood from himself and his vehicle,
and then returning to the scene to report the crime and
wait for law enforcement officers to arrive. We agree
with the post-conviction court that, given the strength
of proof against the petitioner, making the argument
that Ken Jones was the actual killer would have been
“farfetched” and could have resulted in a loss of
credibility for the defense.

App. 438
As our supreme court explained in State v.
McKinney, 74 S.W.3d 291 (Tenn. 2002), “‘[r]esidual
doubt evidence,’ in general, may consist of proof
admitted during the sentencing phase that indicates
the defendant did not commit the offense,
notwithstanding the jury’s verdict following the guilt
phase.” Id. at 307 (citing State v. Hartman, 42 S.W.3d
44, 55-56 (Tenn. 2001)). Residual evidence may be that
which relates “‘to the circumstances of the crime or the
aggravating or mitigating circumstances, including
evidence which may mitigate [the defendant’s]
culpability.’” Hartman, 42 S.W.3d at 56 (quoting State
v. Teague, 897 S.W.2d 248, 256 (Tenn. 1995)).
We previously have set out the evidence that the
petitioner argues could have been used to establish
residual doubt, consisting primarily of contrasting
testimony from the jury proceedings in 1986 and 1989
and that of Vernedith White at the post-conviction
hearing. Asked at the post-conviction hearing about the
significance of this testimony, one of petitioner’s trial
counsel responded to post-conviction counsel: “To be
honest with you at this point and time I don’t
remember putting all of these time periods together as
you are, as you have done right now.” Thus, most of the
information relied upon by post-conviction counsel was
before the jury but was not utilized, as post-conviction
counsel has done, to make it appear that Ken Jones
might have been the perpetrator. The petitioner argues
that, had Vernedith White testified in 1986 or 1989,
her “eyewitness information . . . very well could have
created reasonable doubt in the minds of the jurors and
changed the outcome of the trial.” We respectfully
disagree with this assertion because White said that

App. 439
Jones was not in the motel room long enough to have
killed the victim. Thus, White’s testimony would not
help the petitioner unless the jurors believed her as to
the various times of the events so as to make it appear
that Jones could have been the killer, but disbelieved
her when she said that Jones could not have killed the
victim. While Jones was not truthful in his trial
testimony, and its acceptance by trial counsel
prevented White from being identified as a witness,
their true purpose for being at the hotel would appear
to be irrelevant to the guilt, innocence, or punishment
of the petitioner. Thus, we concur with the
post-conviction court’s determination that the
petitioner was not harmed by the fact that trial counsel
neither discovered Ken Jones’s true purpose for being
at the motel nor that Vernedith White was with him.
See State v. Austin, 87 S.W.3d 447, 459 (Tenn. (while
trial court erred in excluding from evidence vice squad
report which may have identified other persons with
motive to kill the victim, the “essence” of the report was
put before the jury during cross-examination of a
witness, so the error was harmless). We conclude,
further, that the petitioner would not have created
residual doubt by arguing that Ken Jones had killed
the victim.
2. Failure to Object to Sheriff Weakley’s
Participation in Voir Dire
The petitioner argues he was prejudiced by the facts
that Sheriff Weakley was involved in the voir dire and,
because he participated in the investigation, testified
at the trial, and “[s]urely . . . possessed an opinion as to
[the petitioner’s] guilt before the trial and there [was]

App. 440
a great potential for the sheriff to hand-pick jurors
sympathetic to the prosecution.” Additionally, the
petitioner argues that “a jury could easily associate
with the credibility of the sheriff who testified against
[the petitioner].” Thus, according to the petitioner, he
“was denied due process and a trial by a fair jury.” The
State responds that, as to this argument, the petitioner
included no citations to the record required by Rule
10(b) of this court, which would demonstrate the degree
of participation by Sheriff Weakley in the jury selection
process. Additionally, the State argues that this issue
has been waived because no proof was presented as to
it during the hearing on the post-conviction petition.
We agree with the State’s arguments and conclude that
this claim has been waived.
3. Failure to Discover Impeachment Evidence
The petitioner contends that trial counsel were
ineffective by failing to discover impeachment evidence
that State’s witness Daniel Blair, on the day that he
had given the petitioner a ride, was on felony probation
for theft of livestock; that State’s witness Victoria
Hines Daniel Furlong was an alcoholic and had been
drinking the day she supposedly saw blood on the
petitioner’s shirt; that State’s witness Ernest Daniel
also was an alcoholic and had not testified completely
truthfully about Furlong’s drinking; and that Melanie
Chandler would have contradicted her mother’s
testimony that the petitioner carried a knife which he
had been seen sharpening. We will consider these
claims.
As to Daniel Blair, trial counsel acknowledged that
they did not investigate his criminal history. The

App. 441
petitioner submits that the combination of the
impeachment evidence of Blair’s felony, coupled with
discrediting his testimony that he saw blood on the
petitioner’s shirt on the day of the murder, would have
affected his credibility. The State argues that Blair’s
being on probation made him more credible because, in
admitting that he had been in Tennessee, he admitted
also that he had violated his probation. The
post-conviction court found that effectively impeaching
this witness would have been unlikely. We agree the
petitioner’s claim is speculative that Blair successfully
could have been impeached with this additional
information and conclude, accordingly, that the record
supports the post-conviction court’s determination.
The petitioner also contends that trial counsel were
ineffective in failing to discover that Victoria Hines
Daniel Furlong was an alcoholic and had been drinking
on the day she testified at the petitioner’s trial. At the
post-conviction proceeding, she contradicted much of
her prior testimony, as we have previously set out. The
post-conviction court rejected Furlong’s entire
testimony as “incredible and worthless.” The record
supports this determination.
Additionally, the petitioner contends that counsel
were ineffective for failing to discover that Ernest
Daniel, Victoria Furlong’s husband at the time of the
petitioner’s trial, was not truthful regarding the
amount and extent of his wife’s drinking. The
post-conviction court found Daniel to be in contempt of
court at the post-conviction proceeding because he had
been drinking prior to testifying. The court found the
only fact that it could determine with respect to

App. 442
Daniel’s and Furlong’s testimony was that they each
lied under oath at either the trial or the post-conviction
hearing. Given this fact, the court determined that
interviewing either of these witnesses would not have
benefitted counsel in impeaching them at trial. The
record supports this conclusion.
Counsel testified that they did not interview
Melanie Chandler or Virginia Chandler prior to trial.
Melanie Chandler testified at the hearing that her
mother had animosity toward the petitioner and drank
heavily. Melanie Chandler admitted that she was not
on good terms with her mother. The post-conviction
court noted that Chandler “glance[d] affectionately” at
the petitioner during the hearing, making it obvious
that she still had feelings for him. In conclusion, the
court found that the impeachment value of Melanie
Chandler’s testimony was “marginal, at best.” We
concur with this assessment. Accordingly, as to this
claim, we agree with the conclusion of the
post-conviction court that the petitioner failed to
establish prejudice.
4. Lack of Experience and Resources of
Counsel
The petitioner contends both that his counsel were
too inexperienced to try a capital case and failed to
represent him zealously because the compensation
provided appointed attorneys was too low. The court
determined that these arguments were without merit,
and the record supports this conclusion. We have
previously held that inexperience of counsel alone does
not equate to ineffective assistance of counsel. Anthony
J. Robinson v. State, No. 02C01-9707-CR-00275, 1998

App. 443
WL 538566, at *2 (Tenn. Crim. App. Aug. 26, 1998).
Additionally, the argument that the State’s
compensation of appointed counsel contributed to the
ineffectiveness of counsel has been rejected by this
court. See Henry Eugene Hodges v. State, No.
M1999-00516-CCA-R3-PD, 2000 WL 1562865, at
**21-22 (Tenn. Crim. App. Oct. 20, 2000), perm. to
appeal denied (Tenn. Mar. 26, 2001).
C. Ineffective Assistance of Counsel at 1989
Resentencing
As to this proceeding, the petitioner argues that
counsel were ineffective in failing to investigate his
background and present effective mitigation proof;
failing to challenge the heinous, atrocious, and cruel
aggravating circumstance; and failing to give a closing
argument. We will consider these claims.
1. Mitigation Proof
a. Family Background/Proof of Abuse
In its opinion affirming the 1989 resentencing of the
petitioner, our supreme court set out the mitigation
evidence presented in his behalf:
In mitigation, the defendant presented proof
that, while in prison on this conviction, he had
presented no serious disciplinary problems and
posed no threat to the prison population. The
defendant also presented proof of a troubled
childhood. His father had abandoned the family
when the defendant was young. His mother had
an alcohol problem. In his teens the defendant
became involved in sniffing gasoline and glue

App. 444
and began to abuse alcohol and drugs. He also
exhibited self-destructive behavior. Dr. Pamela
Auble, a clinical psychologist, testified that the
defendant was suffering from a paranoid
personality disorder and dysthymia, or chronic
depression. According to Dr. Auble, the
defendant would suppress his feelings until they
“boiled up” under stress. In her opinion, the
defendant, who had returned from turbulent
visits with his parents and girlfriend shortly
before he committed the murder, was under
stress when he killed the victim. Dr. Ann Marie
Charvat, a sociologist, also testified about the
damaging effect of the circumstances of his
childhood on the defendant.
Hines, 919 S.W.2d at 577. The supreme court
characterized the petitioner’s mitigation proof as
“extensive.” Id. at 584.
The petitioner argues that counsel should have
called his family members to testify regarding the
physical, sexual, and emotional abuse he suffered.
Counsel did not call family members as witnesses at
resentencing, presenting mitigation proof of the
petitioner’s abuse through two experts. The petitioner
further contends that additional experts should have
been employed, and additional proof regarding his
treatment at Green River Boys Camp should have been
presented. The post-conviction court noted that the
detailed mitigation evidence presented at the
post-conviction hearing was prepared by two attorneys,
three investigators, and several medical experts over a
three-year period, stating that that period of time was

App. 445
“far in excess of the time which would have been
allowed to prepare for even a capital trial.” The court
found the additional mitigation proof of the petitioner’s
family background and abuse, presented at the
post-conviction hearing, was essentially the same as
that presented at the resentencing, simply more
in-depth. Accordingly, the court determined that even
with the additional mitigation proof, the aggravating
circumstances would have continued to outweigh the
mitigating circumstances.
This court has stated that “[a]n investigation so
inadequate as to fail to formulate an ‘accurate life
profile’ of the defendant may be the basis for
post-conviction relief. Yet the extent of investigation
required is largely dependent upon information
supplied by the defendant.” Bates v. State, 973 S.W.2d
615, 633 (Tenn. Crim. App. 1997)(citing Jackson v.
Herring, 42 F.3d 1350, 1367 (11th Cir. 1995); Burger v.
Kemp, 483 U.S. 776, 795, 107 S. Ct. 3114, 97 L. Ed. 2d
638 (1987)).
In Goad v. State, 938 S.W.2d 363 (Tenn. 1996), our
supreme court set out the relevant factors to consider
when determining if prejudice had resulted from a trial
attorney’s failure to present mitigating evidence during
the penalty phase of a capital trial. There, the court
found that counsel’s failure to investigate, explore, and
prepare the proposed mitigating evidence was not “‘the
result of reasonable professional judgment’ and ‘fell
outside the wide range of professionally competent
assistance.’” Id. at 371. If counsel’s performance is
deficient, the court must next determine if the
petitioner has discharged the duty of proving that

App. 446
prejudice resulted from counsel’s performance. Id. The
court explained how this determination is made:
[If the] alleged prejudice under Strickland
involves counsel’s failure to present mitigating
evidence in the penalty phase of a capital trial,
several factors are significant. First, courts have
analyzed the nature and extent of the mitigating
evidence that was available but not presented.
Second, courts have considered whether
substantially similar mitigating evidence was
presented to the jury in either the guilt or
penalty phase of the proceedings. Finally, the
courts have considered whether there was such
strong evidence of aggravating factors that the
mitigating evidence would not have affected the
jury’s determination.
Id. (citations omitted).
In the present appeal, the post-conviction court
found that counsel were not deficient in their
representation of the petitioner, saying that “[i]n view
of the overwhelming strength of the aggravating factors
in Petitioner’s case . . . the mitigating factors would not
have affected the jury’s determination. The jury would
be required by logic and common sense to find that the
aggravating circumstances outweighed the effect of the
mitigating factors beyond a reasonable doubt.”
Accordingly, under the principles enunciated in Goad,
the post-conviction court found that the petitioner was
not prejudiced by the fact that counsel at the
sentencing hearing had not presented mitigating
evidence in the detail that was done at the post-

App. 447
conviction hearing. We conclude that the record
supports this determination.2
b. Serotonin Defense
The petitioner contends that resentencing counsel
were ineffective for failing to present evidence of his
serotonin deficiency. As to this claim, the
post-conviction court determined that, based upon the
testimony of the witnesses at the hearing, the serotonin
evidence was not reasonably available to the
petitioner’s resentencing counsel, since it was not

2

As supplemental authority, the petitioner relies on Wiggins v.
Smith, 539 U.S. 510, 516, 123 S. Ct. 2527, 2532, 156 L. Ed. 2d 471
(2003), where the petitioner had sought post-conviction relief from
his capital conviction, alleging that trial counsel “had rendered
constitutionally defective assistance by failing to investigate and
present mitigating evidence of his dysfunctional background.”
Trial counsel utilized the defense that another person had killed
the victim and did not present evidence they had showing the
petitioner’s “limited intellectual capacities and childlike emotional
state . . . and the absence of aggressive patterns in his behavior,
his capacity for empathy, and his desire to function in the world[.]”
Id. Counsel elected not to use specific information that the
petitioner and his siblings were left “home alone for days, forcing
them to beg for food and to eat paint chips and garbage,” and that
he had been “gang-raped” on more than one occasion. Id., 539 U.S.
at 516-17, 123 S. Ct. at 2533. The court determined that trial
counsel’s decision not to utilize background information was one
which “did not reflect reasonable professional judgment” and that
the petitioner had been prejudiced as a result, there being a
reasonable probability that the jury would have returned with a
different sentence, had they known this information. Id., 539 U.S.
at 534, 123 S. Ct. at 2541-42. In the present appeal, trial counsel
presented substantial evidence at the sentencing hearing, although
not to the extent that was done at the post-conviction hearing. We
find that Wiggins is not applicable.

App. 448
known to them and could not have been discovered by
the exercise of reasonable diligence.
Dr. Rossby acknowledged that he did not work on
developing this issue in a criminal case until
approximately1992, three years after the petitioner’s
resentencing trial. Further, he said that he did not
actually testify on the issue of serotonin until 1999, ten
years after the petitioner’s resentencing trial, and he
knew of no one who had testified on this issue prior to
that. As the post-conviction court stated: “Petitioner’s
counsel at re-sentencing could not reasonably have
been expected to search for experts on a subject which
they did not know existed.” The record supports this
conclusion.
c. Heinous, Atrocious, and Cruel Aggravating
Circumstance
The petitioner argues that counsel were ineffective
at resentencing because they did not challenge the
testimony of Dr. Charles Harlan regarding the length
of time the victim was conscious and could have lived
or experienced pain following the stabbing. At
resentencing, the petitioner offered the testimony of
Dr. Chris Sperry who disagreed with Dr. Harlan’s
testimony regarding the victim’s consciousness and
amount of time she could have survived following the
wound to the heart. Dr. Sperry opined that the victim
would have been conscious only fifteen to thirty
seconds following the stab wound to the heart, as
opposed to Dr. Harlan’s testimony that the victim lived
four to five minutes following the wound to the heart
and would have been conscious approximately 80% of
that time.

App. 449
The post-conviction court found counsel were
deficient in failing to investigate and introduce
testimony to refute Dr. Harlan’s conclusions,
determining, however, that the petitioner was not
prejudiced by the lack of such testimony. The court
found that the jury would have been much more
persuaded by the testimony of the pathologist who
performed the autopsy, as opposed to one who drew
conclusions from the autopsy report and photographs.
Accordingly, the court concluded that the testimony of
Dr. Sperry would not have resulted in reasonable doubt
that the victim was conscious during the apparently
final wound to the vagina, both pathologists concluding
that this wound occurred at or shortly after the time of
death. Moreover, the court determined that even if the
jury did have reasonable doubt in this regard and did
not find this aggravating factor applied, the remaining
two aggravating factors were still strong enough to
outweigh the mitigating factors as presented at the
post-conviction hearing.
As to this issue, the State also argued that even if
the victim were unconscious at the time the vaginal
wound was inflicted, the jury could have found that the
nature and infliction of that wound constituted
depravity of mind and that the depraved state of mind
of the petitioner existed at the time the fatal blows
were inflicted upon the victim. Our supreme court has
held that depravity of mind of the murderer may be
inferred from acts committed at or shortly after the
time of death. See State v. Williams, 690 S.W.2d 517,
529-30 (Tenn. 1985). The court explained that the
nature of injuries to a victim may constitute depravity
of mind under the holding in Williams:

App. 450
The willful insertion of a sharp instrument into
the vaginal cavity of a dying woman (or a woman
who had just died) satisfies the requirements of
Williams, supra. If committed prior to death,
these acts constitute torture and thereby also
support a finding of depravity. If they occurred
close in time to the victim’s death, they allow the
drawing of an inference of the depraved state of
mind of the murderer at the time the fatal blows
were inflicted on the victim.
Hines, 919 S.W.2d at 581. We conclude that the record
supports the findings of the post-conviction court as to
this issue.
d. Closing Argument
The petitioner contends that his counsel were
ineffective in not making a closing argument at
resentencing. As to this claim, all three of the
petitioner’s resentencing counsel testified that their
decision to waive closing argument was based on the
fact that they did not want the State to present a
rebuttal argument. The law is clear that this court may
not second-guess the tactical and strategic choices
made by trial counsel unless those choices were
uninformed because of inadequate preparation. Hellard
v. State, 629 S.W.2d 4, 9 (Tenn. 1982); see also Bell v.
Cone, 535 U.S. 685, 122 S. Ct. 1843, 152 L. Ed. 2d 914
(2002); State v. Menn, 668 S.W.2d 671, 673 (Tenn.
Crim. App. 1984). The post-conviction court concluded
that trial counsel had made a tactical decision to waive
closing argument to prevent the State’s then being able
to make a strong rebuttal argument. The record
supports this conclusion.

App. 451
e. Assistance of Counsel on Direct Appeal
The petitioner also contends that his appellate
counsel were ineffective in failing to challenge the
constitutionality of the jury instructions at his 1986
trial. He did not present evidence of this issue at the
post-conviction hearing, and the post-conviction court
did not address it in its order. Moreover, the petitioner
did not cite to the record or to any legal authority in
making this skeletal argument. Accordingly, this issue
is waived. Tenn. R. App. P. 27(a)(7); Tenn. Ct. Crim.
App. R. 10(b).
D. Underrepresentation of Women in the
Cheatham County Jury Venire
The petitioner contends that there was an
underrepresentation of women in the Cheatham
County jury venire from which his petit jury was
chosen. Because this issue was not presented on direct
appeal, it has been waived. Tenn. Code Ann.
§ 40-30-206(g). Post-conviction proceedings may not be
used as a substitute for an appeal to review or correct
errors of fact or law allegedly committed by a court of
competent jurisdiction. State v. McClintock, 732
S.W.2d 268, 271-72 (Tenn. 1987). However, the
petitioner presents this argument in the additional
fashion that counsel were ineffective in failing to
challenge the composition of the jury at trial.
Accordingly, we will review this matter as a claim of
ineffective assistance of counsel.
The court noted that at the petitioner’s 1986 trial,
three of the jurors were women, but there was only one
female juror at the 1989 resentencing hearing. Relying

App. 452
on State v. Strouth, 620 S.W.2d 467, 470 (Tenn. 1981),
the post-conviction court found that there was no
underrepresentation of women on the 1986 jury. As to
the 1989 resentencing, the court determined that
women were systematically excluded, but the petitioner
had failed to show that he was prejudiced by the fact
that resentencing counsel did not seek to quash the
venire.
Defendants are entitled to a petit jury selected from
a representative cross-section of the community. Taylor
v. Louisiana, 419 U.S. 522, 95 S. Ct. 692, 42 L. Ed. 2d
690 (1975). The Taylor Court held: “the jury wheels,
pools of names, panels, or venires from which juries are
drawn must not systematically exclude distinctive
groups in the community and thereby fail to be
reasonably representative thereof.” Id., 419 U.S. at 538,
95 S. Ct. at 702. In Duren v. Missouri, 439 U.S. 357, 99
S. Ct. 664, 58 L. Ed. 2d 579 (1979), the Supreme Court
set forth a three-pronged test for determining whether
a jury was properly selected from a fair cross-section of
the community:
(1)

the group alleged to be excluded is a
“distinctive” group in the community;

(2)

the representation of this group in venires
from which juries are selected is not fair
and reasonable in relation to the number
of such persons in the community; and

(3)

this under-representation is due to
systematic exclusion of the group in the
jury-selection process.

App. 453
Id., 439 U.S. at 364, 99 S. Ct. at 668. Based upon the
report of Dr. James O’Reilly which provided that the
percentage of women in Cheatham County between
1979 and 1990 was 50.6 to 50.7% of the population, but
the percentage of women in the Cheatham County jury
venire for that same time period was between 10 and
22%, the State conceded that the first two prongs of the
Duren test had been satisfied. However, the State
argues that the petitioner did not prove the third prong
of the Duren test, that the underrepresentation
resulted from systematic exclusion of women in the
jury selection process.
As to this issue, the post-conviction court found that
the petitioner had made a prima facie showing of
exclusion:
By the numerical disparity, Petitioner has
established a prima facie case of systematic
exclusion. The proof by the State that jurors
were selected from a presumably gender
balanced voter list does not overcome the fact of
the dramatic under-representation of women. In
fact, there is no proof which explains the
disparity. There can be no explanation other
than that the process, for whatever reason,
systematically excluded women from Petitioner’s
1989 re-sentencing trial.
The Court finds that women were
systematically excluded from the jury panel
which sentenced Petitioner to death in the 1989
proceeding.

App. 454
The State disagrees with this conclusion, relying on
State v. Nelson, 603 S.W.2d 158 (Tenn. Crim. App.
1980), which explained that “the courts have been
reluctant to find the existence of a prima facie case
based on statistics alone, instead requiring proof of a
substantial disparity coupled with systematic
exclusion.” Id. at 163 n.3. The Nelson court determined
that the systematic exclusion prong of the test had
been established by proof that the statistical disparity
occurred not just occasionally but in every venire for a
period of four years, explaining that “[s]uch evidence
‘manifestly indicates that the cause of the
underrepresentation was systematic that is, inherent
in the particular jury-selection system utilized.’” Id. at
165 (quoting Duren, 439 U.S. at 366, 99 S. Ct. at 669).
Thus, the court in Nelson found that the jury selection
process had not been carried out in conformity with the
statutory requirements and explained the proper
method of selecting the venire:
[U]tilization of wholly subjective criteria in a
selection process such as Tennessee’s will invite
a challenge to the array whenever it appears to
produce jury venires that are not representative
of the community at large. This problem could be
avoided by utilization of a random selection or
“key number” system, which is in use in many
areas of Tennessee, as well as most other states
and the federal system. Use of a “key number”
applied to county registration lists which are
reflective of a cross-section of the community
may occasionally produce a venire which
appears to underrepresent some identifiable
group in the community. However, when an

App. 455
objective selection criterion of this nature is
used, such an underrepresentation can be shown
to be the result of mischance rather than the
deliberate, systematic exclusion of any group.
Id. at 167 (citations and footnote omitted).
We respectfully disagree with the post-conviction
court’s finding that the underrepresentation of women
compels the conclusion that women were systematically
excluded from the venire. While the petitioner argues
on appeal that “the state offer[ed] no plausible
explanation” for the disparity and, therefore, he is
entitled, as matter of law, to prevail, we disagree with
this claim. In fact, substantial proof is in the record as
to how the panel of prospective jurors was selected; and
neither the petitioner nor the post-conviction court has
identified illegalities or deficiencies in the process.
Rather, both simply relied upon percentages of women
called to jury duty to conclude that women had been
systematically excluded. In Truesdale v. Moore, 142
F.3d 749, 755 (4th Cir. 1998), the court explained that
a statistical disparity does not, by itself, establish
systematic exclusion of a group from the jury pool:
Truesdale has not advanced any direct evidence
of “systematic exclusion” of African Americans
from the venire. Instead he seeks to rely on the
bare assertion of substantial underrepresentation to prove that there was a
structural or systemic impediment to voter
registration by African Americans. We have
consistently required more to make out a
violation of the “fair cross-section”
guarantee. . . . To allow Truesdale to substitute

App. 456
evidence of substantial underrepresentation for
evidence of systematic exclusion would go a long
way towards requiring perfect statistical
correspondence between racial percentages in
the venire and those in the community. Such a
rule would exalt racial proportionality over
neutral jury selection procedure.
Accordingly, we conclude that the post-conviction
court erred in finding that women had been
systematically excluded from the venire.
Regarding this issue as a post-conviction claim, the
petitioner must prove that his counsel were ineffective
under Strickland because counsel did not challenge the
jury venire at trial and/or resentencing. Attorney Stack
testified that he had no reason to suspect that women
were underrepresented in the jury venire in 1986, and,
in fact, three women were on the petitioner’s 1986 jury.
Moreover, counsel testified that they did not use all of
their peremptory challenges at the 1986 trial. Our
supreme court has found that the presence of three
women on the petit jury constitutes a “fair
representation of women on the jury and that is all that
is required by the Constitution of the United States.”
Strouth, 620 S.W.2d at 470. The record supports the
post-conviction court’s finding that the petitioner was
not prejudiced because counsel did not challenge the
1986 venire.
With respect to the 1989 resentencing, Attorneys
Weems and Stack testified that they considered
challenging the jury venire but knew to do so would
cost a vast amount of time. The State argues that
counsel were not deficient “to forgo the preparation of

App. 457
a time-consuming jury challenge in favor of developing
further mitigating proof, which could spare [their]
client the death penalty. All defense attorneys must
use their discretion to decide how best to use the time
given to them to prepare the defense.” The State argues
that such decisions are strategic in nature and should
not be second-guessed by this court. As to this issue,
the post-conviction court found that the petitioner had
failed to establish that he was prejudiced by counsel’s
decision not to challenge the venire. Testimony of the
petitioner’s 1989 counsel was that this was a strategic
decision made in an effort to best utilize the time which
they had for trial preparation. Based upon the
testimony regarding this issue, the record supports the
determination of the post-conviction court that the
petitioner failed to show that he was prejudiced
because counsel did not seek to quash the 1989 jury.
The petitioner further contends that the
post-conviction court erred in ignoring his claims that
the grand jury forepersons were selected separately by
the judge and the two forepersons, serving from 1979
to 1990, both were male. We note that the only proof as
to this claim consisted of short portions of the
testimony of Delores Moulton and Lloyd Harris. The
petitioner’s counsel were not questioned as to the
matter, and we have been unable to locate in the
petitioner’s ninety-six-page proposed findings of fact
and conclusions of law, filed after completion of the
hearings, a reference that a claim had been presented
and the post-conviction court was to rule on the
foreperson selection process. Thus, we cannot conclude
that this claim was presented to the post-conviction
court separately and not simply as additional

App. 458
information in support of the petitioner’s jury claim
which we have reviewed. Accordingly, the claim is
waived.3
E. Apprendi v. New Jersey and Ring v. Arizona
Arguments
The petitioner argues that his death sentence is
invalid under the principles set forth in Apprendi v.
New Jersey, 530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed.
2d 435 (2000), and Ring v. Arizona, 536 U.S. 584, 122
S. Ct. 2428, 153 L. Ed. 2d 556 (2002), making two basic
arguments: the Tennessee Supreme Court substituted
its judgment for that of the jury when it determined
that it was harmless error for the trial court to have
instructed the jury with a former version of the
Tennessee Code with respect to the (i)(5) aggravating
circumstance; and (2) Apprendi and Ring require the
aggravating circumstances to be set forth in the
indictment, which was not done in his case. The State
responds that neither Apprendi nor Ring may be
retroactively applied to the petitioner’s case on
collateral review, and neither decision extends to
Tennessee’s capital sentencing procedure or requires

3

As to this issue, we note that our supreme court, in State v.
Bondurant, 4 S.W.3d 662, 675 (Tenn. 1999), explaining the
holdings in Rose v. Mitchell, 443 U.S. 545, 99 S. Ct. 2993, 61 L. Ed.
2d 739 (1979), and Hobby v. United States, 468 U.S. 339, 104 S. Ct.
3093, 82 L. Ed. 2d 260 (1984), said that the method of selecting the
grand jury foreperson is relevant only as to reviewing the
composition of the grand jury as a whole, the “role of the grand
jury foreperson in Tennessee [being] ministerial and
administrative.”

App. 459
that aggravating circumstances be set forth in the
indictment.
This court has declined to apply Apprendi and Ring
retroactively to support a request for post-conviction
relief. See, e.g., Stephen Michael West v. State, No.
E2001-02520-CCA-R28-PC (Tenn. Crim. App. Sept. 6,
2002), perm. to appeal denied (Tenn. Jan. 31, 2003);
Gregory Thompson v. State, No. M2001-02256-CCA28M-PD (Tenn. Crim. App. Oct. 3, 2001), perm. to
appeal denied (Tenn. May28, 2002). In so holding, this
court has relied on federal cases, concluding that
Apprendi did not create a new constitutional right that
is retroactively applicable. See Burch v. Corcoran, 273
F.3d 577 (4th Cir. 2001), cert. denied, 535 U.S. 1104,
122 S. Ct. 2311, 152 L. Ed. 2d 1065 (2002); McCoy v.
United States, 266 F.3d 1245 (11th Cir. 2001), cert.
denied, 536 U.S. 906, 122 S. Ct. 2362, 153 L. Ed. 2d 183
(2002); In re Clemmons, 259 F.3d 489 (6th Cir. 2001);
United States v. Moss, 252 F.3d 993, 997 (8th Cir.
2001), cert. denied, 534 U.S. 1097, 122 S. Ct. 848, 151
L. Ed. 2d 725 (2002). Thus, we conclude Apprendi and
Ring should not be given retroactive application on
collateral review. Regardless, we discern no violation of
Apprendi and Ring. As for the petitioner’s argument
that the ruling of the United States Supreme Court in
Ring means that the holding of our supreme court in
Dellinger is no longer viable, our supreme court has
concluded otherwise. State v. Holton, 126 S.W.3d 845,
863 (Tenn. 2004) (“Ring provides no relief to the
defendant and does not invalidate this Court’s holding
in Dellinger.”).

App. 460
Additionally, the petitioner argues that, at the
resentencing hearing, the court “instructed the jury
using the 1989 [version of Tenn. Code Ann.
§ 39-2-203(i)(5)], but then found the error harmless.”
Further, according to the petitioner, “an aggravating
factor, found by the 1989 re-sentencing jury that
supported the death penalty was that ‘[t]he murder
was especially heinous, atrocious or cruel in that [sic]
involved torture or serious physical injury [sic] beyond
that necessary to produce death.’” Additionally, in this
regard, he argues that “[t]he Tennessee Supreme Court
held that it was error for the trial court to have
instructed the jury using the 1989 language, but then
found the error harmless . . . [and] [i]n so doing, the
court substituted its own judgment finding that the
evidence supported a finding of torture, and further
found that had the jury been properly instructed it
would have found depravity.” As we will explain, we
respectfully disagree that the petitioner has accurately
described the jury instructions or the holding of our
supreme court in the direct appeal of this matter.
First, contrary to the petitioner’s assertions, the
jury was instructed using the 1982, not the 1989,
version of this statute and found, as one of the
aggravating circumstances, that “the murder was
especially heinous, atrocious, or cruel in that it
involved torture or depravity of mind,”4 as instructed

4

In State v. Middlebrooks, 995 S.W.2d 550, 569 (Tenn. 1999), our
supreme court explained that the “phrase “depravity of mind,” in
the 1982 version, was replaced with the phrase “serious physical
abuse beyond that necessary to produce death” in the 1989 version.
At the resentencing hearing, the post-conviction court properly

App. 461
by the 1982 statute, and not the language of the 1989
statute that, instead of “depravity of mind,” involved
“serious physical abuse beyond that necessary to
produce death.” Accordingly, since the jury was not
instructed using the 1989 version of Tenn. Code Ann.
§ 39-2-203(i), our supreme court could not determine,
as argued by the petitioner, that its use was error but
harmless. Further, the petitioner’s argument that this
error in instructing the jury results in there being “no
way to determine whether the jurors relied on the
torture prong or the serious physical injury [sic] prong
in making its determination” is without merit. In fact,
the jury could not have relied on the “serious physical
abuse” prong, for this phrase is found only in the 1989
version of the statute, which was not used in the
resentencing.
Further, we disagree with the petitioner’s claims as
to our supreme court’s findings as to harmless error in
the direct appeal of the resentencing hearing. Although
he argues that the court found “it was error for the trial
court to have instructed the jury using the 1989
language, but then found the error harmless,” this
portion of the review, by our supreme court, was as to
the adequacy of the instruction for “depravity,” which
had been defined by the trial court as meaning “moral
corruption; wicked or perverse act.” Hines, 919 S.W.2d
at 587. Concluding “that this aggravating circumstance
has been constitutionally applied under the
circumstances of this case and is not unconstitutionally

instructed the jury using the 1982 version of Tenn. Code Ann.
§ 39-2-203(i), which was in effect at the time of the offenses. See
id. at 556 n.6.

App. 462
vague,” the court explained that “even if the
instructions given by the trial judge were
unconstitutional . . ., the failure to give a
constitutionally proper instruction on depravity was
harmless error beyond a reasonable doubt.” Id. Thus,
contrary to the petitioner’s argument, instead of
finding error by the trial court which was harmless, our
supreme court determined that even if the resentencing
court had committed error in this regard, the error
would have been harmless. Thus, the petitioner’s
arguments that “the aggravating factor that made [the
petitioner] eligible for death in this case was found by
a court and not the jury” is without merit, for it is
based upon a misreading of the opinion of our supreme
court in the direct appeal of the resentencing in this
matter.
Finally, the petitioner argues that because the
aggravating circumstances that resulted in his being
eligible for the death penalty were not set forth in the
indictment and returned by the grand jury as required
by Apprendi, his sentence must be set aside. However,
Apprendi specifically noted the Fifth Amendment right
to indictment by a grand jury has not been applied to
the states under the due process clause of the
Fourteenth Amendment. Apprendi, 530 U.S. at 77 n.3,
120 S. Ct. at 2355. Accordingly, our state supreme
court’s holdings that there is no constitutional violation
due to the failure to allege the aggravating
circumstances in the indictment are consistent with
Apprendi. See Holton, 126 S.W.3d at 863; State v.
Carter, 114 S.W.3d 895, 910 n.4 (Tenn. 2003); State v.
Dellinger, 79 S.W.3d 458, 467 (Tenn.), cert. denied, 537

App. 463
U.S. 1090, 123 S. Ct. 695, 154 L. Ed. 2d 635 (2002).
This issue is without merit.
F. Constitutional Arguments
The petitioner argues that his sentence violates
various provisions of the Constitutions of the United
States and the State of Tennessee and international
law. As the State correctly responds, these arguments
have either been previously determined on direct
appeal or were waived by the petitioner’s failure to
make the argument on direct appeal. To the extent the
petitioner argues that if an issue was not raised by
prior counsel, counsel provided ineffective assistance of
counsel, the petitioner has failed to raise any
constitutional claim with respect to the death penalty
that has not already been rejected by the appellate
courts of this state. See, e.g., State v. Stevens, 78
S.W.3d 817, 850-52 (Tenn. 2002), cert. denied, 537 U.S.
1115, 123 S. Ct. 873, 154 L. Ed. 2d 790 (2003); State v.
Keen, 31 S.W.3d 196, 233 (Tenn. 2000), cert. denied,
532 U.S. 907, 121 S. Ct. 1233, 149 L. Ed. 2d 142 (2001);
State v. Nesbit, 978 S.W.2d 872, 902 (Tenn. 1998), cert.
denied, 526 U.S. 1052, 119 S. Ct. 1359, 143 L. Ed. 2d
520 (1999); State v. Vann, 976 S.W.2d 93, 117 (Tenn.
1998), cert. denied, 526 U.S. 1071, 119 S. Ct. 1467, 143
L. Ed. 2d 551 (1999); State v. Caughron, 855 S.W.2d
526, 542 (Tenn. 1993). Accordingly, an ineffective
assistance of counsel claim on this issue must fail. The
petitioner’s claims on this issue are without merit.

App. 464
III. CONCLUSION
Based upon the foregoing authorities and reasoning,
we affirm the order of the post-conviction court denying
the petition for post-conviction relief.

_________________________
ALAN E. GLENN, JUDGE

App. 465

APPENDIX D
IN THE CIRCUIT COURT OF THE 23rd
JUDICIAL DISTRICT,
CHEATHAM COUNTY, TENNESSEE
No. 9852
[Filed: May 09, 2002]
___________________________________
ANTHONY DARRELL
)
DUGARD HINES,
)
)
)
v.
)
)
)
STATE OF TENNESSEE
)
___________________________________ )
DEATH PENALTY
POST-CONVICTION
FINDINGS OF FACT AND CONCLUSIONS OF LAW
Petitioner, Anthony Darrell Dugard Hines, was
convicted of first degree felony murder in this Court in
1986 and sentenced to death. On direct appeal, the
Supreme Court of Tennessee ordered a new sentencing
hearing. State v. Hines, 758 S.W.2d 515 (Tenn. 1988).
Following the second sentencing hearing, Petitioner
was again sentenced to death in 1989. His second death
sentence was affirmed by the Supreme Court of
Tennessee. State v. Hines. 919 S.W.2d 573 (Tenn.
1996). Petitioner’s petition for writ of certiorari to the
United States Supreme Court was denied in October of

App. 466
1996. Hines v. Tennessee, 519 U.S. 847, 117 S.Ct. 133,
136 L.Ed.2d 82 (1996)
On March 4, 1997, Petitioner filed his pro se
Petition for Post-Conviction Relief. On March 31, 1997,
the Court entered a preliminary order appointing the
office of the post-conviction defender as counsel.
Several extensions of time were granted to Petitioner
to file his amended petition. On October 6, 1997,
Petitioner filed his amended petition and on November
7, 1997, the State filed its answer. The matter was
scheduled for hearing and continued several times in
1998. In March 1999, the parties filed a joint motion to
recuse the Office of the District Attorney General for
the Twenty-Third Judicial District, with a stipulation
of the facts in support of the motion and a proposed
order. Subsequently that motion was granted and Dent
Morriss, esq., an assistant district attorney general
from the Nineteenth Judicial District was assigned to
represent the State. Thereafter, an amendment to the
amended petition was filed on April 21, 1999 and an
answer thereto was filed on July 15, 1999.
The first phase of the evidentiary hearing in this
matter was held from August 30 to September 3, 1999.
Petitioner requested an opportunity to obtain and
present additional proof. The hearing on Petitioner’s
additional proof was completed on October 30 and 31,
2000 after having been continued at Petitioner’s
request from the originally set date of February 3,
2000.
Petitioner’s counsel have raised numerous issues
concerning both the 1986 trial and the 1989 resentencing. The Court addresses these issues seriatim.

App. 467
I. Jury Composition Claim (1986 Trial and 1989
Re-sentencing)
FACTS
The parties stipulated to the testimony and report
of James M. O’Reilly, Ph.D., that from 1979 through
1990 there was an under-representation of women on
the Sheriff’s venire and the petit and grand jury venire
in Cheatham County. According to Dr. O’Reilly’s
report, which was admitted as substantive evidence,
the United States Census for 1970 shows the female
population of Cheatham County was 50.6 per cent, and
in 1980 and 1990 it was 50.7 per cent. Therefore, Dr.
O’Reilly found the percentage of the population that
was female remained steady over the period and used
50.7 as the female percentage of the jury eligible
population. He then compared the percentage of women
in the county population to that in the jury venire. The
venire during the time in question was composed of
from 10 to 22 percent women.
Cheatham County has two jury panels, the Sheriff’s
venire (i.e., the list of prospective jurors delivered by
the clerk of the jury commission to the sheriff) and the
petit and grand jury venire (i .e., the list of persons who
actually appear for jury duty). Both originate from the
jury box which is filled at least once every two years by
the three member jury commission. The commission
during the period in question consisted of two male
members, Dorris Winters and C.E. Dunn and one
female member, Martha Adkisson. By the time of the
filing of the post-conviction petition in this matter, Mr.
Winters was deceased and Ms. Adkisson was in a
nursing home unable, due to her illness, to recall any

App. 468
of the pertinent facts concerning her role as a jury
commissioner. Although, Mr. Dunn was ill at the time
of the hearing and unable to come to court, he had
prepared an affidavit that was entered in lieu of his
testimony. In his affidavit Mr. Dunn stated that he
served on the jury commission with Mrs. Martha
Adkisson and Mr. Dorris Winters. He further stated
that they exclusively used the voter registration list for
the purpose of choosing the names to fill the jury box.
The first step in creating the venire in Cheatham
County is to charge the box with names of potential
jurors. This is done at least once every two years.
Names were added each time they charged the box but
the box was never purged of the names already there.
As a result, a person’s name might be in the box
multiple times. The procedure was to take the voter
registration list and arbitrarily pick a starting point
and then take names at a specified interval (for
example they might take every 16th or 20th name). The
names chosen would then be written on a jury ticket
and placed in the box. The only names removed at this
stage were individuals whom a commissioner knew to
be deceased or to have moved out of the county. Once
the names were in the box it was locked and only the
commission chairman or the clerk of the court, Lloyd
Harris, could open the box.
Evidence was presented to show that the voter list
was not the exclusive source of names, however, said
proof was insufficient to establish this fact. For all
intents and purposes, the voter list was the exclusive
source of names for filling the box. Some names of
individuals who had recently moved into the county

App. 469
and were known to the commissioners may have been
added to the box from the telephone book but they were
so few as to be inconsequential. The percentage of
women on the voter registration list roughly
approximated that of the general population of the
county.
The next step in the selection of the venire was to
select the sheriff’s venire. This was the creation of the
list of people that would be given to the sheriff to be
subpoenaed to court for jury service. Although at one
time they used a child under 10 years old to draw the
names for the sheriff’s venire, during most if not all of
the period in question, they used a blindfolded adult.
Generally, deputy clerk Dolores Moulton performed
this duty. As a result she was the individual who spent
the most time with the commissioners during this
process. After the names were pulled from the box Mr.
Winters or Mr. Dunn would read the names and Ms.
Adkisson would write them on the sheriff’s venire list,
Ex. 47. At this point in the process the commissioners
would pull out names of those known to be deceased or
to have left the county. They would also remove the
names of women with young children and
schoolteachers. On occasion, Ms. Adkisson, as she was
writing in the names would comment that there were
too many women, but the proof does not establish that
the commissioners substantially altered their method
of selection because of these comments.
During the time that both trials occurred, only
about one third of the people on the sheriff’s venire list
would actually appear for jury duty. Once the list was
prepared it was delivered to the sheriff’s office and the

App. 470
sheriff’s office was responsible to see that the
subpoenas were prepared and delivered to the
individual venire members.
The grand and petit jury venire was derived from
those individuals on the sheriffs venire who actually
come to court. Information is taken from the people
who appeared pursuant to the jury subpoenas and then
each was given a number. The grand jury was first
selected by randomly drawing numbers and the
remainder of the jurors constituted the petit jury
venire for the trials scheduled in that term of court.
The gender distribution of women and men on the
grand and petit jury venire was very similar to that of
the sheriff’s venire.
In Petitioner’s 1985 trial, three women were jurors.
Only one woman sat on the 1989 resentencing trial.
There is no proof that Petitioner’s counsel
considered the issue of the gender composition of the
jury at the 1986 trial.
Former Public Defender Shipp Weems and assistant
Public Defender Steve Stack testified that, prior to the
1989 trial, Petitioner’s counsel noted that the panel
seemed suspect as there were not enough women. They
discussed challenging the venire but did not have
enough time to effectively do so by the time they
perceived the problem.

App. 471
CONCLUSIONS OF LAW
In Duren v. Missouri, 439 U.S. 357, 99 S. Ct. 664, 58
L. Ed. 2d 579 (1979), the United States Supreme Court
set forth a three-pronged test for determining whether
a jury was properly selected from a fair cross-section of
the community:
(1) that the group alleged to be excluded is a
“distinctive” group in the community;
(2) that the representation of this group in
venires from which juries are selected is not fair
and reasonable in relation to the number of such
persons in the community; and
(3) that this under representation is due to
systematic exclusion of the group in the juryselection process.
Duren, 439 U.S. at 364, 99 S. Ct. at 668. This test was
first applied in Tennessee in the case of State v. Nelson,
603 S.W.2d 158, 161 (Tenn. Crim. App. 1980), and later
by our supreme court in State v. Buck, 670 S.W.2d 600,
610 (Tenn. 1984). Interestingly, the undersigned was
counsel for the appellant in State v. Nelson and was
before the Court of Criminal Appeals preparing for oral
argument in said case when notified that he had been
appointed to his current position.
The defendant has met the first prong of this test,
in that women are a “distinctive” group in the
community. State v. Thompson, 768 S.W.2d 239, 246
(Tenn. 1989), cert. denied, 497 U.S. 1031, 110 S. Ct.
3288, 111 L. Ed. 2d 796 (1990).

App. 472
With regard to the second prong of the Duren test,
the two proceedings differ in outcome. In the 1986 trial,
three women sat as jurors. Our supreme court has held
that the presence of three women on the petit jury
constitutes a “fair representation of women on the jury
and that is all that is required by the Constitution of
the United States.” State v. Strouth, 620 S.W.2d 467,
470 (Tenn. 1981). The Court is aware that in Strouth
both alternate jurors were also women. There is no
proof in this case concerning the sex of the alternate
jurors. The fact remains, however, that the actual jury
panels in the two cases were identical in gender
composition. Our supreme court rejected an argument
of under-representation of women in State v. Taylor
711 S.W. 2d 387 (Tenn. 1989) in which the two panels
contained three and four women respectively.
Therefore, the Court finds that there was no
under-representation of women in the 1986 trial.
In the 1989 re-sentencing trial, there was only one
female juror. The unchallenged venire statistics
demonstrate that the representation of women in the
venire from which Petitioner’s 1989 jury was selected
was neither fair nor reasonable. The State concedes
this point.
The third prong of the test requires a showing that
the under-representation was due to a systematic
exclusion of the group in the jury selection process. By
the numerical disparity, Petitioner has established a
prima facie case of systematic exclusion. The proof by
the State that jurors were selected from a presumably
gender balanced voter list does not overcome the fact of
the dramatic under-representation of women. In fact,

App. 473
there is no proof which explains the disparity. There
can be no explanation other than that the process, for
whatever reason, systematically excluded women from
Petitioner’s 1989 re-sentencing trial.
The Court finds that women were systematically
excluded from the jury panel which sentenced
Petitioner to death in the 1989 proceeding.
The fact of systematic exclusion does not, however,
necessary entitle Petitioner to a new trial.
Waiver
T.C.A. § 40-30-206(g) provides as follows:
(g) A ground for relief is waived if the petitioner
personally or through an attorney failed to
present it for determination in any proceeding
before a court of competent jurisdiction in which
the ground could have been presented unless
(1) The claim for relief is based upon a
constitutional right not recognized as existing at
the time of trial if either the federal or state
constitution requires retroactive application of
that right; or
(2) The failure to present the ground was the
result of state action in violation of the federal or
state constitution
The case of Duren v Missouri, supra, was decided in
1979 and adopted by the courts of Tennessee in 1980.
This case was originally tried in 1986. The claim for
relief was, therefore, recognized as existing at the time
of the trial. There is no proof in the record that the

App. 474
failure to present the ground was the result of any
state action.
Thus, the statute which provides for PostConviction Relief also provides that such relief is
waived if not presented in a timely manner. This is a
legislative limitation upon the right of Post-Conviction
Relief which this Court is required to respect. The
ground is waived.
Petitioner approaches this same issue from another
direction, asserting that the failure of trial counsel in
both trials to present this issue is ineffective assistance
of counsel. Even assuming arguendo that the limitation
of T.C.A. § 40-30-206(g) may be circumvented in this
manner and that counsel was ineffective in this
respect, Petitioner must still establish that he was
prejudiced by this failure of counsel. Strickland v.
Washington 466 U.S. 668, 104 S. Ct. 2052, 80 L.Ed.2d
674 (1984).
If counsel in either or both cases had moved to
quash the venire and established a significant
statistical disparity between women in the general
population and on the venire, the remedy would have
been to grant the motion, quash the venire, correct the
selection process and select a properly constituted jury.
Assuming that this properly constituted jury would
have been presented the same evidence as the actual
trial jury, the evidence does not indicate that the result
would have been any different. The Court notes that
the Cheatham County juries, although arguably
improperly constituted, sentenced Petitioner to death
based upon the evidence that they were presented.

App. 475
Petitioner has failed in his burden of proof on this
issue.
The prayer for relief upon the issue of underrepresentation of women on the juries on both the 1986
and 1989 trials is denied.
2. Ineffective Assistance of Counsel at the 1986
Trial
Petitioner has alleged that his trial counsel were
ineffective at his initial trial in 1986 in the following
particulars:
1. Steve Stack was inexperienced and not ready to
take on a major trial as lead counsel;
2. William Wilkinson’s practice kept him from
devoting sufficient time to Petitioner’s case;
3. Failure of counsel to investigate and prepare:
4. State compensation for appointed counsel was
inadequate to allow counsel to devote sufficient time
to Petitioner’s case:
5. Counsel failed to obtain adequate defense
services;
6. Counsel forfeited opportunities to impeach and
demonstrate reasonable doubt.
7. “Perjured testimony” at 1986 trial (Testimony of
Ken Jones).

App. 476
FACTS
Robert S. Wilson was appointed to represent
Petitioner at the preliminary hearing and asked Steve
Stack if he was interested in getting involved if
Petitioner was indicted. Stack became involved in the
case on June 6, 1985, and was appointed as co-counsel
to Wilson at the arraignment on June 10, 1985.
Stack had been practicing less than two years prior
to representing Petitioner, Stack had been counsel in
two criminal trials. Stack's work was 60 to 75 percent
civil.
At the time of the trial in 1986, Stack had not had
any specialized training in the area of defense of
capital cases. He had obtained the Tennessee
Association of Criminal Defense Lawyers 1985 edition
of the capital case manual and had read the same.
Shortly after arraignment, Wilson accepted
employment with the district attorney and withdrew as
counsel. Stack requested that a new lead counsel be
appointed .. The court appointed William G. Wilkinson.
Wilkinson had been practicing for over fifteen years at
the time and had considerable criminal experience,
serving at one time for two and one-half years as an
assistant attorney general. He had experience in only
one death penalty case and that was as assistant
attorney general. This is not surprising since there had
been only two death penalty cases tried in Cheatham
County during the fifteen years that Wilkinson had
been practicing. See State v. Guy Smith 554 S.W.2d 648
(Tenn. Crim. App. 1977), [death penalty commuted to
life imprisonment] & State v Michael & Morgan

App. 477
Gribble (unreported) Lexis 2962 (Tenn. Crim. App.
1984) [transferred to Madison County - Death penalty
remanded, sentenced to life imprisonment]. A court can
take judicial notice of its own records. The Court also
observes that during five years of that time (1972 1977), Tennessee did not have a valid death penalty
statute. Petitioner admits that no one had any death
penalty experience during that time. While this is not
totally accurate (See State v Guy Smith, infra), it is
substantially correct.
The proof establishes that there was apparently no
express agreement as to whom would be lead counsel.
The two lawyers worked together. Stack, as the more
inexperienced lawyer, did most of the "leg work" and
Wilkinson, the more experienced of the two, directed
the trial strategy. Of course, both lawyers were in
private practice and could not devote full time to
Petitioner's case. Nevertheless, they did extensive work
on the case.
Both lawyers investigated the case but Stack did
more active investigation than did Wilkinson.
Wilkinson started working on the case in September
1985. He interviewed the witnesses in Kingston
Springs and made two or three trips to Kentucky. In all
he spent 59.5 hours in pretrial preparation including 6
hours interviewing witnesses in Kingston Springs, and
12.3 interviewing the members of the Petitioner's
family and the law officers in Kentucky.
Neither counsel interviewed the students who
picked up Petitioner along the interstate and they were
unaware of Daniel Ray “Bud” Blair's criminal record or
the fact that he was on probation. Wilkinson

App. 478
acknowledged that this information would have been
helpful in an attempt to impeach Blair. He also did not
know prior to trial that Blair would say that he saw
blood on Petitioner’s shirt.
Victoria Marlene Hines Daniel Furlong, Petitioner’s
sister, testified at trial that she saw blood on
Petitioner's shirt when he came to her house. At the
hearing of this petition, she testified that she had been
drinking on the day that she testified at trial. This
witness’ testimony was contradictory and suspect. On
cross-examination, she was effectively impeached on
her prior inconsistent statements given on direct
examination. Her relationship to Petitioner causes the
Court to question her veracity at the hearing. If this
witness had been drinking to any appreciable extent
during the trial, this Court would have noticed it and
taken action. In fact, her ex-husband was found to have
had been drinking at the hearing and was incarcerated
for contempt. The Court rejects Ms. Furlong’s entire
testimony as incredible and worthless.
The same is true for the testimony of Robert
Earnest Daniel, Ms. Furlong’s ex-husband. He was
found to have been drinking before testifying at the
hearing yet attempted to testify about Ms. Furlong’s
drinking problem. At trial, he testified that she only
drank occasionally. At the hearing he testified that his
trial testimony was false and was given in an effort to
protect her. The Court can only assume that he would
have responded to an interview by counsel prior to the
trial in the same manner that he testified at trial, his
motive still then existing. Obviously, in the intervening
years, his attitude toward Ms. Furlong has changed.

App. 479
When pressed on cross-examination, Mr. Daniel
became increasingly belligerent, occasionally denying
his testimony on direct examination. The Court rejects
his testimony.
Both of these witnesses testified to one set of facts
at trial and the opposite at the hearing. The only fact
the this Court can confidently find is that they both
lied under oath at one proceeding or the other. Given
these facts, it is impossible to determine what, if any,
value interviewing either of these witnesses’ would
have been toward impeaching their testimony at trial.
Neither counsel interviewed either Virginia
Chandler or Melanie Chandler prior to the trial.
Melanie Chandler did not testify at the trial. Virginia
Chandler testified at trial that Petitioner boarded the
bus with a survival knife. Melanie Chandler testified at
the hearing that her mother, Virginia Chandler, drank
a lot and had animosity toward Petitioner. Perhaps her
testimony would have useful for impeachment of her
mother’s testimony at trial but her obvious affection for
Petitioner would have made the impeachment value of
her testimony marginal, at best. Melanie Chandler
admitted on cross-examination that she was not then
on good terms with her mother. In addition, Melanie
Chandler's testimony was, on occasion, selfimpeaching, e.g., that she had to walk twenty miles to
work each day while pregnant and that Virginia
Chandler threatened to have Melanie Chandler
“committed” if she came to testify at the hearing of this
petition. During this witness’ testimony, the Court
noted that several times she would glance
affectionately at Petitioner. She obviously still has

App. 480
strong feelings for him, a fact which she admitted on
cross-examination. In fact, prior to the beginning of
proceedings on September 1, 1999 there was a security
incident in which Ms. Melanie Chandler had been
allowed to have direct contact with Petitioner in the
courtroom, requiring another search of Petitioner. The
Court does not know whether this incident appears in
the record of the Post-Conviction Petition hearing
because it occurred prior to opening court.
Stack testified that no substantial work was done in
preparing for trial until after October 21, 1985. On
October 30 they had a discovery conference with the
district attorney and the state filed its discovery
response on November 1. The State’s discovery
response had a list of 29 witnesses. Stack’s practice
was to sit down with assistant district attorney Kirby
and review the witnesses and their expected testimony.
Stack testified that he is certain that he would have
known before trial that Blair would testify that he saw
blood. Defense counsel did not request a criminal
record on Blair and did not interview either of the
female students to learn that Blair had become nervous
and hesitant when they suggested that they contact the
police.
Stack recalled going to Victoria Hines Furlong’s
house but could not recall interviewing her. He went to
Rufus “Bill” Hines’s house twice and talked to Bill and
his son, Bobby Joe. He is not sure whether Petitioner’s
mother, Barbara Hines, was at the house. He also went
to Cave City and interviewed Grandfather Cross. He
did not learn of any sexual or physical abuse of any of

App. 481
the siblings. Bill Hines did tell him that Petitioner had
problems growing up.
Stack recalled that at the time of the 1986 trial the
rate for appointed counsel was $20 per hour out-ofcourt and $30 per hour in-court. This compared to the
fee he charged his private clients at that time of $60 to
$75 per hour. Stack spent 133.6 hours out-of-court
preparing for the trial and 38.9 hours in-court. He
indicated that he believed this figure to be probably
accurate. Stack further testified that a rate of $20 per
hour he would not have been able to pay his office
overhead if he had put the time in preparation for trial
that he now wishes he had.
Trial counsel did not ask for expert and
investigative services prior to trial. In hindsight
Wilkinson testified that, in his opimon, it would have
been helpful to have their own expert to assist in
examining Dr. Harlan and to rebut Harlan’s testimony.
Prior to trial they had not interviewed Harlan and did
not know exactly what his testimony would be although
they had seen the autopsy report. Wilkinson testified
that his custom was not to file a motion unless he
thought their was a reasonable chance that it would be
granted. At the time of the trial neither Stack nor
Wilkinson was aware of the case of Ake v Oklahoma,
470 U.S. 68, 105 S.Ct. 1087, 84 L.Ed. 2d 53 (1985),
giving capital defendants a due process right to expert
services. Although they testified that they were
unaware of the Tennessee statute which provided for a
grant of support services, they had filed a motion for a
psychiatric expert on November 7, 1985, under Tenn.
Code Ann. 40-14-207(b). The Court, therefore,

App. 482
concludes that, whether or not counsel was aware of
the authority for such a request, they did know that
expert services were available to indigent defendants.
Defense counsel did have Petitioner tested for
competency to stand trial and to determine whether
Petitioner was sane at the time of the offense. This
testing was done by the state experts at Harriet Cohn
Mental Health Center. On July 30, 1985, the medical
director at Harriet Cohn notified the court that they
could not determine either sanity at the time of the
offense or competency to stand trial on an out patient
basis. As a result, Petitioner was sent to the Middle
Tennessee Mental Health Institute for a thirty day
evaluation. This evaluation was limited to the issues of
competency and sanity and the report sent to the court
and both parties.
Prior to the hearing of the Post-Conviction Petition,
Petitioner requested and received the services of
psychiatrist William Kenner, M.D., neurobiologist,
Paul Rossby, Ph.D., and addictionologist Murray
Smith, M.D. These witnesses testified mostly
concerning mitigation matters, however, Petitioner
offered some speculative expert testimony concerning
Petitioner’s likely actions in certain situations given
their diagnosis of his condition which would have been
offered to prove Petitioner’s innocence.
Petitioner also requested and was granted the
services of Jeff Christian Sperry, M.D., the Chief
Medical Examiner for the State of Georgia. Dr. Sperry
explained that based upon the wounds to Ms. Jenkins
and the location of the blood in the room, it is clear that
her death resulted from an extremely violent and rapid

App. 483
attack. However, as Dr. Sperry further explained, the
knife wound to the vagina shows that the weapon was
carefully inserted and thus made by a person under
complete control. How Dr. Sperry could determine this
fact from pictures and the autopsy report, he did not
explain. Drs. Kenner and Rossby found this change of
composure totally inconsistent with the psychiatric and
neurobiological makeup of Petitioner. This evidence, if
admissible, would have been somewhat useful in
Petitioner’s original trial.
Petitioner insists that his trial counsel should have
attempted to cast suspicion upon Ken. Jones as a
possible perpetrator of the crime and that counsel was
ineffective in allowing Mr. Jones to “perjure” himself in
hiding his true reason for being at the hotel. While
counsel had brought out that there had been another
stranger in the area of the CeBon Motel that morning,
they did not develop any reason for the jury to consider
that someone other than Petitioner committed the
offense. Petitioner asserts that his trial counsel should
have suggested that perhaps, Ms. Jenkins had
thwarted Mr. Jones planned sexual liaison with Ms.
White and that this was a motive to kill her. He further
suggests that this theory might explain the twenty
dollar bill under Ms. Jenkins’s watch band and the
careful insertion of the knife into her vagina. Trial
counsel knew of the actual reason for Mr. Jones
presence at the motel, having learned it from the
sheriff. Of course, they could have investigated further
and learned the details of the encounter but the Court
does not find that the information would have been
particularly useful. To present such a farfetched theory
with no supporting evidence would cause a loss of

App. 484
credibility by the defense at trial. Admittedly, if trial
counsel had learned the exact details of the movements
of Mr. Jones, Ms. White and the person(s) in the
maroon or brown car, they could have “muddied the
water” concerning the details of the discovery of the
body. This would have been insufficient, however, to
cast reasonable doubt on the guilt of Petitioner given
the fact that Petitioner was shown by the proof to have
taken the deceased’s car keys, presumably from her
billfold (in which she habitually kept them), and stolen
her car. To accept Petitioner’s argument that he didn't
kill the deceased but merely took her car keys from her
body (which was wrapped in a blanket) and stole her
car would require the trial jury to depart from
speculation and enter into fantasy.
Trial counsel did bring out at trial that there was no
blood in the car. It could be reasonably argued that
blood would have been expected to have been in the car
if the perpetrator of this violent murder had
immediately jumped in the car and left the scene. Of
course, this could be countered with the possibility that
the perpetrator did not immediately leave the
premises. Victoria Hines Furlong testified that she saw
blood on Petitioner’s clothing when he arrived at her
house and Daniel Blair testified that he saw blood on
Petitioner’s shirt when he was in the car. Both
witnesses could, of course, been impeached but
effectively impeaching both witnesses would have been
unlikely. If the jury accepted the fact that Petitioner
had blood on his clothing and that there was none
found in the car, they could reasonably find that the
blood had dried before Petitioner entered the car. This
would tend to negate a panicked departure from the

App. 485
scene and allow the inference that Petitioner was
acting in a cold and deliberate manner. Of course, the
jury could also have determined that Petitioner did not
have blood on his clothes which could have been
explained by a change of clothing (he was traveling
from North Carolina to Kentucky). In fact, Mr.
Wilkinson testified that it was his impression of the
State’s case at trial that the state had not shown that
Petitioner had blood on his clothes.
CONCLUSIONS OF LAW
Petitioner insists that Steve Stack was lead counsel
for the defense and was too inexperienced to
adequately perform such a role. He also submits that
William G. Wilkinson did not have sufficient time to
devote to the case to be lead counsel. The Court finds
that it matters little who was lead counsel. What
matters is how effectively trial counsel functioned as a
team. Trial counsel functioned effectively in the trial of
this case.
Next, Petitioner submits that both counsel were not
sufficiently experienced in the trial of capital cases to
render effective assistance of counsel.
The Court of Criminal Appeals has held that
inexperience, in itself, does not equate to ineffective
assistance of counsel. A petitioner must identify
specific acts and omissions to support the claim.
Anthony J. Robinson v. State (unreported) Tenn. Crim.
App. At Jackson #02C01-9707-CR-00275, LEXIS 893,
opinion filed August 26, 1998.
Petitioner then asserts that the State’s
compensation of appointed counsel contributed to the

App. 486
ineffectiveness of trial counsel. This issue has been
considered and rejected by the Court of Criminal
Appeals in Henry Eugene Hodges v State (unreported)
# M1999-00516-CCA-R3-PD Tenn. Crim. App. at
Nashville. Lexis 810 Opinion filed October 20, 2000.
This leaves Petitioner with his specific allegations
of ineffectiveness of his trial counsel.
Both the Sixth Amendment to the United States
Constitution and Article I, § 9 of the Tennessee
Constitution guarantee a defendant the right to
representation by counsel. See State v. Burns, 6 S.W.3d
453, 461 (Tenn. 1999); Baxter v Rose, 523 S.W.2d 930,
936 (Tenn. 1975). This right to counsel includes the
right to effective counsel. See Burns, 6 S.W.3d at 461;
Baxter, 523 S.W.2d at 936; Strickland v. Washington,
466 U.S. 668, 686, 80 L. Ed. 2d 674, 104 S. Ct. 2052
(1984). To determine whether counsel provided
effective assistance at trial the court must decide
whether counsel’s performance was within the range of
competence demanded of attorneys in criminal cases.
Baxter, 523 S.W.2d at 936; Hicks v. State, 983 S.W.2d
240, 245 (Tenn. Crim. App. 1998). To succeed on a
claim that his or her counsel was ineffective at trial, a
defendant bears the burden of showing that counsel
made errors so serious that he or she was not
functioning as counsel as guaranteed under the Sixth
Amendment and that the deficient representation
prejudiced the defendant resulting in a failure to
produce a reliable result. Strickland, 466 U.S. at 687;
Burns, 6 S.W.3d at 461; Hicks, 983 S.W.2d at 245.
When reviewing trial counsel’s actions, this Court
should not use the benefit of hindsight to second-guess

App. 487
trial strategy and criticize counsel’s tactics. See Hellard
v. State, 629 S.W.2d 4, 9 (Tenn. 1982); Owens, 13
S.W.3d 742, 749. Counsel’s alleged errors should be
judged at the time they were made in light of all facts
and circumstances. See Strickland, 466 U.S. at 690;
Hicks, 983 S.W.2d at 246.
The performance of counsel is generally measured
using the Strickland standard. In Strickland, a capital
case, the United States Supreme Court determined
that the ineffective assistance of counsel claim that
would merit relief from a conviction or sentence has
two components: (1) that counsel’s performance was
professionally deficient and (2) that the deficiency was
prejudicial in terms of rendering a reasonable
probability that the result of the trial was unreliable or
the proceedings fundamentally unfair. Id. at 687, 104
S.Ct. at 2064.
To satisfy the second prong of the Strickland test, a
petitioner must show a reasonable probability that, but
for counsel’s unreasonable errors, the fact finder would
have had reasonable doubt regarding the defendant’s
guilt. See Strickland, 466 U.S. at 694-95. This
reasonable probability must be “sufficient to undermine
confidence in the outcome.” id. at 694; see also Harris
v. State, 875 S.W.2d 662, 665 (Tenn. 1994); Owens v.
State, 13 S.W.3d 742, 750 (Tenn. Crim. App. 1999). In
addition, with respect to the prejudice prong of
ineffective assistance of counsel, the court said showing
that “errors had some conceivable effect on the outcome
of the proceeding” is insufficient. Strickland, 466 U.S.
at 693, 104 S.Ct. at. 2067. Rather, the defendant must
show there is a “reasonable probability that, but for

App. 488
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at 694,
104 S. Ct. at 2068 . In assessing the claim of prejudice,
the “court should presume, absent challenge to the
judgment on grounds of evidentiary insufficiency, that
the judge or jury acted according to law.” Id. The
reviewing court must consider the “totality of the
evidence before the judge or jury” and should take into
account the relative strength or weakness of the
evidence supporting the verdict or conclusion.
Strickland, 466 U.S. at 695, 104 S. Ct. at 2069
With respect to the prejudice (second) prong of
Strickland, this Court finds that the omissions of trial
counsel were not such that would undermine
confidence in the outcome of Petitioner’s trial. This
Court finds that Petitioner has not established a
reasonable probability that, but for counsel’s omissions,
the result of his trial would have been different.
Petitioner’s allegation of ineffectiveness of counsel
at his trial is denied.
3. Ineffective Assistance of Counsel at the 1989
Re-sentencing.
Petitioner has alleged that his trial counsel were
ineffective at his re-sentencing hearing in 1989 in the
following particulars:
1. Phillip Maxey (now Judge Maxey), Public
Defender Shipp Weems and Assistant Public
Defender Steve Stack were inexperienced and not
ready to adequately represent Petitioner in his re-

App. 489
sentencing in which the death penalty was a
possible punishment;
2. Counsel’s workload
representation;

prevented

effective

3. Failure to designate a lead counsel prevented
counsel from adequately representing Petitioner;
4. Counsel failed to adequately investigate for,
develop and present significant mitigation;
5. Failure to attack the heinous, atrocious, or
crucial aggravating factor;
6. Failure to make a closing argument.
The first three issues have been addressed with
respect to Petitioner's original trial. Essentially,
inexperience, workload and organization of the defense
team, in and of themselves, do not amount to
ineffective representation of counsel. Petitioner must
show specific instances of prejudicial conduct or
omissions in order to prevail on an ineffectiveness of
counsel claim. In his fourth, fifth and sixth issues,
Petitioner has made such 1 allegations. The Court,
therefore, addresses only these issues.
FACTS
When this case was remanded for re-sentencing
Wilkinson withdrew as counsel and Phillip Maxey(now
General Sessions Judge), who was at Wilkinson’s firm,
was substituted for him. Stack had become an assistant
public defender. Shipp Weems, the Public Defender,
was always involved in any capital case handled by his
office and was involved in this case.

App. 490
Maxey had been practicing at the time for about five
years and did mostly general sessions trials. He did
have some jury trial experience in criminal cases but
none were homicide cases. He testified that he had
extensive contact with Dr’s. Charvat and Auble. Maxey
further testified that he used the facilities of the
Capital Resource Center and had visited their office on
this case several times. He had read the transcript of
the original tri al and had done strategy planning and
considerable research. Maxey felt that Petitioner’s
mitigation evidence was strong. He testified that the
closing argument for the re-sentencing had been
prepared but that Petitioner’s counsel agreed that it
would be tactically wise to waive it in order to prevent
District Attorney Kenneth Atkins from presenting his
usual highly effective and emotional closing argument.
Shipp Weems testified that he was not involved in
the preparation for the 1989 re-sentencing. He did not
get involved in the case until the second day of voir dire
because he had been defending a death penalty case in
Dickson County. As soon as that trial ended he joined
the team representing Petitioner. Weems testified that
there were three attorneys in his office and they
handled cases in five counties. The attorneys rarely
saw each other and although they had monthly
meetings they did not hold in-depth case strategy
discussions. At the time, each attorney handled
approximately 800 cases per year, they had one
secretary and no investigators. The geographical
makeup of the district meant spending as much as
forty hours a week traveling. They did not have
sufficient time to adequately prepare their cases for
trial and that this was especially true of a capital case.

App. 491
On cross-examination, Weems admitted that he had
never tried a case, whether he won or lost, that he felt
totally prepared to try. He testified that he had the
TACDL Capital Defense manual and was familiar with
it prior to the re-sentencing trial.
Weems testified that Petitioner’s counsel made a
conscious decision not to present a final argument at
re-sentencing in order to prevent District Attorney
Atkins from inflaming the jury in his final argument.
He further testified that Petitioner’s counsel delayed
making their opening statement until the beginning of
the defense proof because they anticipated that the
State would abbreviate their proof-in-chief and counsel
wished to know what the State’s proof would be before
committing to a particular defense strategy.
Steve Stack concurred with Mr. Weems that his
office did not have sufficient resources to adequately
handle a capital case. He personally was handling all
courts in two or three counties at the time and
spending at least two to three days a week in court. He
testified that he had filed a motion for expert
psychiatric assistance but that this motion was never
granted. He agreed with Maxey and Weems that
Petitioner’s counsel had agreed to waive their closing
argument in the re-sentencing trial because they
believed that the State’s initial opening argument was
primarily factual and hadn’t hurt the defense
significantly and that they had more to gain by
preventing Gen. Atkins’ anticipated closing argument
than by presenting their argument.

App. 492
Mitigation evidence presented at 1989 re-sentencing
rehearing
The defense’s first mitigation witness was Thurman
Page, a counselor at the Tennessee State Penitentiary
who had dealt with Petitioner since his incarceration
after the 1986 trial. He testified that Petitioner had no
serious disciplinary problems and none involving
violence during that period. In his opinion Petitioner
was not a threat to the general prison population. He
also characterized Petitioner as a loner and did not
remember any family visits. It was brought out under
cross-examination that the witness had no idea if there
were write-ups prior to the time the witness came to
work on the Petitioner’s unit.
The next mitigation evidence presented was the
reading of the prior testimony (from the 1985 trial) of
John Croft, Petitioner’s grandfather. This evidence
brought out facts concerning the family background
and Petitioner’s early use of solvents. No mention was
made of any physical or sexual abuse or alcoholism
within the family. He did testify that Petitioner’s
mother had not drunk since 1979. Croft had lived away
from Petitioner since he was 13, although Petitioner
would come to visit. After Petitioner had gone to prison
in Kentucky, Croft had rarely seen him.
The only other lay witnesses called by the defense
were Eugene Gollins ·and Preston Smith, who testified
as to their drug use with Petitioner. Collins had only
known Petitioner from the age of 14, and had not seen
him since 1976. Smith’s knowledge of the Petitioner
was also limited to a few years and experiences. Collins
described Petitioner as high tempered and crazy, while

App. 493
Smith told the jury that he never saw the Petitioner in
a fight and knew him to be calm.
The two experts that made up the remaining
defense witnesses in the 1989 re-sentencing were a
neuropsychologist and a sociologist.
Dr. Pam Auble performed a psychological
examination of Petitioner, administering a number of
tests and conducting a clinical interview. She also
reviewed supplemental sources such as records and
reports. Her diagnosis was (1) paranoid personality
disorder and (2) dysthymia. She found that Petitioner
did not meet the criteria for major depression, mania or
schizophrenia. Dr. Auble spent one day testing
Petitioner and a second day reviewing the results of
testing and other reports. She testified that she spent
roughly sixteen hours reaching her diagnosis. Dr Auble
testified that she was aware of Petitioner’s head injury
at age eight; his parent’s excessive drinking and his
physical abuse by his step-father. Her test results
indicated that Petitioner:
was emotionally immature;
had low self-esteem;
had difficulty trusting others;
was insecure about his masculinity;
suffers from underlying depression and anger,
resulting in self-destructive behavior and his
ignoring problems; and
experiences anger which boils up under stress.

App. 494
Her diagnoses were:
l. Paranoid personality disorder
A. expects to be exploited by others;
B. questions trustworthiness of friends
without justification;
C. reads threats or insults when none exist;
D. bears grudges;
E. reluctant to confide in others;
F. easily slighted, quick to anger; and
G. likely lo question faithfulness of spouse or
partner without justification.
2. Dysthymia
A. depression for at least two years
B. trouble sleeping or poor appetite;
C low energy;
D. low self-esteem;
E. Poor concentration;
F. feelings of hopelessness;
G. no major
schizophrenia.

depression,

mania

nor

Dr Auble concluded that Petitioner had a lengthy
history of alcohol and drug abuse, including glue
sniffing, but that there was no conclusive evidence of

App. 495
brain damage and testing did not indicate an alcoholic
personality although she opined that he had a possible
learning disability. She opined that his mental and
emotional condition would have affected his ability to
handle stress. The most difficult stress for Petitioner to
handle would be betrayal. The facts of the murder, she
testified, fit a pattern of betrayal and explosion
essentially beyond Petitioner’s ability to control. She
further concluded that the fact that Petitioner was
traveling back to his family suggested “extreme
emotional disarray”. Dr. Auble also concluded that
Petitioner would not be a threat in a prison
environment.
At the hearing of the Petition for Post-Conviction
Relief, Dr. Auble testified that this was her first death
penalty case and that she became involved only a
month and a half before testifying. She had interviewed
Petitioner twice before her testimony at re-sentencing
and this was not sufficient time to form a trusting
relationship with him. Dr. Auble did not talk to
Petitioner’s family but relied on reports instead. She
didn’t have time to refer him to other professionals
although she did receive the social history done by Ann
Charvat, the sociologist witness, about a month after
she had tested Petitioner. Dr. Auble opined at the
hearing that she didn’t have time prior to the resentencing hearing to adequately diagnose his
alcoholism and have Petitioner diagnosed by an expert
in chemical dependancy and addiction medicine. This
would have been useful, she testified, in determining
his true psychological situation. She further testified
that her own neuropsychological testing at the time of
the re-sentencing did not reveal chemical causes of

App. 496
Petitioner’s brain injury because this is best done by
analysis of spinal fluid and she is not qualified to
perform such a procedure.
On cross-examination, Dr. Auble did admit that she
knew of the fact of Petitioner’s family history of alcohol
abuse.
In response to the Court’s questions, Dr. Auble
testified that if she had known then what she knew at
the time of the Post-Conviction hearing, she would
have insisted on further testing of Petitioner. She
would have suspected a possible chemical imbalance in
the brain.
Dr. Ann Charvat testified in the re-sentencing as an
expert in sociology and created a social and life history
of Petitioner based on information she had collected
over a six week period. Petitioner’s family, she
testified, was violent, unstable and socially isolated.
Dr. Charvat determined that Petitioner had
experienced very serious abuse and had too much
responsibility at too young an age. He was
dysfunctional in family bonding and his early social
models were violent. The result of this, she opined, was
that Petitioner had no attachment bond, no
commitment and no belief system. Dr. Charvat spent
over twenty hours with Petitioner and interviewed
some of his family and friends. She testified that she
did not find evidence of sexual abuse, bul did find
deviations from the sexual norm. Petitioner’s
experiences at the Green River Boys Camp and the
detrimental effects ‘grouping’ treatment were explained
by Dr. Charvat. She testified about how Petitioner’s

App. 497
family background, juvenile delinquency, and lack of
education combined to bring about his violent actions.
Dr. Charvat’s findings were that Pecitioner had no
bonds or relationships. She testified that factors which
produced Petitioner’s deviant behavior were:
a. Significant physical abuse;
b. being neglected as a child;
c. social isolation of his family;
d. poor parenting;
e. irregular sexual norms;
f. excessive adult responsibility on Petitioner
as a child;
g. poor academic performance;
h. truancy;
i. poor achievement tests;
j. early delinquence;
k. early drug use;
l. self-abusive tendencies;
m. lack of adult supervision;
n. ineffective involvement with the juvenile
justice system;
o. terminated education;
p. violent role models;

App. 498
q. incarceration; and
r. Petitioner’s treatment at Green River Boy’s
Camp.
Dr. Charvat testified that, in her opinion, the facts
preceding the murder were very destabilizing to
Petitioner. These factors included his severed
relationship with his family, his son and his son’s
mother. The result was that Petitioner had become
completely unbonded. Lastly, she testified that
Petitioner’s cycle of violence had now been broken.
At the Post-Conviction hearing, Dr. Charvat
testified that the evidence she presented at the resentencing represented only the beginnings of a
comprehensive social or life history. If she had to
testify in such a trial now, she would attempt to obtain
the records of Petitioner’s family members but she did
not do this at Petitioner’s re-sentencing. She did not
testify whether this was due to lack of time or that it
did not occur to her to do so at the time. When
discussing the risk factors she discovered, Dr. Charvat
admitted that she may have found more risk factors “if
I’d gone further.” Prior to the re-sentencing, she never
contacted Melanie Chandler, Virginia Chandler or
Debbie Hines (now Lee Miles) and spoke with Victoria
Hines Furlong ‘only briefly.’ Thus, she opined, she did
not discover the severe sexual abuse that occurred
within the family and did not gain any real insight into
important aspects of Petitioner’s upbringing. She
further testified that, in her re-sentencing testimony,
she missed episodes of trauma and failed to tie things
in well although she did not testify to what effect these
omissions might have had upon her conclusions. On

App. 499
cross-examination, she testified with regard to her
failure to adequately present Petitioner’s condition to
the jury that, “We are not just communicating facts, we
are communicating feelings”. Apparently, the witness
was of the opinion that she had failed in this regard.
She further testified that the basic sociological evidence
was presented in Petitioner’s re-sentencing trial. These
facts, she testified, should have been presented more
extensively and persuasively.
The testimony of the forgoing witnesses constituted
the mitigation evidence that was presented by
Petitioner at his re-sentencing. Petitioner insists that
his counsel was ineffective in not discovering and
presenting additional mitigation evidence at his resentencing. This allegedly omitted evidence was
presented at the hearing of the Post-Conviction
Petition.
Additional mitigation testimony
Victoria Hines Furlong, Petitioner’s sister, testified
to the details of Petitioner’s abusive childhood in
addition to her testimony concerning her observations
of Petitioner the day after the murder and her drinking
habits during that period. The Court has addressed her
testimony concerning her observations and drinking
hereinabove.
Lee David Miles, Petitioner’s brother (formerly
Debbie Hines Page, his sister), testified in detail
concerning the abuse of Petitioner and his siblings by
their step-father.
Dr. Murray Wilton Smith was qualified with the
state’s stipulation as an expert in both internal

App. 500
medicine and addiction medicine. He has been involved
in addiction medicine since 1981 and has treated
approximately 5,000 patients for drug and alcohol
addiction in the past ten years. In addition, he has
consulted in four death penalty cases.
Dr. Smith testified that alcoholism has been
recognized as a disease since 1956. Type I alcoholism is
characterized by a gradual increase in usage and
problems. Type II alcoholism is inherited from father to
son. It is characterized by rapid early onset, usually by
age 9, 10, or 12. It will manifest with trouble before the
end of teen years and antisocial behavior. A Type II
alcoholic is usually incarcerated before the age of
twenty. It is a medical illness based on inherited brain
chemistry. Long term use of intoxicants causes
permanent changes in the brain chemistry which, in
turn, is the basis of one’s being.
Dr. Smith’s diagnosis was that Petitioner is a Type
II alcoholic. Factors like abuse would have contributed
to Petitioner’s condition. Petitioner’s trouble with
aggression and the law is to be expected in Type II
alcoholism. Petitioner also has low levels of serotonin,
which is connected to Type II alcoholism and
aggression. Dr. Smith testified that the ability to
monitor and treat serotonin levels was available in
1989.
Although it was possible to receive behavioral
therapy in the eighties, it was not very readily
available for people in Petitioner’s home and social
situation. Free programs such as Alcoholics
Anonymous were readily available and quite effective
in treating alcoholism. Twelve step programs can have

App. 501
a two-thirds success rate. Dr. Smith’s opinion was that
if Petitioner were kept away from alcohol and in a
controlled environment, he would be relatively nonviolent. Prisons which house violent offenders, he
testifies, have a large percentage of Type 11 alcoholics.
Dr. Paul Rossby testified as an expert in molecular
neurobiology, the field that studies brain chemistry the biological basis of behavior. Dr. Rossby explained
the chemical make-up of the brain and the effects that
imbalances can have on brain function. His testimony
established that the central nervous system is
comprised of four billion neurons which conduct an
electrical current. Neurotransmitters are chemicals in
the brain which regulate the firing of the neurons.
There are two types of neurotransmitters, those that
cause the neurons to fire - excitatory, and those that
inhibit them from firing - inhibitory. The effect of firing
or not firing depends on which area of the brain they
are located There is a dynamic balance between the
two to produce consciousness, memory, feelings,
emotion. etc. If the balance is upset it can upset these
functions .
Serotonin is a naturally occurring neuromodulator
in the brain that comes under the broad heading of
neurotransmitters. It appears to orchestrate various
systems of inhibition within the brain. There has been
a significant amount of research on serotonin since the
1970’s, and Dr. Rossby testified that much of this
information was available in 1986.
Dr. Rossby went on to explain that there is a
hierarchy of different systems of inhibition in the brain.
If one level of inhibition fails, the one below is

App. 502
activated. There is a vast body of research which
indicates that low serotonin levels decrease the brain’s
capacity to inhibit impulses. Two studies on violent
inmates have shown that those who committed
impulsive violence had low serotonin levels, and
inmates who committed crimes with premeditation had
normal levels. Hundreds of inmates were tested in
many studies in the 70’s, 80’s and continuing into the
90’s. Tests analyze the spinal fluid for 5HIAA, a major
metabolite of serotonin. Serotonin levels do not
fluctuate from day to day although there is a gradual
increase of function with age.
Dr .. Rossby testified that in Finland researchers
were able to do research in prisons. Type II alcoholism
was detected in almost all of the violent offenders who
also had low serotonin levels, approximately eighty five
percent. Such findings indicate a connection between
Type II alcoholism and low serotonin. There is a also
genetic component to Type II alcoholism. The son of a
Type II alcoholic has a nine times greater chance of
becoming Type TI, even if reared apart, than the son of
a non-Type II.
Dr. Rossby pointed out that low serotonin does not
produce violence, it only indicates an organic
impairment in the control or that type or behavior. One
can predict with much success that such a person will
get in trouble with the law. He testified that it appears
that the ingestion of alcohol further exacerbates or
lowers that threshold.
Dr. Rossby and associated specialists measured
Petitioner’s serotonin levels by testing spinal fluid
taken via a spinal tap. They then compared the sample

App. 503
from Petitioner to the mean average from twenty-eight
other healthy men of the same age. Petitioner’s level is
at the extreme low end in our society. Dr. Rossby’s
report of Petitioner’s serotonin levels was entered as
Exhibit number 17 to the Post-Conviction hearing. He
testified that research has found a strong connection
with low serotonin, impulsive violence and Type II
alcohlolism. Dr. Rossby found Petitioner to be
organically impaired and that once an impulsive action
is triggered, Petitioner does not have the biological
capacity to control it. Petitioner was found by Dr.
Rossby to have been very damaged with no control over
his impulsive behavior. The root cause of this situation
is biological. In Dr. Rossby’s professional opinion,
Petitioner does not have the ability to control impulsive
rage or anger. Low serotonin does not cause violent,
behavior, rather it causes the brain to be biologically
impaired in terms of control of impulsive behavior. The
impulse itself is a different factor, not created by a
serotonin deficit. A person can have low serotonin and
not commit violent acts. A person who does not have
strong self or outward destructive impulses that would
require normal levels of serotonin to control, can live a
normal life with low levels of serotonin if the person
lives a relatively stress free life. The person’s capacity
to control things like diet or resist small impulses
would be impaired. It is for this reason that proof of
Petitioner’s stressors in life are important lo explaining
his behavior.
Dr. Rossby stated that experts in this field would
have been available in 1989. To the extent that a
lawyer may not have been aware of this research,
psychological experts would have known and could

App. 504
have made referrals between branches. Dr. Rossby
noted that a landmark study, widely quoted in the
field, was published in 1982. (Exhibit No. 50, Human
Aggression and Suicide, Their Relationshjp to
Neuropsychiatric Diagnoses and Serotonin Metabolism,
1982.) Under cross examination, Dr. Rossby testified
that he was unaware of anyone testifying as an expert
witness on the subject of serotonin levels prior to his
1992 testimony in the Post-Conviction hearing in the
case of Victor James Cazes v State, (unreported) Lexis
1194, Tenn. Crim. App. at Jackson #W1998-00386CCA-R3-PC, opinion filed December 09, 1999. This
Court doubts the accuracy of Dr. Rossby’s recall of the
year of his testimony. The opinion affirming the
conviction of Victor James Cazes was filed in 1994. See
State v. Cazes, 875 S.W.2d 253 (Tenn. 1994). It is
inconceivable to this Court that the filing and hearing
of the Petition for Post-Conviction Relief would have
been prior to the release of the opinion of the Supreme
Court affirming Cazes’ conviction. Dr. Rossby also
stated that he testified in one other case concerning
serotonin and impulse control in Dayton, Ohio in 1999.
Dr. William Kenner was called by Petitioner to
explain the implication of the evidence produced by the
lay and expert witnesses. Dr. Kenner is a physician
with specialty training in psychiatry - child psychiatry
and psychoanalysis. The Court noted that Dr. Kenner
is known by the Court and recognized him as an expert
psychiatrist. Kenner brought together all aspects of the
mitigation case; other expert testimony, the time-line,
social history and testimony of lay witnesses, and
directly related it to the effects upon Petitioner.

App. 505
Dr. Kenner described his preparation for his
testimony. He interviewed Petitioner, his brother
(formerly his sister), Lee, and his sister Victoria. Dr
Kenner saw Petitioner twice with two hour interviews
each time; saw Victoria for two hours and Lee twice ror
a total of four hours. Dr. Kenner also reviewed a
considerable amount of information including school
records, Green River records and other evaluations. Dr.
Kenner reviewed testimony given in the first postconviction hearing by Petitioner’s siblings and by Drs.
Rossby and Smith.
Dr. Kenner presented his diagnosis of Petitioner as
follows:
Diagnosis:
Axis I:

Post traumatic stress disorder, severe,
chronic Polysubstance abuse

Axis II:

Antisocial personality disorder, with
paranoid features

Axis III: status post-head injury and inhalant
abuse
Axis IV: Stressors - legal issues, severe
Axis V:

GAP - functional ability- 60 on scale of
100.

Dr. Kenner’s report was entered as Exhibit 42.
Dr. Kenner described the traumatic events in
Petitioner’s life that formed the basis for his diagnoses
and opinions concerning Petitioner. Paramount was

App. 506
Petitioner’s life-history of being physically and sexually
abused in childhood.
Dr. Kenner described Petitioner’s history of
repeated head injuries. In addition to constantly being
hit in the head by his step-father with tobacco sticks,
coffee cups and other objects, when Petitioner was
eight or nine he fell off a hay wagon and was knocked
unconscious. Petitioner was unconscious for
approximately 30 minutes and had bleeding from his
ear. Dr. Kenner noted that bleeding through the ear is
a sign of a fracture at the base of the skull. Bill Hines,
Petitioner’s step father, did not seek medical attention
for Petitioner. Dr. Kenner’s opinion is that repeated
injuries such as these are cumulative and create
“organic personality syndrome” Dr. Kenner stated that
it makes it difficult for people to learn because it
decreases recent memory. It also impairs abstract
thinking and makes the person more volatile.
Petitioner’s other head injuries include getting hit in
the head with a baseball bat playing sandlot ball at age
twelve. Petitioner’s neuropsychological testing shows
he actually got better while in prison. One of the
reasons, according lo Dr. Kenner, is that he stopped
getting hit in the head and getting into fights.
Dr. Kenner opined that Petitioner’s physical
injuries were likely compounded by his use of
inhalants, sniffing glue and gasoline. Dr. Kenner
testified that organic solvents are neurotoxic in and of
themselves. In addition, the method used for inhaling
or huffing them is to put a plastic bag over one’s head
to concentrate the fumes . The result is that the brain
gels insufficient oxygen which also is harmful.

App. 507
Dr. Kenner described the effects of Post-Traumatic
Stress Disorder (“PTSD). He stated that PTSD literally
changes the way the brain works; it changes the
architecture of the brain. He described it as being
analogous to an electrical surge rewriting the
motherboard on a computer. It can happen both with
traumatic brain injury and PTSD. Dr. Kenner
explained that individuals with PTSD experience
stressful events organically differently than normal
people. A normal person experiences the event and
immediately the body’s fight or flight mechanism is
triggered, releasing the hormones epinephrin and
norepinephrin (formerly known as adrenalin and
noradrenalin). Dr. Kenner stated that for PTSD
patients this is a chronic state. Normal people also
have a calming hormone, cortisol, when the event ends.
People with PTSD don’t have the calming hormone and
thus there is nothing to catch the arousal state.
Through the use of PET scans and more advanced
MRI’s, studies have shown the part of the brain that
deals with emotions and inhibits action, the
hippocampus, actually shrinks in patients with PTSD.
Dr Kenner explained the “beta endorphin system”.
In normal population, good, warn, fuzzy feelings are
mediated by the endorphins, an example being the
“runners high.” People with PTSD are in a perpetual
state of deficiency of beta endorphins. As a result they
will put themselves in dangerous situations to get the
endorphins to release. Essentially, they jump start the
beta endorphin system through risky or dangerous
behavior. People traumatized, particularly as children,
are far more likely to get involved in co-morbid
conditions, problems with substance abuse, self-

App. 508
destructive behavior, etc. Persons with PTSD also will
have low serotonin - it is one of the neurotransmitters
that one has problems with.
Dr. Kenner testified that in adults a dramatic
change in personality will accompany PTSD. However,
in children, because they are developing, it is more
difficult to recognize. In Petitioner’s case, his sisters
described him as a sweet, happy little kid until he got
about grade school age. This corresponds with Bill
Hines’ beginning to attack him more severely. The
symptoms of children with PTSD are similar to those
with a conduct disorder, so quite often kids with PTSD
are diagnosed with a conduct disorder which is a
precursor to an adull antisocial personality disorder.
When an adult experiences a traumatic event, even
if they develop PTSD, they have the knowledge that
the event is abnormal and therefore have some basis to
still know that the whole world is not like that.
However, a child knows no other world, so the whole
world becomes filled with abusive, dangerous, volatile
men (in Petitioner’s case, Bill Hines) who will attack
Petitioner.
People with PTSD have a “repetition compulsion”
which means they have a way of repeating the
traumaric events. Examples: Women who are sexually
abused go into the sex trade at a rate four times higher
that other women. Men traumatized in battle will
become soldiers of fortune. In Petitioner’s case one of
the themes in his life is to fight with male authority
figures.

App. 509
Dr. Kenner testified that, as related in Dr. Auble’s
report, the testing shows a paranoid quality to
Petitioner’s personality. He is always vigilant to who is
going to attack him, who is going to sexually abuse
him.
Petitioner’s experience at Green River would have
been very similar to the abuse he got from Bill Hines
and would have been very traumatic for him.
Dr. Kenner testified that the facts of the murder are
inconsistent with Petitioner. There is no indication that
Petitioner had hard feelings at that primitive level
toward women. Dr. Kenner cited the relationship of
trust that Petitioner has formed with Connie Westfall,
an investigator for the Office of the Post-Conviction
Defender. According to Dr. Kenner, Petitioner’s history
shows that he did not strike women. Dr. Kenner stated
that the facts of this case are trademarks of someone
who is starting or in the middle of a career as a serial
killer. The person who’ killed Ms. Jenkins hated
women. According to Dr. Kenner’s testimony, this is
not what is shown by Petitioner’s history. Petitioner’s
history shows he forms better relationships with
women than he does with men.
Dr. Kenner stated that the evalualion performed by
Middle Tennessee Mental Health Institute (MTMHI)
was superficial and the results largely inconclusive. He
explained that MTMHI was ruling out schizophrenia,
and may also have been ruling out a bi-polar illness.
One would not be able to pick up PTSD based on lhe
examination performed by MTMHI. Dr. Kenner also
noted that, to the extent that the MTMHI report was
based on the self reporting of Petitioner.

App. 510
Dr Kenner testified that the information gathered
by Dr. Charvat was not thorough enough. For example,
she should have interviewed Victoria Hines Furlong in
more detail and should have interviewed Lee Miles.
On cross-examination, Dr. Kenner testified that
most of the information upon which he based his
opinions was available to Dr. Charvat in 1989. He
admitted that Petitioner’s prison records show a hatred
toward blacks and women. This fact calls into question
the accuracy of Dr. Kenner’s opinion concerning
Petitioner’s affinity toward women. If Petitioner’s
statements in the prison records are accurate, they
would tend to put him in the position of the person who
Dr. Kenner testified likely killed the deceased, a hater
of women. Dr. Kenner explained this apparent
discrepancy by stating that Petitioner “says he hates
women but his actions are otherwise”. In fact, other
experts testified that at the time of the crime Petitioner
was extremely affected by emotional distress caused by
two women, Mrs. Virginia Chandler and Ms. Melanie
Chandler.
In view of this fact, Lhe Court does not consider Dr.
Kenner’s testimony to be particularly strong mitigation
evidence.
Dr. David Richart, an Associate Professor at
Spalding University, Louisville, Kentucky, and
executive director of the National Institute on
Children, Youth and Families, testified as to the type
of programs used at the Kentucky Green River Boys
Camp and the effects that they had on children who
were sent there.

App. 511
Petitioner was at Green River for about six months
in 1977-8. Richart paid particularly close attention to
records and reports from that period. Richart found
that Petitioner’s descriptions matched with what other
former residents had reported as well as what Richart
had personally witnessed and what was shown in the
various reports.
Richart explained to the court the group therapy
techniques or modalities such as ‘guided group
interaction’ ‘positive peer culture’ and ‘reality therapy’.
These were used in residential facilities throughout the
country, and in particular at Green River during the
time that Petitioner was a resident there. Richart
founded an organization called Kentucky Youth
Advocates, which was responsible for a series of
exposes about children who were in these facilities and
some of the misapplications of these modalities.
These programs were originally well meaning in
design but began to draw criticism because they were
being inappropriately used. They called for confronting
the juvenile with what he had done and how it affected
others. These programs are currently being used in
other states but they are using them differently than
they were being used in Kentucky. The systems
presently being used no longer have the emotionally or
physically confrontive element as used in Kentucky. In
direct response to these abuses of the group therapies,
the second edition of the book Positive Peer Culture by
Mr. Vorrath, the founder of guided group interaction,
adds warnings about its use. In his book, Vorrath
warns that if a group treatment program is involved in
harassment, name-calling, screaming in somebody’s

App. 512
face, that is not a proper use of his treatment modality
and will do more harm than good.
An affidavit from Charles Bonta, a retired juvenile
specialist for Kentucky who oversaw the programs at
various juvenile camps, supported Petitioner’s position
that such events occurred at the time that Petitioner
was at Green River.
From his experience as an aftercare worker, Richart
observed that it was often only a month or two after
release from the camp that the youths were back in
trouble. Some residents actually experienced
psychological breakdowns and Richart had to pick
them up and take them to mental hospitals. Others
became more withdrawn or aggressive. It hardened
them more toward society because they learned that no
one cared about them. Richart testified that many of
the former residents of Green River ended up in prison
or on death row.
Richart reviewed the Hines family file and came to
the conclusion that Petitioner was completely
inappropriate for guided group interaction, even in its
intended form. In the form that the program was
applied at Green River it simply reinforced Petitioner’s
view that the world was a hostile and abusive place
and abuse and violence were simply facts of everyday
life. Richart testified that the effect of Green River on
Petitioner was probably to make him psychologically
tougher, diminish any sensitivities he had toward other
people and make him less tolerant of other people
confronting him. He opined that Petitioner’s
experiences there compounded his criminal tendencies
and exacerbated his feelings of isolation. Dr. Richart

App. 513
also pointed out that Petitioner was not given any
alcohol or drug treatment while at Green River.
To counter Petitioner’s mitigation evidence, the
State offered Dr. Henry Cellini, who was currently
engaged in private consulting and employed by the
University of New Mexico in the violence and
substance abuse studies program. Dr. Cellini’s degree
is in Educational Psychology. Because of his area of
expertise, the Court allowed Dr. Cellini to testify in the
area of the effects of serotonin on behavior but not on
the subject of medical tests. The Court ruled that the
fact that his Ph.D. is in another area effects the weight
of his testimony but did not prohibit its admissibility
In this limited capacity Dr Cellini’s testimony did
not vastly differ from that of Dr. Rossby. Dr. Cellini
agreed that research into serotonin and other
neurotransmitters dates back to the 70’s or early 80’s.
He was aware that recent research authoritatively
establishes a connection between low serotonin levels
and suicide. Dr. Cellini agreed with Dr. Rossby that
low serotonin level is not shown to cause violent
behavior, rather it prevents the person from controlling
impulsive violence. Dr. Cellini was aware that there
were many articles concerning research in this area
conducted in the 1970’s, and he agreed that some of
this research was reasonably well done. He testified
that serotonin research was in its infancy in the mid1980’s. Dr. Cellini further agreed that the primary
studies on serotonin were sponsored by the National
Institute of Mental Health and that serotonin research
is not “pop psychology”.

App. 514
Although Dr. Cellini did not know whether the role
of neurotransmitters on crime was known to criminal
defense attorneys in the mid to late 80’s, he testified
that it was often brought up in departments of
corrections. Dr. Cellini agreed that even if attorneys
may not have known about serotonin research in the
mid 1980’s, psychologists and psychiatrists did. He
further testified that in the past decade there has been
a lot of interest in the area by attorneys.
The primary contribution of Dr. Cellini’s testimony
was to establish the level of awareness of serotonin
research in the professional community during the time
in question. This Court accepts Dr. Rossby’s testimony
concerning the details of serotonin level physiology and
its effect upon Petitioner. Dr. Cellini did not contradict
this testimony.
The Court finds that, with the exception of the
serotonin evidence, the mitigation evidence presented
by Petitioner at his Post-Conviction hearing was
essentially a more detailed presentation of the
mitigation evidence at trial. The record shows that this
detailed mitigation evidence was prepared by two
attorneys and three investigators over a three year
period of time. This time was far in excess of the time
which would have been allowed to prepare for even a
capital trial.
While the serotonin evidence would have been very
useful in mitigation for Petitioner, there is no evidence
that this information was known outside the medical
community at the time of Petitioner’s re-sentencing.
Petitioner’s medical experts who testified at resentencing did not appreciate the importance of this

App. 515
subject. In this regard, the Cazes opinion is instructive.
The trial judge in Cazes found that Dr. Auble had not
attended any seminars in forensic psychology at the
time of Cazes’ 1990 trial. Apparently, was not aware of
the importance of serotonin levels to impulse control.
In the opinion of this Court, Petitioner’s counsel are
entitled to rely upon the expertise of their selected
professionals to determine whether further
examination of Petitioner might prove fruitful. Steve
Stack testified that the mitigation experts who testified
in Petitioner’s re-sentencing trial were suggested by
the Capital Case Resource Center. Legal counsel could
not be expected to know which medical speciality might
prove beneficial in discovering additional information
about Petitioner’s mental or emotional condition which
might prove useful. The taxpayers of this state could
not be expected to finance a “fishing expedition”
designed to possibly discover information which might
ultimately prove useful to Petitioner’s case. This Court
would not approve an expenditure for an examination
of Petitioner without some articulable facts to support
a reason for such examination. ‘Petitioner’s counsel at
re-sentencing could not reasonably have been expected
to search for experts on a subject which they did not
know existed.
Failure to attack heinous, atrocious or cruel
aggravating factor
Petitioner submits that his counsel at re-sentencing
should have challenged the testimony of Dr. Charles
Harlan concerning the extent of suffering experienced
by the deceased immediately prior to her death. He
alleges that a pathologist could have provided evidence

App. 516
that the victim suffered only briefly, thus minimizing
the effect of the “heinous, atrocious or cruel”
aggravating factor.
Dr. Jeff Christian Sperry, the Chief Medical
Examiner for the State of Georgia, testifying on
Petitioner’s behalf in post-conviction, opined that there
was pathological evidence that could have mitigated
against the severity of the crime as well as casting
doubt upon Petitioner’s guilt. This Court has previously
found that the medical evidence would have had little,
if any, impact upon the jury’s finding of guilt in his
original trial.
Dr. Sperry has been a forensic pathologist since
1985. He testified that he is familiar with crime scenes
as he has been to many in his career and he has
investigated hundreds of stabbings. In preparation for
his testimony at the post-conviction hearing, Dr. Sperry
studied the testimony of Dr. Harlan, Sheriff Weakely
and E.M.T. Mary Sizemore, the autopsy report,
photographs of the crime scene and autopsy, and
reports. He testified that he generally agreed with the
autopsy report. Dr. Sperry’s opinion was that the
superficial wounds to the chest and defensive wounds
to the hands were related. The wounds demonstrate
that as the deceased tried to prevent stabs to her chest,
her hands were cut. She was successful in preventing
the first thrusts from penetrating deeply.
Dr. Sperry noted that the crime scene environment
is remarkable for the absence of blood. In most
stabbings blood is transferred to many different
surfaces. In the motel, there were only a couple of
puddles. The TBI investigation disclosed no evidence of

App. 517
other blood, hence the struggle was likely very brief.
Dr. Sperry’s opinion is that the entire time frame of the
stabbing was probably less than a minute or less than
thirty seconds, with the victim becoming rapidly
incapacitated.
Dr. Sperry stated that the two stab wounds into the
heart would cause massive bleeding instantly. Blood
would be pumping into the chest cavity instead of the
brain. Loss of consciousness would have occurred in 15
or 20 seconds. Dr. Sperry testified that the brain begins
starving for oxygen within seconds. If blood does not
reach the brain, loss of consciousness is very rapid. He
likened the effect of the injuries to the heart as similar
to a tire blowout. Death would occur in three to four
minutes. Dr. Sperry disagreed with Dr Harlan’s
opinion that loss of consciousness would take 3 or 4
minutes. In Dr. Sperry’s opinion, the lack of blood at
the crime scene shows collapse was rapid and that it
would have been impossible for someone to receive
wounds like this and stay conscious for four minutes.
Once unconscious, the victim would be anesthetized to
pain.
Both Drs. Sperry and Harlan agree that the stab
wound to the victim’s vagina occurred perimortem, at
or very close to death. Dr. Sperry noted that there were
no other injuries to vagina so it was, in his opinion, a
careful, deliberate act. He testified that the wound was
out of context with the other wounds. The first part of
the attack was rapid, but this wound was deliberate.
The wound is gratuitous, because it played no role in
the deceased’s death. Dr. Sperry’s opinion is that

App. 518
attacking a woman’s genitals is associated with intense
hatred or anger towards women.
Dr. Sperry’s opinion is that there was no suffering
from the vaginal wound because the victim was
unconscious. Dr. Sperry testified that the entire attack
could have occurred in thirty seconds. He also testified
that adrenalin and brain mechanisms can block pain in
major injuries, and that fear and desire for selfpreservation can be a stimulus to pain blockage. Dr.
Sperry testified that there was, in his opinion, very
little movement from the victim during the attack as
evidenced by the lack of blood transfer even from the
defensive wounds on the hands, indicating that she was
incapacitated very quickly.
The State called Dr. Charles Harlan, who testified
that he considered his testimony at Petitioner’s trial
and re-sentencing to be accurate. He further testified
that he believed Dr. Sperry to be a competent
pathologist but considered him, “...a professional whore
and a liar.”.
The Court concludes that a “battle of experts” at the
re-sentencing trial would certainly have been colorful
but would have gained Petitioner little, if anything, by
way of rebutting this aggravating factor.
Failure to make closing argument
This Court has detailed the facts of Petitioner’s
failure to make a closing argument at his re-sentencing
hereinabove. The testimony of Steve Stack essentially
conveys the facts concerning this issue when he stated
that Petitioner’s counsel had agreed to waive their
closing argument in the re-sentencing trial because

App. 519
they believed that the State’s initial opening argument
was primarily factual and hadn’t hurt the defense
significantly and that they had more to gain by
preventing Gen. Atkins’ anticipated closing argument
than by presenting their argument. The Court finds
that the failure to make a closing argument was a
tactical decision agreed to by all three of Petitioner’s
counsel.
CONCLUSIONS OF LAW
Failure to investigate for, develop and present
mitigation evidence
Petitioner’s burden under Strickland applies to his
re-sentencing trial. This Court has previously set out
these requirements in its consideration of Petitioner’s
1986 trial and adopts them here as well.
Significant factors
Where the alleged prejudice under Strickland
involves the failure of counsel to present mitigating
evidence in the penalty phase of a capital trial, our
supreme court has held that several factors are
significant. First, the nature and extent of the
mitigating evidence that was available but not
presented. Second, whether substantially similar
mitigating evidence was presented to the jury in either
the guilt or penalty phase of the proceedings. Finally,
whether there was such strong evidence of aggravating
factors that the mitigating evidence would not have
affected the jury’s determination. Goad v. State, 938
S.W.2d 363, 371 (Tenn. 1990).

App. 520
(1) Nature and extent of mitigating evidence
The nature and extent of the mitigation evidence
which was available but not presented is essentially
cumulative with the exception of the serotonin
evidence. The other evidence presented simply explored
in greater detail Petitioner’s mental and emotion state
with particular emphasis upon his deprived and
abusive childhood. The mental and legal professionals
who were involved in Petitioner’s re-sentencing trial
testified that they could have and should have been
more through and detailed in their respective tasks at
Petitioner’s re-sentencing. The professionals who did
not testify at Petitioner’s re-sentencing indicated that,
had they examined Petitioner or the evidence prior to
his re-sentencing, they would have been able to have
given the jury more insight as to Petitioner’s mental
and emotional problems. Although not precisely
mitigation evidence, the Court considers the testimony
of Dr. Sperry to be essentially mitigation evidence as
its purpose (in addition to creating reasonable doubt as
to Petitioner’s guilt) was to create reasonable doubt in
the “heinous, atrocious or cruel” aggravating factor,
thus hopefully preventing aggravating factors from
outweighing mitigating factors or at least creating
reasonable doubt thereof.
Substantially all of the evidence which was not
presented at Petitioner’s re-sentencing was on the
same basic subject but considerably more in depth than
that presented with the exception of the serotonin
evidence and Dr. Sperry’s rebuttal of Dr. Harlan’s
conclusions about the time of consciousness of the
deceased prior to her death and matters related to the

App. 521
manner of her death. The Court finds that the
serotonin evidence was not reasonably available to
Petitioner’s re-sentencing counsel, since it was not
known to them and could not have been discovered by
the exercise of reasonable diligence. Dr. Sperry’s
rebuttal testimony was of a type which could
reasonably have been discovered by counsel. There is
no evidence that Petitioner’s re-sentencing counsel
investigated the possibility of impeaching Dr. Harlan’s
conclusions for the purpose of mitigation. The autopsy
report was known to counsel and an independent
forensic opinion could have been obtained relatively
inexpensively.
(2) Whether substantially similar evidence was
presented at re-sentencing
Former Chief Justice O’Brien succinctly set out the
mitigation evidence at Petitioner’s resentencing in his
opinion on the appeal of Petitioner’s sentence of death
at said trial:
In mitigation, the defendant presented proof
that, while in prison on this conviction, he had
presented no serious disciplinary problems and
posed no threat to the prison population. The
defendant also presented proof of a troubled
childhood. His father had abandoned the family
when the defendant was young. His mother had
an alcohol problem. In his teens the defendant
became involved in sniffing gasoline and glue
and began to abuse alcohol and drugs He also
exhibited self-destructive behavior. Dr. Pamela
Auble, a clinical psychologist, testified that the
defendant was suffering from a paranoid

App. 522
personality disorder and dysthymia, or chrome
depression. According to Dr. Auble, the
defendant would suppress his feelings until they
“boiled up” under stress. In her opinion, the
defendant, who had returned from turbulent
visits with his parents and girlfriend shortly
before he committed the murder, was under
stress when he killed the victim. Dr Ann Marie
Charvat, a sociologist, also testified about the
damaging effect of the circumstances of his
childhood on the defendant
State v Hines, 919 S.W.2d 573, 577 (Tenn. 1995)
To this summary, this Court would respectfully add
the fact of the abuse of Petitioner by his step-father,
Rufus “Bill” Hines. This fact was considered by Dr.
Auble in her testimony in Petitioner’s re-sentencing.
It should be noted that the Supreme Court
characterized the mitigation evidence presented at
Petitioner’s re-sentencing trial as “extensive”. id.,584.
As this Court has found hereinabove with respect to
the first issue, the evidence presented at Petitioner’s
re-sentencing was substantially similar to that
presented at the hearing ofhis Post-Conviction Petition.
The evidence concerning Petitioner’s mental and
emotional condition was substantially introduced at
trial and the evidence at the hearing of the PostConviction Petition was on the same subject but in
more detail and with more evaluation. The conclusions
were similar.
The serotonin evidence was not presented at
Petitioner’s re-sentencing but, as the Court has

App. 523
previously found, was not reasonably available at that
time.
The subject of medical expert rebuttal of Dr.
Harlan’s forensic medical conclusions was not
presented at Petitioner’s re-sentencing.
(3) Effect upon jury’s determination
At Petitioner’s re-sentencing, the followmg
aggravating factors w·ere presented (the notations to
the Tennessee Code Annotated are to the sections as
they existed at the time of the re-sentencing):
(1) The defendant was previously convicted of
one or more felonies, other than the present
charge, which involved the use or threat of
violence to the person. [§ 39-2-203(i)(2)]
(2) The murder was especially heinous,
atrocious, or cruel in that it involved torture or
depravity of mind. [§ 39-2-203(i)(5)]
(3) The murder was committed while the
defendant was engaged in committing, or was an
accomplice in the commission of, or was
attempting to commit, or was fleeing after
committing or attempting to commit, any rape,
robbery or larceny.[§ 39-2-203(i)(7)]
With regard to the first aggravating factor, the proof
presented at Petitioner’s resentencing hearing
established that he had previously been convicted in
Kentucky of assault in the first degree. A detective who
had investigated the case testified that the defendant

App. 524
had inflicted serious physical harm to the victim in this
prior case.
The second aggravating factor was characterized by
the Supreme Court in its opinion in the appeal of the
re-sentencing of Petitioner as “the key aggravator”. id.,
584. The opinion described this and the first factor as
“fully and strongly supported by the record”. id. Even
taking into account Dr. Sperry’s rebuttal of Dr.
Harlan’s opinion, the facts of this murder are brutal
and fit the aggravating factor. It should be observed
that the jury would quite likely be more impressed with
the opinion of Dr. Harlan, who actually performed the
autopsy than that of Dr. Sperry, who only reviewed the
records of it. In the opinion of the Supreme Court in
Petitioner’s re-sentencing, it held, “When this case was
originally considered on direct appeal, this Court
commented that the evidence, equivalent to that
presented at this sentencing hearing, was clearly
sufficient to demonstrate that the murder was
especially heinous, atrocious, or cruel. State v Hines,
758 S.W.2d at 523. We continue to agree with this
finding.” id., 581.
The third aggravating factor was that the murder
was committed while the petitioner was engaged in
rape, robbery and larceny. On this third factor, the
Supreme Court considered and rejected an argument
that this aggravating factor was defective under State
v Middlebrooks, 840 S. W.2d 317 (Tenn. 1992).
Although the robbery was the basis of the finding of
guilt of the petitioner of felony murder, the other two
crimes, rape and larceny were not. The Court held that
lhese two other factors were sufficient to sustain this

App. 525
aggravaling factor. The harmless error analysis was
conducted on the chance that the jury might have
considered robbery in arriving at this factor. id.,583.
The Supreme Court found that, “... under these facts
the aggravating circumstance as applied restricts the
sentencer’s discretion to those who kill while in the
perpetration of multiple felonies, a class of murderers
demonstrably smaller and more blameworthy than the
general class of murderers eligible for lhe death
penalty...”. id.
In view of the overwhelming strength of the
aggravating factors in Petitioner’s case, this Court
finds that the mitigating factors would not have
affected the jury’s determination. The jury would be
required by logic and common sense to find that the
aggravating circumstances outweighed the effect of the
mitigating factors beyond a reasonable doubt. It should
be noted that Steve Stack, when recalled to testify,
opined that in his judgment even if all the mitigation
evidence which was presented at the hearing of the
Post-Conviction Petition had been presented at
Petitioner’s re-sentencing trial, it was more likely than
not that a verdict of death would have resulted.
This being the case, this Court finds that
Petitioner’s counsel at his re-sentencing hearing were
not ineffective in that they failed to investigate for,
develop and present significant mitigating factors and
no prejudice to Petitioner therefrom is shown in the
record in this case.

App. 526
Failure to attack heinous, atrocious or cruel
aggravating factor
Petitioner submits that his counsel at re-sentencing
should have challenged the testimony of Dr. Charles
Harlan concerning the extent of suffering experienced
by the deceased immediately prior to her death. He
alleges that a pathologist could have provided evidence
that the victim suffered only briefly, thus minimizing
the effect of the “heinous, atrocious or cruel”
aggravating factor.
As the Court has previously found, Dr. Sperry
studied the testimony of Dr. Harlan, Sheriff Weakely
and E.M.T. Mary Sizemore, the autopsy report,
photographs of the crime scene and autopsy, and
reports and opined that while he generally agreed with
the autopsy report, his professional opinion was that
the entire time frame of the stabbing was probably less
than a mmute or less than thirty seconds, with the
victim becoming rapidly incapacitated. Loss of
consciousness would have occurred in 15 or 20 seconds,
not the 3 or 4 minutes testified to by Dr. Harlan. Once
unconscious, the victim would be anesthetized to pain.
Both Dr.’s Sperry and Harlan agree that the stab
wound to the victim’s vagina occurred perimortem, at
or very close to death. Dr. Sperry testified that the
wound is gratuitous, because it played no role in the
deceased’s death. In his opinion, there was no suffering
from the vaginal wound because the victim was
unconscious. Dr. Speny testified that the entire attack
could have occurred in thirty seconds.

App. 527
The Court finds that the failure to introduce such
testimony was ineffective assistance of counsel under
Strickland. The inquiry now becomes whether this
failure on the part of counsel at the re-sentencing
hearing was prejudicial to Petitioner.
If the jury found that the deceased lost
consciousness within a matter of seconds from
receiving the fatal stab wounds to the chest, the
“heinous, atrocious and cruel” aggravating factor could
not have been sustained by the facts as a matter of law.
See State v Odom, 928 S.W.2d 18, 26 (Tenn. 1996).
In the opinion of the Court, the jury would have
been much more impressed with the testimony of the
pathologist who actually performed the autopsy as
opposed to one who made his hypothesis from
photographs and the autopsy report. For example, in
explaining his conclusion that the death of the
deceased took much longer than Dr. Sperry
hypothesized, Dr. Harlan stated that he found 950 ccs
of blood in the chest cavity and opined, “It takes a
while to pump that much blood”. If Dr. Sperry was
incorrect about the time of death, he may likewise have
been incorrect about the time that the Deceased was
conscious. Although it impossible to state with
certainty, the Court finds that the testimony of Dr.
Sperry would have been insufficient to cause the jury
to have a reasonable doubt that the deceased was
conscious during the apparently final wound to the
vagina.
Even assuming that the jury did have a reasonable
doubt that the deceased was conscious at the time of
the final wound and did not find that aggravating

App. 528
factor, the Court finds that the remaining two
aggravating factors were still strong enough to
outweigh the mitigating factors as presented at the
hearing of the Post-Conviction Petition. This Court
does not find a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. Therefore, the
Court finds that Petitioner was not prejudiced by this
failure of counsel.
Failure to make closing argument
Petitioner has submitted that the failure of his
counsel at his re-sentencing trial to make a closing
argument constitutes ineffective assistance of counsel.
In support of this argument, he cites the case of Cone
v. Bell, 243 F3d 961 (6th Cir. 2001), cert. granted 122
S.Ct. 663 (2001). In the state appeal of defendant
Cone’s case, the Tennessee Court of Criminal Appeals
had held that waiver of closing argument by the
defense was, “a legitimate trial tactic, the exercise of
which furnishes no basis for a finding of ineffectiveness
of counsel.” State v. Cone, 747 S.W.2d 353, 357 (Tenn.
Crim. App. 1987). In so finding, the Court of Criminal
Appeals stated:
One of the prosecuting attorneys made a low-key
opening argument after the punishment
hearing. It was trial counsel’s judgment that he
should waive argument to prevent the other
prosecuting attorney from making closing
argument. The other prosecutor was capable of
making very devastatmg closing arguments and
he could not be answered by defense counsel.
This is a legitimate trial tactic, the exercise of

App. 529
which furnishes no basis for a finding of
ineffective assistance.
Id. This is exactly the situation which occurred in the
sub judice. Admittedly, there were other issues of
ineffectiveness of counsel considered by the Court of
Criminal Appeals in it’s Cone opinion but this language
related only to the issue of failing to make a closing
argument.
In the Federal case, the Sixth Circuit Court of
Appeals ruled that the presentation of no mitigating
evidence except that presented in the guilt phase of the
trial and failing to present a final argument constituted
ineffectiveness of counsel to the extent that prejudice
was presumed. This is not the situation in the case sub
judice. Petitioner’s counsel presented (in the words of
the Tennessee Supreme Court) “extensive” mitigation
evidence. The mitigation information was before the
jury, the question became whether the benefit to the
defense by restating and arguing the mitigation
evidence would be overcome by the prosecutor’s
anticipated forceful and emotional final argument,
probably focusing upon the brutal and inhuman
manner in which the Deceased met her death. In the
words of Petitioner’s re-sentencing counsel, Steve
Stack, “we had more to gain by preventing Gen. Atkins’
anticipated closing argument than by presenting our
argument”. To use a sports analogy, the manager chose
to “walk the Babe” rather than risk a home run.
This Court is of the opinion that the case of Cone v.
Bell is distinguishable on these facts and that the
Court of Criminal Appeals opinion is more on point.
This is certainly the wisest course. Counsel for the

App. 530
defense should not be placed in the position of having
to pursue an unwise trial tactic in order to prevent a
later finding of ineffectiveness of counsel. As the Court
of Criminal Appeals stated,
The question of what witnesses to use and
whether to waive final argument are tactical
questions upon which competent lawyers might
disagree. It cannot be said that incompetent
representation had occurred merely because
other lawyers, judging from hindsight, might
have made a better or different choice of tactics.
State v. Cone, supra.
The Federal court in Cone v Bell held that counsel’s
conduct amounted to an abrogation of counsel’s
responsibility to his client without a strategic reason
for doing so. This is not the case here. Petitioner’s resentencing counsel presented a spirited and wellprepared defense. Their decision to waive final
argument was strategically based. Trial counsel’s job is
to prevail at trial, not to avoid being criticized on
appeal. If Petitioner had avoided the death penalty, his
trial counsel’s strategic decision would have been
viewed as inspired. The courts should not be outcome
oriented in viewing this decision.
This Court is aware that the United State Supreme
Court has accepted certiorari in the case of Cone v Bell,
supra and that oral argument on the issue of waiving
final argument was presented on March 26, 2002.
Rather than delay the release of this opinion for some
months to determine the ruling of the U.S. Supreme

App. 531
Court, this Court has elected to release its findings and
conclusions at this time.
This Court finds no ineffectiveness of counsel in
waiving final argument.
In summary, this Court finds no prejudicial
ineffectiveness of counsel in Petitioner’s resentencing
trial.
4. Failure to conduct motions practice (both
trials and post-trial)
Petitioner has made numerous allegations
concerning the alleged failure of his counsel to file
certain motions before his original 1986 trial, his 1989
re-sentencing and post-trial motions in both trials. The
Court has reviewed the records of these proceedings in
addition to the evidence presented at the hearing on
the Post-Conviction Petition and finds no
demonstration by Petitioner of prejudice from these
alleged failures. In this, Petitioner has failed in his
burden of proof of establishing that, but for the alleged
ineffectiveness of his counsel in this regard, the result
would have been different.
5. Ineffectiveness of counsel on appeal
Petitioner has alleged that his counsel was
ineffective on appeal, citing numerous instances in
which counsel should have preserved and argued issues
on appeal. This Court has considered each of these and
finds that the issues presented by Petitioner would not
have been successful on appeal, mostly because they
did not affect the outcome of the case but also because
they are simply incorrect. For example, Petitioner

App. 532
alleges that it was error for the Court to allow certain
statements of the prosecutor at voir dire, “Specifically,
the state incorrectly stated that it was entitled to a fair
trial.” This Court is of the opinion that it is the sworn
duty of a trial judge to insure a fair trial for BOTH
sides. In this, the appellate courts agree. See Stale v.
Robert L. Drew (unreported) Tenn. Crim. App. at
Nashville # M2000-01853-CCA-R3-CD, LEXIS 703
opinion filed September 07, 2001.
Petitioner has not demonstrated prejudice in his
counsel’s performance on appeal.
6. Failure of counsel at trial and on appeal to
challenge the constitutionality of the death
penalty.
Petitioner has submitted numerous pages of
particulars in which he alleges his counsel were
ineffective in challenging Tennessee’s death penalty
statutes. These challenges have been unsuccessfully
presented to the appellate courts of this state on
countless occasions. There is no reason for this Court to
assume that the outcome would have been any
different had they been presented in this case.
This Court finds no ineffectiveness of counsel in this
respect.
7. Failure to perform proportionality review
Although this issue is primarily a matter for
consideration by the Supreme Court, the undersigned
must accept somes responsibility for the confusion
surrounding this issue. The report of the trial judge
which is required by Rule 12 of the Rules of the

App. 533
Supreme Court in capital cases was prepared and
submitted in a timely fashion by the undersigned after
the original trial. The report, however, was filed in the
Office of the Executive Secretary of the Supreme Court
(now the Administrative Office of the Courts) instead
of being included in the technical record. Upon inquiry
after the release of the 1995 opinion of the Supreme
Court in Petitioner’s case, the same was located and is
now in the possession of the Supreme Court.
8. Other grounds
amendments thereto

listed

in

petition

or

Petitioner has submitted various other grounds for
relief in his petition, his amended petition or the
amendment to the amended petition. Among these are:
1. Involuntariness of Petitioner’s statements
after arrest because he was starving;
2. Involuntariness of Petitioner’s statements at
the jail due to his having beaten by inmates;
3. Being required to exhibit
Petitioner’s original trial;

tattoos

at

4. Brady violations concerning:
A. Olan Smith interview; and
B. Existence of witness Melanie Chandler;
5. Newly discovered evidence, to wit: the
statements of Bill Hines, Bobby Joe Hines,
Melanie Chandler and Olan Smith; and
6. Rejection by the Court of the proposed plea
bargain before the 1989 resentencing trial.

App. 534
Statements
Petitioner insists that his statements given at his
arrest and while in jail in Kentucky were involuntary
due to hunger in the first instance and beatings by his
fellow inmates in the second. No evidence concerning
these conditions was presented. The Court, therefore,
denies relief based upon these complaints.
Exhibiting tattoos
Petitioner alleges that being required to exhibit the
tattoos on his arms was error and that his counsel was
ineffective for not objecting to this procedure.
A trial court has discretion to allow a jury to view
certain aspects of an individual’s physical appearance,
such as tattoo or scars. 3 Wharton’s Criminal Evidence
§ 16:20 (15th ed. 1999). Tennessee courts recognize this
principle. State v. Henderson, 623 S.W.2d 638, 641
(Tenn. Crim. App. 1981). This exhibition does not
violate a defendant’s Fifth Amendment right against
self-incrimination. Black v. State, 479 S.W.2d 656, 658
(Tenn. Crim. App. 1972).
Brady violation
A Brady violation is alleged by Petitioner with
respect to an alleged interview with one Olan Smith
and the existence of Melanie Chandler.
Petitioner has presented no proof concerning Olan
Smith or what his testimony might have been. This
being the case, this Court could find no Brady violation.
This Court is hard-pressed to imagine that
Petitioner would not know of Melanie Chandler and the

App. 535
possible substance of her potential testimony. Her
testimony at the hearing established that she is the
mother of his child and Petitioner had been in her
house in North Carolina in the days prior to the
murder. The Court finds that the witness Melanie
Chandler was more available to Petitioner than to the
State. Any potentially exculpatory information which
she may have had could have easily been discovered by
Petitioner or his counsel.
Newly discovered evidence
In his petition, Petitioner submits that there existed
newly discovered evidence which would have been
beneficial to him at trial. At the hearing, Petitioner did
not introduce evidence characterizing any of these
statements as newly discovered evidence nor relating
to any other factors necessary to prevail upon this
ground. With regard to most of the evidence, this Court
has previously ruled that it would not have affected the
outcome of the trial. This ground for relief is denied.
Rejection of plea bargain
This precise issue has been considered and rejected
by the Supreme Court in Petitioner’s appeal of his resentencing hearing. State v Hines, 919 S.W.2d 573,
577-8 (Tenn. 1995). As such, it cannot form the basis of
relief in a Post-Conviction proceeding. T.C.A. § 40-30206(f) provides that any matter which has previously
been determined cannot form the basis of relief in a
Post-Conviction proceeding.

App. 536
CONCLUSION
For all of the above reasons, the Petition for PostConviction Relief is respectfully denied.
This the 8th day of May 2002.

/s/ Robert E. Burch
Robert E. Burch
Circuit Judge

